No. 21-____

In the Supreme Court of the United States
THE STATES OF TEXAS, INDIANA, KANSAS, LOUISIANA, AND
NEBRASKA, PETITIONERS,
v.
CHARLES P. RETTIG, IN HIS OFFICIAL CAPACITY AS
COMMISSIONER OF INTERNAL REVENUE; UNITED STATES
OF AMERICA; U.S. DEPARTMENT OF HEALTH AND HUMAN
SERVICES; U.S. INTERNAL REVENUE SERVICE; XAVIER
BECERRA, IN HIS OFFICIAL CAPACITY AS SECRETARY, U.S.
DEPARTMENT OF HEALTH AND HUMAN SERVICES.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
KEN PAXTON
Attorney General of Texas
BRENT W EBSTER
First Assistant Attorney
General
OFFICE OF THE
ATTORNEY G ENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Judd.Stone@oag.texas.gov
(512) 936-1700

JUDD E. S TONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Principal Deputy
Solicitor General
CODY RUTOWSKI
Assistant Solicitor General

Q UESTI ONS PR ES ENT ED

In 1981, Congress passed a statute requiring that reimbursement rates paid to managed-care organizations
for managing state Medicaid plans be “actuarially
sound.” In 2002, unable to give that term a prescriptive
meaning, the Centers for Medicare and Medicaid Services punted the question to a private group of actuaries.
Because “actuarially sound” is not actually a term that
actuaries use in their day-to-day practice, that group had
no definition either. And that group did not adopt a binding definition to be applied to Medicaid capitation rates
until 2015. That definition was then used to foist nearly
$500 million of taxes under the Affordable Care Act onto
Petitioner-States in only three years. The questions presented are:
(1) Whether an agency rule delegating rulemaking
authority to a private entity violates the nondelegation
doctrine.
(2) Whether the statute of limitations applicable to a
challenge to an agency rule that delegates rulemaking
authority to a private entity starts to run when the
agency delegates the authority or when the private entity exercises the delegated authority.

(I)

P ART I ES T O T HE PR OC EEDIN G

Petitioners the States of Texas, Indiana, Kansas,
Louisiana, and Nebraska were plaintiffs-appellees/cross-appellants in the court of appeals.
Respondent the State of Wisconsin was a plaintiff in
the trial court and appellee in the court of appeals but
opted not to appeal the district court order.
Respondents Charles P. Rettig, in his official capacity as Commissioner of Internal Revenue; the United
States of America; the U.S. Department of Health and
Human Services; the U.S. Internal Revenue Service; and
Xavier Becerra, in his official capacity as Secretary of
the U.S. Department of Health and Human Services
were defendants-appellants/cross-appellees in the court
of appeals.
R ELAT ED PR OC EEDING S

Texas v. United States, No. 7:15-cv-00151-O, U.S.
District Court for the Northern District of Texas. Judgment entered July 30, 2019.
Texas v. United States, No. 4:18-cv-00779-O, U.S.
District Court for the Northern District of Texas. Stayed
pending resolution of this proceeding.
Texas v. Rettig, No. 18-10545, U.S. Court of Appeals
for the Fifth Circuit. Judgment entered July 31, 2020,
and revised February 12, 2021. Petition for rehearing en
banc denied April 9, 2021.

(II)

TABLE OF CONTENTS

Page
Questions Presented .............................................................. I
Parties to the Proceeding ....................................................II
Related Proceedings .............................................................II
Table of Authorities .............................................................. V
Opinions Below ....................................................................... 1
Jurisdiction .............................................................................. 1
Constitutional and Statutory Provisions Involved ......... 1
Statement ................................................................................. 2
I. Medicaid and Its Delivery Mechanisms................ 2
II. Adoption and Early Application of the
Certification Rule ...................................................... 4
III. The ACA and HIPF .................................................. 7
IV. ASOP 49 ....................................................................... 8
V. Procedural History .................................................... 9
Argument ............................................................................... 11
I. The Legality of the Certification Rule
Presents an Important Federal Question .......... 12
A. This case presents a perfect vehicle for
the Court to clarify the scope of the
nondelegation doctrine ..................................... 12
B. The nondelegation doctrine prohibits
any entity other than Congress from
exercising the legislative power of the
United States ...................................................... 13
C. The nondelegation doctrine prohibits
private parties from making federal law ...... 16
D. The Certification Rule impermissibly
delegates authority to make federal
law to a private party ........................................ 18

(III)

IV
E. The Fifth Circuit’s decision creates
a split among the circuits on when and
how agencies may delegate authority to
private parties .................................................... 22
II. The Fifth Circuit’s Dismissal of PetitionerStates’ APA Challenges as Time-Barred
Warrants This Court’s Review ............................. 26
A. The Fifth Circuit’s ruling creates a trap that
allows agencies to evade judicial review of
unlawful actions ................................................. 26
B. The Fifth Circuit’s ruling is incorrect
and inconsistent with how other courts
of appeals have analyzed the finality of
agency actions .................................................... 28
Conclusion .............................................................................. 32
Appendix
Appendix A ...................................................................... 1a
Appendix B .................................................................... 29a
Appendix C .................................................................. 104a
Appendix D .................................................................. 159a
Appendix E .................................................................. 181a
Appendix F .................................................................. 182a
Appendix G .................................................................. 192a
Appendix H ................................................................. 193a

V
T ABL E OF A UT HOR ITI ES

Page(s)
Cases:
A.L.A. Schechter Poultry Corp. v. United States,
295 U.S. 495 (1935) ............................................. 15, 17, 22
Abbott Labs. v. Gardner,
387 U.S. 136 (1967) ......................................................... 31
Ass’n of Am. R.Rs. v. U.S. Dep’t of Transp.,
721 F.3d 666 (D.C. Cir. 2013) ........................................ 20
Bowen v. Massachusetts,
487 U.S. 879 (1988) ........................................................... 3
Cal. Sea Urchin Comm’n v. Bean,
828 F.3d 1046 (9th Cir. 2016) .................................. 28, 31
Carter v. Carter Coal Co.,
298 U.S. 238 (1936) ............................................. 17, 18, 22
Cospito v. Heckler,
742 F.2d 72 (3d Cir. 1984).............................................. 21
Currin v. Wallace,
306 U.S. 1 (1939) ............................................................. 19
Dep’t of Transp. v. Ass’n of Am. R.Rs.,
573 U.S. 930 (2014) ......................................................... 12
Dep’t of Transp. v. Ass’n of Am. R.Rs. (Amtrak),
575 U.S. 43 (2015) ............................................... 12, 17, 20
Dunn-McCampbell Royalty Interest, Inc.
v. Nat’l Park Serv.,
112 F.3d 1283 (5th Cir. 1997) ....................... 28-29, 30-31
Fletcher v. Peck,
10 U.S. (6 Cranch) 87 (1810) ......................................... 13
Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc.,
528 U.S. 167 (2000) ......................................................... 17

VI
Page(s)
Cases (ctd.):
Fund for Animals v. Kempthorne,
538 F.3d 124 (2d Cir. 2008)............................................ 25
Gundy v. United States,
139 S. Ct. 2116 (2019) ............................................ passim
King v. Smith,
392 U.S. 309 (1968) ........................................................... 2
Lopez v. City of Houston,
617 F.3d 336 (5th Cir. 2010) .......................................... 27
Louisiana v. U.S. Army Corps of Eng’rs,
834 F.3d 574 (5th Cir. 2016) .......................................... 31
Marshall Field & Co. v. Clark,
143 U.S. 649 (1892) ......................................................... 14
Medellin v. Texas,
552 U.S. 491 (2008) ......................................................... 23
Miller v. Mayor of N.Y.,
109 U.S. 385 (1883) ......................................................... 13
Mistretta v. United States,
488 U.S. 361 (1989) ............................................. 15, 16, 18
Nat’l Envtl. Dev. Ass’ns Clean Air Project v. EPA,
752 F.3d 999 (D.C. Cir. 2014) ........................................ 31
New York v. United States,
505 U.S 144 (1992) .................................................... 18, 22
Pan. Ref. Co. v. Ryan,
293 U.S. 388 (1935) ......................................................... 16
Paul v. United States,
140 S. Ct. 342 (2019) ....................................................... 22
Pittston Co. v. United States,
368 F.3d 385 (4th Cir. 2004) .......................................... 19

VII
Page(s)
Cases (ctd.):
Printz v. United States,
521 U.S. 898 (1997) ......................................................... 18
Qureshi v. Holder,
663 F.3d 778 (5th Cir. 2011) .......................................... 31
Riverbend Farms, Inc. v. Madigan,
958 F.2d 1479 (9th Cir. 1992) ........................................ 21
Scenic Am., Inc. v. U.S. Dep’t of Transp.,
836 F.3d 42 (D.C. Cir. 2016) .......................................... 30
S. Pac. Transp. Co. v. Watt,
700 F.2d 550 (9th Cir. 1983) .......................................... 24
Sunshine Anthracite Coal Co. v. Adkins,
310 U.S. 381 (1940) ......................................................... 20
Texas v. EEOC,
933 F.3d 433 (5th Cir. 2019) .......................................... 30
Texas v. United States,
749 F.2d 1144 (5th Cir. 1985) ........................................ 28
U.S. Army Corps of Eng’rs v. Hawkes Co.,
136 S. Ct. 1807 (2016) ............................................... 30, 31
U.S. Telecom Ass’n v. FCC,
359 F.3d 554 (D.C. Cir. 2004) .................................. 23, 24
United States v. Frame,
885 F.2d 1119 (3d Cir. 1989) ......................................... 19
United States v. Matherson,
367 F. Supp. 779 (E.D.N.Y. 1973) ................................ 24
United States v. Munsingwear, Inc.,
340 U.S. 36 (1950) ........................................................... 10
United States v. Picciotto,
875 F.2d 345 (D.C. Cir. 1989) ........................................ 27

VIII
Page(s)
Cases (ctd.):
United States v. Rock Royal Co-op., Inc.,
307 U.S. 533 (1939) ......................................................... 19
Wayman v. Southard,
23 U.S. (10 Wheat.) 1 (1825) .......................................... 13
Wellness Int’l Network, Ltd. v. Sharif,
575 U.S. 665 (2015) ......................................................... 17
Whitman v. Am. Trucking Ass’ns,
531 U.S. 457 (2001) ............................................. 15, 17, 21
Wind River Mining Corp. v. United States,
946 F.2d 710 (9th Cir. 1991) .......................................... 28
Constitutional Provisions, Statutes, and Rules:
U.S. CONST.:
art. I, § 1 ..................................................................... 13, 17
art. II, § 1, cl. 1 .......................................................... 13, 17
art. II, § 3 ......................................................................... 13
28 U.S.C.:
§ 1254(1) ............................................................................. 1
§ 1331 .................................................................................. 1
§ 1361 .................................................................................. 1
§ 2401(a) ........................................................................... 28
42 U.S.C.:
§ 1396, et seq. ..................................................................... 2
§ 1396b(m)(2)(A)(iii) ......................................................... 4
Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, 124 Stat. 119 (2010) ..................... 1
§ 9010 .................................................................................. 8
§ 9010(a)(1) ......................................................................... 8
§ 9010(b) ....................................................................... 8, 27
§ 9010(b)(1) ........................................................................ 7

IX
Page(s)
Constitutional Provisions, Statutes, and Rules (ctd.):
Patient Protection and Affordable Care Act,
Pub. L. No. 111-148, 124 Stat. 119 (2010)
(ctd.)
§ 9010(c)(1) ......................................................................... 8
§ 9010(c)(2)(B) ............................................................. 8, 27
§ 9010(f) .............................................................................. 8
Further Consolidated Appropriations Act, 2020,
Pub. L. No. 116-94, § 502 Stat. 2534, 3119 .................... 9
Health Care and Education Reconciliation Act
of 2010, Pub. L. No. 111-152, 124 Stat. 1029 ................ 1
§ 1406(a)(3), 124 Stat. 1029, 1065-66 .............................. 7
Omnibus Reconciliation Act of 1981, Pub.
L. No. 97-35, § 2178, 95 Stat. 357 ................................... 4
Conference Comm. Report, Gen. Appropriations,
Tex. S.B. 1, 87th Leg., R.S., art. II (2021) .................... 2
26 C.F.R.:
§ 57.2(b)(2)(ii)(B) ............................................................... 8
§ 57.4(a)(3) ........................................................................ 27
§ 57.8 ................................................................................... 8
42 C.F.R.:
§ 438.2 ................................................................................. 9
§ 438.52 ............................................................................... 3
§ 438.6 (2002) ............................................................... 1, 30
§ 438.6(c) (2002) ........................................................... 6, 19
§ 438.7 (2021) ..................................................................... 9
§ 447.361 ............................................................................. 5
SUP. CT. R.
10(a) ................................................................. 13, 25, 26, 28
10(c) .......................................................................... passim

X
Page(s)
Other Authorities:
Aaron Mendelson, et al., New Rules for Medicaid
Managed Care—Do They Undermine Payment
Reform?, 4 HEALTHCARE 274 (June 7, 2016),
https://tinyurl.com/4yufxpts ........................................... 4
Elizabeth Hinton, et al., 10 Things to
Know About Medicaid Managed Care,
KFF: MEDICAID (Oct. 29, 2020),
https://tinyurl.com/2hvpb2r2 .......................................... 4
THE FEDERALIST (C. Rossiter ed., 1961):
No. 47 (Madison) ............................................................. 14
No. 62 (Madison) ............................................................. 16
No. 78 (Hamilton) ........................................................... 13
Ilan Wurman, Nondelegation at the Founding,
130 YALE L.J. 1490 (2021) ............................................. 14
John Cannan, A Legislative History of the
Affordable Care Act: How Legislative
Procedure Shapes Legislative History,
105 L. LIBR. J. 131 (2013) ............................................. 7-8
JOHN LOCKE, SECOND TREATISE § 141 ............................ 14
MACPAC, Fact Sheet: The Medicaid Feefor-Service Provider Payment Process
(July 2018), tinyurl.com/ynmandd5 ............................... 3
Petition for a Writ of Certiorari at I, Dep’t
of Transp. v. Ass’n of Am. R.Rs., 575
U.S. 43 (Amtrak) (2015) (No. 13-1080)........................ 12
STEPHEN M. S HAPIRO, ET AL., SUPREME
COURT PRACTICE (10th ed. 2013) ................................ 28
TEX. HEALTH & HUMAN S ERVS. COMM’N, TEXAS
MEDICAID AND CHIP IN PERSPECTIVE
(11th ed. 2017), https://tinyurl.com/2c3t8rcp ............... 2

XI
Page(s)
Other Authorities (ctd.):
U.S. Dep’t of Health & Hum. Servs., Profiles and
Program Features, https://tinyurl.com/x89yrpnp
(last visited Sept. 2, 2021) ................................................ 2

OP IN I ONS B EL OW

The order of the court of appeals denying the petition
for rehearing en banc (Pet. App. 168a-69a) is reported at
993 F.3d 408 (5th Cir. 2021) (per curiam), and the revised
panel opinion (Pet. App. 1a-30a) is reported at 987 F.3d
518 (5th Cir. 2021). The opinion of the district court on
the parties’ cross-motions for summary judgment (Pet.
App. 31a-109a) is reported at 300 F. Supp. 3d 810 (N.D.
Tex. 2018), and the opinion of the district court regarding
defendants’ motion to dismiss (Pet. App. 110a-67a) is
available at No. 7:15-cv-00151-O, 2016 WL 4138632 (N.D.
Tex. Aug. 4, 2016).
J URI S DI CTI ON

The Plaintiff-States invoked federal jurisdiction under 28 U.S.C. §§ 1331, 1361. The Fifth Circuit entered its
revised judgment on February 12, 2021, and denied the
petition for rehearing en banc on April 9, 2021. The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1). The petition is timely under this Court’s order
of July 19, 2021.
C ONST IT UTI ONA L AN D ST AT UT OR Y
P R OVI SI ON S IN VOL VED

Pertinent constitutional provisions, statutory provisions (including relevant aspects of the Health Care and
Education Reconciliation Act of 2010, Pub. L. No. 111152, 124 Stat. 1029 (Reconciliation Act), the Patient Protection and Affordable Care Act, Pub. L. No. 111-148,
124 Stat. 119 (2010) (ACA)), and regulations (including
the Certification Rule, 42 C.F.R. § 438.6 (2002)), are set
forth in the appendix to this petition. Pet. App. 189a200a.

(1)

2
S TAT EM ENT

I. Medicaid and Its Delivery Mechanisms
Since 1965, Medicaid has been the preeminent example of the growth of “cooperative federalism,” under
which programs are “financed largely by the Federal
Government,” but “administered by the States.” King v.
Smith, 392 U.S. 309, 316 (1968). Congress has made federal funds available to States to provide medical assistance to certain categories of needy individuals. So long
as States meet certain criteria, they have considerable
leeway to pursue their own healthcare policy objectives
with those funds. 42 U.S.C. § 1396, et seq. Because meeting the healthcare needs of their underprivileged citizens
is a significant priority for States, Medicaid represents a
substantial portion of their overall budgets. 1 For example, since 2015, Texas has spent 25-30% of its budget on
Medicaid, of which more than half was received from the
federal government. T EX. HEALTH & HUMAN S ERVS .
COMM’N, T EXAS MEDICAID AND CHIP IN P ERSPECTIVE
1-5 (11th ed. 2017), https://tinyurl.com/2c3t8rcp; compare Conference Comm. Report, Gen. Appropriations,
Tex. S.B. 1, 87th Leg., R.S., art. II (2021), with id. at Recapitulation—art. II.
States provide care for Medicaid recipients either
through a fee-for-service model or through a managedcare model. In the program’s formative years, States relied almost exclusively on a fee-for-service model.
ROA.1860. 2 A doctor who treated a Medicaid beneficiary
See U.S. Dep’t of Health & Human Servs., Profiles and Program Features, https://tinyurl.com/x89yrpnp (last visited Sept. 2,
2021).
1

Citations to “ROA.XX” refer to the Fifth Circuit Record on
Appeal.
2

3
would submit a reimbursement request to the state Medicaid agency, and the State would pay the bill after confirming the individual’s eligibility and need for the treatment. The State would then seek reimbursement from
the federal government for a percentage of the cost, typically on a quarterly basis. MACPAC, Fact Sheet: The
Medicaid Fee-for-Service Provider Payment Process
(July 2018), tinyurl.com/ynmandd5; cf. Bowen v. Massachusetts, 487 U.S. 879, 884-85 (1988). This model functions much like the uninsured healthcare market because
the State pays nothing for patients who are in good
health and faces enormous costs for patients suffering
from serious illness or injury who require significant
care. It has been criticized for, among other things, leading to “low levels of medical screening, vaccination,” and
other preventative care. ROA.1860.
In an effort to improve delivery of Medicaid services
and control costs, States started transitioning from the
fee-for-service model to the managed-care model.
ROA.1860. Under this model, States contract with private insurance companies, known as managed-care organizations (MCOs), to coordinate care provided to Medicaid beneficiaries. ROA.3083-84. As with employerfunded health insurance, beneficiaries may choose between preselected options. 42 C.F.R. § 438.52. The State
then pays the MCO a monthly premium, known as a
“capitation,” for each beneficiary, regardless of whether
the individual requires care. ROA.3081, 3083-84. Under
this model, the MCO rather than the State bears the risk
that any individual will require costly forms of care.
MCOs are thus incentivized to encourage patients to
have a primary-care physician and seek treatment early,
rather than wait until they are very sick. ROA.1611-15.

4
As the United States acknowledged in the court of appeals, MCOs have become the typical method of providing Medicaid services. U.S. Principal C.A. Br. 1. Indeed,
promoting this transition has been a goal of policymakers for years in order to (among other things) crack down
on payment abuse. Aaron Mendelson, et al., New Rules
for Medicaid Managed Care—Do They Undermine
Payment Reform?, 4 HEALTHCARE 274, 274 (June 7,
2016), https://tinyurl.com/4yufxpts; ROA.1611. And that
goal has largely been achieved: as of when this suit was
filed, approximately 88% of Texas Medicaid patients
were served by MCOs. ROA.284. As of late 2016, 92.5%
of Louisiana’s Medicaid beneficiaries received services
through MCOs. ROA.1889. Other States have similarly
high rates of MCO usage. Elizabeth Hinton, et al., 10
Things to Know About Medicaid Managed Care, KFF:
MEDICAID (Oct. 29, 2020), https://tinyurl.com/2hvpb2r2.
II. Adoption and Early
Certification Rule

Application

of

the

In 1981, as the managed-care model emerged but before industry norms regarding payment rates developed,
Congress imposed several limitations on States’ ability
to contract with MCOs. Omnibus Reconciliation Act of
1981, Pub. L. No. 97-35, § 2178, 95 Stat. 357, 813-15 (codified at 42 U.S.C. § 1396b(m)(2)(A)(iii)). One such limitation was that payments made under an MCO contract
must be “made on an actuarially sound basis.” Id. Congress has never defined what “actuarially sound” means
in this context, and for many years, that term remained
undefined even by the actuarial profession. See
ROA.3197 (“indicating that ‘actuarial soundness’ is not
an actuarial concept, but is a concept imposed by outside

5
entities”). 3 The concept of actuarial soundness, however,
is generally designed to ensure that MCOs cover their
costs without making excessive returns, thereby protecting both MCOs and taxpayers.
HHS, which oversees the Medicaid program through
the Centers for Medicare and Medicaid Services, has
struggled to define actuarial soundness with any greater
specificity. Until 2002, HHS regulations defined actuarial soundness to mean that payments under an MCO contract could not “exceed the cost . . . of providing those
same services on a fee-for-service basis.” 42 C.F.R.
§ 447.361 (repealed 2002). By the late 1990s, however,
this system had become unworkable because the managed-care model was so prevalent that existing fee-forservice data was insufficient to allow the comparisons required under the old rule. ROA.471. Contra U.S. Principal C.A. Br. 8 (suggesting the change was to allow States
additional flexibility).
HHS responded by adopting a new rule that established a certification process for MCO contracts. Initially, the proposed process would have required States
to certify that their rates were actuarially sound.
ROA.465. Insurance companies objected that this proposed process did not protect their margins. E.g.,
ROA.665, 672, 679, 681. Other parties objected that HHS
should create “prescriptive standards for actuarial
soundness.” ROA.1411. HHS struggled with how to define “actuarial soundness” for so long that it had to extend the effective date of the regulations, and it drew
See also, e.g., ROA.3188 (acknowledging that “[t]he phrase ‘actuarial soundness’ has different meanings in different contexts and
might be dictated or imposed by an outside entity”); ROA.473
(“[W]e have found that there is no universally accepted definition of
the term actuarially sound.”).
3

6
complaints from members of Congress that it had failed
to comply with the APA. ROA.784-89. Needing to define
an indeterminate term, HHS punted and decided to outsource its work to the Actuarial Standards Board, a private, standard-setting organization. ROA.1411. And so
the Certification Rule was born.
Under the Certification Rule, States must develop
rates “in accordance with generally accepted actuarial
principles and practices,” and the rates must be certified
by an “actuar[y] who meet[s] the qualification standards
established by the American Academy of Actuaries and
follow the practice standards established” by the Actuarial Standards Board. 42 C.F.R. § 438.6(c) (2002). 4
The Certification Rule drew immediate fire—including from members of Congress—because it “fails to define ambiguous terms, fails to require provision of necessary information, and generally fails to regulate.”
ROA.1064. And though the United States has asserted
that the Actuarial Standards Board’s standards “align[]
with HHS Guidance,” it has never disputed that the Certification Rule effectively allows the Actuarial Standards
Board to set standards by which Medicaid MCO contracts are judged as a matter of federal law. U.S. Principal C.A. Br. 10. And because actuarial certification is required to obtain Medicaid reimbursement, this gives private parties the ability to determine whether States will
receive billions of dollars in vital federal funding.
The Certification Rule’s requirements, however, remained fundamentally unclear. Though it has informal
Consistent with the parties’ practice throughout this litigation,
Petitioner-States cite the regulations in effect at the time the operative complaint was filed. The United States has never asserted that
subsequent linguistic changes altered the way in which the Certification Rule has been applied.
4

7
ways of setting nonbinding guidance, the Actuarial
Standards Board promulgates its binding rules through
Actuarial Standards of Practice (ASOPs). Unlike informal guidance, an actuary must consider and may be disciplined for “[f]ailure to comply with an applicable
ASOP.” ROA.1810. But for over a decade after the promulgation of the Certification Rule, there was no ASOP
“that applie[d] to actuarial work performed to comply
with [HHS]’s regulations.” ROA.3087 (2010 GAO Report
10-810). At most, there was a nonbinding 2005 “practice
note” that “proposed [a] definition for ‘actuarial soundness[]’” because “there was no other working definition
of th[at] term.” ROA.3087. Under that practice note, actuaries were permitted but not required to consider fourteen separate factors in assessing expected MCO revenues and expenses under contracts with state Medicaid
agencies, including any “state-mandated assessments
and taxes.” ROA.1864-65. Actuaries were advised, however, that their analysis must comport with state and federal law. E.g., ROA.1807. At the time, federal taxes were
minor and not separately considered. ROA.2598, 2754.
III. The ACA and HIPF
In 2010, the ACA created the first federal tax on
health-insurance premiums. The new tax was highly unusual in that it was not applied to an entity’s revenues or
net income. Instead, Congress set an annual assessment
on the entire health-insurance industry. ACA, Pub. L.
No. 111-148, § 9010(b)(1), 124 Stat. 119, 865 (2010); Reconciliation Act, Pub. L. No. 111-152, § 1406(a)(3), 124
Stat. 1029, 1065-66. 5 “Each covered entity engaged in the
The ACA and the Reconciliation Act are functionally the same
bill, which was passed in two pieces because the ACA’s proponents
lost their filibuster-proof majority in the Senate. See John Cannan,
A Legislative History of the Affordable Care Act: How Legislative
5

8
business of providing health insurance” then paid the
IRS a “fee in an amount determined” by multiplying that
assessment by the entity’s market share of “premiums
written” in the health-insurance market. ACA
§ 9010(a)(1), (b). This fee (the HIPF) was treated as a
nondeductible excise tax for certain tax purposes. Id.
§ 9010(f).
Covered entities included “any entity which provides
health insurance” except “any government entity.” Id.
§ 9010(c)(1), (2)(B); 26 C.F.R. § 57.2(b)(2)(ii)(B). It is undisputed that States are “government entities” for the
purpose of this definition. Therefore, under the plain language of section 9010, Congress exempted States from
paying the HIPF.
IV. ASOP 49
In March 2015, in response to criticism from the Government Accountability Office, the Actuarial Standards
Board finally published a binding definition of “actuarial
soundness” applicable specifically to Medicaid MCOs—
ASOP 49. ROA.1649-81. ASOP 49 states that an MCO’s
capitation rate (the monthly premium it receives from a
State) is “actuarially sound” only if “projected capitation
rates . . . provide for all reasonable, appropriate, and attainable costs,” including any “government-mandated
assessments, fees, and taxes,” ROA.1655, that are not tax
deductible, 26 C.F.R. § 57.8. Unlike earlier guidance requiring actuaries to account for federal law, ASOP 49
makes no allowance for the fact that Congress exempted
States from paying the HIPF. Instead, due to the wellestablished structure of the Medicaid MCO market,
States had to pay 100% of the HIPF or else fail to comply
Procedure Shapes Legislative History, 105 L. LIBR. J. 131, 163
(2013).

9
with the ASOP—and thus with the Certification Rule
and the 1981 actuarial-soundness requirement. E.g.,
ROA.1697-700.
While Petitioner-States’ appeal was pending before
the Fifth Circuit, Congress repealed the HIPF, effective
December 31, 2020. Further Consolidated Appropriations Act, 2020, Pub. L. No. 116-94, § 502, 133 Stat. 2534,
3119. But the unconstitutional structure that allowed private entities to impose the HIPF (and other costs) on
States—the Certification Rule—remains. 42 C.F.R.
§ 438.7 (2021) (requiring certification by an actuary); id.
§ 438.2 (defining actuary as “an individual who meets the
qualification standards established by the American
Academy of Actuaries for an actuary and follows the
practice standards established by the Actuarial Standards Board”).
V. Procedural History
In October 2015, Plaintiff-States brought this suit
challenging HHS’s role in imposing the HIPF via the
Certification Rule as unlawful under the APA, ROA.16669, and the nondelegation doctrine derived from the Constitution’s separation of powers, ROA.159-63, 168. They
also challenged the imposition of the HIPF as it had been
applied to the States, arguing that section 9010 exceeds
Congress’s spending and taxing powers. ROA.165-66,
168-72. And they sought return of funds unlawfully collected by the IRS between 2014 and 2016. ROA.170-75.
Because the HIPF is not currently in effect, this petition
focuses on Petitioner-States’ challenge to the structure
of the Certification Rule. 6
Petitioner-States disagree with the Fifth Circuit’s analysis regarding their remaining claims, but they acknowledge that in light
of the subsequent repeal of the HIPF, those claims are likely moot.
6

10
In March 2018, the district court held that HHS violated the nondelegation doctrine by allowing a private
entity to (1) formulate the standards that determine
whether a State may receive Medicaid funding and
(2) certify a State’s compliance with those standards.
Pet. App. 79a-89a. The district court concluded, however,
that the Certification Rule as adopted in 2002 was lawful
under the APA. Pet. App. 94a-95a. Moreover, the district
court said, Congress did not exceed its taxing authority
because it was the Actuarial Standards Board’s “imposition of the HIPF on Plaintiffs, not the HIPF itself,” that
caused the alleged injury. Pet. App. 106a. The district
court concluded that because the ACA “prohibits [the
United States] from collecting the HIPF from the states
in the first place,” equity requires the IRS to disgorge
the nearly $500 million that the Plaintiff-States had been
required to pay up to that point. ROA.4411.
On July 31, 2020, a panel of the U.S. Court of Appeals
for the Fifth Circuit reversed; the court issued a revised
opinion on February 12, 2021, but that opinion did not
change the court’s holdings. Pet. App. 1a-30a. The Fifth
Circuit did not disagree with the district court’s holding
that a private party may not define “actuarial soundness” for purposes of federal law. But the Fifth Circuit
concluded that subsection (C) of the Certification Rule
was acceptable because HHS retained significant control
over the process—a theory the United States did not
press on appeal. Pet. App. 20a-24a. Moreover, the Fifth
Circuit held that Plaintiff-States’ APA challenges to the
Certification Rule were untimely because the Certification Rule was promulgated in 2002, and “HHS took no
They respectfully request those rulings be vacated under United
States v. Munsingwear, Inc., 340 U.S. 36 (1950).

11
direct, final agency action in 2015 to create a new obligation.” Pet. App. 17a. 7
Petitioner-States timely filed a petition for panel rehearing and rehearing en banc, but the Fifth Circuit denied that petition over the objection of five judges. Pet.
App. 168a-90a. In his dissent, Judge Ho explained that
the Certification Rule violates the nondelegation doctrine in three different ways:
(1) It subdelegates substantive lawmaking
power, rather than some minor factual determination or ministerial task; (2) the
subdelegation is authorized by an administrative agency, rather than by Congress;
and (3) the agency is subdelegating power
to a private entity, rather than to another
governmental entity that is at least minimally accountable to the public in some
way.
Pet. App. 173-74a (Ho, J., dissenting). This combination
is “uniquely offensive to the Constitution.” Pet. App.
173a.
A RG UM EN T

Administrative agencies may not punt their obligation—or their power—to create federal law to private entities, regardless of whether defining a particular statutory requirement proves difficult. The Fifth Circuit
The panel also suggested that the district court and PlaintiffStates were somehow both “confused” about whether the operative
complaint had challenged the Actuarial Standards Board’s role in
setting the rules by which state Medicaid contracts are judged. Pet.
App. 5a-6a n.4. Tellingly, however, the United States has never asserted any form of waiver argument—either in its principal briefing
or in its opposition to rehearing en banc.
7

12
incorrectly held that federal administrative agencies can
skirt the nondelegation doctrine whenever the delegatee
waits out the APA’s six-year limitations period before
wielding unconstitutionally delegated power. These
weighty matters present important federal questions
that merit this Court’s review. See SUP. C T. R. 10(c).
I. The Legality of the Certification Rule Presents
an Important Federal Question.
A. This case presents a perfect vehicle for the
Court to clarify the scope of the
nondelegation doctrine.
This case presents an opportunity to address a vital
question of constitutional law: whether a federal agency
may delegate to a private party the power to set standards governing the relationship between States and the
federal government. This Court has previously granted
a petition for a writ of certiorari to determine whether a
provision of federal law “effect[ed] an unconstitutional
delegation of legislative power to a private entity.” Petition for a Writ of Certiorari at I, Dep’t of Transp. v. Ass’n
of Am. R.Rs., 575 U.S. 43 (Amtrak) (2015) (No. 13-1080);
see Dep’t of Transp. v. Ass’n of Am. R.Rs., 573 U.S. 930
(2014) (granting cert.). But the Court could not reach
that issue because the Court determined that the delegatee in question—Amtrak—was actually a public entity.
See Amtrak, 575 U.S. at 51, 55-56.
This case presents the perfect vehicle to address this
issue. There is no dispute that the delegatees here—the
Actuarial Standards Board and private actuaries—are
private parties. Unlike in Amtrak, the party being regulated is a State carrying out its sovereign role of providing healthcare to vulnerable citizens. The delegation at
issue affects up to a third of any given State’s budget.

13
And it was not Congress that delegated legislative power
to the Actuarial Standards Board and private actuaries:
it was HHS. Taken together, the delegation contained in
the Certification Rule implicates the nondelegation doctrine rooted in the separation of powers created by the
Vesting Clauses of Articles I and II of the Constitution.
The Fifth Circuit’s approval of this delegation creates a
circuit split and warrants this Court’s review. See S UP.
CT. R. 10(a), (c).
B. The nondelegation doctrine prohibits any
entity other than Congress from exercising
the legislative power of the United States.
Since the Founding, the power to “prescrib[e] the
rules by which the duties and rights of every citizen are
to be regulated” has belonged to Congress. T HE F EDERALIST No. 78, at 465 (Hamilton) (C. Rossiter ed., 1961);
see Fletcher v. Peck, 10 U.S. (6 Cranch) 87, 136 (1810).
“Accompanying that assignment of power to Congress is
a bar on its further delegation. Congress, this Court explained early on, may not transfer to another branch
‘powers which are strictly and exclusively legislative.’”
Gundy v. United States, 139 S. Ct. 2116, 2123 (2019) (plurality op.) (quoting Wayman v. Southard, 23 U.S. (10
Wheat.) 1, 42-43 (1825)).
1. Because “tak[ing] Care that the Laws be faithfully
executed,” U.S. CONST. art. II, § 3, can—indeed must—
require the exercise of some judgment about what the
law means, this Court has permitted Congress to empower the Executive to do three things: (a) perform nonlegislative tasks, (b) “fill up the details” of how a statute
functions on a day-to-day basis, Wayman, 23 U.S. (10
Wheat.) at 43, and (c) find that the law has been triggered
by “certain fact[s] being established,” Miller v. Mayor of
N.Y., 109 U.S. 385, 393 (1883).

14
The scope of these authorities, however, is delimited
by the fact that the Framers’ understanding “that it
would frustrate ‘the system of government ordained by
the Constitution’ if Congress could merely announce
vague aspirations and then assign others the responsibility of adopting legislation to realize its goals.” Gundy,
139 S. Ct. at 2133 (Gorsuch, J., dissenting) (quoting Marshall Field & Co. v. Clark, 143 U.S. 649, 692 (1892)).
This “nondelegation principle can be traced to John
Locke’s Second Treatise, which was deeply influential on
the Founding generation.” Ilan Wurman, Nondelegation
at the Founding, 130 Y ALE L.J. 1490, 1518 (2021); see
also Gundy, 139 S. Ct. at 2133 (Gorsuch, J., dissenting).
As Locke explained:
The legislative cannot transfer the power of making laws to any other hands; for it being but a delegated power from the people, they who have it
cannot pass it over to others. . . . [W]hen the people have said we will submit to rules, and be governed by laws made by such men, and in such
forms, nobody else can say other men shall make
laws for them; nor can the people be bound by any
laws but such as are enacted by those whom they
have chosen and authorised to make laws for
them.
Gundy, 139 S. Ct. at 2133-34 (Gorsuch, J., dissenting)
(quoting JOHN LOCKE , S ECOND TREATISE § 141, at 71).
Moreover, the Framers understood that these boundaries must be maintained because “[t]he accumulation of
all powers, legislative, executive, and judiciary, in the
same hands . . . may justly be pronounced the very definition of tyranny.” T HE FEDERALIST No. 47, at 301
(Madison).

15
2. Properly applying these limitations, Congress
likely could not delegate the authority to define “actuarially sound” to HHS in the first instance. Unlike other
vague standards that have been upheld, the “boundaries
of [the Executive’s] authority” are not defined elsewhere
in the statute, Gundy, 139 S. Ct. at 2129 (plurality op.),
customary practice, Whitman v. Am. Trucking Ass’ns,
531 U.S. 457, 472-73 (2001), or common law, cf. A.L.A.
Schechter Poultry Corp. v. United States, 295 U.S. 495,
531-32 (1935). Indeed, the Actuarial Standards Board officially stated in 2013 that actuarial soundness “has different meanings in different contexts,” ROA.3667, because “‘actuarial soundness’ is not an actuarial concept,”
ROA.3676. A term that is not used in the relevant field
hardly provides a discernible standard to the Executive.
In the Fifth Circuit, the United States insisted that
such delegation was necessary because “actuarial soundness” is simply a technical term. U.S. Principal C.A. Br.
32-33. This justification is, however, precisely what Justice Scalia warned about when he said that allowing Congress to delegate its lawmaking powers will make such
delegations “much more attractive” to Congress “in the
future.” Mistretta v. United States, 488 U.S. 361, 422
(1989) (Scalia, J., dissenting):
If rulemaking can be entirely unrelated to the exercise of judicial or executive powers, I foresee all
manner of “expert” bodies, insulated from the political process, to which Congress will delegate
various portions of its lawmaking responsibility.
How tempting to create an expert Medical Commission (mostly M.D.’s, with perhaps a few
Ph.D.’s in moral philosophy) to dispose of such
thorny, “no-win” political issues as the

16
withholding of life-support systems in federally
funded hospitals, or the use of fetal tissue for research.
Id. Setting the rules by which Medicaid is governed is
just such a thorny political question. Allowing Congress
to punt it to an executive agency “is an undemocratic
precedent.” Id.
Instead, our system makes passing legislation difficult by design in order to force legislators to “promote
fair notice and the rule of law, ensuring the people would
be subject to a relatively stable and predictable set of
rules.” Gundy, 139 S. Ct. at 2134 (Gorsuch, J., dissenting) (citing T HE FEDERALIST No. 62, at 378-80 (Madison)). If Congress could do no better than to “le[ave] the
matter to the President . . . to be dealt with as he
pleased,” Pan. Ref. Co. v. Ryan, 293 U.S. 388, 418 (1935),
then Congress could not condition States’ receipt of
Medicaid funds on MCOs having actuarially sound capitation rates.
But this case presents an easier question because regardless of whether Congress could allow the Executive
to define “actuarial soundness,” the Executive could not
re-delegate that authority to the private Actuarial
Standards Board.
C. The nondelegation doctrine prohibits private
parties from making federal law.
Even if Congress did not violate the Constitution by
relying on HHS to define “actuarial soundness,” HHS’s
decision to give the reins to a private party to determine
the scope of that term—and thereby dictate what States
must do to receive Medicaid funding—violated the nondelegation doctrine.
1. This Court has permitted delegation to some extent to “other branches of Government [that] have vested

17
powers of their own that can be used in ways that resemble lawmaking.” Amtrak, 575 U.S. at 61 (Alito, J., concurring). “When it comes to private entities, however,
there is not even a fig leaf of constitutional justification.”
Id. at 62. Indeed, the United States has previously “accept[ed] that Congress ‘cannot delegate regulatory authority to a private entity.’” Id. at 61. And for good reason: the Constitution does not vest private entities with
“legislative Powers,” U.S. CONST. art. I, § 1, or the “executive Power,” id. art. II, § 1, cl. 1. As Justices Alito and
Kennedy have noted, even the creation of citizen suits
“raises ‘[d]ifficult and fundamental questions’” because
it allows private parties to exercise some aspect of the
Executive’s power to enforce the law. Amtrak, 575 U.S.
at 62 (Alito, J., concurring) (quoting Friends of the
Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528
U.S. 167, 197 (2000) (Kennedy, J., concurring)). And “[a]
citizen suit to enforce existing law . . . is nothing compared to delegated power to create new law.” Id.
Such a “[d]elegation of legislative power to private
entities is ‘unknown to our law’ and ‘utterly inconsistent
with the constitutional prerogatives and duties of Congress.’” Pet. App. 173a (Ho, J., dissenting) (quoting
Schechter Poultry, 295 U.S. at 537). “It is a fundamental
principle that no branch of government can delegate its
constitutional functions to an actor who lacks authority
to exercise those functions.” Wellness Int’l Network, Ltd.
v. Sharif, 575 U.S. 665, 700-01 (2015) (Roberts, C.J., dissenting) (citing Whitman, 531 U.S. at 472; Carter v.
Carter Coal Co., 298 U.S. 238, 311 (1936)). “Such delegations threaten liberty and thwart accountability by empowering entities that lack the structural protections the
Framers carefully devised.” Id. (citing Amtrak, 575 U.S.
at 60-62 (Alito, J., concurring); id. at 66-68 (Thomas, J.,

18
concurring in judgment); Mistretta, 488 U.S. at 417-22
(Scalia, J., dissenting)).
2. The delegation in this case is particularly problematic because it directly impinges upon state sovereignty.
This Court long ago called “power conferred” on one private entity to regulate another “delegation in its most obnoxious form.” Carter, 298 U.S. at 311 (“[O]ne person
may not be [e]ntrusted with the power to regulate the
business of another, and especially of a competitor.”). If
a private party regulating a private party is constitutionally “most obnoxious,” id., authorizing a private entity to
regulate a sovereign State is constitutionally repugnant.
This Court has held that not even Congress may interfere directly with state sovereignty because to do so
would blur lines of accountability. Printz v. United
States, 521 U.S. 898, 920 (1997) (citing inter alia New
York v. United States, 505 U.S 144, 168-69 (1992)). Allowing legislative power to be placed “in purely private
hands, wholly unaccountable to the people,” is even more
contrary to our constitutional system. Pet. App. 170a
(Ho, J., dissenting). It “devalues the right to vote and
desecrates the entire premise of our constitutional democracy—that our laws are supposed to be written by
members of Congress elected by the American people,
not by private interests pursuing unknown private agendas.” Pet. App. 170a.
D. The
Certification
Rule
impermissibly
delegates authority to make federal law to a
private party.
Because the Certification Rule purports both to make
the Actuarial Standards Board’s standards binding federal law and to give private actuaries the authority to approve—or reject—a proposed capitation rate, the rule is

19
an unconstitutional delegation of power to a private entity.
Petitioner-States do not dispute that under the nondelegation doctrine, Congress may condition the effect of
its legislation on the acquiescence of disinterested
groups of affected private parties, as the Court recognized in Currin v. Wallace, 306 U.S. 1 (1939), and United
States v. Rock Royal Co-op., Inc., 307 U.S. 533 (1939).
The lower courts also agree that this Court’s caselaw
permit agencies to “employ private entities for ministerial or advisory roles, but [agencies] may not give these
entities governmental power over others,” even if the entities are disinterested. Pittston Co. v. United States, 368
F.3d 385, 395 (4th Cir. 2004) (citing United States v.
Frame, 885 F.2d 1119, 1129 (3d Cir. 1989)). But private
entities’ roles in giving content to and applying the Certification Rule is far from ministerial or advisory.
The Certification Rule requires capitation rates to be
approved by an actuary who “follow[s] the practice
standards established” by the Actuarial Standards
Board. 42 C.F.R. § 438.6(c) (2002). In other words, the
rule delegates the authority to set the standards for approving capitation rates to the Actuarial Standards
Board, and it also delegates the task of approving a given
capitation rate to a private actuary who is required to apply those standards. Moreover, “there is no agency review of capitation rates unless and until they are approved by the private actuaries.” Pet. App. 179a (Ho, J.,
dissenting).
As a result of this highly unusual regulatory structure, HHS has final review of a State’s MCO rates, but
“before [HHS] even begins to exercise its own judgment,” private parties must “apply the Board’s private
standards and determine that a capitation rate is not

20
actuarially sound.” Pet. App. 179a. If the private actuary
determines that the State’s rates do not comply with the
Board’s standards, “the agency’s review process ends
before it ever begins.” Pet. App. 179a. As a result, “HHS
neither sets the regulatory standard nor exercises final
authority over the application of that standard.” Pet.
App. 179a. Private actuaries “act as veto-gates that categorically preclude agency review—whether it’s review
of the ‘actuarially sound’ standard itself, the determination that a capitation rate complies with that standard,
or both.” Pet. App. 180a.
The Fifth Circuit insisted that this process was permitted by Sunshine Anthracite Coal Co. v. Adkins, 310
U.S. 381 (1940). See Pet. App. 21a-24a (panel op.). But in
Adkins, “it was Congress itself, not the agency, that enlisted the assistance of private parties in rulemaking. As
[the D.C. Circuit] has noted, ‘Adkins . . . affirmed a modest principle: Congress may formalize the role of private
parties in proposing regulations.’” Pet. App. 183a (Ho, J.,
dissenting) (quoting Ass’n of Am. R.Rs. v. U.S. Dep’t of
Transp., 721 F.3d 666, 671 (D.C. Cir. 2013) (emphasis
added), rev’d on other grounds by Amtrak, 575 U.S. 43).
Adkins thus provides no support for “allow[ing] an
agency—already acting pursuant to delegated power—
to re-delegate that power out to a private entity.” Pet.
App. 184a.
More fundamentally, HHS does not retain final reviewing authority over the standards promulgated by
the Actuarial Standards Board, nor has HHS retained
the power to approve an MCO contract that has not been
certified by a private actuary under the Certification
Rule. But see Pet. App. 19a-21a (panel op.). Instead,
“HHS has delegated to the Board the power to define
actuarial soundness. And that power is reviewable only

21
in the sense that the agency can amend or repeal the Certification Rule altogether.” Pet. App. 184a-85a (Ho, J.,
dissenting). HHS does not retain any other authority to
depart from the standards set by the Board. And refusal
by an actuary to provide the necessary certification “can
prevent a state’s capitation rate and associated MCO
contract from ever reaching CMS for review.” Pet. App.
185a. In essence, as Judge Ho explained, HHS has not
“continue[d] to exercise oversight” over the Board’s actions; “[i]t just made a one-time decision to hand the private parties a blank check.” Pet. App. 186a.
This Court has never permitted a private party such
control over whether States receive billions of dollars in
federal funds. Supra p. 17-18. This is also far beyond the
scope of power that other courts of appeals have read this
Court’s precedents to permit agencies to delegate to private parties. Cf. Riverbend Farms, Inc. v. Madigan, 958
F.2d 1479, 1488 (9th Cir. 1992) (approving delegation because an agency actor “retains ultimate authority to issue the regulation”); Cospito v. Heckler, 742 F.2d 72, 89
(3d Cir. 1984) (application of accreditation standards).
It does not, as the Fifth Circuit reasoned, satisfy the
nondelegation doctrine that “HHS could achieve exactly
the same result by promulgating regulations that
adopted the substance of the . . . Board’s Standards,”
Pet. App. 21a. Indeed, that argument misses the point:
the nondelegation doctrine is not about whether any
given substantive policy was correct—only whether it
was adopted by the correct policymaker. In other words,
that HHS did not “promulgat[e] regulations that
adopted the substance of the Board’s Standards,” id., is
the constitutional problem, see Whitman, 531 U.S. at
472-73 (discussing the need for Congress to make

22
significant decisions); Schechter Poultry, 295 U.S. at 53132 (same).
And this procedural point is important: “when it
comes to the Constitution and the separation of powers,
the ends do not justify the means.” Pet. App. 188a n.5
(Ho, J., dissenting). “[E]nforcing the separation of powers”—or federalism for that matter—“isn’t about protecting institutional prerogatives or governmental turf.”
Gundy, 139 S. Ct. at 2135 (Gorsuch, J., dissenting). It is
about “secur[ing] to citizens the liberties that derive
from the diffusion of sovereign power,” New York, 505
U.S. at 181, and “respecting the people’s sovereign
choice to vest the legislative power in Congress alone,”
Gundy, 139 S. Ct. at 2135 (Gorsuch, J., dissenting).
“[M]ajor national policy decisions must be made by
Congress and the President in the legislative process,
not delegated by Congress to the Executive Branch.”
Paul v. United States, 140 S. Ct. 342, 342 (2019) (Kavanaugh, J., statement respecting the denial of certiorari). And they certainly should not be made by a group
of actuaries who are accountable to no one. See Carter,
298 U.S. at 311. This Court should grant the PetitionerStates’ petition for a writ of certiorari to address the Certification Rule’s unconstitutional delegation of federal
lawmaking power to private parties.
E. The Fifth Circuit’s decision creates a split
among the circuits on when and how agencies
may delegate authority to private parties.
In upholding the Certification Rule, the Fifth Circuit
split from the D.C. and Second Circuits. This creates an

23
important constitutional issue that warrants this Court’s
attention. See SUP. C T. R. 10(c). 8
1. The Fifth Circuit split from the D.C. Circuit’s decision in U.S. Telecom Ass’n v. FCC, 359 F.3d 554 (D.C.
Cir. 2004), about the role that private parties can play in
a federal agency’s approval process. “Telecom makes
clear that any ‘subdelegation[] to outside parties [is] assumed to be improper absent an affirmative showing of
congressional authorization.’” Pet. App. 178a (Ho, J., dissenting) (alterations in original) (quoting Telecom, 359
F.3d at 565). Neither the Fifth Circuit nor the United
States claimed any such congressional authorization for
the Certification Rule.
Instead, the Fifth Circuit cited Telecom for the proposition that an agency may “reasonabl[y] condition” federal approval on an outside party’s determination of
some issue if there is a “reasonable connection between
the outside entity’s decision and the federal agency’s determination.” Pet. App. 181a (Ho, J., dissenting) (alteration in original) (first quoting Pet. App. 19a (panel op.),
then quoting Telecom, 359 F.3d at 567). “But Telecom
limited this principle to governmental conditions—determinations by ‘state, local, or tribal government[s].’”
Pet. App. 179a (Ho, J., dissenting) (quoting Telecom, 359
F.3d at 567). This principle applies very narrowly

This is particularly true as the United States has insisted that
the Certification Rule is no different from any number of other regulations that supposedly allow private parties to set federal law.
U.S. C.A. Resp. Br. 37-38. Assuming this is correct, the need for
clarification is that much more urgent. “Past practice does not, by
itself, create power.” Medellin v. Texas, 552 U.S. 491, 532 (2008)
(cleaned up). But past exercise of power that does not exist shows a
need for this Court’s intervention.
8

24
because it serves only to avoid “wast[ing] agency resources on futile approvals.” Pet. App. 182a.
In other words, Telecom allows a federal agency to
condition federal approval on the approval of a state, local, or tribal government when the approval of such a
government is independently required for the regulated
party to engage in the contemplated activity. See Telecom, 359 F.3d at 567 (citing United States v. Matherson,
367 F. Supp. 779, 782-83 (E.D.N.Y. 1973), aff’d 493 F.2d
1339 (2d Cir. 1974); S. Pac. Transp. Co. v. Watt, 700 F.2d
550, 556 (9th Cir. 1983)).
“The situation here could not be more different. The
private Board and private actuaries would have no say at
all in the approval of capitation rates or MCO contracts
but for HHS’s decision to hand them its rulemaking and
review powers in the first place.” Pet. App. 182a (Ho, J.,
dissenting); see also Pet. App. 182a-83a (“HHS has not
only ‘delegated to another [private] actor almost the entire determination of whether a specific statutory requirement . . . has been satisfied,’—it has even granted a
private party the power to define the statutory requirement in the first place.” (alterations in original) (quoting
Telecom, 359 F.3d at 567)).
The Certification Rule thus does not involve the type
of “reasonable condition” on federal approval that the
D.C. Circuit contemplated in Telecom, 359 F.3d at 567,
or that the Ninth Circuit encountered in Southern Pacific Transportation Co. v. Watt, 700 F.2d 550 (9th Cir.
1983). To the contrary, the Certification Rule impermissibly delegates rulemaking and permitting authority to
private parties. By upholding the Certification Rule, the
Fifth Circuit discarded a key limitation on the narrow
principal the D.C. Circuit invoked in Telecom: that an administrative agency may not condition federal approval

25
on the approval of an outside entity unless that entity’s
approval is independently required. Moreover, that outside entity must be a government entity. In doing so, the
Fifth Circuit split with the D.C. Circuit. This Court
should resolve that split. See S UP. CT. R. 10(a).
2. The Fifth Circuit also split with the Second Circuit
about the extent to which an agency can delegate its rulemaking and approval authority by ruling that the Certification Rule was somehow a permissible delegation because a State can petition HHS to amend or repeal the
rule. See Pet. App. 22a n.13 (panel op.). That ruling
stands in stark contrast with the Second Circuit’s decision in Fund for Animals v. Kempthorne, 538 F.3d 124
(2d Cir. 2008). There, the Second Circuit recognized that
“[i]f all it reserves for itself is ‘the extreme remedy of totally terminating the [delegation agreement],’ an agency
abdicates its ‘final reviewing authority.’” Id. at 133 (citation omitted).
The Fifth Circuit’s divergence from the Second Circuit on this issue warrants this Court’s review. “After all,
any agency can always claw back its delegated power by
issuing a new rule.” Pet. App. 186a (Ho, J., dissenting).
Indeed, “by [the Fifth Circuit’s] logic, any agency subdelegation of rulemaking power is permissible.” Pet.
App. 186a. Such a rule “would render the nondelegation
doctrine a dead letter.” Pet. App. 187a. It would be the
equivalent of saying “that Congress can never violate the
nondelegation doctrine, because the American people
can always petition Congress to pass a new law and claw
back its lawmaking power from an agency.” Pet. App.
187a.
Because the Fifth Circuit’s decision creates splits
with both the D.C. and Second Circuits, this Court
should grant the Petitioner-States a writ of certiorari to

26
address the manner and extent to which federal agencies
can delegate their rulemaking and approval authority to
private parties.
II. The Fifth Circuit’s Dismissal of PetitionerStates’ APA Challenges as Time-Barred
Warrants This Court’s Review.
This Court should also grant review of the Fifth Circuit’s conclusion that Petitioner-States’ challenge to the
Certification Rule is time-barred because the Actuarial
Standards Board waited more than six years to exercise
the power that HHS improperly delegated to it. Because
the Fifth Circuit’s decision declaring this challenge timebarred allows agencies and private parties to shield such
unconstitutional delegations from judicial and creates a
circuit split, that decision warrants this Court’s review.
See SUP. C T. R. 10(a), (c).
A. The Fifth Circuit’s ruling creates a trap that
allows agencies to evade judicial review of
unlawful actions.
In addition to their constitutional claims, PlaintiffStates brought both substantive and procedural APA
challenges to the application of the HIPF to States
through the Certification Rule. States’ Principal C.A. Br.
37-44. The Fifth Circuit concluded that these challenges
were time-barred because it viewed the only relevant
agency action as the promulgation of the Certification
Rule itself in 2002. Pet. App. 15a-17a (panel op.). The
Fifth Circuit’s opinion creates a trap for States and improperly shields federal administrative agencies from judicial review. This Court should grant the petition for a
writ of certiorari to address this important issue about
the availability of review for unconstitutional agency delegations.

27
There are two basic problems with the Certification
Rule: it allows a private party to issue binding federal
law, and it allows the agency to exceed its statutory
power by imposing a tax on States from which they were
exempted, ACA § 9010(c)(2)(B). 9 The Certification Rule
created the possibility of such injuries when it was promulgated in 2002. But there was no binding definition of
“actuarial soundness”—and thus arguably no injury
from the improper delegation—until 2015. ROA.3087.
And there was no HIPF—and therefore certainly no injury from improper application of the HIPF—until at
least 2010. 10 Any lawsuit before such time would likely
have been dismissed for lack of Article III jurisdiction.
See Lopez v. City of Houston, 617 F.3d 336, 341-42 (5th
Cir. 2010). And now, under the Fifth Circuit’s rule, lawsuits after these events are time-barred.
Such a rule encourages unlawful behavior. As a matter of administrative law, it is improper for an executive
agency to adopt a placeholder rule that requires additional substantive rules to give it practical meaning. E.g.,
United States v. Picciotto, 875 F.2d 345, 347-48 (D.C. Cir.
1989). Yet, according to the Fifth Circuit, there is nothing that a regulated party may do about it so long as the
agency takes more than six years to give that rule
Though the HIPF is not currently in effect, the federal government could impose any number of new obligations on States by
imposing them on MCOs and then forcing States to pay for them
through the Certification Rule. Under the Fifth Circuit’s view, the
States would be able to do nothing about it because the Certification
Rule still would have been promulgated more than six years ago.
9

The HIPF went into effect in fee year 2014, 26 C.F.R.
§ 57.4(a)(3), but was assessed based on an insurer’s market share
the previous year. ACA § 9010(b). Regardless, Plaintiff-States
brought suit less than six years after the HIPF became effective.
10

28
content. That is not the law in other circuits, which recognize that “[a] plaintiff cannot be expected to anticipate
all possible future challenges to a rule and bring them
within six years of the rule’s promulgation, before a later
agency action applying the earlier rule leads to an injury.” Cal. Sea Urchin Comm’n v. Bean, 828 F.3d 1046,
1049-50 (9th Cir. 2016). The Fifth Circuit’s contrary rule
creates a circuit split this Court should resolve. See S UP.
CT. R. 10(a).
B. The Fifth Circuit’s ruling is incorrect and
inconsistent with how other courts of appeals
have analyzed the finality of agency actions.
This Court should grant review of the Fifth Circuit’s
dismissal of the Petitioner-States’ APA claims because
the Fifth Circuit’s conclusions are inconsistent with the
record, with the Fifth Circuit’s own opinion (and other
Fifth Circuit opinions), and with how other courts have
defined final agency action.
No one disputes that APA claims are subject to a sixyear statute of limitations. 28 U.S.C. § 2401(a). Any challenge to the procedures by which the rule was adopted
thus became untimely in 2008. Wind River Mining Corp.
v. United States, 946 F.2d 710, 715 (9th Cir. 1991); Texas
v. United States, 749 F.2d 1144, 1146 (5th Cir. 1985). 11
States may still challenge the legality of the Certification
Rule, however, if it has been applied to them within the
last six years. See, e.g., Dunn-McCampbell Royalty
Petitioner-States were unable to find any caselaw from this
Court that directly addressed this question. Given the frequency of
APA claims, the absence of governing authority about when such
actions accrue is itself reason to grant review. SUP. C T. R. 10(c). As
does the amount of money in question. S TEPHEN M. SHAPIRO, ET
AL., SUPREME COURT PRACTICE 269-70 (10th ed. 2013).
11

29
Interest, Inc. v. Nat’l Park Serv., 112 F.3d 1283, 1287
(5th Cir. 1997).
The Fifth Circuit acknowledged that this law applies.
Pet. App. 15a. The Fifth Circuit acknowledged that HHS
reviewed Petitioner-States’ Medicaid contracts using the
Certification Rule within six years of when PetitionerStates filed their original complaint. See Pet. App. 14a15a. And the Fifth Circuit acknowledged that CMS issued a 2015 guidance document instructing States to
comply with ASOP 49 going forward. Pet. App. 17a; see
ROA.3243. The district court concluded that these were
final agency actions restarting the statute of limitations.
Pet. App. 70a-73a. In particular, the guidance document
removed any discretion that actuaries and States previously had to exclude the HIPF from States’ capitation
rates. Pet. App. 72a-73a. The Fifth Circuit disagreed because, in its view, “[a]ctuarially sound capitation rates
have consistently required” the States to account for the
HIPF since 2002. Pet. App. 17a. The approval of the contracts themselves, the Fifth Circuit concluded, also failed
to restart the clock because HHS’s actions neither created new legal obligations nor bound Petitioner-States.
Pet. App. 16a.
The Fifth Circuit’s decision on this issue has four major flaws.
First, the record belies the Fifth Circuit’s conclusion.
The Certification Rule was adopted in 2002 specifically
because HHS was not able to promulgate “prescriptive
standards” of “actuarial soundness” in this context.
ROA.1411. Its reliance on the Actuarial Standards Board
drew immediate criticism from members of Congress for
the agency’s “fail[ure] to define ambiguous terms,
fail[ure] to require provision of necessary information,
and general[] fail[ure] to regulate.” ROA.1064. The GAO

30
similarly criticized HHS in 2010 for lack of a “working
definition” of actuarial soundness “that applie[d] to actuarial work performed to comply” with the Certification
Rule. ROA.3087. It was only in response to the GAO’s
criticism that HHS demanded that the Actuarial Standards Board adopt what became ASOP 49. ROA.3162.
Second, the Fifth Circuit’s conclusion is inconsistent
with other portions of its own opinion. In addressing Petitioner-States’ standing, the Fifth Circuit recognized
that ASOP 49 removes any discretion about how the
rates account for the HIPF. Pet. App. 13a. That is, before
ASOP 49 actuaries had some discretion regarding if and
how much of the HIPF would be transferred to States.
ROA.2592 (stating only that “the fee may be considered”). Defendants’ own expert admitted that following
ASOP 49, actuaries had no discretion. See ROA.1694.
States had to either pay 100% of the HIPF, e.g.,
ROA.1732, 1797, 2072, or forfeit Medicaid funding,
42 C.F.R. § 438.6 (2002). The same action that conferred
standing also represented a final action for the purposes
of the statute of limitations. Cf. U.S. Army Corps of
Eng’rs v. Hawkes Co., 136 S. Ct. 1807, 1813-15 (2016)
(holding that final jurisdictional determinations issued
by the Army Corps of Engineers are final agency actions).
Third, the Fifth Circuit’s decision creates intra-Circuit disagreement. Indeed, just last year in Texas v.
EEOC, 933 F.3d 433 (5th Cir. 2019), the Fifth Circuit
held that an agency guidance document that “withdraws
an entity’s previously-held discretion . . . alters the legal
regime, binds the entity, and thus qualifies as final
agency action.” Id. at 442 (quoting Scenic Am., Inc. v.
U.S. Dep’t of Transp., 836 F.3d 42, 56 (D.C. Cir. 2016)).
Such an action restarts the limitations period. Dunn-

31
McCampbell, 112 F.3d at 1287; Louisiana v. U.S. Army
Corps of Eng’rs, 834 F.3d 574, 583 (5th Cir. 2016).
Fourth, and most importantly, the Fifth Circuit’s decision created conflict with decisions from this Court,
Hawkes, 136 S. Ct. at 1813-15, and other circuit courts,
e.g., Cal. Sea Urchin Comm’n, 828 F.3d at 1049-50; Nat’l
Envtl. Dev. Ass’ns Clean Air Project v. EPA, 752 F.3d
999, 1003 (D.C. Cir. 2014). Such conflicts merit review by
this Court to ensure the APA’s finality requirements remain “‘flexible’ and ‘pragmatic.’” Qureshi v. Holder, 663
F.3d 778, 781 (5th Cir. 2011) (quoting Abbott Labs. v.
Gardner, 387 U.S. 136, 149-50 (1967)).

32
C ONC L US I ON

The petition for a writ of certiorari should be granted.
The Court should consider Petitioner-States’ challenge
to the Certification Rule and reverse the Fifth Circuit on
the merits. The Fifth Circuit’s rulings regarding the
HIPF statute should be vacated.
Respectfully submitted.
TODD ROKITA
Attorney General of
Indiana
DEREK SCHMIDT
Attorney General of
Kansas
JEFF LANDRY
Attorney General of
Louisiana
DOUG PETERSON
Attorney General of
Nebraska

SEPTEMBER 2021

KEN PAXTON
Attorney General of Texas
BRENT W EBSTER
First Assistant
Attorney General
JUDD E. S TONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Principal Deputy
Solicitor General
CODY RUTOWSKI
Assistant Solicitor General
OFFICE OF THE
ATTORNEY G ENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Judd.Stone@oag.texas.gov
(512) 936-1700

APPENDIX

A PP ENDIX A
REVISED February 12, 2021
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit
FILED
April 6, 2021
Lyle W. Cayce
Clerk
No. 18-10545
STATE OF TEXAS; STATE OF KANSAS; STATE OF
LOUISIANA; STATE OF INDIANA; STATE OF
WISCONSIN; STATE OF NEBRASKA,
Plaintiffs – Appellees Cross-Appellants
V.

CHARLES P. RETTIG, in his Official Capacity as
Commissioner of Internal Revenue; UNITED STATES
OF AMERICA; UNITED STATES DEPARTMENT
OF HEALTH AND HUMAN SERVICES; UNITED
STATES INTERNAL REVENUE SERVICE; ALEX
M. AZAR, II, SECRETARY, U.S. DEPARTMENT OF
HEALTH AND HUMAN SERVICES,
Defendants – Appellants/Cross-Appellees
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 7:15-CV-151

(1a)

2a
Before BARKSDALE, HAYNES, and WILLETT,
Circuit Judges.
HAYNES, Circuit Judge:
We withdraw our prior opinion of July 31, 2020, Texas
v. Rettig, 968 F.3d 402 (5th Cir. 2020), and substitute the
following.
This case involves constitutional challenges to
Section 9010 of the Affordable Care Act (the “ACA”) and
statutory and constitutional challenges to a U.S.
Department of Health and Human Services (“HHS”)
administrative rule (the “Certification Rule”). Texas,
Kansas, Louisiana, Indiana, Wisconsin, and Nebraska
(the “States”) sued the United States and its relevant
agencies and officials (collectively, the “United States”),
claiming that the Certification Rule and Section 9010
were unlawful. Both parties moved for summary
judgment, and the district court granted both motions in
part. The parties then cross-appealed. On the
jurisdictional claims, we AFFIRM the district court’s
ruling that the States had standing, but we REVERSE
the district court’s ruling that the States’ Administrative
Procedure Act (“APA”) claims were not time-barred and
DISMISS those claims for lack of jurisdiction. On the
merits, we AFFIRM the district court’s judgment on the
Section 9010 claims; however, we REVERSE the district
court’s judgment that the Certification Rule violated the
nondelegation doctrine and RENDER judgment in favor
of the United States. Because we hold that neither the
Certification Rule nor Section 9010 are unlawful, we
VACATE the district court’s grant of equitable
disgorgement to the States.

3a
I. Background
A. Regulatory Background
In 1965, the Medicaid Act 1 “established the Medicaid
program as a joint Federal and State program for
providing financial assistance to individuals with low
incomes to enable them to receive medical care.” See
Medicaid Program; Medicaid Managed Care: New
Provisions, 67 Fed. Reg. 40,989, 40,989 (June 14, 2002)
[hereinafter “2002 Final Rule”]. The federal government
“provid[es] matching funds to State agencies to pay for a
portion of the costs of providing health care to Medicaid
beneficiaries.” 2 Id.
States have two options for providing care to
Medicaid beneficiaries: a “fee-for-service” model and a
managed-care model. Id. Under the fee-for-service
model, a doctor who treats a Medicaid beneficiary
submits a reimbursement request to the state Medicaid
agency. Id. The state pays the bill after confirming the
individual’s eligibility and need for service. See id. Then
the state seeks reimbursement from the federal
government for a percentage of the cost. See 42 U.S.C.
§ 1396b(a).
Under the more widely used managed-care model,
the state pays a third-party health insurer (“managedcare organization” or “MCO”) a monthly premium (the
“capitation rate”) for each Medicaid beneficiary the
MCO covers, and the MCO provides care to the
beneficiary. 2002 Final Rule, 67 Fed. Reg. at 40,989.
42 U.S.C. §§ 1396–1396w-5.
Medicaid beneficiaries are those “individuals eligible for and
receiving Medicaid benefits.” 2002 Final Rule, 67 Fed. Reg. at
40,989.
1
2

4a
States may receive reimbursement from the federal
government for some percentage of the capitation rate
so long as the underlying MCO contract is “actuarially
sound.” See 42 U.S.C. § 1396b(m)(2)(A)(iii).
As states began moving away from the fee-for-service
model, HHS recognized that its definition of “actuarial
soundness”—based on the cost of services under a feefor-service model—was untenable. See 2002 Final Rule,
67 Fed. Reg. at 41,000 (stating that “there [was] an
increasing number of States that lack[ed] recent [fee-forservice] data to use for rate setting”). It thus
promulgated a final rule redefining “actuarial
soundness” in 2002. Id. at 41,079–80 (redefining
“actuarial soundness”). Under this new rule, capitation
rates must satisfy three requirements to be actuarially
sound. First, the rates must “[h]ave been developed in
accordance with generally accepted actuarial principles
and practices,” 42 C.F.R. § 438.6(c)(1)(i)(A) (2002),
which, 3 as explained by the actuarial office within HHS
that reviews state-MCO contracts, requires accounting
for all reasonable, appropriate, and attainable costs.
Second, the rates must be “appropriate for the
populations to be covered, and the services to be
furnished under the contract.” Id. § 438.6(c)(1)(i)(B).
Third, the rates must satisfy the Certification Rule; 4 that
In 2016, HHS recodified the actuarial soundness requirements
and the Certification Rule in 42 C.F.R. §§ 438.2, 438.4(a). Because
the States challenge the 2002 version of the Certification Rule,
which was in effect in 2015, and because the definitions relevant to
the States’ claims are unchanged, we follow the district court and
the parties in discussing this version of the regulation.
4
The Certification Rule at issue here is solely 42 C.F.R.
§ 438.6(c)(1)(i)(C), the certification component of the actuarial
soundness definition. The States’ operative complaint and motion
3

5a
is, they must “[h]ave been certified, as meeting the
requirements of this [provision], by actuaries who meet
the qualification standards established by the American
Academy of Actuaries and follow the practice standards
established by the Actuarial Standards Board [(the
“Board”)].” Id. § 438.6(c)(1)(i)(C).
In 2010, Congress enacted the ACA, comprised by
the Patient Protection and Affordable Care Act
(“PPACA”), Pub. L. No. 111-148, 124 Stat. 119 (2010),
and the Health Care and Education Reconciliation Act of
2010 (“HCERA”), Pub. L. No. 111-152, 124 Stat. 1029
(2010). The ACA made two changes to the regulatory
scheme requiring states that requested Medicaid
reimbursements for their MCO contracts to provide
actuarially sound capitation rates. First, Congress
imposed a new cost on certain MCOs: a federal healthinsurance provider tax (the “Provider Fee”). See PPACA
§ 9010, 124 Stat. at 865, amended by PPACA § 10905, 124
Stat. at 1017, amended by HCERA § 1406, 124 Stat. at
1066. 5 This Provider Fee must be paid annually by
covered entities—“any entity which provides health
for summary judgment objected to only that subsection. They made
no mention of the other requirements. Moreover, in a motion for
leave to file a second amended complaint, the States specified that
the Certification Rule defined actuarial soundness as meeting the
actuarial standards set by a private association of actuaries.
We clarify this point because the district court incorrectly
determined that the Certification Rule at issue encompassed all
three requirements. See Texas v. United States (Texas I), 300 F.
Supp. 3d 810, 822 (N.D. Tex. 2018). On appeal, the States also seem
to have confused which HHS regulation they were contesting, first
referring to only subsection (c)(1)(i)(C) but later lumping in
subsection (A) as well.
5
Section 9010 has not been codified in the United States Code
and thus does not exist in one consolidated location.

6a
insurance for any United States health risk,” excluding
governmental entities. 6 Id. § 9010(c)(1), (c)(2)(B), 124
Stat. at 866. Second, Congress amended the Medicaid
Act to expressly require that capitation rates included in
state-MCO contracts be actuarially sound. Id.
§ 2501(c)(1)(C), 124 Stat. at 308; 42 U.S.C.
§ 1396b(m)(2)(A)(xiii) (“[C]apitation rates . . . shall be
based on actual cost experience related to rebates and
subject to the Federal regulations requiring actuarially
sound rates[.]”). What remained unchanged was that
actuarially sound capitation rates required accounting
for all reasonable, appropriate, and attainable costs.
Thus, when the Internal Revenue Service (the “IRS”)
began collecting the Provider Fee from covered entities
in 2014, see PPACA § 9010(a), 124 Stat. at 865, states
with MCO contracts were required to account for the
Provider Fee to meet the actuarial soundness
requirement of the Medicaid Act, see 42 U.S.C.
§ 1396b(m)(2)(A)(iii).
In 2015, the Board, an independent organization that
sets appropriate standards for actuarial practices in the
United States, published Actuarial Standard of Practice
49: Medicaid Managed Care Capitation Rate
Development
and
Certification
(“ASOP
49”).
ACTUARIAL STANDARDS B D., ACTUARIAL S TANDARD OF
PRACTICE NO. 49: MEDICAID MANAGED C ARE
CAPITATION R ATE DEVELOPMENT AND C ERTIFICATION
(2015) [hereinafter ASOP 49]. ASOP 49 provides
There is an exclusion for governmental entities, “except to the
extent such an entity provides health insurance coverage through
the community health insurance option under section 1323.” PPACA
§ 9010(c)(2)(B), 124 Stat. at 866. However, this exception is not
relevant here.
6

7a
“guidance for actuaries preparing, reviewing, or giving
advice on capitation rates for Medicaid programs,
including those certified in accordance with 42 CFR
438.6(c).” Id. at iv. Medicaid capitation rates are
actuarially sound if they “provide for all reasonable,
appropriate, and attainable costs,” which “include . . .
government-mandated assessments, fees, and taxes.” Id.
at 2.
In summary, for states to receive federal
reimbursement under the managed-care model, their
MCO contracts must be approved by HHS as actuarially
sound. See 42 U.S.C. § 1396b(m)(2)(A)(iii); 42 C.F.R.
§ 438.6(c)(1)(i). To be actuarially sound, the capitation
rate must account for all costs MCOs bear when
providing care to Medicaid beneficiaries. See 2002 Final
Rule, 67 Fed. Reg. at 41,000. When Congress enacted the
ACA in 2010, the amount of money states paid MCOs as
part of their capitation rate changed: In contracts with
MCOs subject to the Provider Fee, states must account
for the Provider Fee in their capitation rate to satisfy
HHS’s actuarial-soundness requirement. ASOP 49
states that the “costs” include government-mandated
taxes. ASOP 49 at 2.
B. Procedural Background
The States sued the United States, claiming that the
Certification
Rule
and
Section
9010
were
unconstitutional and/or unlawful. See Texas v. United
States (Texas I), 300 F. Supp. 3d 810, 820 (N.D. Tex.
2018). Regarding the Certification Rule, they claimed
that the rule violated the nondelegation doctrine from
Article I, section 1, of the U.S. Constitution and that
HHS violated the APA on multiple grounds. See id. at
826. Regarding Section 9010, they claimed that the

8a
statute violated the Spending Clause of the U.S.
Constitution and the doctrine of intergovernmental tax
immunity under the Tenth Amendment. See id. at 826,
854.
Both parties moved for summary judgment. See id.
at 826. The United States argued that the States lacked
Article III standing for their claims, the States’ APA
claims were time-barred, and the States’ arguments
failed on the merits. See id. The district court granted
both parties’ motions in part. Id. at 821. It held that the
States had standing and that their APA claims were not
barred by the six-year statute of limitations. Id. at 834,
840. On the merits of the States’ Certification Rule
claims, the district court held that the rule violated the
nondelegation doctrine but otherwise complied with the
APA. Id. at 848, 850–851. On the merits of the States’
Section 9010 claims, the district court held that Congress
did not violate the Spending Clause or the Tenth
Amendment. Id. at 854, 856.
The district court thus set aside the Certification
Rule. Id. at 856–57. It then granted the States equitable
disgorgement of their Provider Fee payments under the
APA, resulting in a final judgment against the United
States for more than $479 million. See Texas v. United
States, 336 F. Supp. 3d 664, 675 (N.D. Tex. 2018). Both
parties timely appealed.
II. Standard of Review
We review a district court’s grant of summary
judgment de novo. Amerisure Ins. Co. v. Navigators Ins.
Co., 611 F.3d 299, 304 (5th Cir. 2010). “On cross-motions
for summary judgment, we review each party’s motion
independently, viewing the evidence and inferences in
the light most favorable to the nonmoving party.” Id.

9a
(citation omitted). Summary judgment is proper when
“there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
FED . R. C IV . P. 56(a).
III. Discussion
The parties contest the constitutionality and
lawfulness of the Certification Rule and the
constitutionality of Section 9010. We hold that both the
Certification Rule and Section 9010 are constitutional
and lawful; as a result, there can be no equitable
disgorgement, regardless of whether such a remedy
would be otherwise appropriate. We address each issue
in turn.
A. The Certification Rule Claims
The States’ challenge to the Certification Rule is
based upon a sequence of events they allege is
impermissible. Through the Certification Rule, HHS
gave authority to the Board to promulgate binding rules
through Actuarial Standards of Practice (“ASOPs”).
Before it published ASOP 49 in 2015, the Board provided
only a nonbinding “practice note” that permitted, but did
not require, actuaries to consider fourteen separate
factors in assessing expected MCO revenues and
expenses under contracts with state Medicaid agencies,
including any “state-mandated assessment and taxes.”
MEDICAID R ATE C ERTIFICATION WORK GROUP,
ACTUARIAL
S TANDARDS
BD .,
ACTUARIAL
CERTIFICATION OF R ATES FOR MEDICAID MANAGED
CARE PROGRAMS 8–9 (2005). According to the States,
ASOP 49 introduced the requirement that actuarially
sound capitation rates account for government-

10a
mandated taxes. 7 The States thus contend that the
Certification Rule unlawfully delegates to the Board the
task of formulating, and making binding decisions about
the applicability of, rules governing States’ access to
Medicaid funds. The States further argue that HHS’s
incorporation of ASOP 49 in the Certification Rule
violated the APA in two respects: (1) the rule exceeded
HHS’s statutory authority, and (2) HHS adopted the
rule without notice and comment.
The United States contends that we lack jurisdiction
because the States lack standing to challenge the
Certification Rule and because their APA claims were
barred by the statute’s six-year statute of limitations. On
the merits, the United States argues that the States’
Certification Rule challenges are premised on a
misunderstanding of Section 9010 and the Certification
Rule. It claims that the Board did not change the
definition of actuarial soundness, but instead HHS
permissibly chose to incorporate the Board’s guidance on
the subject.
Thus, at issue here are two jurisdictional questions:
whether the States have standing and, if so, whether
their APA claims are time-barred. If we have
jurisdiction, we must next address the parties’ merits
claims: whether the Certification Rule violates the
nondelegation doctrine, and whether HHS violated the
APA. We hold that the States have standing for their
Certification Rule claims but that their APA claims are
This is an incorrect statement of the facts. HHS’s Office of the
Actuary stated that actuarially sound capitation rates have
consistently required that all reasonable appropriate, and
attainable costs be covered by rates which includes all taxes, fees,
and assessments.
7

11a
time-barred which, in this context, is a jurisdictional
issue. We therefore address the merits of only the States’
nondelegation argument and hold that the Certification
Rule is constitutional.
1. Standing
To satisfy Article III’s standing requirement,
plaintiffs must demonstrate (1) an injury that is (2) fairly
traceable to the defendant’s allegedly unlawful conduct
and that is (3) likely to be redressed by the requested
relief. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–61
(1992). “The party invoking federal jurisdiction bears the
burden of establishing these elements.” Id. at 561
(citations omitted). At the summary judgment stage,
plaintiffs “must set forth by affidavit or other evidence
specific facts, which . . . will be taken to be true,” to
support each element. Id. (internal quotation marks and
citation omitted). If one plaintiff has standing for a claim,
then Article III is satisfied as to all plaintiffs. Rumsfeld
v. Forum for Acad. & Institutional Rights, Inc., 547 U.S.
47, 52 n.2 (2006) (citations omitted). We review standing
issues de novo. Nat’l Rifle Ass’n of Am., Inc. v. McCraw,
719 F.3d 338, 343 (5th Cir. 2013) (citation omitted).
Accepting their factual allegations, summarized
above, as true, we hold that the States satisfy the three
requirements for standing. First, the States alleged a
particular injury in fact: having to pay millions of dollars
in Provider Fees despite the ACA’s explicit exemption
for governmental entities. Second, the States’ injury is
arguably traceable to the Certification Rule. They
contend that before the Board published ASOP 49, which
is applied to the States via the Certification Rule,
actuaries were advised that their capitation rate analysis
must comport with state and federal law and that before

12a
Congress enacted the ACA, federal taxes were minor
and not separately considered. ASOP 49, the States say,
required them to pay the Provider Fee as part of their
actuarially sound capitation rates. Though the facts
underlying this argument of how the capitation rates
worked under the Certification Rule before and after
ASOP 49 are contested, we assume the States’ view of
the facts to be true for purposes of standing. See Lujan,
504 U.S. at 561. The attacks on ASOP 49, which have
been applied to the States through the Certification
Rule, are the core of this argument. Third, the States
have alleged that their injury is likely to be redressed by
invalidating the Certification Rule. They allege that
before ASOP 49’s adoption and application to the States
via the Certification Rule, states still had the legal option
to exclude the Provider Fee from capitation rates in their
contracts with MCOs. Thus, they argue that in the rule’s
absence, states could not lose Medicaid funding for
refusing to pay the Provider Fee “by virtue of that rule.”
See Larson v. Valente, 456 U.S. 228, 242 (1982) (holding
that setting aside an allegedly unlawful statutory
provision that compels plaintiffs to register and report
redresses the plaintiffs’ alleged injury of registering and
reporting because, even though the plaintiffs could be
compelled to register and report through another
statutory provision, they will no longer be compelled to
do so under the statutory provision at issue). Were we to
rule in their favor, the Certification Rule would be
invalidated and ASOP 49’s explicit requirement to pay
the Provider Fee would be removed.
The United States counters that the States’ injury
would not be redressed by invalidating the Certification
Rule because States are required to account for the

13a
Provider Fee under 42 U.S.C. § 1396b(m)(2)(A)(iii).
Indeed, as the United States notes, the States were still
required to account for the Provider Fee under § 1396b
after the district court invalidated the Certification Rule.
Notably, the States don’t challenge § 1396b here. 8
However true the United States’s argument may be,
the invalidation of the Certification Rule (and thereby,
the removal of requiring compliance with ASOP 49)
nonetheless would remove one explicit requirement to
pay the Provider Fee. To be sure, the States may still be
required to pay the Provider Fee under § 1396b, but this
statutory injury is not complained of here. Barrett
Comput. Servs., Inc. v. PDA, Inc., 884 F.2d 214, 218 (5th
Cir. 1989) (‘[S]tanding concerns the right of a party to
bring a particular suit.” (emphasis added)). Here, the
States allege they were directly forced to pay the
Provider Fee per ASOP 49 and the Certification Rule.
Larson, 456 U.S. at 242–43 (finding standing when
appellants contested a “rule [that] was the sole basis for”
the “discrete injury” that “gave rise to the present suit”).
As such, the States attack an injury caused by the
Certification Rule. Therefore, though the States may
still have to pay the Provider Fee under § 1396b, success
here will nonetheless remove one of two legal barriers to
defeating this obligation—in other words, the States will
no longer “be required to [pay the Provider Fee] by
virtue of [ASOP 49 and the Certification Rule].” Id. at
242. Taking the States’ factual allegations to be true, see
The States have filed a second lawsuit, this time claiming that
§ 1396b(m)(2)(A)(iii) is being improperly interpreted and seeking to
enjoin the IRS from collecting the Provider Fee from them.
Complaint at 15, Texas v. United States (Texas II), No. 4:18-CV00779 (N.D. Tex. Sept. 20, 2018), ECF No. 1.
8

14a
Lujan, 504 U.S. at 561, we conclude that the States have
alleged that the injury complained of in this case is
redressable with a favorable decision. In sum, we hold
that the States have standing to raise their Certification
Rule claims. (Again, focusing solely on whether,
assuming the facts in the States’ favor, there is a
traceable, redressable injury in fact.)
2. Statute of Limitations
However, we lack jurisdiction to address the States’
APA claims because they are time-barred. APA
challenges are governed by 28 U.S.C. § 2401(a), which
provides that “every civil action commenced against the
United States shall be barred unless the complaint is
filed within six years after the right of action first
accrues.” The United States enjoys sovereign immunity
unless it consents to suit, “and the terms of its consent
circumscribe our jurisdiction.” Dunn-McCampbell
Royalty Interest, Inc. v. Nat’l Park Serv., 112 F.3d 1283,
1287 (5th Cir. 1997) (citation omitted). “The applicable
statute of limitations is one such term of consent,” so,
unlike the ordinary world of statutes of limitations, here
the failure to sue the United States within the limitations
period deprives us of jurisdiction. Id.
HHS published the Certification Rule in 2002,
thirteen years before the States filed their complaint.
See 2002 Final Rule, 67 Fed. Reg. at 40,989. However, a
plaintiff may “challenge . . . a regulation after the
limitations period has expired” if the claim is that the
“agency exceeded its constitutional or statutory
authority. To sustain such a challenge, the claimant must
show some direct, final agency action involving the
particular plaintiff within six years of filing suit.” DunnMcCampbell, 112 F.3d at 1287. An agency’s action is

15a
direct and final when two criteria are satisfied. “First,
the action must mark the ‘consummation’ of the agency’s
decisionmaking process.” Bennett v. Spear, 520 U.S. 154,
177–78 (1997) (citation omitted). “[S]econd, the action
must be one by which rights or obligations have been
determined, or from which legal consequences will flow.”
Id. at 178 (quotation omitted). These rights, obligations,
or legal consequences must be new. Nat’l Pork
Producers Council v. U.S. E.P.A., 635 F.3d 738, 756 (5th
Cir. 2011).
The district court concluded that HHS took three
“direct, final agency actions” in 2015 against the States
and that those actions triggered a new six-year statute
of limitations period. Texas I, 300 F. Supp. 3d at 839
(citation omitted). But, as the United States argues, none
of these actions were direct and final.
First, the district court pointed to a 2015 letter sent
by HHS to the Texas Medicaid Director approving
Texas’s amended MCO contract, which included
Provider Fees in the capitation rates for additional
groups of Medicaid beneficiaries. Id. This letter does not
show that HHS was issuing a new ruling requiring Texas
to include Provider Fees in its capitation rates. Further,
Texas paid costs associated with Provider Fees for the
2013 calendar year even though the 2015 letter applied
only from May 1, 2015 to August 31, 2015. Thus, even
before the letter, Texas accounted for the Provider Fee
in its capitation rates. The letter did not mark a change
to Texas’s obligation under the Certification Rule.
Second, the district court stated that the
government’s collection of the Provider Fee through the
States’ 2015 capitation rate constituted direct, final
agency action. Id. But, as explained above, the IRS does

16a
not collect the Provider Fee directly from states. The
government’s decision to collect from MCOs is not a
“direct . . . action involving the [States].” See DunnMcCampbell, 112 F.3d at 1287. As such, this argument
does not support the district court’s conclusion.
Third, the district court stated that HHS’s 2015
guidance document “for use in setting [capitation] rates
. . . for any managed care program subject to the
actuarial soundness requirements” obligated the States
to include the cost of the Provider Fee in their capitation
rate calculations in 2015. Texas I, 300 F. Supp. 3d at 839–
40 (citation omitted). Once again, the guidance document
did not create any new obligations or consequences; it
restated that for capitation rates to be actuarially sound,
they had to be consistent with ASOPs, including ASOP
49. But this requirement has existed since HHS
promulgated the Certification Rule. See 2002 Final Rule,
67 Fed. Reg. at 41,097 (requiring that capitation rates be
“certified . . . by actuaries who . . . follow the practice
standards established by the Actuarial Standards
Board”). The publication of ASOP 49 in 2015 did not
create any new obligation or legal consequence either.
Actuarially sound capitation rates have consistently
required that all reasonable, appropriate, and attainable
costs be covered by rates; this includes all taxes, fees,
and assessments.
We conclude that HHS took no direct, final agency
action in 2015 to create a new obligation. The States
identified no other such action that occurred after 2009
(when the six-year statute of limitations expired). We
thus reverse the district court’s judgment on the States’
APA claims and dismiss those claims as time barred.

17a
3. Nondelegation Doctrine
Because we lack jurisdiction over the States’ APA
claims, the only claim we address on the merits is
whether HHS unlawfully delegated authority to the
Board when it promulgated the Certification Rule. The
United States argues that the Certification Rule was not
an unlawful delegation because HHS simply “prescribed
the conditions” necessary to receive federal funds. See
Currin v. Wallace, 306 U.S. 1, 16 (1939) (brackets
omitted). The States disagree, arguing that the
Certification Rule impermissibly gave the Board and its
actuaries—private actors—a discretionary veto over
HHS’s approval of States’ Medicaid contracts, as well as
the power to define the content of a federal law as it
applies to someone else. The district court held that the
Certification Rule unlawfully vested in the Board and its
actuaries the legislative power to set rules on actuarial
soundness and to veto executive action that does not
comply with such rules. Texas I, 300 F. Supp. 3d at 843–
48. We hold that it did not.
A federal agency may not “abdicate its statutory
duties” by delegating them to a private entity. See Sierra
Club v. Lynn, 502 F.2d 43, 59 (5th Cir. 1974). But an
agency does not improperly subdelegate its authority
when it “reasonabl[y] condition[s]” federal approval on
an outside party’s determination of some issue; such
conditions only amount to legitimate requests for input.
See, e.g., U.S. Telecom Ass’n v. FCC, 359 F.3d 554, 566–
67 (D.C. Cir. 2004). Therefore, the primary inquiry here
is whether HHS’s requirements—that state-MCO
contracts be certified by a qualified actuary and that the
Board’s practice standards be followed—were

18a
reasonable conditions for approving the contracts. See
id. at 567.
A condition is reasonable if there is “a reasonable
connection between the outside entity’s decision and the
federal agency’s determination.” Id. By way of example,
the Third Circuit has upheld a U.S. Department of
Homeland Security’s (“DHS’s”) regulation requiring H2B visa employers to first obtain a temporary labor
certification from the U.S. Department of Labor
(“DOL”). La. Forestry Ass’n v. Sec’y U.S. Dep’t of Labor,
745 F.3d 653, 672–73 (3d Cir. 2014). In so doing, the Third
Circuit observed that there was a reasonable connection
in DHS conditioning an H-2B visa on a certification from
DOL: Congress charged DHS with admitting aliens into
the United States to perform temporary work that
cannot be performed by unemployed persons in this
country,
id.
at
672
(citing
8
U.S.C.
§§ 1101(a)(15)(H)(ii)(b), 1184(c)(1)), and DOL could help
in that analysis by bringing to bear its “institutional
expertise in labor and employment matters,” La
Forestry Ass’n, 745 F.3d at 673. 9

The Tenth Circuit, in an unpublished opinion, held opposite to
the Third Circuit and concluded that DHS subdelegated authority
to DOL. G.H. Daniels III & Assocs., Inc. v. Perez, 626 F. App’x 205,
211 (10th Cir. 2015). It determined that DOL’s certification was not
a condition for granting agency approval because DOL has the final
say when it denies a certification. Id. But that is the nature of
conditions: any condition, if not satisfied, prevents federal approval.
By the Tenth Circuit’s logic, it seems that every third-party
condition for granting federal agency approval is a subdelegation.
That result is impossible to square with the very existence of a
condition analysis. See U.S. Telecom, 359 F.3d at 565–68. The Third
Circuit’s reasoning is therefore more persuasive.
9

19a
The Certification Rule’s conditions for actuarial
soundness, like the DHS conditions addressed by the
Third Circuit, 10 are reasonable. Congress requires
capitation rates to be actuarially sound, as defined by
HHS. See 42 U.S.C. § 1396b(m)(2)(A)(xiii). HHS imposed
the Certification Rule as a condition for actuarial
soundness. 42 C.F.R. § 438.6(c)(1)(i)(C). Certification by
a qualified actuary who applies the Board’s standards is
reasonably connected to ensuring actuarially sound rates
because the Board and a qualified actuary have
institutional expertise in actuarial principles and
practices. Indeed, HHS simply incorporated the Board’s
actuarial standards into its Certification Rule, a common
and accepted practice by federal agencies. See Am. Soc’y
for Testing & Materials v. PublicResourceOrg, Inc., 896
F.3d 437, 442 (D.C. Cir. 2018) (noting that federal
agencies have incorporated by reference over 1,200
standards established by private organizations); 11
Amerada Hess Pipeline Corp. v. F.E.R.C., 117 F.3d 596,
601 (D.C. Cir. 1997) (holding that a federal agency did
not abdicate its authority by adopting generally accepted
accounting principles, noting that it would be anomalous
to accord agency deference when an agency invented
Although the Certification Rule differs from the DHS
condition in Louisiana Forestry insofar as the Certification Rule
incorporates the standards of and requires approval by private
entities, this private/public distinction is not relevant to our
analysis. See U.S. Telecom, 359 F.3d at 566 (rejecting the argument
that the “limitations on an administrative agency’s power to
subdelegate might be less stringent if the delegee is a sovereign
entity rather than a private group”). Louisiana Forestry therefore
remains on-point and instructive.
11
Therefore, accepting the States’ argument would jeopardize
over a thousand regulations promulgated by federal agencies.
10

20a
standards but not when an agency’s expertise led the
agency to incorporate standards endorsed by experts in
the field). Thus, as the United States remarked, “HHS
could achieve exactly the same result by promulgating
regulations that adopted the substance of the . . . Board’s
standards.” Accordingly, we hold that the Certification
Rule’s actuarial certification requirement and
incorporation of the Board’s practice standards are
reasonable conditions, not subdelegations of authority.
But, even assuming arguendo that HHS
subdelegated authority to private entities, such
subdelegations were not unlawful. Agencies may
subdelegate to private entities so long as the entities
“function subordinately to” the federal agency and the
federal agency “has authority and surveillance over
[their] activities.” Sunshine Anthracite Coal Co. v.
Adkins, 310 U.S. 381, 399 (1940); cf. Lynn, 12 502 F.2d at
59 (holding that total delegation or “rubber stamping” is
impermissible). An agency retains final reviewing
authority if it “independently perform[s] its reviewing,
analytical and judgmental functions.” Lynn, 502 F.2d at
59. We have therefore held, for instance, that a federal
agency’s requirement that depreciation expenses reflect
“state regulator approved depreciation rates” was not an
unlawful subdelegation because the agency “exercised
its role when it initially reviewed and accepted the . . .
See also R.H. Johnson & Co. v. SEC, 198 F.2d 690, 695 (2d
Cir. 1952) (holding that an agency did not unconstitutionally
subdelegate powers to a private entity because the agency retained
power to approve or disapprove rules and to review disciplinary
actions); Nat’l Park & Conservation Ass’n v. Stanton, 54 F. Supp.
2d 7, 19 (D.D.C. 1999) (“Delegations by federal agencies to private
parties are, however, valid so long as the federal agency or official
retains final reviewing authority.” (citations omitted)).
12

21a
incorporati[on] [of] the state agencies’ depreciation
rates.” 13 La. Pub. Serv. Comm’n v. F.E.R.C., 761 F.3d
540, 551–52 (5th Cir. 2014). The D.C. Circuit has even
come to similar results with respect to approvals hinging
on the work of private actuarial entities like those at
issue in this case. Tabor v. Joint Bd. for Enrollment of
Actuaries, 566 F.2d 705, 708 & n.5 (D.C. Cir. 1977)
(holding that an agency may subdelegate certain
components of actuary certification for administering
federal pension plans to a private agency because the
certification process was “superintended by the [agency]
in every respect,” insofar as the agency ultimately
certified each actuary). 14

13
We also noted that the federal agency would “continue to
exercise oversight of the state rates in a Section 206 complaint
proceeding,” which provides that any entity that wants to change
the depreciation rates may seek modification with the agency
through a Section 206 filing. La. Pub. Serv. Comm’n, 761 F.3d at
552. States retain a similar recourse here: any state dissatisfied with
the Board’s practice standards can petition HHS for “amendment[]
or repeal” of the Certification Rule’s requirement that the Board’s
practice standards be followed. See 5 U.S.C. § 553(e).
14
Applying similar reasoning, the D.C. Circuit also upheld an
agency regulation that permitted nonprofit organizations to stage
political candidacy debates so long as they “use[d] pre-established
objective criteria to determine which candidates may participate in
a debate.” Perot v. FEC, 97 F.3d 553, 556, 559–60 (D.C. Cir. 1996)
(per curiam) (quoting 11 C.F.R. § 110.13). Although the agency gave
private entities “the latitude to choose their own ‘objective criteria,’”
such private entities acted at their peril if they did not first secure
an agency advisory opinion that their criteria were satisfactory.
Perot, 97 F.3d at 560. The court thus determined that “[t]he
authority to determine what the term ‘objective criteria’ means
rest[ed] with the agency” and held that the agency did not
unconstitutionally subdelegate legislative authority. Id.

22a
Here, HHS’s subdelegation of certain actuarial
soundness requirements to the Board did not divest
HHS of its final reviewing authority. HHS “reviewed and
accepted” the Board’s standards. See La. Pub. Serv.
Comm’n, 761 F.3d at 552; accord 2002 Final Rule, 67
Fed. Reg. at 40,998. Further, HHS has the ultimate
authority to approve a state’s contract with MCOs;
certification is a small part of the approval process. To
obtain HHS approval of its capitation rate for
reimbursement purposes, a state sends its MCO contract
to the appropriate HHS Regional Office. If the state
provides all required documentation, the Office of the
Actuary (“OACT”), an office within HHS, will begin its
actuarial review. OACT reviews the contract by looking
at all of the assumptions, data, and methodology in the
rate certification to ensure the certification is consistent
with actuarial principles and methods. If OACT
determines that the capitation rates are actuarially
sound, it will write a memo confirming this conclusion
and send the contract to HHS’s Center for Medicaid and
CHIP (Children’s Health Insurance Program) Services 15
for final review. The Center will then review the rate
certification and OACT’s memo and approve the contract
if it finds no issues. The contract approval process is
closely “superintended by [HHS] in every respect.” See
Tabor, 566 F.2d at 708 n.5. Therefore, even assuming
arguendo that HHS subdelegated certain actuarial
The Center for Medicaid and CHIP Services is the component
of HHS that is “responsible for the various components of policy
development and operations for Medicaid, [CHIP], and the Basic
Health Program . . . .” See Organization, C TRS. FOR MEDICARE &
MEDICAID
SERVS.,
http://www.medicaid.gov/aboutus/organization/index.html (last visited July 17, 2020). In that
regard, the Center oversees state-MCO contract approvals.
15

23a
soundness requirements to third parties, we hold that
HHS’s subdelegations were lawful.
B. Section 9010 Claims 16
The States raise two constitutional challenges
against Section 9010. They claim that it violates the
Spending Clause and the Tenth Amendment doctrine of
intergovernmental tax immunity. We address each claim
in turn and hold that Section 9010 does not violate either
constitutional provision.
1. Spending Clause
The parties contest whether the Spending Clause
applies to Section 9010 at all. The United States argues
that Section 9010 is instead a constitutional tax that
Congress imposed under its taxing power, which fully
resolves the Spending Clause claim. The States argue
that the Provider Fee, as applied to them, functions as a
condition on spending and thus implicates the Spending
Clause. We hold that the Provider Fee is a constitutional
tax that fully resolves the States’ Spending Clause claim
and does not impose a condition on spending.

While the United States does not contest standing on this, we
note that the States have standing for their Provider Fee claims.
See Adarand Constructors, Inc. v. Mineta, 534 U.S. 103, 110 (2001)
(per curiam) (citation omitted) (holding that courts must examine
standing sua sponte if it has erroneously been assumed below). The
States allege that they were injured when they were forced to pay
the Provider Fee. This injury is traceable to the United States’s
allegedly unlawful conduct of enforcing Section 9010 after Congress
imposed the Provider Fee as part of the ACA. See PPACA § 9010(a),
124 Stat. at 865. Invalidating the Provider Fee would thus redress
the States’ claimed injury.
16

24a
For a payment requirement to qualify as a tax, it
must “produce[] at least some revenue for the
Government.” Nat’l Fed’n of Indep. Bus. v. Sebelius
(NFIB), 567 U.S. 519, 564 (2012). In addition, the
Supreme Court has identified three factors to be
considered in determining whether a payment
requirement is a tax rather than a penalty: (1) whether
the tax is enforced by the IRS; (2) whether the tax
“impose[s] an exceedingly heavy burden”; and (3)
whether the tax has a scienter requirement, which is
typical of a penalty. Id. at 565–66. The Provider Fee
produces revenue for the United States and satisfies at
least two of the three factors. 17 The Provider Fee is
enforced by the IRS, see 26 C.F.R. § 57.8, and applies to
any covered entity regardless of scienter, PPACA
§ 9010(a), 124 Stat. at 865. Indeed, several Supreme
Court justices have noted that the Provider Fee is a tax.
See NFIB, 567 U.S. at 694, 698 (Scalia, Kennedy, Thomas
& Alito, JJ., dissenting) (identifying Section 9010 as an
“excise tax”). So have the parties.
Section 9010’s constitutionality as a legitimate tax
fully resolves the States’ Spending Clause claim. See id.
at 561, 563 (holding that even though the ACA’s
individual mandate was unconstitutional under the
Commerce Clause, it would uphold the mandate if it were
constitutional under the taxing clause). Although the
States argue that Section 9010 imposes a condition on
their Medicaid funding, we conclude that it does not. See
The record does not indicate what percentage of a covered
entity’s net revenue is allocated to paying the Provider Fee. Thus,
we cannot evaluate whether the Provider Fee “impose[s] an
exceedingly heavy burden,” see NFIB, 567 U.S. at 565, but the
absence of such evidence does not support the States’ argument.
17

25a
PPACA § 9010(a), 124 Stat. at 865. The specific Medicaid
funding condition that the States contest is in the
Medicaid Act. 42 U.S.C. § 1396b(m)(2)(A)(iii) (requiring
that for states to receive Medicaid reimbursement, their
expenditures “for payment . . . under a prepaid
capitation basis . . . for services provided by any entity
. . . [must be] made on an actuarially sound basis”). The
States do not contest the constitutionality of this
section, 18 and they thus do not have a Spending Clause
claim. In sum, we hold that the Provider Fee is a
constitutional tax that does not violate the Spending
Clause.
2.

Tenth Amendment—Intergovernmental Tax
Immunity

Although a constitutional tax properly enacted
through Congress’s taxing power is generally not subject
to other constitutional provisions, the Tenth Amendment
doctrine of intergovernmental tax immunity imposes two
limitations when the federal government imposes an
indirect tax, like Section 9010, on states. See South
Carolina v. Baker, 485 U.S. 505, 523 (1988). 19 First, the
tax must not discriminate against states or those with
whom they deal. Id.
Indeed, they conceded as much at oral argument.
A tax is imposed directly on states only “when the levy falls
on the [states themselves], or on an agency or instrumentality so
closely connected to” the states that the agency or instrumentality
cannot be viewed as separate from the states. Baker, 485 U.S. at 523
(internal quotation marks and citation omitted). MCOs are not so
closely connected to the states that they cannot be viewed as
separate from them. See PPACA § 9010(c)(1), 124 Stat. at 866
(defining a “covered entity” as “any entity which provides health
insurance for any United States health risk”).
18
19

26a
Second, the “legal incidence” of the tax may not fall
on states. United States v. Fresno Cty., 429 U.S. 452, 459
(1977). We hold that Section 9010 satisfies both
requirements.
a. Discrimination Against Entities
The Provider Fee is nondiscriminatory because it is
imposed on “any entity which provides health
insurance,” subject to certain non-state-based
exclusions. PPACA § 9010(c), 124 Stat. at 866. It does not
impose the Provider Fee on only states, nor on only those
MCOs that deal with states. Thus, there is no unlawful
discrimination, meaning MCOs contracting with states
may impose “part or all of the financial burden” of the
Provider Fee on the States. See Baker, 485 U.S. at 521
(citations omitted).
The States make two arguments on this point, both of
which are misplaced. First, the States argue that the
Provider Fee discriminates against them because states
are the only entities that run Medicaid programs and are
the only government entities that stand to lose their
exemption under Section 9010(c)(2)(B) as a result of the
actuarial-soundness requirement. But the discrimination
inquiry asks who Congress targets, not who ultimately
bears the economic burden of paying the tax. See id.
(stating that the Supreme Court has “completely
foreclosed any claim that the nondiscriminatory
imposition of costs on private entities that pass them on
to States . . . unconstitutionally burdens state . . .
functions”); Washington v. United States, 460 U.S. 536,
543–44 (1983) (holding that the discrimination analysis
does not consider whether the tax burden would
necessarily shift to state actors).

27a
Second, the States argue that the Provider Fee
discriminates against them because the fee has a
disproportionate economic impact on them. They claim
that because their contracts with MCOs have historically
low profit margins, the MCOs pass the entire economic
burden of the Provider Fee on to the states. They thus
argue that states shoulder a harsher economic burden
than other MCOs, which could afford to pay a portion of
the Provider Fee.
Washington, which the States cite as support, holds
that whether an unfair economic burden is
discriminatory depends on “the whole tax structure of
the state.” 460 U.S. at 545 (citation omitted). In that case,
the Supreme Court held that the state’s tax did not single
out contractors who worked for the United States for
discriminatory treatment because the “tax on federal
contractors [was] part of the same [tax] structure, and
imposed at the same rate, as the tax on the transactions
of private landowners and contractors.” Id. Here, the
Provider Fee is similarly imposed at the same rate for all
entities, so there is no unfair economic burden. See
PPACA § 9010(b)(1), 124 Stat. at 865. We thus hold that
the Provider Fee is nondiscriminatory.
b. Legal Incidence
We also hold that the legal incidence of the Provider
Fee does not fall on states. Legal incidence is determined
by the “clear wording of the statute,” not “by who is
responsible for payment to the state of the exaction.”
United States v. State Tax Comm’n of Miss., 421 U.S.
599, 607–08 (1975) (cleaned up). For example, a state tax
statute that directs each vendor in the state to “add to
the sales price and [to] collect from the purchaser the full
amount of the tax imposed” is a statute that “imposes the

28a
legal incidence of the tax upon the purchaser” because
the text of the statute indisputably provides that the tax
“must be passed on to the purchaser.” First Agric. Nat’l
Bank of Berkshire Cty. v. State Tax Comm’n, 392 U.S.
339, 347 (1968) (citations omitted).
Here, as the States concede, Congress did not intend
to tax States because the statute’s “clear wording” shows
that Congress clearly and expressly excluded states
from the Provider Fee. See PPACA § 9010(c)(2)(B), 124
Stat. at 866; accord State Tax Comm’n of Miss., 421 U.S.
at 607. It is also clear and “indisputable” that Section
9010 “by its terms” does not pass on the Provider Fee to
states. See First Agric. Nat’l Bank, 392 U.S. at 347.
Thus, the legal incidence of the Provider Fee does not
fall on states.
The States misunderstand the meaning of legal
incidence. They argue that the legal incidence falls on
them because all of the economic burden of the Provider
Fee is charged to the States. But, as stated above, the
question is not who practically bears the responsibility
for paying the tax. See State Tax Comm’n of Miss., 421
U.S. at 607–08; see also Baker, 485 U.S. at 521 (citations
omitted) (upholding a nondiscriminatory tax collected
from private parties as constitutional “even though . . .
all of the financial burden f[ell] on the other
government”). The States also argue that because the
legal consequence of not paying the Provider Fee falls on
them, so too does its legal incidence; if they do not pay
the Provider Fee, then they lose Medicaid funding.
Assuming arguendo that the States’ interpretation of
healthcare law is correct, the Supreme Court explicitly
held that legal incidence is not defined as “the legally
enforceable, unavoidable liability for nonpayment of [a]

29a
tax.” State Tax Comm’n of Miss., 421 U.S. at 607
(citation omitted).
In sum, we conclude that the Provider Fee does not
discriminate against states or those with whom they deal
because it is imposed on any entity that provides health
insurance (with certain exclusions). We also conclude
that the legal incidence of the Provider Fee does not fall
on the states because Congress expressly excluded
states from paying the fee. Accordingly, we hold that
Section 9010 does not violate the Tenth Amendment
doctrine of intergovernmental tax immunity.
IV. Conclusion
For the foregoing reasons, we AFFIRM the district
court’s ruling that the States had standing. But we
REVERSE the district court’s ruling that the States’
APA claims were not time-barred and DISMISS the
States’ APA claims for lack of jurisdiction. On the merits,
we AFFIRM the district court’s judgment that Section
9010 does not violate the Spending Clause or the Tenth
Amendment, but we REVERSE the district court’s
judgment that the Certification Rule violates the
nondelegation doctrine and RENDER judgment in favor
of the United States. We thus VACATE the district
court’s grant of equitable disgorgement, 20 as there is
nothing to remedy

Therefore, we do not reach the issues surrounding the validity
of such a remedy in this context.
20

30a
A PP ENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
STATE OF TEXAS, et al.,
§
Plaintiffs,
§
v.
§
§
United State of America, §
et al.,
§
§
Defendants.
§

§
§
Civil Action
No. 7:15-cv-00151-O

MEMORANDUM OPINION AND ORDER
This case is about the lawfulness of a tax in the
Patient Protection and Affordable Care Act (“ACA”) and
of a regulation that the United States Department of
Health and Human Services (“HHS”) uses to implement
it. The ACA imposed a tax on medical providers but
exempted the states from paying it. Notwithstanding
Congress’s direction in the ACA, the HHS regulation
effectively requires the states to pay this tax. Plaintiffs
now challenge both the tax and the regulation. Because
Plaintiffs have standing to challenge both, the Court
must decide the legality of each.
The Court concludes that the challenged ACA tax is
lawful, offending neither the structure nor substance of
the Constitution. But the HHS regulation violates the
non-delegation doctrine, delegating to a private entity
the authority to decide who must pay this tax. Pursuant

31a
to that unlawful delegation, the private entity decreed
that the states must pay this tax, contrary to Congress’s
express directive. HHS’s unlawful delegation enabled a
private entity to effectively rewrite the ACA, wrongfully
forcing Plaintiffs to pay this tax. It is therefore the
regulation—not the tax—that harms Plaintiffs. For the
reasons that follow, the Court will GRANT in part
Plaintiffs’ claims challenging the regulation and declare
the offending regulation “contrary to constitutional
right, power, privilege, or immunity,” and “in excess of
statutory jurisdiction, authority, or limitations, or short
of statutory right . . . .” 5 U.S.C. § 706(2)(B)–(C). The
Court will DENY Plaintiffs’ claims challenging the tax. 1

1
Before the Court are Plaintiffs’ Motion for Summary
Judgment and Brief and Appendix in Support (ECF Nos. 53–54),
filed January 6, 2017; Defendants’ Motion for Summary Judgment
and Response in Opposition to Plaintiffs’ Motion for Summary
Judgment and Brief and Appendix in Support (ECF Nos. 62–63),
filed June 5, 2017; Plaintiffs’ Reply in Support of their Motion for
Summary Judgment and Response in Opposition to Defendants’
Motion for Summary Judgment (ECF No. 66), filed June 23, 2017;
and Defendants’ Reply in Support of their Motion for Summary
Judgment (ECF No. 67), filed July 13, 2017. Defendants filed an
additional Response to Plaintiffs’ Motion for Summary Judgment
(ECF No. 64) that appears identical to the Brief in Support of
Defendants’ Motion for Summary Judgment (ECF No. 63).
Also before the Court are Defendants’ Motion to Strike
Plaintiffs’ Expert Designations and Brief in Support (ECF Nos. 68–
69), filed July 13, 2017; Plaintiffs’ Motion to Strike Defendants’
Experts Golden and Truffer and Brief in Support (ECF Nos. 70–
71), filed July 13, 2017; Plaintiffs’ Response in Opposition to
Defendants’ Motion to Strike (ECF No. 72), filed August 3, 2017;
Defendants’ Response in Opposition to Plaintiffs’ Motion to Strike
(ECF No. 73), filed August 3, 2017; Plaintiffs’ Reply in Support of
their Motion to Strike (ECF No. 74), filed August 9, 2017; and

32a
Accordingly, having considered the motions, related
briefing, and applicable law, the Court finds that
Plaintiffs’ Motion for Summary Judgment (ECF No. 53)
should be and is hereby GRANTED in part and
DENIED in part; and Defendants’ Motion for Summary
Judgment (ECF No. 62) should be and is hereby
GRANTED in part and DENIED in part. 2
I. BACKGROUND
Plaintiffs (alternatively, “Plaintiff States”) are the
States of Texas, Indiana, Kansas, Louisiana, Nebraska,
and Wisconsin. Am. Compl. 1, ECF No. 19. Defendants
are the United States of America (the “Government”);
the United States Department of Health and Human
Services; Alex Azar, in his official capacity as Secretary
Defendants’ Reply in Support of their Motion to Strike (ECF No.
75), filed August 17, 2017.
On October 25, 2017, the lead counsel for Plaintiffs and
Defendants appeared at a hearing on their motions and presented
oral arguments. Elec. Min. Entry, ECF No. 81. On November 1,
2017, the Court ordered supplemental briefing on the timeliness of
Plaintiffs’ Administrative Procedure Act claims. Nov. 1, 2017 Order,
ECF No. 82. The parties filed supplemental briefs. Before the Court
are Plaintiffs’ Supplemental Brief in Support of their Motion for
Summary Judgment (ECF No. 83), filed November 13, 2017;
Defendants’ Response to Plaintiffs’ Supplemental Brief in Support
of their Motion (ECF No. 84), filed November 22, 2017; and
Plaintiffs’ Supplemental Reply in Support of their Motion (ECF No.
86), filed November 27, 2017.
2
The Court finds that Defendants’ Motion to Strike Plaintiffs’
Expert Designations (ECF No. 68) should be and is hereby
DENIED because Plaintiffs’ challenged experts are qualified under
Rule 702. See FED. R. EV. 702. The Court finds that Plaintiffs’
Motion to Strike Defendants’ Experts (ECF No. 70) should be and
is hereby DENIED because Defendants’ failure to comply with Rule
26(a) was harmless. See FED. R. CIV. P. 26(a).

33a
of HHS 3; the United States Internal Revenue Service
(the “IRS”); and David Kautter, in his official capacity as
Acting Commissioner of the IRS. 4 Id. at 1–2. Plaintiffs
allege that Defendants, in violation of the ACA, the
Administrative Procedure Act (the “APA”), and the
United States Constitution, require them to pay the
ACA’s Health Insurance Providers Fee (the “HIPF”) to
the managed care organizations (the “MCOs”) who
contract with them to service their Medicaid recipients.
Id. at 3–19.
In the ACA, Congress expressly exempted states
from paying the HIPF. ACA § 9010(c)(2)(B) (2010); see
26 C.F.R. § 57.2(b)(2)(ii)(B). This effectively changed in
March of 2015, when the Actuarial Standards Board (the
“ASB”)—a private organization that sets practice
standards for private actuaries certified by the American
Academy of Actuaries (the “AAA”)—enacted Actuarial

3
Plaintiffs initially sued Sylvia Burwell in her official capacity
as Secretary of HHS. See Compl., ECF No. 1. On January 24, 2018,
the United States Senate confirmed Alex Azar as Secretary of HHS.
Daniella Diaz, Senate Confirms HHS Secretary Nominee Alex
Azar, CNN POLITICS (Jan. 24, 2018, 3:01 PM), https://
www.cnn.com/2018/01/24/politics/alex-azar-confirmationdepartment-of-health-and-human-services/ index.html.
4
Plaintiffs initially sued John Koskinen in his official capacity
as Commissioner of the IRS. See Compl., ECF No. 1. Commissioner
Koskinen left the office at the completion of his term on November
12, 2017, and pursuant to a Presidential designation, Acting
Commissioner David Kautter assumed the office as an interim
replacement. Alexis Leonidis, White House Names Treasury’s
David Kautter as Interim IRS Head, BLOOMBERG POLITICS (Oct.
26, 2017, 8:36 AM), https://www.bloomberg.com/news/articles/201710-26/white-house-names-treasury-s-david-kautter-as-interim-irshead.

34a
Standard of Practice Number 49 (“ASOP 49”). 5 ASOP 49
forbids AAA actuaries from certifying any Medicaid
contract between a state and an MCO unless the contract
requires the state to pay the HIPF to the MCO. See
ASOP 49 § 3.2.12(d). 6 Without this AAA certification, the
Centers for Medicare & Medicaid Services (“CMS”)—a
component of HHS—will not approve the MCO contract.
See 42 C.F.R. § 438.6(c)(1)(i)(A)–(C) (2002) [hereinafter
“the Certification Rule”]. 7 If CMS does not approve the
contract, the state becomes ineligible for Medicaid
funding. See 42 U.S.C. § 1396b(m)(2)(iii). The end result
is that by delegating this certification power to the ASB,
HHS effectively requires states to pay the HIPF—even
though Congress exempted them from doing so—or risk
losing Medicaid funds. 8
The ACA, the HIPF, and the Certification Rule
interact with several public health programs. The first of
these programs actually began in 1965, when Congress
5
ACTUARIAL S TANDARDS BOARD, Actuarial Standard of
Practice No. 49: Medicaid Managed Care Capitation Rate
Development
and
Certification
(Mar.
2015),
http://www.actuarialstandardsboard.org/wp-content/
uploads/2015/03/asop049_179.pdf.
6
AAA actuaries must keep all ASOPs or face professional
discipline. Pls.’ App. 197, 1102, ECF No. 54-1.
7
The Certification Rule is now codified at 42 C.F.R. §§ 438.2–
438.4.
8
The states also contract with MCOs to deliver Child Health
Insurance Program (“CHIP”) services, and another HHS
regulation requires an AAA actuary to certify CHIP MCO contracts
in accordance with the Certification Rule. See 42 C.F.R. § 457.1203.
States must therefore pay the HIPF in their CHIP MCO contracts
as well, or risk losing CHIP funding. Because Medicaid and CHIP
operate virtually identically in respect to this litigation, all
references to Medicaid shall also include CHIP.

35a
enacted, and President Lyndon Johnson signed into law,
the Medicaid program. See Social Security Amendments
Act of 1965, Pub. L. 89-97, 79 Stat. 286 (1965). Medicaid
subsidizes states to provide healthcare to low-income
families; children; related caretakers of dependent
children; pregnant women; people aged 65 years and
older; and adults and children with disabilities. See 42
U.S.C. §§ 1396–1396w. To receive Medicaid subsidies,
states must provide coverage to a federally mandated
category of individuals according to a federally approved
state plan. See 42 U.S.C. § 1396a; 42 C.F.R. §§ 430.10–
430.12. Plaintiffs participate in the program, providing
Medicaid services and receiving Medicaid subsidies. See
79 Fed. Reg. 3385. Plaintiffs provide these services at
substantial cost. See, e.g., Pls.’ App. 1168–74, ECF No.
54-1. For example, in 2015 Texas spent 28.6% of its
budget on Medicaid, serving 4.06 million Texans—
around one in seven members of its population. 9 The
other Plaintiff States likewise provide Medicaid to
millions of their citizens at the cost of a considerable
portion of their annual budgets. See Pls.’ Br. Supp.
Summ. J. 8 n.23–29, ECF No. 54 (citing data)
[hereinafter “Pls.’ Br.”]. 10
TEXAS H EALTH A ND HUMAN SERVS. COMM’N, TEXAS
MEDICAID AND CHIP IN PERSPECTIVE: 11 TH ED., 1–5 (Feb. 2017),
available
at
https://hhs.texas.gov/sites/default/files//documents/lawsregulations/reports- presentations/2017/medicaid-chip-perspective11th-edition/11th-edition-complete.pdf.
10
In 1997, Congress enacted, and President Bill Clinton signed
into law, the CHIP program. See Balanced Budget Act of 1997, Pub.
L. 105-33, 111 Stat. 251. CHIP subsidizes states to provide
healthcare to certain uninsured children and pregnant women. See
42 U.S.C. § 1397aa. Plaintiffs participate in CHIP, providing CHIP
9

36a
When Plaintiffs first began implementing the
Medicaid program, they primarily relied on fee-forservice providers (“FFSPs”) to deliver Medicaid
services. See Pls.’ App. 120, 133, 291, 485, 1008, 1162–63,
ECF No. 54-1. Over time, however, Plaintiffs discovered
that managed care organizations were more efficient and
less expensive. See, e.g., id. at 120. In a managed care
arrangement, the state enters into a contract with an
MCO, wherein the MCO agrees to deliver healthcare
services to citizens of the state, and in exchange, the
state pays the MCO a fixed monthly fee per covered
individual, known as a “capitation rate.” Id. at 1168.
In order to realize the benefits and savings of
managed care, Plaintiffs began a long-term transition
from FFSPs to MCOs. See id. at 120, 133, 291, 485, 1008,
1162–63. Texas began this transition in 1993. Id. at 1006.
By the end of 2005, 40% of Texas’s Medicaid beneficiaries
received services through MCOs, and by 2012, that
percentage reached 80%. Id. at 1007. When Plaintiffs
filed this suit in 2015, Texas MCOs served around 87% of
Texas’s Medicaid population. Id. Texas anticipates that
this year MCOs will serve 93% of its Medicaid
population. Id. at 1007–08. Each Plaintiff now provides a
substantial portion of their Medicaid services through
MCOs. See id. at 120, 133, 291, 485, 1008, 1162–63. 11
Plaintiffs have saved hundreds of millions of dollars by
transitioning to MCOs. See id. at 121, 133–34, 291–92,
services and receiving CHIP subsidies. See 79 Fed. Reg. 3385.
Plaintiffs provide CHIP services to hundreds of thousands of
children and pregnant women at substantial cost to each of their
annual budgets. See Pls.’ Mot. Supp. Summ. J. 8 n.21–29, ECF No.
54 (citing data).
11
Plaintiffs primarily use MCOs to deliver CHIP services as
well. See, e.g., Pls.’ App. 133, 291, 1009, ECF No. 54-1.

37a
493–94, 1010, 1163. In January 2015, HHS announced in
a press release—titled “Better Care. Smarter Spending.
Healthier People: Why It Matters”—that it too would
transition to MCOs. Id. at 13–14.
In 1981, Congress passed, and President Ronald
Reagan signed into law, legislation requiring MCO
capitation rates to be “actuarially sound.” Omnibus
Budget Reconciliation Act of 1981, Pub. L. No. 97-35, 95
Stat. 357, 814 (1981) (codified at 42 U.S.C.
§ 1396b(m)(2)(A) (1981)). 12 HHS did not interpret the
meaning of “actuarially sound” until 2002, when it
promulgated the Certification Rule. This rule defined
“actuarially sound” in the following way:
(i) Actuarially sound capitation rates means
capitation rates that—
(A) Have been developed in accordance with
generally accepted actuarial principles and
practices;
(B) Are appropriate for the populations to be
covered, and the services to be furnished under
the contract; and
(C) Have been certified, as meeting the
requirements of this paragraph (c), by actuaries
who
meet the
qualification
standards
established by the American Academy of
Actuaries and follow the practice standards
established by the Actuarial Standards Board.
See 42 C.F.R. § 438.6(c)(i)(A)–(C) (2002) (emphasis in
original). Thus, under the Certification Rule, “actuarially
sound capitation rates” are capitation rates certified by
Congress also authorized the HHS Secretary to promulgate
rules and regulations to implement the actuarial-soundness
requirement. See 42 U.S.C. § 1302(a).
12

38a
an AAA actuary who, following the ASB’s practice
standards, determines that the rate has “been developed
in accordance with generally accepted actuarial
principles and practices.” Id.
The AAA is a private, membership-based
professional organization that exists to set qualification,
practice, and professional standards for credentialed
actuaries. 13 The AAA sets these standards through the
ASB, another independent, private organization. 14 The
ASB establishes and improves standards of actuarial
practice by enacting Actuarial Standards of Practice
(“ASOPs”) to identify what AAA actuaries should
consider, document, and disclose when performing an
actuarial assignment. 15 In 2005, the AAA defined
“actuarially sound” capitation rates as including inter
alia state taxes—but not federal taxes. 16 In 2013, the
ASB enacted ASOP 1, explaining that “the phrase
‘actuarial soundness’ has different meanings in different
contexts . . . .” 17
13
About Us, AMERICAN ACADEMY OF ACTUARIES,
http://www.actuary.org/content/about-us.
14
How Does The Academy Maintain Standards of
Professionalism for Actuaries?, AMERICAN ACADEMY OF
ACTUARIES, http://www.actuary.org/content/how-does-academymaintain-standards-professionalism-actuaries.
15
About
ASB,
ACTUARIAL
STANDARDS
BOARD ,
http://www.actuarialstandardsboard.org/about-asb/.
16
AMERICAN ACADEMY OF ACTUARIES, Health Practice
Council Practice Note: Actuarial Certification of Rates for
Medicaid
Managed
Care
Programs
(Aug.
2005),
http://www.actuary.org/files/publications/
Practice_Note_Actuarial_Certification_Rates_for_Medicaid_Mana
ged_Care_Programs_aug2005.pdf.
17
ACTUARIAL S TANDARDS BOARD , Actuarial Standard of
Practice No. 1: Introductory Actuarial Standard of Practice (Mar.

39a
In 2010, Congress passed, and President Barack
Obama signed into law, the ACA. The Patient Protection
and Affordable Care Act, Pub. L. 111-148, 124 Stat. 119–
1025 (2010). The ACA requires health insurance
providers who are “covered entities” to pay the HIPF to
the IRS. See ACA § 9010. A covered entity must pay a
portion of the HIPF proportionate to the provider’s
share of net premiums for the previous year. See id. The
first HIPF payments came due on September 30, 2014.
Pls.’ App. 96, ECF No. 54-1. The total amount of the fee
for all covered entities combined was $8 billion in 2014
and increased to $14.3 billion in 2018. See 26 C.F.R.
§ 57.4(a)(3). Advocates for enacting the HIPF argued
that the ACA would increase enrollment for MCOs, that
this increase would significantly raise profits, and that
the MCOs would pay the HIPF out of their increased
profits. See Pls.’ App. 19, ECF No. 54-1. 18
The ACA explicitly excludes states from the
definition of “covered entities,” thereby exempting them
from paying the HIPF. ACA § 9010(c)(2)(B). Because
the ACA protects states from paying the HIPF,
Plaintiffs did not initially pay the HIPF in their
capitation rates when the IRS first began collecting the
HIPF from MCOs in 2014. See Pls.’ App. 1168–70, ECF
No. 54-1 (“For fiscal year 2014, Texas did not include [the
HIPF] in its appropriations . . . Texas did not reimburse
MCOs for the 2014 HIPF until fiscal year 2015.”). In
2013),
http://www.actuarialstandardsboard.org/wpcontent/uploads/2013/10/asop001_ 170.pdf.
18
Certain MCOs are exempt from the HIPF, including nonprofit MCOs that receive more than 80 percent of their gross
revenues from federal government programs targeting low-income,
elderly, or disabled populations. See 26 C.F.R. § 57.2(b)(2)(iii).

40a
2014, private actuaries—following the AAA’s 2005
definition of “actuarially sound” and the ASB’s 2013
definition in ASOP 1—certified those MCO contracts,
and HHS approved them. In October of 2014, HHS
issued a guidance document stating its belief that the
states should include the HIPF in their MCO capitation
rates. 19 But HHS did not say that the Certification Rule
required states to pay the HIPF. See 2014 MCO Guide
(explaining that states have “flexibility” to pay the HIPF
through retroactive adjustments to their capitation
rates, provided the initial and subsequent capitation
rates are “actuarially sound”).
Then in March 2015, the ASB enacted ASOP 49,
which stated:
The actuary should include an adjustment for
any taxes, assessments, or fees that the MCOs
are required to payout [sic] of the capitation
rates. If the tax, assessment, or fee is not
deductible as an expense for corporate tax
purposes, the actuary should apply an
adjustment to reflect the costs of the tax.
ASOP 49 § 3.2.12(d). Since the HIPF is a non-deductible
tax, 20 ASOP 49 effectively required states to pay MCOs
the full amount of the HIPF in their capitation rates,
because an AAA actuary could no longer certify the
capitation rate as actuarially sound unless it did so. In
U.S. DEP’T OF H EALTH AND HUMAN S ERVS., C TRS. FOR
MEDICARE & MEDICAID S ERVS., MEDICAID AND C HIP FAQS:
HEALTH INSURANCE PROVIDERS FEE FOR MEDICAID MANAGED
CARE PLANS (Oct. 2014) [hereinafter “2014 MCO Guide”], available
at
https://www.medicaid.gov/federal-policy-guidance/
downloads/faq-10-06-2014.pdf.
20
ACA § 9010(f); 26 C.F.R. § 57.8.
19

41a
September 2015, HHS issued a guidance document
embracing ASOP 49 and declaring that the Certification
Rule required AAA actuaries to certify that state
capitation rates met ASOP 49’s requirements. 21
After the ASB enacted ASOP 49, the states
capitulated, included the HIPF in their capitation rates,
and budgeted for the HIPF. See Pls.’ App. 137, 1164,
1170, ECF No. 54-1. In 2015, Texas appropriated
$79,685,024.00 to pay the HIPF for fiscal year 2014,
$16,906,502.00 for fiscal year 2015, and $244,219,902.00
for fiscal years 2016 and 2017. Id. at 1170–72. Over the
next decade, the federal government will collect between
$13 and $14.9 billion in HIPF revenue from the combined
payments of all fifty states. 22
On October 22, 2015, Plaintiffs filed suit, attacking
the lawfulness of the HIPF itself, as well as the
Certification Rule that enabled the ASB to impose the
HIPF on the states through ASOP 49. Compl, ECF No.
1. 23 Plaintiffs seek various injunctive and declaratory

U.S. DEP’ T OF HEALTH AND HUMAN S ERVS., C TRS. FOR
MEDICARE & MEDICAID SERVS., 2016 MEDICAID MANAGED CARE
RATE DEVELOPMENT GUIDE (Sept. 2015) [hereinafter “2015 MCO
Guide”], available at https://www.medicaid.gov/medicaid/managedcare/downloads/2016-medicaid-rate-guide.pdf.
22
See John D. Meerschaert and Mathieu Doucet, PPACA
Health Insurer Fee: Estimated Impact on State Medicaid
Programs and Medicaid Health Plans. MILLIMAN CLIENT
REPORT,
Jan.
31,
2012,
at
2–3,
available
at
https://kaiserhealthnews.files.wordpress.com/2012/02/ppacahealth-insurer-fee-estimated-impact-on-medicaid.pdf.
23
In accordance with Plaintiffs’ Amended Complaint and
summary judgment briefing, the Court interprets the HIPF’s
“implementing rule” to be 42 C.F.R. § 438.6 (2002) (recodified at 42
C.F.R. §§ 438.2–438.4).
21

42a
remedies to relieve them from the burden of paying the
HIPF. See Am. Compl. 27–29, ECF No. 19. 24
II. LEGAL STANDARD
A. Federal Rule of Civil Procedure 56(a)
The Court may grant summary judgment where the
pleadings and evidence show “that there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” F ED . R. C IV. P. 56(a).
“[T]he substantive law will identify which facts are
material.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). A genuine dispute as to any material fact
exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Id. The
movant must inform the Court of the basis of its motion
and demonstrate from the record that no genuine
dispute as to any material fact exists. See Celotex Corp.
v. Catrett, 477 U.S. 317, 323 (1986).
When reviewing the evidence on a motion for
summary judgment, the Court must decide all
reasonable doubts and inferences in the light most
favorable to the non-movant. See Walker v. Sears,
Roebuck & Co., 853 F.2d 355, 358 (5th Cir. 1988). The
court cannot make a credibility determination in light of
conflicting evidence or competing inferences. Anderson,
477 U.S. at 255. If there appears to be some support for
disputed allegations, such that “reasonable minds could
differ as to the import of the evidence,” the Court must
deny the motion. Id. at 250.

The Court granted Defendants’ motion to dismiss Plaintiffs’
claim for a HIPF refund but allowed the remaining claims to
proceed. Aug. 4, 2016 Order 48–49, ECF No. 34.
24

43a
III. ANALYSIS
Plaintiffs move for summary judgment, claiming
that: (1) the statutory provision enacting the HIPF
violates Article I’s Spending Clause and the Tenth
Amendment [the “HIPF claims”]; and (2) the
Certification Rule violates Article I’s Vesting Clause, the
APA, and the ACA [the “Certification Rule claims”]. See
Pls.’ Br. 21–42, ECF No. 54. Defendants also move for
summary judgment on all counts, claiming that: (1)
Plaintiffs lacks Article III standing; (2) sovereign
immunity bars Plaintiffs’ Certification Rule claims; (3)
the Anti-Injunction Act (the “AIA”) bars Plaintiffs’
HIPF claims; (4) the HIPF is valid under Article I’s
Taxing Clause; and (5) the Certification Rule is valid
under Chevron. See Defs.’ Br. Supp. Mot. Summ. J. 9–50,
ECF No. 63 [hereinafter “Defs.’ Br.”]. The Court will
address each of these arguments in turn, beginning with
the preliminary question whether there is subject matter
jurisdiction to consider any of Plaintiffs’ claims.
A. Subject Matter Jurisdiction
Article III confines the federal judicial power to
“cases” and “controversies.” U.S. CONST. art. III, § 2.
The case or controversy requirement ensures that the
federal judiciary respects “the proper—and properly
limited—role of the courts in a democratic society.”
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 341 (2006)
(quotation marks omitted). The Court must first assess
jurisdiction, for “without proper jurisdiction, a court
cannot proceed at all . . . .” Steel Co. v. Citizens for a
Better Env’t, 523 U.S. 83, 84 (1998). The party invoking
federal jurisdiction must demonstrate that a
constitutional case or controversy exists as to each claim

44a
asserted. See Lujan v. Defs. of Wildlife, 504 U.S. 555, 561
(1992).
Defendants argue that: (1) there is no Article III case
or controversy here because Plaintiffs either have no
injury, manufactured the injury, or request remedies
that will not redress the injury; (2) the AIA bars
Plaintiffs’ HIPF claims because their requested
remedies would enjoin the collection of federal taxes; and
(3) sovereign immunity bars Plaintiffs’ Certification Rule
claims because Plaintiffs brought them outside the
APA’s six-year statute of limitations. Defs.’ Br. 9–21,
ECF No. 63.
1. Article III Standing
The Court will first consider whether Plaintiffs have
Article III standing. To establish Article III standing, a
plaintiff must show: (1) an injury in fact that is (2) fairly
traceable to the defendant’s challenged conduct, and that
(3) a favorable judicial decision will likely redress the
injury. Lujan, 504 U.S. at 560–61. A plaintiff must
support each standing element “with the manner and
degree of evidence required at the successive stages of
the litigation.” Id. at 561. “[T]he presence of one party
with standing is sufficient to satisfy Article III's case-orcontroversy requirement.” Rumsfeld v. Forum for Acad.
& Institutional Rights, Inc., 547 U.S. 47, 53 n.2 (2006).
To determine whether Plaintiffs have standing here, the
Court will evaluate the State of Texas and its claims.
a. Injury in Fact
A plaintiff must show that it has suffered an “injury
in fact,” which is “an invasion of a legally protected
interest” that is “concrete and particularized” and
“actual or imminent, not conjectural or hypothetical.”

45a
Spokeo, Inc. v. Robbins, 136 S. Ct. 1540, 1548 (2016)
(quoting Lujan, 504 U.S. at 560). For an injury to be
“concrete” it must “actually exist,” meaning it is “real”
and “not abstract.” Spokeo, 136 S. Ct. at 1548. For an
injury to be “particularized” it must “affect the plaintiff
in a personal and individual way.” Spokeo, 136 S. Ct. at
1548. Defendants argue that the Certification Rule did
not injure Plaintiffs because it imposed no monetary cost
and preserved an economically sustainable MCO market.
See Defs.’ Br. 14–16, ECF No. 63. Plaintiffs argue that
the Certification Rule—in conjunction with ASOP 49—
injured them by requiring them to pay the HIPF in
violation of the ACA. See Pls.’ Br. 12–14, ECF No. 54.
ASOP 49 requires Texas to pay the HIPF in its MCO
capitation rates in order to obtain a private actuarial
certification, ASOP 49 § 3.2.12(d), and the Certification
Rule prevents CMS from approving any MCO contract
without
this
certification.
See
42
C.F.R.
§ 438.6(c)(1)(i)(A)–(C) (2002); see also Defs.’ App. 155,
ECF No. 63-1 (“[T]he state actuary must certify the
rates or rate ranges . . . After ensuring . . . that it
contains the rate certification . . . the [CMS Regional
Office] forwards the contract package to [CMS].”
(emphasis added)). The Certification Rule therefore
gives Texas two choices: include the HIPF in its
capitation rates or lose Medicaid funds. See 42 U.S.C.
§ 1396b(m)(2)(iii). 25 In response to this Hobson’s choice,
Texas appropriated millions of dollars to pay the HIPF.
See Pls.’ App. 1170–72, ECF No. 54-1 This injury is real
On December 18, 2015, Congress enacted a one-year
moratorium on collecting the HIPF in 2017. Consolidated
Appropriations Act, 2016, Pub. L. No. 114-133, 129 Stat. 2242, 3037–
38 (2015). This moratorium is no longer in effect.
25

46a
and affects Texas as an individual state. Texas has shown
an injury-in-fact.
“Once injury is shown, no attempt is made to ask
whether the injury is outweighed by benefits the plaintiff
has enjoyed from” the injurious action. Texas v. United
States, 809 F.3d 134, 155–56 (5th Cir. 2015), as revised
(Nov. 25, 2015), aff’d by an equally divided court, 136 S.
Ct. 2271 (2016) (per curiam) (quotation marks omitted).
The benefits of an injury only negate standing in unique
circumstances where “[t]he costs and benefits [arise] out
of the same transaction.” Id. at 156 (citing Henderson v.
Stalder, 287 F.3d 374, 379–81 (5th Cir. 2002) (holding
that taxpayers could not demonstrate a monetary injuryin-fact where the state produced a pro-life license plate
and required users of the license plate pay an additional
fee that covered its costs)). Without this “tight[ ] nexus,”
the Court will not consider whether the benefits
resulting from an injury negate standing. See id. (citing
Henderson, 287 F.3d at 379–81).
Defendants argue that unless Texas includes the
HIPF in its MCO capitation rates, its MCO contracts will
be—in an objective sense—actuarially unsound and
financially unsustainable. See Defs.’ Br. 15, ECF No.
63. 26 Even if this were true, the potential benefit of
Notwithstanding this contention, Defendants simultaneously
maintain that Plaintiffs could soften the burden of the HIPF by
bargaining with the MCOs, i.e., by pressuring the MCOs either to
lower their capitation rates outright or to become non-profits to
reduce costs and thereby reduce rates. See Defs.’ Br. 12, 14, ECF
No. 63. Defendants cannot have it both ways. Either an
economically sound MCO market requires Plaintiffs to pay the full
amount of the HIPF, or Plaintiffs can bargain with and thereby
convince MCOs to pass on less of the HIPF in their capitation rates.
In any case, the fact remains that Congress declared that the states
26

47a
contracting with MCOs at some distant point in the
future—because the MCOs did not bear the burden of
the HIPF and consequently did not go out of business—
does not arise “out of the same transaction” as Texas’s
2015 HIPF payments. Cf. Texas, 809 F.3d at 156;
Henderson, 287 F.3d at 379–81. The Court finds that any
future benefit to paying the HIPF does not negate
Texas’s injury-in-fact.
b. Fairly Traceable to Defendants’ Challenged
Conduct
A plaintiff’s injury must also be “fairly traceable” to
the challenged action. Lujan, 504 U.S. at 561. Plaintiffs
here challenge the Certification Rule (42 C.F.R.
§ 438.6(c)(1)(i)(A)–(C) (2002)) and the HIPF (ACA
§ 9010(f)). Defendants argue that Plaintiffs’ claimed
injury is not fairly traceable to the HIPF because
Plaintiffs can avoid the HIPF entirely by transitioning
back to FFSPs, HIPF-exempt non-profit MCOs, or some
combination of the two. Defs.’ Br. 9–14, ECF No. 63.
Plaintiffs contend that HIPF-exempt MCOs alone
cannot provide adequate Medicaid coverage to everyone
in the state, and that transitioning back to FFSPs would
be costly and harmful to them and their Medicaid
recipients. Pls.’ Br. 12–19, ECF No. 54.
“[T]he possibility that a plaintiff could avoid injury by
incurring other costs does not negate standing.” Texas,
809 F.3d at 156–57. In Texas, the plaintiff states
challenged the federal government’s DAPA 27 program
should not pay the HIPF. As such, forcing Plaintiffs to pay the
HIPF in violation of this Congressional command is an injury-infact.
27
Deferred Action for Parents of Americans and Lawful
Permanent Residents. Texas, 809 F.3d at 146.

48a
that gave lawful presence to 4.3 million illegal aliens. Id.
at 148. Because DAPA would have required the plaintiff
states to incur significant costs by issuing driver’s
licenses to DAPA beneficiaries, the Fifth Circuit held
that the plaintiff states suffered an injury-in-fact. Id. at
155. The Government argued that these costs were not
“fairly traceable” to DAPA because “the state[s] could
avoid injury by not issuing licenses to illegal aliens or by
not subsidizing its licenses.” Id. at 156. The Fifth Circuit
emphatically rejected this argument. It noted that while
Texas could avoid financial loss by requiring applicants
to pay the full cost of the licenses, “it could not avoid
injury altogether.” Id. The threat of paying the cost of
the licenses would coerce the Texas into changing its
laws—which is itself a harm. See id. Holding that Article
III does not require a state government to change its
laws to avoid an injury, the Fifth Circuit explained:
Indeed, treating the availability of changing state
law as a bar to standing would deprive states of
judicial recourse for many bona fide harms. For
instance, under that theory, federal preemption of
state law could never be an injury, because a state
could always change its law to avoid preemption.
But courts have often held that states have
standing based on preemption. And states could
offset almost any financial loss by raising taxes or
fees. The existence of that alternative does not
mean they lack standing.
Id. at 156–57 (footnotes omitted).
Defendants employ the same impermissible
argument here. They contend that Plaintiffs could avoid
the HIPF entirely by transitioning to FFSPs and HIPFexempt MCOs. Defs.’ Br. 9–14, ECF No. 63. But such a

49a
transition would require Texas to alter its Medicaid
contracts, restructure its Medicaid appropriations, and
reshape its Medicaid policies. Texas holds that Article
III’s case or controversy requirement does not oblige a
plaintiff state to make such changes. Cf. 809 F.3d at 156–
57.
Defendants also claim that Plaintiffs have
manufactured their injury because every year after
Congress passed the ACA, Plaintiffs increasingly moved
away from FFSPs toward MCOs. Defs.’ Br. 11–13, ECF
No. 63. 28 While it is true that Texas is increasing its
reliance on MCOs, it is doing so as part of a long-term
transition that predates the ACA and the 2002
Certification Rule. In 1993, in order to realize the
superior benefits of managed care, Texas began to
transition from FFSPs to MCOs. See Pls.’ App. 1006–08,
ECF No. 54-1. Now Texas provides somewhere between
80% and 93% of its Medicaid services through MCOs. See
id. at 1007–08. 29 Defendants have not shown that Texas
transitioned to MCOs to manufacture an injury. 30

Defendants here essentially argue that Plaintiffs failed to
mitigate the harm. Failure to mitigate is an affirmative defense that
the defendant must plead in his answer. E.E.O.C. v. Serv. Temps
Inc., 679 F.3d 323, 334 n.30 (5th Cir. 2012). Defendants have not
done so here. See Ans. 16–17, ECF No. 43.
29
Moreover, HIPF payments did not come due until September
30, 2014, and the ASB did not enact ASOP 49 until 2015. During this
five-year period, the Certification Rule did not require Texas to
account for the HIPF in its capitation rates. Accordingly, from 2010
to 2015, Texas continued its transition toward managed care without
the expectation that doing so would require it to pay the HIPF.
30
While advancing this theory, Defendants at one point
mischaracterized the evidence and erroneously claimed that
Louisiana began transitioning to MCOs in 2016, Defs.’ Br. 12, ECF
28

50a
Defendants also argue—erroneously—that under
Texas, “an injury is self-inflicted and insufficient to
confer standing where, as here, a federal policy leaves
the option to ‘achieve[ ] their policy goal in myriad
ways.’” Defs.’ Br. 13 n.8, ECF No. 63 (quoting Texas, 809
F.3d at 159). Defendants reach this conclusion by
quoting a portion of the Texas opinion comparing the
harm caused by DAPA to the manufactured harm in
Pennsylvania v. New Jersey, 426 U.S. 660 (1976). See id.
In Pennsylvania, the plaintiff states challenged the
defendant states’ laws increasing taxes on nonresident
income. 426 U.S. at 661–64. Because the plaintiffs gave
their residents credits for taxes paid to other states, the
defendants’ tax increases also increased the plaintiffs’
tax credits, causing the plaintiffs to lose revenue. Id. The
Supreme Court held that this injury was self-inflicted
because the plaintiff states established their tax credits
knowing that the credits could fluctuate based on the tax
decisions of other states. See id. at 664. “[T]he plaintiff
states in Pennsylvania v. New Jersey could have
achieved their policy goal in myriad ways, such as basing
their tax credits on residents’ out-of-state incomes
instead of on taxes actually paid to other states.” Texas,
809 F.3d at 159. In other words, “the pressure that
Pennsylvania faced to change its laws was self-inflicted.”
Id. at 157 n.63. Texas did not hold that plaintiff states,
who have done nothing to inflict harm on themselves,
must change their laws to avoid a harm if there are
“myriad ways” to do so. 31
No. 63, when Louisiana’s transition to MCOs actually began in 2012.
Pls.’ App. 300, ECF No. 54-1
31
Such an exception would swallow the rule, because in
practically every area of legislation, states have “myriad ways” to

51a
Not only does Texas not require a state to change its
laws to avoid a harm, Plaintiffs have shown that they are
unable to do so here. First, Texas cannot rely exclusively
on HIPF-exempt non-profit MCOs because Texas
already contracts with all of the HIPF-exempt MCOs in
the state and those MCOs are incapable of servicing the
entire state alone. See Pls.’ App. 1043–44, ECF No. 54-1
(“[U]ltimately non-profit coverage of every county’s
population is not feasible.”). And even if it were possible
for Texas to rely entirely on the few HIPF-exempt
MCOs operating in Texas, doing so would be risky.
Because the healthcare market is in a state of flux, see
Pls.’ App. 122, ECF No. 54-1, there is a danger that some
of those MCOs might leave the market, which would
cause many people to lose Medicaid services entirely.
Nor can Texas avoid their injury by transitioning
back to FFPSs. Plaintiffs have saved hundreds of
millions of dollars by moving to MCOs. See Pls.’ App. 121,
133–34, 291–92, 493–94, 1010, 1163, ECF No. 54-1. Texas
reduced its healthcare costs by six percent in the year
2013 alone. See id. at 1010. Returning to FFPSs would
therefore substantially increase healthcare and
administrative costs for Texas. See id. It would injure
Texas’s citizens, as managed care now provides better
healthcare services to its Medicaid recipients. See id.
And it would take time. As Plaintiffs’ counsel observed at
the summary judgment hearing, it took Texas more than
two decades to switch to MCOs, and switching back to
rely exclusively on FFSPs would take years. See October

change their laws without compromising their overarching policy
goals.

52a
25, 2017 Hr’g Tr. 10:14–22, ECF No. 85. 32 During this
transition, the Certification Rule—in conjunction with
ASOP 49—would still require Texas to pay the HIPF.
With these facts in mind, Texas has even bleaker
options here than it did in the Texas case. In Texas, the
Government claimed that the plaintiff states could avoid
an injury by changing their laws to stop subsidizing
driver’s licenses. Texas, 809 F.3d at 156. Here, the
Government claims that Plaintiff States could avoid
paying millions of dollars to cover the HIPF by changing
their laws to pay millions of dollars to transition over
many years back to an outdated healthcare model. 33
Texas will pay a significant monetary price no matter
what choice it makes.
For these reasons, Defendants’ citation to Clapper v.
Amnesty Int’l USA, 568 U.S. 398 (2013) is inapposite. In
Clapper, respondents asserted that they suffered
ongoing injuries fairly traceable to a surveillance statute
because the threat of surveillance required them to take
“costly and burdensome measures to protect the
confidentiality of their communications.” 568 U.S. at 415.
The Supreme Court rejected this argument and held that
a plaintiff “cannot manufacture standing merely by
inflicting harm on themselves based on their fears of
hypothetical future harm that is not certainly
impending.” Id. at 416. As the analysis above
demonstrates, this case is readily distinguishable. Here,
Louisiana fully transitioned to MCOs within six years. Pls.’
App. 291, ECF No. 54-1. The length of transition back to FFSPs for
each Plaintiff would likely depend on a host of factors and
circumstances.
33
Recognizing the superiority of managed care, even the
Government is transitioning from FFSPs to MCOs. Pls.’ App. 13–
14, ECF No. 54.
32

53a
the harm of paying the HIPF is neither future nor
hypothetical; it is certain and has already happened. And
Plaintiff States have not inflicted the harm on
themselves.
Finally, Defendants argue that Plaintiffs’ theory of
standing has no principled limit because it would allow
states to sue the federal government for any tax that
resulted in a downstream increase in the cost of
Medicaid. Defs.’ Br. 10, ECF No. 63. The Court is
unpersuaded by this argument, as the Fifth Circuit
considered and rejected an almost identical argument in
Texas. 809 F.3d at 161–62 (“The United States submits
that Texas’s theory of standing is flawed because it has
no principled limit. In the government’s view, if Texas
can challenge DAPA, it could also sue to block . . . any
federal policy that adversely affects the state . . . .”). The
Court’s finding of standing in this case announces no new
interpretations of, or exceptions to, the Supreme Court’s
standing doctrines, and as such, it does not undermine
Article III’s case or controversy requirement in any way.
There is therefore no genuine dispute of material fact
that the HIPF—as imposed on the states through the
Certification Rule and ASOP 49—injures the Plaintiffs,
and that to avoid this injury Plaintiffs would have to
change their laws and incur additional costs—both of
which constitute additional, independent injuries.
Because the Court finds that Plaintiffs’ injury is not
manufactured, Plaintiffs’ injury is fairly traceable to
Defendants’ challenged conduct: the HIPF and the
Certification Rule.
c. Redressable by Favorable Judicial Decision
Plaintiffs must show that a favorable judicial decision
will likely redress their injury. Lujan, 504 U.S. at 561.

54a
To redress an injury, the judicial remedy must
“personally . . . benefit [the plaintiff] in a tangible way
. . . .” Warth v. Seldin, 422 U.S. 490, 508 (1975).
Defendants have injured Plaintiffs by legally coercing
them into paying the HIPF—a tax from which Plaintiffs
are statutorily exempt. See supra Part III.A.1.a–b. To
redress this injury, Plaintiffs ask the Court to invalidate
the HIPF and the Certification Rule. Am. Compl. 27–29,
ECF No. 19. The Court will next consider whether these
requested remedies, if granted, will likely redress
Plaintiffs’ injury.
First, if the Court invalidates the HIPF, the
Government will no longer be able to collect the HIPF
from MCOs. Plaintiffs would then be free to stop
accounting for the HIPF in their MCO capitation rates,
and private actuaries could certify those rates excluding
the HIPF as actuarially sound under ASOP 49. See
ASOP 49 § 3.2.12(d) (requiring capitation rates to include
all non-deductible taxes). Private actuaries may
ultimately withhold their certification, and CMS its final
approval, for reasons unrelated to the HIPF. But the
Certification Rule would no longer require Plaintiffs to
pay the HIPF—as the ACA envisions—in order for
Plaintiffs to obtain Medicaid funds. The Court finds that
this remedy would redress Plaintiffs’ injury.
Second, if the Court invalidates 42 C.F.R.
§ 438.6(c)(1)(i)(A)–(C) (2002)—the Certification Rule’s
interpretation of “actuarially sound” capitation rates—
the law would no longer require Plaintiffs to pay the
HIPF in their capitation rates in order to obtain CMS
approval. 34 This remedy, like the one before it, would
Invalidating the Certification Rule’s definition of “actuarially
sound” would also invalidate any guidance documents interpreting
34

55a
relieve Plaintiffs’ legal obligation to pay the HIPF in
order to receive Medicaid funds. This would also redress
Plaintiffs’ injury. Defendants argue that, even without
the Certification Rule, the statutory mandate that
capitation rates be “actuarially sound” would still
require Plaintiff States to include the HIPF in their
rates. See Defs.’ Br. 26, ECF No. 63. But the HIPF did
not exist when Congress enacted the “actuarially sound”
requirement in 1981, and when it enacted the ACA in
2010, Congress—presumably aware of the “actuarially
sound” requirement—plainly exempted the states from
paying this tax. See 42 U.S.C. § 1396b(m)(2)(A).
Finally, if the Court only invalidates 42 C.F.R.
§ 438.6(c)(1)(i)(C)
(2002)—the
portion
of
the
Certification Rule requiring a private actuarial
certification of MCO capitation rates—the law would
give Plaintiffs freedom to negotiate to exclude the HIPF
from their rates and give CMS freedom to approve those
rates. Like the other remedies, the Court finds that this
too would redress Plaintiffs’ injury.
It might be objected that if the Court only invalidates
42 C.F.R. § 438.6(c)(1)(i)(C) (2002), there remains a
possibility that CMS will conclude, on a case-by-case
basis, that capitation rates excluding the HIPF have not
“been developed in accordance with generally accepted
actuarial principles and practices,” as required by 42
C.F.R. § 438.6(c)(1)(i)(A) (2002). Indeed, HHS has stated
in multiple guidance letters that it prefers for states to
include the HIPF in their capitation rates. First, in 2014,
HHS issued a guidance letter encouraging states to do
so. See 2014 MCO Guide; supra note 19. Then in 2015,
the Certification Rule, such as the 2014 and 2015 MCO Guides. See
supra notes 19, 21.

56a
HHS issued another guidance letter, referencing its 2014
letter and reiterating its view that states should pay the
HIPF. See 2015 MCO Guide; supra note 21. Moreover,
CMS now uses ASOP 49 to make internal determinations
on whether MCO capitation rates are actuarially sound.
See Defs.’ App. 156, ECF No. 63-1. If HHS prefers for
states to pay the HIPF in their capitation rates, and
CMS uses ASOP 49 to evaluate capitation rates, it is
possible that CMS will ultimately disapprove future
capitation rates that do not include the HIPF.
Notwithstanding this possibility, the Court
nonetheless finds that invalidating 42 C.F.R.
§ 438.6(c)(1)(i)(C) (2002) would redress Plaintiffs’ injury.
The law explicitly exempts states from paying the HIPF,
ACA § 9010(c)(2)(B) (2010), and the Court must
“presume that agencies will follow the law.” Pit River
Tribe v. U.S. Forest Serv., 615 F.3d 1069, 1082 (9th Cir.
2010). The Court presumes, therefore, that CMS will
not—in defiance of Congressional intention—condition
Medicaid funds on whether Plaintiffs include the HIPF
in their capitation rates. 35 CMS may continue to use
ASOP 49 to make internal decisions whether capitation
rates are “actuarially sound,” but it cannot—and
presumably will not—use ASOP 49 to ignore the ACA’s
statutory exemption and require Plaintiffs to pay the
HIPF. Whether CMS will in due course approve every
capitation rate excluding the HIPF is unclear from the
Defendants have not rebutted this presumption with evidence
showing that CMS is committed to disapproving any capitation
rates excluding the HIPF as ipso facto contrary to “generally accepted actuarial principles and practices.” 42 C.F.R.
§ 438.6(c)(1)(i)(A) (2002). Indeed, when the first HIPF payments
came due in 2014, CMS approved such rates.
35

57a
facts before the Court—that it may do so in some or all
cases is enough to establish redressability.
Plaintiffs also fall within the “procedural right”
exception to the redressability requirement. Under this
exception, “The person who has been accorded a
procedural right to protect his concrete interests can
assert that right without meeting all the normal
standards for redressability and immediacy.” Lujan, 504
U.S. at 572 n.7 (1992). For example, a person “living
adjacent to the site for proposed construction of a
federally licensed dam has standing to challenge the
licensing agency’s failure to prepare an environmental
impact statement, even though he cannot establish with
any certainty that the statement will cause the license to
be withheld . . . .” Id. Similarly here, if the Court only
invalidates 42 C.F.R. § 438.6(c)(1)(i)(C) (2002), Plaintiffs
cannot establish with certainty that CMS will ultimately
approve their capitation rates excluding the HIPF. But
Plaintiffs assert a procedural right: their statutory
exemption from paying the HIPF. ACA § 9010(c)(2)(B)
(2010); see 26 C.F.R. § 57.2(b)(2)(ii)(B). By challenging
the Certification Rule’s certification requirement,
“plaintiffs are seeking to enforce a procedural
requirement”—their HIPF exemption—“the disregard
of which could impair a separate concrete interest of
theirs”—namely, their interest in not paying the HIPF,
changing their laws to budget for the HIPF, or raising
taxes to fund the HIPF. Cf. Lujan, 504 U.S. at 572.
Accordingly, even if the Court’s invalidation of 42 C.F.R.
§ 438.6(c)(1)(i)(C) (2002) would not satisfy “normal
standards for redressability,” it would redress Plaintiffs’
injury under Lujan.

58a
There is therefore no genuine dispute of material fact
that a favorable judicial decision invalidating either the
HIPF or the Certification Rule would redress Plaintiffs’
injury. The Court finds that Plaintiffs have shown
redressability.
d. Prudential Standing
The Court also considers sua sponte whether
Plaintiffs have satisfied prudential standing. The
Supreme Court “interpreted § 10(a) of the APA to
impose a prudential standing requirement in addition to
the requirement, imposed by Article III of the
Constitution, that a plaintiff has suffered an injury in
fact.” Nat’l Credit Union Admin. v. First Nat’l Bank &
Trust Co., 522 U.S. 479, 488 (1998). “For a plaintiff to
have prudential standing under the APA, ‘the interest
sought to be protected by the complainant [must be]
arguably within the zone of interests to be protected or
regulated by the statute . . . in question.” Id. (quoting
Ass’n of Data Processing Serv. Orgs., Inc. v. Camp, 397
U.S. 150, 152 (1970)) (alterations in original). The “zone
of interests” test applies “[i]n cases where the plaintiff is
not itself the subject of the contested regulatory action,”
and it only “denies a right of review if the plaintiff’s
interests are . . . marginally related to or inconsistent
with the purposes implicit in the statute . . . .” Clarke v.
Secs. Indus. Ass’n, 479 U.S. 388, 399 (1987). This test is
“not meant to be especially demanding” and the Court
applies it in keeping with Congress’s intent that agency
action is presumptively reviewable. Texas, 809 F.3d at
162 (quoting Clarke, 479 U.S. at 399).
Plaintiffs bring several APA claims challenging the
Certification Rule’s interpretation of “actuarially
sound,” which enabled the ASB to impose the HIPF on

59a
Plaintiffs. Am. Compl. 19–27, ECF No. 19. Plaintiffs are
the subject of this contested regulatory action. Cf.
Clarke, 479 U.S. at 399. And Plaintiffs’ asserted
interest—exemption from paying the HIPF—is within
the zone of interests Congress meant to protect or
regulate by enacting the HIPF, because the ACA
expressly exempts states from paying the HIPF, and the
Certification Rule allowed the ASB to nullify that
exemption. Cf. Nat’l Credit Union Admin., 522 U.S. at
488. Accordingly, the Court finds that there is no genuine
dispute of material fact that Plaintiffs have prudential
standing under the APA.
Because Plaintiffs have shown Article III and
prudential standing, the Court DENIES Defendants’
Motion for Summary Judgment (ECF No. 62) as to
standing.
2. Anti-Injunction Act
The Court will next consider whether the AIA bars
Plaintiffs claims. Defendants argue that the AIA
deprives the Court of jurisdiction because Plaintiffs seek
to prevent collection of a tax. Defs.’ Br. 16–22, ECF No.
63. The AIA states, “[N]o suit for the purpose of
restraining the assessment or collection of any tax shall
be maintained in any court by any person, whether or not
such person is the person against whom such tax was
assessed.” 26 U.S.C. § 7421(a). The AIA divests the court
of jurisdiction over any claim—including constitutional
claims—brought by any person that would affect the
IRS’s ability to assess and collect anyone’s taxes. See
Alexander v. Americans United Inc., 416 U.S. 752, 759
(1974). Regardless of the HIPF’s label as a “fee,”
because the ACA treats the HIPF as a tax for purposes
of the Internal Revenue Code (the “IRC”), ACA

60a
§ 9010(f)(1), the AIA applies to Plaintiffs’ claims. See
Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519, 544–
45 (2012) [hereinafter NFIB] (concluding that the AIA
applies to an exaction that the enacting statute treats as
a tax for purposes of the IRC). 36 Because Plaintiffs’
HIPF claims would restrain the assessment and
collection of a tax, the Court must determine whether its
jurisdictional bar extends to Plaintiffs’ HIPF claims.
Plaintiffs claim that the AIA is inapplicable because
states are not “person[s]” under the statute. Pls.’ Reply
13, ECF No. 66. To determine whether Congress
intended states to be “person[s]” under the AIA, the
Court must begin with the text of the statute and
ascertain its plain meaning by considering its language
and design as a whole. See K Mart Corp. v. Cartier, Inc.,
486 U.S. 281, 291 (1988). The Court first considers
whether the statute defines its terms. Cf. United States
v. Santos, 553 U.S. 507, 511 (2008) (considering first the
statutory definitions). The AIA itself does not define
“person.” See 26 U.S.C. § 7421. However, the AIA is
codified in the IRC, and the IRC’s general definitional
provision states, “The term ‘person’ shall be construed to
mean and include an individual, a trust, estate,
partnership, association, company or corporation.” 26
U.S.C. § 7701(a)(1) (emphasis added). When a statutory
definition “includes” enumerated examples, those
examples are illustrative, not exhaustive. Christopher v.
SmithKline Beecham Corp., 567 U.S. 142, 162 (2012).
Because the list of entities in § 7701(a)(1) is illustrative,
Plaintiffs previously argued that the HIPF is a fee, not a tax,
and the Court deferred a ruling on the issue. Aug. 4, 2016 Order 22–
23, ECF No. 34. Plaintiffs now agree with Defendants that the
HIPF is a tax. Pls.’ Br. 3, ECF No. 54.
36

61a
the IRC’s definition section could include states as
“person[s]” under the AIA.
“When a term is undefined, we give it its ordinary
meaning.” Santos, 553 U.S. at 511. A legal “person” is
typically an entity “recognized by law as having the
rights and duties of human beings.” B LACK ’S L AW
DICTIONARY 1178 (9th ed. 2004); see also W EBSTER ’S
THIRD NEW INTERNATIONAL DICTIONARY 1686 (1971)
(defining “person” as “a human being, a body of persons,
or a corporation, partnership, or other legal entity that
is recognized by law as the subject of rights and duties.”).
Because the law often recognizes states as having the
rights and duties of human beings, the Court finds that
“person[s]” under the AIA include states. see, e.g., Estate
of Wycoff v. Comm’r, 506 F.2d 1144, 1151 (10th Cir. 1974)
(holding that the term “person” in § 7701(a)(1) includes
the states); See generally South Carolina v. Regan, 465
U.S. 367 (1984) (assuming that states are persons under
the IRC for purposes of the AIA). It also harmonizes
with Supreme Court decisions holding that states are
“persons” under other IRC provisions that do not
explicitly define “person” to include states. See Sims v.
United States, 359 U.S. 108, 112 (1959) (holding that 26
U.S.C. § 6332(b)’s definition of “person” applied to the
State of West Virginia); Ohio v. Helvering, 292 U.S. 360,
368 (1934) (holding that 26 U.S.C. § 205’s definition of
“person” applied to the State of Ohio), overruled on other
grounds by Garcia v. San Antonio Met. Transit Auth.,
469 U.S. 528 (1985). Accordingly, the Court finds that
Congress intended the AIA to apply to the states.
Plaintiffs argue, however, that under South Carolina
v. Regan the AIA does not bar their suit because they
have no adequate, alternative judicial remedy to contest

62a
the HIPF. Pls.’ Reply 12–13, ECF No. 66. 37 In Regan,
South Carolina sought injunctive relief to protect its
bondholders from an allegedly unconstitutional federal
tax on state bond interest. 465 U.S. at 371. The Supreme
Court held that the AIA did not bar South Carolina’s
suit. Id. at 381. First, the Supreme Court recognized that
“Congress intended the [AIA] to bar a suit only in
situations in which Congress had provided the aggrieved
party with an alternative legal avenue by which to
contest the legality of a particular tax.” Id. at 373.
Second, “Congress did not intend the [AIA] to apply
where an aggrieved party would be required to depend
on the mere possibility of persuading a third party to
assert [its] claims.” Id. at 381. Because the federal
government assessed the disputed tax against the
bondholders and imposed no direct tax liability on South
Carolina, the state had no legal forum to challenge the
tax and had to depend on the mere possibility of
persuading its bondholders to assert its claims. Id. at
380–81. The Supreme Court held that the AIA did not
apply under these circumstances. Id.
However, an “alternative remedy” exists—and the
AIA applies—where a plaintiff can seek judicial review
of the tax in an alternative forum. See id. at 374–82
(citing cases holding that the AIA applies where
plaintiffs can bring a refund suit); see also Debt Buyers’
Ass’n v. Snow, 481 F. Supp. 2d 1, 10 (D.D.C. 2006) (“In
this case, an alternative legal remedy exists . . . [because
Plaintiffs do not claim the AIA’s statutory exceptions or the
Williams Packing exception. See Pls.’ Reply 12–13, ECF No. 54; see
also 26 U.S.C. § 7421(a) (citing statutory exceptions to the AIA);
Enochs v. Williams Packing & Navigation Co., Inc., 370 U.S. 1, 7
(1962) (describing an exception to the AIA).
37

63a
the plaintiff] will have a legal forum in the form of
penalty-refund litigation . . . .”); Nat’l Fed. Republican
Assemblies v. United States, 148 F. Supp. 2d 1273, 1283
(S.D. Ala. 2001) (finding the AIA does not apply because
the taxpayer “does not have a ‘pay and sue’ option and
cannot challenge a deficiency assessment in Tax Court”).
Plaintiffs argue that because the Court dismissed
their claim for a HIPF refund, they have no alternative
remedy and therefore fall under the Regan exception.
Pls.’ Reply 12, ECF No. 66. The Court agrees. Under the
ACA, the sole avenue for challenging the HIPF is a “civil
action[ ] for refund” by a covered MCO. ACA
§ 9010(f)(1). Plaintiffs cannot challenge the HIPF under
the ACA because they are states, not MCOs. Plaintiffs
therefore have no alternative judicial remedy beyond the
present action. Apart from the Regan exception,
Plaintiffs would be “required to depend on the mere
possibility of persuading [the MCOs] to assert [their]
claims.” Regan, 365 U.S. at 381.
Defendants respond that Plaintiffs have an
alternative remedy because (1) they could have
challenged the Certification Rule when HHS enacted it
in 2002 or (2) they could have petitioned HHS to amend
the Certification Rule to exempt Plaintiffs from paying
the HIPF. Defs.’ Reply 8, ECF No. 67. Defendants’ first
argument fails because at the time HHS enacted the
Certification Rule, the HIPF did not exist, and
moreover, Plaintiffs could not have anticipated that a
federal agency, HHS—much less a private organization,
the ASB—would require them to pay a tax that Congress
expressly exempted them from paying. Defendants’
second argument fails because petitioning an agency to
change its regulation is not an alternative form of judicial

64a
review. Cf. Regan, 465 U.S. at 374–82 (concluding that
the AIA does not apply if the plaintiff has no alternative
judicial forum wherein to seek relief). The Regan
exception is borne in part out of a due process concern
for the availability of judicial review. See id. at 375
(explaining that the AIA does not violate due process
because taxpayers can ordinarily bring a refund suit, and
that “our conclusion might well be different if the
aggrieved party ha[s] no access to judicial review”
(quotation marks omitted)).
Finally, even if the AIA did apply in this case, it would
only bar Plaintiffs’ HIPF claims, not their Certification
Rule claims. Plaintiffs challenge the Certification Rule
on the ground that it shifted the financial burden of the
HIPF from the MCOs to the states by requiring states
to include the HIPF in their MCO capitation rates.
Plaintiffs accordingly seek declaratory relief that the
Certification Rule violates the APA and the U.S.
Constitution. Pls.’ Am. Compl. 27, ECF No. 19. Plaintiffs
do not assert these Certification Rule claims or seek this
declaratory relief “for the purpose of restraining the
assessment or collection of any tax,” 26 U.S.C. § 7421(a),
but rather to ensure that the proper entity pays the full
amount of the disputed tax.
The Court finds no genuine dispute of material fact
that the Regan exception applies to Plaintiffs’ HIPF
claims and that the AIA does not apply to Plaintiffs’
Certification Rule claims. Accordingly, the AIA does not
deprive the Court of jurisdiction over any of Plaintiffs’
claims. The Court DENIES Defendants’ Motion for
Summary Judgment (ECF No. 62) as to the AIA.
3. Statute of Limitations

65a
The Court will next consider whether Plaintiffs’ APA
claims are time-barred and therefore barred by
sovereign immunity. The APA waives sovereign
immunity for persons legally wronged, adversely
affected, or aggrieved by “agency action,” who seek nonmonetary relief. 5 U.S.C. § 702; see Norton v. S. Utah
Wilderness All., 542 U.S. 55, 61 (2004). Because the APA
lacks a specific statutory limitations period, APA
challenges are “governed by the general statute of
limitations provision of 28 U.S.C. § 2401(a), which
provides that every civil action against the United States
is barred unless brought within six years of accrual.”
Dunn-McCampbell Royalty Interest, Inc. v. Nat’l Park
Serv., 112 F.3d 1283, 1286 (5th Cir. 1997). Sovereign
immunity bars any APA suit against an agency after this
six-year period. Id. at 1287. This limitations period
ordinarily begins to run when the agency publishes the
regulation in the Federal Register. Id. But if the agency
“applies” the rule to the plaintiff through “final” agency
action, that application of the rule creates a new cause of
action under the APA and triggers a new six-year
limitations period. See id. at 1287–88; see also Texas v.
United States, 749 F.2d 1144, 1146 (5th Cir. 1985)
(“[A]dministrative rules and regulations are capable of
continuing application . . . .”). Within this new six-year
limitations period the plaintiff may challenge the
agency’s statutory and constitutional authority for
applying the rule. Dunn-McCampbell, 112 F.3d at 1287–
88.
Defendants argue that Plaintiffs’ Certification Rule
claims are time-barred because HHS published the
Certification Rule in the Federal Register in 2002, the
six-year limitations period lapsed in 2008, and Plaintiffs

66a
filed suit seven years later in 2015. See Defs.’ Br. 39–43,
ECF No. 63. In response, Plaintiffs identify several
agency actions that they contend are “final” actions that
apply the Certification Rule to Plaintiffs and trigger a
new six-year period, including most pertinently:
1. On July 17, 2015, CMS approved Texas’s MCO
contract including the HIPF in its capitation rates
pursuant to ASOP 49 because CMS determined
that the contract complied with the Certification
Rule.
2. In September 2015, HHS released a guidance
document that stated, “Actuaries are required to
follow all Actuarial Standards of Practice;
particularly . . . ASOP 49 (Medicaid Managed Care
Capitation Rate Development and Certification).
ASOP 49 . . . is especially relevant because it
focuses on . . . the requirements under 42 C.F.R.
§ 438.6 [the Certification Rule].”
Pls.’ Suppl. Br. 3–6, ECF No. 83 (emphasis added).
Defendants argue that these facts are insufficient to
trigger a new six-year limitations period. See Defs.’
Resp. Suppl. Br. 6–8, ECF No. 84. Specifically,
Defendants argue that under Dunn-McCampbell, a new
six-year limitations period only begins if Plaintiffs
petition HHS to alter or rescind the Certification Rule,
and HHS either denies the petition or enforces the
Certification Rule in response to the petition. See id. at
2–4, 8–11. Because Plaintiffs never petitioned HHS,
Defendants argue that the aforementioned agency
actions were neither “final” nor “directly” applied to
Plaintiffs. See id. at 5–7.
But Dunn-McCampbell did not, as Defendants claim,
hold that an agency must act on a plaintiff’s petition for

67a
relief from a rule in order for that action to be “final” and
to “directly” apply to the plaintiff. Rather, DunnMcCampbell held that any “application of a rule to a
party” triggers a new six-year limitations period, so long
as it is “final.” See 112 F.3d at 1287–88. DunnMcCampbell cited three examples of final agency action
applying a rule directly to a party: Wind River, Public
Citizen, and Texas. See id. at 1287. In the first two
examples—Wind River and Public Citizen—the
plaintiffs petitioned the agency for relief from the
regulation, and the agency denied the petition. See Wind
River Mining Corp. v. United States, 946 F.2d 710, 715–
16 (9th Cir. 1991); Public Citizen v. Nuclear Regulatory
Com’n, 901 F.2d 147, 152–53 (D.C. Cir. 1990). DunnMcCampbell concluded that such denials were “final”
and “direct” agency actions against the plaintiff that
“create[d] a new cause of action under the APA.” 112
F.3d at 1287. In the third example—Texas—the plaintiff
did not petition the agency for relief from the regulation;
instead, the agency, in lieu of a third-party petition,
issued an order requiring the plaintiff to comply with the
regulation. See Texas v. United States, 730 F.2d 409,
411–12 (1984). Dunn-McCampbell concluded that this,
too, was a “direct” and “final” agency action against the
plaintiff triggering a new six-year limitations period. 112
F.3d at 1287.
Applying Wind River, Public Citizen, and Texas, the
Fifth Circuit held that if Dunn-McCampbell “w[as] able
to point to such an application of the regulations here, or
if [it] had petitioned the National Park Service to change
the 9B regulations and been denied,” it could sue within
six years of the agency’s application of the rule or denial
of the petition. Id. at 1287–88 (emphasis added). In other

68a
words, as long as the agency took “final” action directly
against the plaintiff, that agency action—not the
plaintiff’s petition—created a new six-year limitations
period. See Dunn-McCampbell, 112 F.3d at 1287–88.
Because Dunn-McCampbell could not point to a single
final agency action applying the contested regulation
directly to it, the court held that its claims were timebarred. See id.
Since Dunn-McCampbell, the Supreme Court has
clarified that “final agency action” exists under two
conditions: “‘First, the action must mark the
consummation of the agency’s decisionmaking process—
it must not be of a merely tentative or interlocutory
nature. And second, the action must be one by which
rights or obligations have been determined, or from
which legal consequences will flow.’” U.S. Army Corps of
Engineers v. Hawkes Co., 136 S. Ct. 1807, 1813 (2016)
(quoting Bennett v. Spear, 520 U.S. 154, 177–78 (1997)). 38
Agency action satisfies the first Hawkes prong if it is no
longer “advisory in nature” but is instead “definitive [in]
nature.” Id. at 1813–14. Agency action satisfies the
second Hawkes prong if it “gives rise to ‘direct and
appreciable legal consequences’ . . . .” Id. at 1814

The Fifth Circuit decided Dunn-McCampbell prior to Bennett
and Hawkes and therefore applied the Supreme Court’s then fourfactor test to determine finality from Abbott Labs. v. Gardner, 387
U.S. 136 (1967). See Dunn-McCampbell, 112 F.3d at 1288 (citing
Abbott Labs., 387 U.S. at 149–53). Bennett subsequently “distilled”
these four factors into “two conditions”: whether the agency action
is consummate and legally consequential. Hawkes, 136 S. Ct. at 1813
(quoting Bennett, 520 U.S. at 177–78).
38

69a
(quoting Bennett, 520 U.S. at 178). 39 Under Hawkes, an
agency’s internal decision to collect debt payments from
a debtor is “final” action against the debtor—even if the
debtor has not petitioned the agency to suspend
collection and the agency has not informed the debtor of
its decision. See Salazar v. King, 822 F.3d 61, 64–72, 82–
84 (2d Cir. 2016) (citing Bennett, 520 U.S. at 177–78).
Moreover, an agency guidance document that reflects a
“settled agency position” that the entire agency intends
to follow in its enforcement of its regulations, and that
gives “marching orders” to a regulated entity, is “final”
agency action against the regulated entity—even if the
document contains boilerplate denying its legal effect.
See Appalachian Power Co. v. E.P.A., 208 F.3d 1015,
1020–23 (D.C. Cir. 2000).
The undisputed evidence shows that HHS took at
least three “direct, final agency actions” against
Plaintiffs, triggering several new six-year statute of
limitations periods. Cf. Dunn-McCampbell, 112 F.3d at
1287–88.
First, in July 2015, after Texas capitulated to ASOP
49 by including the HIPF in its MCO capitation rates,
CMS sent a letter to the Texas Medicaid Director
approving Texas’s MCO contract because CMS
determined that Texas had complied with the
Certification Rule. Pls.’ App. 513–14, ECF No. 54-1.
CMS’s approval of this MCO contract was neither
tentative, interlocutory, nor advisory, but a consummate
act that marked the conclusion of CMS’s review process.
Cf. Hawkes, 136 S. Ct. at 1813–14. CMS’s approval also
The Court’s ultimate determination of finality is “‘flexible’ and
‘pragmatic.’” Qureshi v. Holder, 663 F.3d 778, 781 (5th Cir. 2011)
(quoting Abbott Labs., 387 U.S. at 149–50).
39

70a
resulted in direct and appreciable legal consequences for
Texas, namely, certifying the state’s compliance with the
Certification Rule, thereby entitling the state to receive
Medicaid subsidies. Cf. id. Defendants argue that this
approval letter is not “direct” and “final” agency action
because it does not mention the state’s compliance with
ASOP 49 in particular—only with the Certification Rule
in general. Defs.’ Br. 42, ECF No. 63. But Plaintiffs are
not challenging ASOP 49. Plaintiffs are challenging the
Certification Rule, and CMS’s approval letter
constituted a “direct” and “final” agency action applying
the Certification Rule to Texas. Cf. Dunn-McCampbell,
112 F.3d at 1287–88.
Second, Plaintiffs capitulated to ASOP 49 and paid
the HIPF in their 2015 capitation rates. Pls.’ App. 137,
1164, 1170, ECF No. 54-1. The Government then
collected the HIPF from Plaintiffs’ MCOs with the
knowledge and expectation that Plaintiffs were paying
the HIPF in order to comply with the Certification Rule.
See 2015 MCO Guide (informing states that, in order to
obtain an actuarial certification under the Certification
Rule, they must follow ASOP 49 and pay the HIPF in
their capitation rates). Therefore, when the Government
collected the HIPF from Plaintiffs’ MCOs, it
consummated its decision to apply the Certification Rule
and ASOP 49 directly to Plaintiff States, requiring
Plaintiffs to pay the HIPF in order to receive Medicaid
subsidies. Cf. Salazar, 822 F.3d at 64–72, 82–84 (holding
that an agency’s internal decision to continue collecting
loans generates “legal consequences” for the borrowers,
because it leaves the borrowers with a continuing “legal
obligation to make payments” and the agency with
continuing legal authority to “garnish wages or direct tax

71a
refund offsets”). This “final” action collecting the HIPF
stands in marked contrast to the total agency and
plaintiff inaction in Dunn-McCampbell, where the
agency did not apply its regulation to plaintiff’s property
and where the existence of the regulation merely
“deterred” plaintiff from leasing its property. See DunnMcCampbell, 112 F.3d at 1285–86. Here, the
Government’s collection of the HIPF is more like the
collection of a debt in Salazar than the total agency
inaction in Dunn-McCampbell. This is “final” action
directly applying the Certification Rule to Plaintiffs. Cf.
Hawkes, 136 S. Ct. at 1813–14; Dunn-McCampbell, 112
F.3d at 1287–88.
Third, in September 2015, HHS released a guidance
document (the “Guide”) “for use in setting [capitation]
rates . . . for any managed care program subject to the
actuarial soundness requirements in 42 C.F.R. § 438.6
[the Certification Rule].” 2015 MCO Guide. The Guide
purported to give “more detailed” guidance than prior
documents in order to evoke “more consistent and
complete” compliance from the states. Id. The Guide
declared that HHS “expect[s]” states to include the “the
information outlined in this guide” in their capitation
rate proposals to CMS “so that CMS can determine . . .
if the capitation rates are appropriate . . . .” Id. The
Guide further decreed, “Actuaries are required to follow
all Actuarial Standards of Practice; particularly . . .
ASOP 49 (Medicaid Managed Care Capitation Rate
Development and Certification).” Id. (emphasis added).
As if to put a fine point on its definitive, normative
embrace of ASOP 49, HHS identified ASOP 49 as
“especially relevant” because it established what states
and MCOs must include in their capitation rates in order

72a
for actuaries to approve them as “actuarially sound”
under the Certification Rule. Id. Moreover, the Guide did
not even contain a pretext of boilerplate language
denying its legal effect on the states. See id. It therefore
reflected HHS’s “settled position” on the meaning of the
Certification Rule and, pursuant to that rule, gave
“marching orders” to Plaintiff States to include the
HIPF in their MCO capitation rates. Cf. Appalachian
Power Co., 208 F.3d at 1020–23. The Guide was neither
tentative, advisory, nor remote in its application—
rather, it was consummate and definitive, creating direct
and immediate legal consequences for Plaintiff States.
Cf. Hawkes, 136 S. Ct. at 1813–14. Accordingly, it
constituted “final” agency action applying the
Certification Rule directly to Plaintiffs. Cf. DunnMcCampbell, 112 F.3d at 1287–88.
There is no genuine dispute of material fact that
Plaintiffs filed suit on October 22, 2015, less than six
years after HHS took at least three different “final”
agency actions directly applying the Certification Rule
to Plaintiffs. Because Plaintiffs’ Certification Rule claims
are not time-barred, the Court DENIES Defendants’
Motion for Summary Judgment (ECF No. 62) as to
sovereign immunity.
B. Non-Delegation Claim (Count V)
Having found jurisdiction, the Court will now
consider Plaintiffs’ substantive claims, beginning with
Plaintiffs’ Certification Rule claims (Counts II, III, and
V) before moving to Plaintiffs’ HIPF claims (Counts I,
IV, VI, VIII, IX, and X). In first addressing Plaintiffs’
Certification Rule Claims, the Court will begin with
Plaintiffs’ constitutional claim that the Certification Rule
violates the non-delegation doctrine (Count V), then

73a
consider Plaintiffs’ statutory claims that the
Certification Rule violates the APA (Counts II, III, and
V).
Plaintiffs argue that the Certification Rule gives the
ASB and its actuaries “a discretionary veto” over CMS’s
approval of Plaintiffs’ Medicaid contracts and is
therefore an unconstitutional delegation of legislative
power to a private entity. See Pls.’ Br. 35–37, ECF No.
54. Defendants respond that the Certification Rule only
gives the ASB and its actuaries an advisory role that is
not a legislative delegation, but rather a permissible
enlistment of technical expertise. See Defs.’ Br. 34–38,
ECF No. 63. 40
1. History and Usage of the Non-Delegation
Doctrine
Because litigants infrequently invoke the nondelegation doctrine, a review of its history is in order.
This doctrine stems from the very first clause of the
Constitution, which reads: “All legislative Powers . . .
shall be vested in a Congress of the United States.” U.S.
CONST. art. I, § 1, cl. 1. “The Congress is not permitted
to abdicate or to transfer to others the essential
legislative functions with which it is thus vested.” A.L.A.
Schechter Poultry Corp. v. United States, 295 U.S. 495,
529 (1935); see Wayman v. Southard, 10 Wheat. 1, 42–43
(1825) (Marshall, C.J.). An essential legislative function
is the establishment of “standards of legal obligation.”
Schechter Poultry, 295 U.S. at 530; see Dep’t of Transp.
The APA requires this Court to “hold unlawful and set aside
agency action, findings, and conclusions found to be . . . contrary to
constitutional right, power, privilege, or immunity . . . .” 5 U.S.C.
§ 706(2)(B).
40

74a
v. Ass’n of Am. R.R.s, 135 S. Ct. 1225, 1242 (2015)
(Thomas, J., concurring) (describing an essential
legislative function as “the formulation of generally
applicable rules of private conduct”). This structural
feature of the Constitution—vesting Congress alone
with the unalienable power to make prospective and
generally applicable rules of conduct—exists to protect
democratic deliberation, executive accountability, and
individual liberty. See Ass’n of Am. R.R.s, 135 S. Ct. at
1237 (Alito, J., concurring) (“Our Constitution, by careful
design, prescribes a process for making law, and within
that process there are many accountability checkpoints.
It would dash the whole scheme if Congress could give
its power away to an entity that is not constrained by
those checkpoints.”).
The vesting of legislative power in a distinct political
body is a stumbling block to modern intellectuals and a
stone rejected by the builders of the federal
bureaucracy, but it has been and remains a cornerstone
in the constitutional architecture of free government.
The fountainheads of Western jurisprudence—the
Hebrew, Greek, and Roman civilizations—understood
“that a ruler must be subject to the law in exercising his
power and may not govern by will alone,” a principle
which “presupposes at least two distinct operations, the
making of law, and putting it into effect.” Ass’n of Am.
Railroads, 135 S. Ct. at 1242 (Thomas, J., concurring)
(quotation marks omitted) (describing the Greco-Roman
origins of Western rule of law); see generally R USSELL
KIRK , T HE R OOTS OF AMERICAN ORDER (4th ed. 2003)
(describing the Hebraic origins of Western rule of law).
Building on this ancient principle, the English formally
separated the legislative and executive powers, with

75a
Parliament zealously guarding the legislative power
from kingly encroachments. See Ass’n of Am. Railroads,
135 S. Ct. at 1242–43. By the time of the American
Revolution, both John Locke and William Blackstone
concluded that this separation was not merely
convenient in avoiding tyranny, but a necessary feature
of any government ruled by laws and not men. See id. at
1243–44. These ideas found an abiding voice in the
United States Constitution. As James Madison
explained,
[T]he legislative, executive, and judiciary
departments ought to be separate and distinct . . .
No political truth is certainly of greater intrinsic
value, or is stamped with the authority of more
enlightened patrons of liberty, than [the separation
of powers] . . . The accumulation of all powers,
legislative, executive, and judiciary, in the same
hands, whether of one, a few, or many, and whether
hereditary, selfappointed, or elective, may justly be
pronounced the very definition of tyranny.
THE FEDERALIST NO. 47. The vesting of legislative
power in Congress alone, and its corollary doctrine of
non-delegation, is enshrined in our charter because the
framers, drawing from the deep wells of their Western
heritage, recognized it as an axiom of just government.
Cf. T HE FEDERALIST NO . 51 (“It may be a reflection on
human nature, that such devices should be necessary to
control the abuses of government. But what is
government itself, but the greatest of all reflections on
human nature?”).
When Congress creates law, it must often delegate a
degree of policy judgment to an administrative agency
constitutionally vested with executive power and tasked

76a
with executing the law. See Whitman v. Am. Trucking
Ass’ns, 531 U.S. 457, 474–75 (2001) (quoting Mistretta v.
United States, 488 U.S. 361, 416 (1989) (Scalia, J.,
dissenting)). Executive agency rulemaking may
therefore at times resemble lawmaking, but an agency’s
exercise of policy judgment in applying the law is in
actuality an executive function. see City of Arlington v.
F.C.C., 569 U.S. 290, 305 n.4 (2013) (“Agencies make
rules . . . and conduct adjudications . . . and have done so
since the beginning of the Republic. These activities take
‘legislative’ and ‘judicial’ forms, but they are exercises
of—indeed, under our constitutional structure they must
be exercises of—the ‘executive Power.’”). In order to
enforce the non-delegation doctrine, courts must
distinguish between unlawful delegations of legislative
power and lawful delegations of policy judgment. See
Marshall Field & Co. v. Clark, 143 U.S. 649, 693–94
(1892) (“The first cannot be done; to the latter no valid
objection can be made.”); See also Panama Ref. Co. v.
Ryan, 293 U.S. 388, 421 (1935) (holding that courts must
make this distinction “if our constitutional system is to
be maintained”). Courts infrequently enforce the
doctrine because it is inherently difficult to draw this
distinction and identify an unlawful legislative delegation
by Congress to an executive agency. See Ass’n of Am.
R.R.s, 135 S. Ct. at 1237 (Alito, J., concurring).
“When it comes to [a legislative delegation to] private
entities, however, there is not even a fig leaf of
constitutional justification. Private entities are not
vested with ‘legislative Powers.’ Nor are they vested
with the ‘executive Power,’ which belongs to the
President.” Id. at 1237 (Alito, J., concurring) (citations
omitted). Legislative delegation to a private entity is not

77a
only easier to identify, it is “unknown to our law, and is
utterly inconsistent with the constitutional prerogatives
and duties of Congress.” Schechter Poultry, 295 U.S. at
537. It is “legislative delegation in its most obnoxious
form; for it is not even delegation to an official or an
official body, presumptively disinterested, but to private
persons whose interests may be and often are adverse to
the interests of others . . . .” Carter v. Carter Coal Co.,
298 U.S. 238, 311 (1936). Only a government, deriving its
powers from the consent of the governed, may justly
establish legal rules of conduct for the nation. Cf. id.
(“[I]n the very nature of things, one person may not be
intrusted with the power to regulate the business of
another . . . .”).
While legislative delegations to executive agencies
threaten
liberty
by
undermining
democratic
accountability and short-circuiting bicameralism and
presentment, Ass’n of Am. R.R.s, 135 S. Ct. at 1237
(Alito, J., concurring), legislative delegations to private
entities are even more dangerous. They create a double
layer of unaccountability, whereby legislative power—
rightly exercised only by Congress—is passed by
Congress to an unelected agency, and then by the agency
to an unelected private entity. That private entity is not
subject to term limits, appropriations, impeachment, or
removal, and neither holds a commission nor takes an
oath to uphold the Constitution. See id. at 1235 (Alito, J.,
concurring) (“Both the Oath and Commission Clauses
confirm an important point: Those who exercise the
power of Government are set apart from ordinary
citizens. Because they exercise greater power, they are
subject to special restraints. There should never be a

78a
question whether someone is an officer of the United
States . . . .”).
Indeed, private lawmakers may, by virtue of their sui
generis, quasi-public office, evade traditional avenues of
judicial review. If private lawmakers are constitutional
entities, they may enjoy sovereign immunity as quasigovernmental actors. Cf. Lebron v. Nat’l R.R. Passenger
Corp., 513 U.S. 374, 392 (1995) (observing that Amtrak,
as a quasi-public entity, does not enjoy sovereign
immunity from suit because a federal statute explicitly
waives it). If so, aggrieved parties will be unable to
challenge the private lawmaker’s actions under the APA,
because the plain text of the statute waives sovereign
immunity for suits against an “agency”—not a private
lawmaker. See 5 U.S.C. § 702. Moreover, even if it were
possible to bring an APA claim against a private
lawmaker, those suits would be time-barred in six years.
See 28 U.S.C. § 2401(a). After the initial six-year
limitations period lapsed, only subsequent action by an
agency ratifying the private lawmaker’s decision would
make that decision reviewable. See Dunn-McCampbell,
112 F.3d at 1287. After six years, private lawmakers
could alter the rights and duties of their fellow private
citizens with impunity. These legal insulations from
judicial scrutiny would create a powerful incentive for
agencies, under the guise of seeking private expertise, to
delegate increasing amounts of decision-making
authority to private entities who could escape the
constitutional check of litigation.
Private lawmaking is also incompatible with a free
society. Cf. State of Washington ex rel. Seattle Title Tr.
Co. v. Roberge, 278 U.S. 116, 122 (1928) (holding that the
exercise of private legislative authority over another

79a
person deprives that person of liberty without due
process of law). Legislative delegation to private entities
enables and incentivizes self-interested persons not to
legislate for the common good, but to seek personal gain
by placing arbitrary conditions on the liberty of their
adversaries. See Carter Coal, 298 U.S. at 311 (“[I]t is not
even delegation to an official or an official body,
presumptively disinterested, but to private persons
whose interests may be and often are adverse to the
interests of others in the same business.”); see also
Schechter Poultry, 295 U.S. at 537 (“[W]ould it be
seriously contended that Congress could delegate its
legislative authority to trade or industrial associations or
groups so as to empower them to enact the laws they
deem to be wise and beneficent for the rehabilitation and
expansion of their trade or industries? . . . The answer is
obvious.”). It is true that private lawmakers may be
“familiar with the problems of the[ ] enterprises” that
they are tasked to regulate, but not only does this fail as
a constitutional justification, see Schechter Poultry, 295
U.S. at 537, it creates an even greater moral hazard—a
fact that only heightens the urgency of judicial
correction. See Carter Coal, 298 U.S. at 311.
2.

The Certification
Delegation

Rule’s

Legislative

The following undisputed evidence demonstrates
that the Certification Rule is a delegation of legislative
power to a private entity in violation of Article I’s
Vesting Clause. First, Medicaid requires that capitation
rates be “actuarially sound.” See 42 U.S.C.
§ 1396b(m)(2)(A)(iii), (xiii). The Certification Rule then
interprets this statutory provision in the following way:

80a
(i) Actuarially sound capitation rates means
capitation rates that—
(A) Have been developed in accordance with
generally accepted actuarial principles and
practices;
(B) Are appropriate for the populations to be
covered, and the services to be furnished under
the contract; and
(C) Have been certified, as meeting the
requirements of this paragraph (c), by actuaries
who
meet the
qualification
standards
established by the American Academy of
Actuaries and follow the practice standards
established by the Actuarial Standards Board.
42 C.F.R. § 438.6(c)(1)(i)(A)–(C) (2002) (emphasis
added).
The Certification Rule defines one ambiguous
phrase, “actuarially sound,” with another ambiguous
phrase, “generally accepted actuarial principles and
practices.” Id. While it does not define “generally
accepted actuarial principles and practices,” it requires
a private entity—an AAA actuary, who follows the
practice standards of the ASB—to certify that a
capitation rate meets “generally accepted actuarial
principles and practices.” Id. The Certification Rule
therefore only allows HHS to approve a capitation rate
as “actuarially sound” under the statute if one of the
ASB’s actuaries certifies—in accordance with the ASB’s
private interpretation of the Certification Rule—that the
capitation rate satisfies “generally accepted actuarial
principles and practices.” Id. It follows, then, that the
Certification Rule empowers the ASB to establish a
controlling interpretation and definition of a legal

81a
condition to receiving Medicaid subsidies (the
“rulemaking power”), and to prevent HHS from
approving any capitation rate that deviates from this
private legal standard (the “veto power”).
The Certification Rule thus delegated two distinct
and essential legislative functions: the power to establish
prospective, generally applicable rules of conduct, and
the power to veto executive action that does not comply
with those rules. See Ass’n of Am. R.R.s, 135 S. Ct. at
1242 (Thomas, J., concurring) (describing an essential
legislative function as “the formulation of generally
applicable rules of private conduct”); I.N.S. v. Chadha,
462 U.S. 919, 952–53 (1983) (describing the veto of
executive action as “legislative in its character and
effect”). Each delegation violates Article I’s exclusive
vesting of “all” legislative power in Congress. U.S.
CONST. art. I, § 1, cl. 1; see Whitman, 531 U.S. at 472
(“This text permits no delegation of those powers . . . .”).
If there is any doubt that in 2002 the Certification
Rule delegated legislative power to the ASB, the
subsequent history of the ASB defining “actuarially
sound” to exclude the HIPF, HHS approving MCO
contracts without the HIPF, and the ASB then redefining “actuarially sound” to include the HIPF, dispel
it. First, in 2005, the AAA defined “actuarially sound”
capitation rates as including inter alia state taxes—but
not federal taxes. Pls.’ App. 98, ECF No. 54-1; see supra
note 16. Then in 2013, the ASB published ASOP 1, which
declared, “[T]he phrase ‘actuarial soundness’ has
different meanings in different contexts . . . .” Id. at 99;
see supra note 17. Perhaps because the ASB did not
clearly require that capitation rates include federal
taxes, or maybe because the ACA expressly excluded

82a
states from paying the HIPF, 41 in 2014, HHS assured
states that they would have “flexibility” to decide
whether to include the HIPF in their capitation rates.
See 2014 HIPF Guide. Plaintiffs did not pay the HIPF
when it first came due in 2014, and HHS approved their
contracts. See Pls.’ App. 1168–70, ECF No. 54-1.
But in March 2015, the ASB’s “Medicaid Rate Setting
and Certification Task Force” 42 changed course and
promulgated ASOP 49, which stated:
The actuary should include an adjustment for any
taxes, assessments, or fees that the MCOs are
required to payout [sic] of the capitation rates. If
the tax, assessment, or fee is not deductible as an
expense for corporate tax purposes, the actuary
should apply an adjustment to reflect the costs of
the tax.
ASOP 49 § 3.2.12(d). Since the HIPF is a nondeductible tax, 43 ASOP 49 effectively declared that states
must reimburse MCOs the full amount of the HIPF in
their capitation rates in order for AAA actuaries to
certify their rates under the Certification Rule. HHS
then embraced these new ASB standards for compliance
with the Certification Rule and affirmed in a guidance
document that the states must comply with them. See
2015 MCO Guide. The undisputed evidence accordingly
shows that ASB has dictated prospective, generally
ACA § 9010(c)(2)(B); 26 C.F.R. § 57.2(b)(2)(ii).
The Court observes that the ASB felt it appropriate to muster,
not an “Advisory Committee,” but a “Task Force,” to generate a
document that in many respects has the appearance, structure, and
tenor of a statutory or regulatory enactment. See Pls.’ App. 225–57,
ECF No. 54-1.
43
ACA § 9010(f); 26 C.F.R. § 57.8.
41
42

83a
applicable rules of conduct for meeting a legal condition
to Medicaid subsidies. Indeed, because the Certification
Rule delegates to the ASB power to prevent CMS from
approving any MCO contract that deviates from its
standards, HHS is obliged to follow the ASB’s
enactments—even when the ASB effectively rewrites
the ACA, forcing the states to pay a tax when Congress
has expressly forbidden the federal government to
collect it from them. HHS’s delegation of legislative
power to the ASB therefore requires HHS to obey the
ASB even over the express commands of Congress—
which, in the final analysis, is the only proper legislative
body in this entire scheme.
Defendants argue that the Supreme Court rejected a
similar non-delegation claim in Currin v. Wallace, 306
U.S. 1 (1939). Defs.’ Br. 35–36, ECF No. 63. In Currin,
the challenged statute empowered the Secretary of
Agriculture to designate tobacco markets for regulation,
but provided that the Secretary’s regulation would only
go into effect if two-thirds of the tobacco growers in that
designated market voted to approve the designation. Id.
at 6. The Supreme Court held that this was not a
legislative delegation. Id. at 15–16. Rather, Congress
had “merely placed a restriction upon its own regulation
by withholding its operation as to a given market ‘unless
two-thirds of the growers voting favor it.’ . . . This is not
a case where a group of producers may make the law and
force it upon a minority . . . .” Id. at 15 (citing Carter
Coal, 298 U.S. at 310, 318). The Supreme Court reached
the same conclusion in a factually similar case decided
the same term. See United States v. Rock Royal Co-op.,
307 U.S. 533, 574–78 (1939) (holding that “a requirement
of such approval [by a private vote] would not be an

84a
invalid delegation” because “Congress had the power to
put [the Secretary’s] Order into effect without the
approval of anyone” (citing Currin, 306 U.S. at 15)).
These cases are distinguishable. In Currin and Rock
Royal, the private voters could not exercise their veto
authority unless the Secretary acted first. The laws
empowered the Secretary of Agriculture to take certain
regulatory actions and only empowered private entities
to veto those actions once the Secretary took the
initiative to do them. By contrast here, the Certification
Rule grants the ASB, a private entity, interpretive power
to establish prospective, generally applicable standards
for establishing actuarially sound capitation rates, as
well as power to prevent (through their private
actuaries) CMS from approving any capitation rate
proposal that does not abide by their binding standards.
Importantly, the ASB’s legislative powers operate on the
states and the MCOs before HHS takes any action—
indeed, independent of any HHS action—because the
ASB enacts its rules, and their actuaries decide whether
to certify an MCO contract pursuant to those rules,
before the states even submit their MCO contracts to
CMS for approval. Therefore, this case does not involve,
as in Currin or Rock Royal, Congress empowering HHS
to initially declare an MCO contract “actuarially sound,”
and then empowering the ASB to subsequently veto the
agency’s determination. This is instead a case of
legislative delegation, where HHS has empowered the
ASB to unilaterally and prospectively “make the law and
force it upon” others. Currin, 306 U.S. at 15. 44
The delegation discussions in Currin and Rock Royal may no
longer be good law. To the extent those cases hold that a mere veto
of executive action does not amount to private lawmaking power, a
44

85a
Defendants also argue that the Certification Rule is
not a legislative delegation because “CMS maintains and
exercises complete authority to review all such contracts
and rates and the actuarial soundness thereof, and
approves or denies contracts and rates on the basis of its
own review.” Defs.’ Br. 34–38, ECF No. 63 (citing Defs.’
App. 154–59, ECF No. 63-1). Defendants cite several
persuasive authorities holding that an agency does not
delegate legislative power when it considers the advice
of a private party in making its decisions—provided the
agency retains ultimate authority to reject that advice.
See id. at 34–38 (citing Fisher v. Berwick, 503 F. App’x
210, 214 (4th Cir. 2013); Pittston Co. v. United States, 368
F.3d 385, 395 (4th Cir. 2004); Riverbend Farms, Inc. v.
Madigan, 958 F.2d 1479, 1488 (9th Cir. 1992); Cospito v.
Heckler, 742 F.2d 72 (3d Cir. 1984)). It is true that CMS
conducts its own review to determine whether MCO
capitation rates are “actuarially sound,” but the
Certification Rule plainly requires that the ASB’s
actuaries first certify those rates in order for CMS to
approve them. See 42 C.F.R. § 438.6(c)(1)(i)(C)
(“Actuarially sound capitation rates means capitation
rates that . . . [h]ave been certified . . . by actuaries who
. . . follow the practice standards established by the
Actuarial Standards Board.” (emphasis in original)).
Moreover, Defendants’ own expert testified that CMS
subsequent and landmark decision by the Supreme Court calls this
conclusion into question. See Chadha, 462 U.S. at 952–53 (holding
that the veto of executive action is “legislative in its character and
effect”); see also Ass’n of Am. R.R.s, 135 S. Ct. at 1253–54 (Thomas,
J., concurring) (identifying Currin and Rock Royal as “questionable
precedents” that are “directly contrary” to Chadha, “discredited,”
and “lack[ing] any force”). Regardless, here HHS delegated more
than the mere ex post veto power that was at issue in those cases.

86a
will not review an MCO contract unless and until an
actuary has certified it:
[T]he state actuary must certify the rates or rate
ranges . . . . Next, a state sends a contract or
contract amendment to the appropriate CMS
Regional Office (“RO”), and the CMS actuarial
review process begins. After ensuring . . . that it
contains the rate certification . . . the RO forwards
the contract package to the Center for Medicaid
and CHIP Services (CMCS).
Defs.’ App. 154–59 (Truffer Decl.), ECF No. 63-1 (e)
(emphasis added). CMS will subsequently “render[ ] its
own actuarial opinion as to whether the rates are
actuarially sound,” but only after a private actuary has
certified them as such. See id. at 159. Truffer’s testimony
thus adheres to the Certification Rule’s text and
confirms its plain meaning, proving that CMS will only
consider and approve an MCO contract after it is
certified. And there is no evidence that CMS can or does
entertain any MCO contract that is not certified by an
AAA actuary.
The undisputed evidence therefore establishes that
the ASB’s private definition of “actuarial soundness” is,
by virtue of the Certification Rule’s legislative
delegation, the baseline legal standard and regulatory
floor that all MCO contracts must first clear to obtain
CMS approval—regardless whether CMS erects
additional or higher legal barriers in its own review
process. CMS may disapprove an MCO contract that
contains a private certification, but Truffer’s testimony
and the text of the regulation establish that CMS may
not consider or approve an MCO contract without one.

87a
The ASB’s rulemaking and veto powers are therefore
binding on CMS and not merely advisory.
Defendants further argue that ASOP 49 is advisory
because a different ASOP—ASOP 41—provides that an
actuary may permissibly deviate from an ASOP if the
actuary “provid[es] an appropriate statement” of his
rationale. Defs.’ Br. 37 n.26, ECF No. 63. This argument
also fails. ASOP 41 allows individual actuaries to
establish their own prospective, generally applicable
rules for setting capitation rates and—by the grace of
the ASB—to use these rules to certify a capitation rate.
Far from negating or diminishing the Certification
Rule’s initial delegation, this appears to constitute yet
another delegation, now from a private organization (the
ASB) to a private individual (an actuary). 45
Finally, Defendants argue that HHS did not delegate
legislative authority through the Certification Rule
because the ASB and its actuaries are not “interested
private parties” tasked with regulating business
competitors. Defs.’ Br. 37–38, ECF No. 63. It is true that
Plaintiffs have not pointed to any evidence that the ASB
and its actuaries “have a financial interest in the outcome
of capitation-rate negotiations.” Id. But even if they are
unbiased, this does not, as Defendants contend, purge
the legislative delegation of constitutional infirmity.
Article I’s Vesting Clause is a structural provision that
prohibits legislative delegation with or without proof of

Even if the ASB abjured its legislative power in ASOP 41 (it
did not), this would not cure the unlawful delegation. See Whitman,
531 U.S. at 472 (2001) (“The very choice of which portion of the
power to exercise . . . would itself be an exercise of the forbidden
legislative authority.” (emphasis in original)).
45

88a
an additional constitutional harm. 46 The legislative
delegation itself is the harm. See Whitman, 531 U.S. at
472. (“In a delegation challenge, the constitutional
question is whether the statute has delegated legislative
power to the agency.”) The Court agrees that the
delegation here could have been worse in both degree
and effect, as the Supreme Court has previously struck
down more extreme delegations. See, e.g., Schechter
Poultry, 295 U.S. at 529, 542 (striking down a private
legislative delegation to enact “codes of fair competition”
for business competitors); Carter Coal, 298 U.S. at 310–
11 (striking down a private legislative delegation to enact
labor regulations for business competitors). But it is not
the quantitative volume of legislative delegation that
establishes a constitutional violation; rather, the
Constitution prohibits any delegation of what is
qualitatively legislative power. See U.S. CONST. art. I,
§ 1, cl. 1 (“All legislative Powers . . . shall be vested in a
Congress of the United States.” (emphasis added)); See
also Whitman, 531 U.S. at 472 (“[Article I] permits no
delegation of [legislative] powers . . . .”).
The Certification Rule raises constitutional questions
“of the gravest character, and the court ha[s] given to
them the most anxious and deliberate consideration.”
Proprietors of Charles River Bridge v. Proprietors of
Warren Bridge, 36 U.S. 420, 536 (1837). Upon such
consideration, it is evident that “the Supreme Court has
In an ironic turn, Defendants downplay the continuing
authority of Schechter Poultry and Carter Coal by labeling them
“Lochner-era cases,” but then insist that Carter Coal’s nondelegation doctrine only applies where a legislative delegation also
resembles economic class legislation. See Defs.’ Br. 37–38, ECF No.
63.
46

89a
never approved a regulatory scheme that so drastically
empowers a private entity,” Ass’n of Am. Railroads v.
U.S. Dep’t of Transp., 721 F.3d 666, 671 (D.C. Cir. 2013)
(Brown, J.), and the text of the Constitution expressly
forbids this Court from doing so. The Court finds that
there is no genuine dispute of material fact that the
Certification Rule delegated legislative power to private
entities in violation of Article I’s Vesting Clause. See U.S.
CONST art. I, § 1, cl. 1. Accordingly, the Court GRANTS
Plaintiffs’ Motion for Summary Judgment (ECF No. 53)
as to their non-delegation claim in Count V and declares
that 42 C.F.R. § 438.6(c)(1)(i)(C) is set aside as “contrary
to constitutional right, power, privilege, or immunity
. . . .” 5 U.S.C. § 706(2)(B). The Court DENIES
Defendants’ Motion for Summary Judgment (ECF No.
62) as to the non-delegation claim in Counts V.
C. APA Claims (Counts II, III, and V)
Plaintiffs allege that the Certification Rule violates
the APA because: (1) it enabled the ASB to enact ASOP
49, thereby imposing the HIPF on the states; (2) it
imposed the HIPF on the states without notice and
comment, and (3) its imposition of the HIPF was
arbitrary and capricious. Pls.’ Br. 37–42, ECF No. 54. 47
Defendants respond that: (1) the Certification Rule is
permissible under Chevron because Congress intended
“actuarially sound” capitation rates to include taxes like
the HIPF, and that interpretation is reasonable; (2) the
Certification Rule always required paying the HIPF and
therefore ASOP 49 did not require notice and comment;
The Court construes Plaintiffs’ challenge to “agency action”
in Count V as a challenge to the Certification Rule. See Pls.’ Am.
Compl. 22–23, ECF No. 19.
47

90a
and (3) the imposition of the HIPF was not arbitrary and
capricious. Defs.’ Br. 43–50, ECF No. 63. 48
1. APA Statutory Authority Requirement
The Court will first consider whether the
Certification Rule is a permissible interpretation of
Medicaid’s “actuarial soundness” requirement. “When a
court reviews an agency’s construction of the statute
which it administers, it is confronted with two questions.
First, always, is the question whether Congress has
directly spoken to the precise question at issue. If the
intent of Congress is clear, that is the end of the matter
. . . .” Chevron, U.S.A., Inc. v. Nat. Res. Def. Council,
Inc., 467 U.S. 837, 842–43 (1984). However, if “the statute
is silent or ambiguous with respect to the specific issue,
the question for the court is whether the agency’s answer
is based on a permissible construction of the statute.”
Id.; see also, e.g., Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117, 2125 (2016) (“[A]t the second step the
court must defer to the agency’s interpretation if it is
‘reasonable.’”). “[C]onsiderable weight should be
accorded to an executive department’s construction of a
statutory scheme it is entrusted to administer . . . .”
Chevron, 467 U.S. at 844.
Medicaid requires MCO capitation rates to be
“actuarially sound.” 42 U.S.C. § 1396b(m)(2)(A)(iii),
(xiii). Congress, however, did not define “actuarially
sound.” See id. The words “actuarially sound” indicate
The APA requires this Court to “hold unlawful and set aside
agency action, findings, and conclusions found to be . . . arbitrary,
capricious, an abuse of discretion, or otherwise not in accordance
with law . . . [or] in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right . . . .” 5 U.S.C. § 706(2)(A),
(C).
48

91a
that Congress intended capitation rates to be
economically sustainable according to principles of
actuarial science. However, Congress did not identify
what actuarial principles ought to govern MCO
capitation rates or how HHS ought to apply them to
individual MCO contracts. 49 Because it is not clear from
the text of the statute what costs the states and MCOs
must include in their capitation rates in order for those
rates to be sound according to principles of actuarial
49
The Supreme Court has twice identified such a textual
ambiguity as an unconstitutional legislative delegation. For
example, in Schechter Poultry, the Supreme Court held that a law
empowering an agency to enact “codes of fair competition”
delegated legislative power because it did not guide the agency’s
discretion with the common law of unfair competition or a similarly
intelligible principle. See 295 U.S. at 528–42. And in Panama
Refining, the Supreme Court held that a law empowering the
President to interdict petroleum sales that exceeded state law
quotas delegated legislative power because it did not guide the
President’s discretion with a Congressional policy. See 293 U.S.
414–30. Courts continue to grapple with this abiding constitutional
doctrine. A concurring opinion in the recent “travel ban” litigation
held that a statute empowering the President to suspend any entry
of aliens “detrimental to the interests of the United States,” without
a saving construction, would be a legislative delegation because the
statutory language would not guide the President’s discretion. See
Int’l Refugee Assistance Project v. Trump, No. 17-2231, 2018 WL
894413, at *33–38 (4th Cir. Feb. 15, 2018) (Gregory, C.J.,
concurring). But see Josh Blackman, The Travel Ban, Article II,
and the Nondelegation Doctrine, (Feb. 22, 2018, 9:00 AM)
LAWFARE BLOG , https://www.lawfareblog.com/travel-ban-article-iiand-nondelegation-doctrine (“There is, without question, an
intelligible principle for the president to apply: The entry of the
aliens must be ‘be detrimental to the interests of the United
States.’”). The Court will not address this issue because Plaintiffs
do not claim that the “actuarially sound” language is a delegation.
See Am. Compl. 19–29, ECF No. 19.

92a
science, the Court finds that the phrase “actuarially
sound” is ambiguous. Accordingly, the Court defers to
the agency’s interpretation of “actuarially sound” so long
as its interpretation is reasonable. Cf. Chevron, 467 U.S.
at 842–43.
The Certification Rule interprets “actuarially
sound” in the following way:
(i) Actuarially sound capitation rates means
capitation rates that—
(A) Have been developed in accordance with
generally accepted actuarial principles and
practices;
(B) Are appropriate for the populations to be
covered, and the services to be furnished
under the contract; and
(C) Have been certified, as meeting the
requirements of this paragraph (c), by
actuaries who meet the qualification
standards established by the American
Academy of Actuaries and follow the practice
standards established by the Actuarial
Standards Board.
42 C.F.R. § 438.6(c)(1)(i)(A)–(C) (2002) (emphasis in
original). The Court finds that HHS reasonably
concluded that “actuarially sound” capitation rates are
those rates that accord with actuarial principles that rise
to the level of a professional consensus in the field of
actuarial science. See 42 C.F.R. § 438.6(c)(1)(i)(A). The
Court also finds HHS reasonably concluded that “sound”
capitation rates are those rates that are “appropriate”
for their respective populations. See 42 C.F.R.
§ 438.6(c)(1)(i)(B). Accordingly, the Court finds that

93a
HHS’s interpretation of Medicaid in 42 C.F.R.
§ 438.6(c)(1)(i)(A)–(B) is entitled to Chevron deference.
But HHS acted unreasonably when it concluded that
“actuarially sound” capitation rates must be certified by
an AAA actuary who follows the ASB’s practice
standards. See 42 C.F.R. § 438.6(c)(1)(i)(C). Just as
courts must presume that a statute is constitutional, it is
unreasonable for an agency to interpret a statute in a
way that imputes to Congress an intent to violate the
Constitution. Cf. Adkins v. Children’s Hosp. of the D.C.,
261 U.S. 525, 544 (1923) (“This court, by an unbroken line
of decisions from Chief Justice Marshall to the present
day, has steadily adhered to the rule that every possible
presumption is in favor of the validity of an act of
Congress until overcome beyond rational doubt.”).
Because HHS’s interpretation of “actuarially sound” in
42 C.F.R. § 438.6(c)(1)(i)(C) imputes to Congress an
intent to unconstitutionally delegate legislative power to
a private entity, see supra Part III.B, the Court finds
that HHS’s interpretation is unreasonable and not
entitled to Chevron deference.
Accordingly, the Court finds that there is no genuine
dispute of material fact that 42 C.F.R. § 438.6(c)(1)(i)(C)
(2002) is “in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right . . . .” 5 U.S.C.
§ 706(2)(C). The Court GRANTS Plaintiffs’ Motion for
Summary Judgment (ECF No. 53) as to their statutory
interpretation claim in Count V and declares that 42
C.F.R. § 438.6(c)(1)(i)(C) is set aside as “in excess of
statutory jurisdiction, authority, or limitations, or short
of statutory right . . . .” 5 U.S.C. § 706(2)(C). The Court
DENIES Defendants’ Motion for Summary Judgment

94a
(ECF No. 62) as to the statutory interpretation claim in
Counts V.
2. APA Notice and Comment Requirement
The Court will next consider whether the
Certification Rule violated the APA’s requirement of
notice and comment. The APA requires notice and
comment prior to the enactment of a “rule.” See 5 U.S.C.
§ 553. The APA defines a “rule” as “the whole or a part
of an agency statement of general or particular
applicability and future effect designed to implement,
interpret, or prescribe law or policy or describing the
organization, procedure, or practice requirements of an
agency . . . .” 5 U.S.C. § 551(4). “The notice-andcomment requirements apply . . . only to so-called
‘legislative’ or ‘substantive’ rules; they do not apply to
‘interpretative rules, general statements of policy, or
rules of agency organization, procedure, or practice.’”
Lincoln v. Vigil, 508 U.S. 182, 196 (1993).
It is undisputed that HHS promulgated the
Certification Rule through notice and comment. The
Court therefore finds that the Certification Rule does
not violate the APA’s procedural requirements.
Plaintiffs argue that the Certification Rule violates the
APA because it enabled the ASB to enact ASOP 49, and
HHS—without
notice
and
comment—formally
embraced ASOP 49 in their 2015 MCO Guide. See Pls.’
Br. 37–40, ECF No. 54. In that case, however, the Guide
would violate the APA—not the Certification Rule.
Accordingly, the Court DENIES Plaintiffs’ Motion for
Summary Judgement (ECF No. 53) as to Count III and
GRANTS Defendants’ Motion for Summary Judgment
(ECF No. 62) as to Counts III.

95a
3. APA Arbitrary and Capricious Requirement
The Court will next consider whether the
Certification Rule was arbitrary and capricious. The
Court determines whether an agency action is arbitrary
and capricious “solely on the basis of the agency’s stated
rationale at the time of its decision.” Luminant
Generation Co. v. U.S. E.P.A., 675 F.3d 917, 925 (5th Cir.
2012). Plaintiffs concede that they “don’t challenge
whether [the Certification Rule] was reasonable in
2002.” Pls.’ Reply 25, ECF No. 66. Therefore, Plaintiffs
have not shown that the Certification Rule was arbitrary
and capricious. The Court DENIES Plaintiffs’ Motion
for Summary Judgment (ECF No. 53) as to Count II and
GRANTS Defendants’ Motion for Summary Judgment
(ECF No. 62) as to Counts II.
D. Spending Clause Claims (Counts I, IV, and
VIII)
The Court will next consider Plaintiffs’ HIPF claims
(Counts I, IV, VI, VIII, IX, and X), beginning with
Plaintiffs’ claim that the HIPF violates the Spending
Clause (Counts I, IV, and VIII). Plaintiffs argue that the
HIPF violates the Constitution’s Spending Clause
because the HIPF: (1) is impermissibly coercive; (2) fails
to provide clear notice as a condition of federal funding;
and (3) is unrelated to Medicaid. Pls.’ Br. 21–28, ECF No.
54. Defendants argue that the HIPF does not violate the
Spending Clause because: (1) Congress enacted the
HIPF as a tax, not as a welfare program or as a condition
on Medicaid; (2) the ASB imposed the HIPF on the
states
pursuant
to
long-standing
Medicaid
requirements; and (3) the HIPF reasonably relates to
Medicaid by generating revenue for ACA programs.
Defs.’ Br. 24–28, ECF No. 63.

96a
“The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the Debts
and provide for the . . . general Welfare of the United
States . . . .” U.S. CONST. art. I, § 8, cl. 1. 50 There is no
dispute that the HIPF is a tax. The question remains
whether the HIPF is also a coercive, surprising, or
unrelated condition on spending in violation of the
Spending Clause.
1. Impermissibly Coercive
The Court will first consider whether the HIPF is a
coercive condition on spending. Plaintiffs claim that the
threat of losing all of their federal Medicaid funds if they
do not pay the HIPF makes the HIPF a coercive
condition on spending. Pls.’ Br. 25, ECF No. 54.
Defendants respond that the HIPF is not a condition on
Medicaid funding, and that even if it is a condition, it is
not coercive under NFIB, 567 U.S. 519, because it is a
tax, not a new welfare program. Defs.’ Br. 24–27, ECF
No. 63.
Congress may grant federal funds to the states and
condition such grants upon the states “taking certain
actions that Congress could not [otherwise] require them
to take.” NFIB, 567 U.S. at 576 (quotation marks
omitted). But the Constitution places limits on
Congress’s power to use spending conditions to secure
state compliance with federal objectives. Id. Important
among them is the requirement that the states accept
spending conditions “voluntarily.” Id. at 577 (quoting
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S. 1,
17 (1981)). “Congress may use its spending power to
The Court will hereinafter refer to the General Welfare
Clause as the Spending Clause.
50

97a
create incentives for States to act in accordance with
federal policies. But when ‘pressure turns into
compulsion,’ the legislation runs contrary to our system
of federalism.” Id. at 577–78 (quoting Steward Mach. Co.
v. Davis, 301 U.S. 548, 590 (1937)). “Respecting this
limitation is critical to ensuring that Spending Clause
legislation does not undermine the status of the States as
independent sovereigns in our federal system.” Id. at
577.
In NFIB, the Supreme Court considered whether the
ACA’s requirement that states dramatically expand
Medicaid coverage 51 or forfeit all federal Medicaid funds
was an unconstitutionally coercive condition on
spending. Id. at 581–85. The Supreme Court invalidated
the penalty for noncompliance, finding that “[t]he
threatened loss of over 10 percent of a State’s overall
budget is economic dragooning that leaves the States
with no real option but to acquiesce” and was therefore
impermissibly coercive. Id. at 581–82. The Medicaid
expansion was so dramatic it was “in reality a new
program . . . [not] a mere alteration of existing
Medicaid.” Id. at 582–84. While Congress could have
offered increased Medicaid funding in exchange for
continued participation in the Medicaid program, the
Spending Clause did not allow Congress to condition

Under the pre-ACA Medicaid program, states were required
“to cover only certain discrete categories of needy individuals—
pregnant women, children, needy families, the blind, the elderly,
and the disabled.” NFIB, 567 U.S. at 575 (citing 42 U.S.C.
§ 1396a(a)(10)). Under the post-ACA Medicaid expansion, states
were required “to cover all individuals under the age of 65 with
incomes below 133 percent of the federal poverty line.” Id. (citing 42
U.S.C. § 1396a(a)(10)(A)(i)(VIII)).
51

98a
existing Medicaid funds on participation in a new welfare
program. See id. at 582–85.
It is true that, unlike the Medicaid expansion in
NFIB, the HIPF is a tax and not a new welfare program.
But this distinction is not dispositive. Because of the
Certification Rule’s legislative delegation to the ASB, see
supra Part III.B—and the ASB’s promulgation of ASOP
49—the HIPF is now functionally operating as a
condition on Medicaid funds. Just as in NFIB, the
Government here threatens to withhold all of Plaintiffs’
Medicaid subsidies if Plaintiffs do not comply with a new
and onerous federal condition. NFIB involves different
facts, but its holding controls this case.
The fundamental question posed by NFIB in this
case is whether Plaintiff States “voluntarily” accepted
the spending condition. 567 U.S. at 577 (quoting
Pennhurst, 451 U.S. at 17). The Court finds that if
Congress conditions existing Medicaid funds on whether
states pay a new and onerous federal tax that was not a
part of the original Medicaid bargain—this condition
would be coercive and violate the Spending Clause. This
conclusion is consistent with the holding and underlying
logic of NFIB, and a contrary finding would open the
door to further constitutional violations. For if the
Spending Clause allows the Government to impose new
and onerous taxes as retroactive conditions on spending,
Congress could evade the Tenth Amendment’s
intergovernmental tax immunity by enacting a
“voluntary” tax on the states and attaching it as a
spending condition. See infra Part III.E (discussing the
Tenth Amendment’s intergovernmental tax immunity).
So long as Congress framed the tax as a “voluntary”
alteration to a pre-existing spending deal, the states

99a
would have to accept it, and pray the Government did not
alter it any further. 52
The Court finds, however, that Congress enacted the
HIPF as a tax—an ordinary, unadorned tax—not as a
condition on Medicaid funds. Indeed, the ACA expressly
excludes the states from paying the HIPF. ACA
§ 9010(c)(2)(B). It would be improper for the Court to
declare that a statute violates the Spending Clause as a
coercive condition on spending when Congress plainly
fashioned the statute so that it would not be a condition
on spending—indeed, so that the states would not pay it
at all. Plaintiffs’ grievance is with HHS’s legislative
delegation to the ASB—empowering the ASB to issue
legislative decrees that transformed the HIPF into a
spending condition—not with Congress’s routine
exercise of the taxing power. Accordingly, the Court
finds that the HIPF is not a coercive condition on
spending in violation of the Spending Clause. The Court
DENIES Plaintiffs’ Motion for Summary Judgement
(ECF No. 53) as to Count IV and GRANTS Defendants’
Motion for Summary Judgment (ECF No. 62) as to
Counts IV.
2. Clear Notice
Plaintiffs also claim that the HIPF violates the
Spending Clause because the Government did not give
the states clear notice that it would condition federal
Medicaid funds on paying the HIPF. See Pls.’ Br. 26–28,
ECF No. 54. Defendants respond that the requirement
that states account for the HIPF in their capitation rates
did not surprise Plaintiffs because it merely reflected a
This deal would get worse all the time, as Congress would
have an obvious incentive to manipulate this constitutional loophole
and pilfer state coffers to fund ever-expanding federal priorities.
52

100a
long-standing requirement in Medicaid that capitation
rates be actuarially sound. Defs.’ Br. 27–28, ECF No. 63.
“When Congress enacts legislation under its
spending power, that legislation is ‘in the nature of a
contract: in return for federal funds, the States agree to
comply with federally imposed conditions.’” Jackson v.
Birmingham Bd. of Educ., 544 U.S. 167, 181–82 (2005)
(quoting Pennhurst, 451 U.S. at 17). 53 As such, “‘[t]here
can . . . be no knowing acceptance [of the terms of the
contract] if a State is unaware of the conditions imposed
by the legislation on its receipt of funds.’” Id. at 182
(quoting Pennhurst, 451 U.S. at 17) (alterations in
original). The text of a statute must enable a state official
to “clearly understand” the conditions the state is
agreeing to when it accepts federal funds. Arlington
Cent. Sch. Bd. of Educ. v. Murphy, 548 U.S. 291, 296–97
(2006) (holding that the statutory provision at issue did
not even hint that acceptance of federal funds was
conditioned on a State reimbursing prevailing parties for
expert fees).
Defendants claim that Plaintiffs received clear notice
that the HIPF would be a condition on spending because
prior to the ACA, states were required to account for
other taxes in their capitation rates. See Defs.’ Br. 28,
ECF No. 63; Defs.’ Reply 11–15, ECF No. 67. But the
Because spending programs forge what is in principle, if not
in law, a contractual relationship between the states and the federal
government, certain common law rules of contract govern their
constitutionality. See Jackson, 544 U.S. at 181–82; see also Steven
C. Begakis, Rediscovering Liberty of Contract: The Unnoticed
Economic Right Contained in the Freedom of Speech, 50 LOY. L.A.
L. REV. 57, 64–66, 84–85 (2017) (discussing the objective reality of
contractual relationships, which exist independent from—and
thereby justify and demand—the positive law’s protection of them).
53

101a
ACA explicitly exempts Plaintiffs from paying the HIPF.
ACA § 9010(c)(2)(B). Defendants have pointed to no
evidence that the Government ever required states to
pay taxes in their capitation rates that the law expressly
exempted the states from paying. Defendants correctly
observe that Congress reserved the right to “alter” or
“amend” the terms of the Medicaid program in the
Medicaid statute, Defs.’ Br. 26, ECF No. 67 (quoting 42
U.S.C. § 1304), but Plaintiffs could not have anticipated
a requirement to pay the HIPF unless and until
Congress amended the ACA to remove their statutory
exemption.
This conclusion notwithstanding, the Spending
Clause only requires that spending conditions give clear
notice. See Pennhurst, 451 U.S. at 17. The HIPF is an
ordinary tax and not a spending condition. See supra
Part III.D.1. If the HIPF is not a spending condition, it
cannot violate the Spending Clause’s requirement that
spending conditions give clear notice. Accordingly, the
Court DENIES Plaintiffs’ Motion for Summary
Judgment (ECF No. 53) as to Count I and GRANTS
Defendants’ Motion for Summary Judgment (ECF No.
62) as to Count I.
3. Relatedness
Finally, Plaintiffs claim that the HIPF, as a condition
of Medicaid funding, is unrelated to the purpose of the
Medicaid program because Congress spends the HIPF
funds on ACA subsidies for non-Medicaid recipients.
Pls.’ Br. 26, ECF No. 54. Defendants respond that the
ACA does not direct the use of HIPF funds in this way.
Defs.’ Br. 27, ECF No. 54.
A condition on spending must reasonably relate to
the purpose for which the funds are spent. South Dakota

102a
v. Dole, 483 U.S. 203, 207–08. In Dole, the Supreme Court
held that Congress could condition highway funds on
raising the minimum legal drinking age because
regulating alcohol consumption was reasonably related
to one of the main purposes of highway funding, namely
safety in interstate travel. Id. at 208. Similarly here,
Defendants have put forward evidence that the
Government collects the HIPF into the general Treasury
fund, Defs.’ App. 10 (Golden Decl.), ECF No. 63-1, which
Congress uses to fund all Government programs—
including Medicaid. Because Congress uses the HIPF, at
least in part, to fund Medicaid, the imposition of the
HIPF as a condition on Medicaid reasonably relates to
the Medicaid program.
Moreover, the Court finds that the HIPF is only
operating as a condition on Medicaid by virtue of the
Certification Rule’s legislative delegation, supra Part
III.B, and is not in itself a spending condition that
implicates the Spending Clause. Supra Part III.D.1.
Because the law exempts states from paying the HIPF,
there is no genuine dispute of material fact that the
HIPF is a constitutional tax and not a coercive,
surprising, or unrelated condition on spending.
Accordingly, the Court DENIES Plaintiffs’ Motion for
Summary Judgment (ECF No. 53) as to Count VIII and
GRANTS Defendants’ Motion for Summary Judgment
(ECF No. 62) as to Count VIII.
E. Tenth Amendment Claim (Counts VI and X)
Plaintiffs claim that the HIPF, facially and as
applied,
violates
the
Tenth
Amendment’s
intergovernmental tax immunity. Pls.’ Am. Compl. 23–

103a
24, 26–27, ECF No. 19. 54 Plaintiffs argue that the HIPF
discriminates against them as states and unduly
interferes with their sovereign functions, even as the
HIPF does not represent a traditional source of federal
revenue. See Pls.’ Br. 30–35, ECF No. 54. Defendants
respond that the HIPF does not discriminate against a
sovereign because its legal incidence falls on the MCOs,
not the states. Defs.’ Br. 29–34, ECF No. 63. Defendants
also argue that Plaintiffs are precluded from arguing
that the HIPF interferes with state sovereignty because
Plaintiffs litigated and lost the issue on the merits in Fla.
ex rel. McCollum v. U.S. Dep’t of Health & Human
Servs., 716 F. Supp. 2d 1120 (N.D. Fla. 2010). Id. at 33–
34. The Court will consider Counts VI and X together, as
the parties have done in their briefing. See Pls.’ Br. 30–
35, ECF No. 54; Defs.’ Br. 29–34, ECF No. 63.
The Supreme Court first announced the doctrine of
intergovernmental tax immunity in McCulloch v.
Maryland where the Supreme Court held that the
Supremacy Clause prohibited states from directly taxing
the federal government. See 17 U.S. 316, 425–37 (1819).
“Since McCulloch, [the Supreme Court] has adhered to
the rule that States may not impose taxes directly on the
Federal Government, nor may they impose taxes the
legal incidence of which falls on the Federal
Government.” United States v. Fresno Cty., 429 U.S. 452,
459 (1977). “A tax is considered to be directly on the
Federal Government only ‘when the levy falls on the
United States itself, or on an agency or instrumentality
The Court previously dismissed Count X to the extent it
sought a HIPF refund, but otherwise deferred a ruling on
Defendants’ motion to dismiss Count X. Aug. 4, 2016 Order 21, ECF
No. 34.
54

104a
so closely connected to the Government that the two
cannot realistically be viewed as separate entities.’”
South Carolina v. Baker, 485 U.S. 505, 523 (1988). The
states may enact a tax on a private party, even if the
economic burden falls entirely on the federal
government, provided the tax “does not discriminate
against the United States or those with whom it deals.”
Id. at 521, 523.
The Tenth Amendment reserves to the states a
similar tax immunity. See id. at 518 n.11 (“[S]tate
immunity arises from the constitutional structure . . . .”).
“The rule with respect to state tax immunity is
essentially the same” as federal tax immunity. Id. at 523.
The only difference between federal and state tax
immunity is that the federal government may collect
certain taxes from the states directly—provided the tax
does not discriminate against the states and those with
whom they deal. See id. at 523, 523 n.14. 55 Thus, the
central question in a state tax immunity cases is whether
the tax “discriminates” against the sovereign—that is,
whether the legal incidence of the tax falls solely upon
the sovereign or the sovereign’s functionaries, and not on
any purely private entities. See id. at 517–23; see also
New York, 326 U.S. at 587 (Stone, C.J., concurring)
(“[T]he phrase ‘non-discriminatory tax’ . . . refer[s] to a
tax laid on a like subject matter, without regard to the
personality of the taxpayer . . . .”). An entity is not
private if it “stand[s] in the [sovereign’s] shoes,” or is “so
assimilated by the [sovereign] as to become one of its
The Supreme Court in Baker briefly remarked that the
federal government could collect “at least some” federal taxes
directly from the states, but declined to elaborate what those taxes
are. See 485 U.S. at 523, 523 n.14.
55

105a
constituent parts.” United States v. New Mexico, 455
U.S. 720, 736 (1982) (quotation marks omitted).
While the ASB—wielding delegated legislative
power from HHS—effectively rewrote the ACA to
require the states to pay the HIPF, supra Part III.B, the
HIPF itself prohibits this very form of tax discrimination
against a sovereign. Indeed, Congress discriminated in
the opposite direction, levying the HIPF on private
MCOs and explicitly exempting the states from paying
it. ACA § 9010(c)(2)(B). Moreover, while MCOs work
closely with the states, they are private businesses
without government control or oversight. An MCO is not
“so assimilated by the [state] as to become one of its
constituent parts.” Cf. New Mexico, 455 U.S. at 736
(noting that intergovernmental tax immunity does not
apply to private contractors). Because Congress
constructed the HIPF so that it would target the MCOs
and not the states, the Court finds that the HIPF does
not discriminate against the states in violation of state
tax immunity.
It is possible that a non-discriminatory tax “may
nevertheless so affect the State, merely because it is a
State that is being taxed, as to interfere unduly with the
State’s performance of its sovereign functions of
government.” New York, 326 U.S. at 587 (Stone, C.J.,
concurring). Plaintiffs argue that the HIPF interferes
with their sovereign functions because it forces the
states to raise new taxes on their citizens to pay the
HIPF, commandeering their legislators and executive
officials to enact and enforce federal policy in violation of
Printz v. United States, 521 U.S. 898, 925–33 (1997). See
Pls.’ Br. 34, ECF No. 54. Assuming arguendo that this
argument is not precluded, the Court finds it unavailing.

106a
There is indeed undisputed evidence in this case that the
states had to reshape their annual budgets to account for
the HIPF. See, e.g., Pls.’ App. 1169–71, ECF No. 54-1.
But it was the ASB’s imposition of the HIPF on
Plaintiffs, not the HIPF itself, that precipitated
Plaintiffs’ legislative actions. Supra Part III.B. The
Court finds that the HIPF, when properly applied only
to the MCOs, imposes at most an incidental economic
burden on Plaintiffs. Plaintiffs have not shown that this
incidental burden unconstitutionally interferes with
their sovereign functions.
Accordingly, the Court finds that there is no genuine
dispute of material fact that the HIPF is constitutional
under the Tenth Amendment. The Court DENIES
Plaintiffs’ Motion for Summary Judgment (ECF No. 53)
as to Counts VI and X and GRANTS Defendants’ Motion
for Summary Judgment (ECF No. 62) as to Counts VI
and X.
F. Permanent Injunction Claim (Count IX)
Plaintiffs also request a permanent injunction to
prevent Defendants from prospectively collecting the
HIPF because the HIPF is unlawful. See Pls.’ Am.
Compl. 26, ECF No. 19. To receive a permanent
injunction, the movant must show inter alia actual
success on the merits. Doe v. KPMG, L.L.P., 325 F.
Supp. 2d 746, 751 (N.D. Tex. 2004) (citing Harris Cty. v.
CarMax Auto Superstores, Inc., 177 F.3d 306, 312 (5th
Cir. 1999)). Here Plaintiffs have not established actual
success in challenging the legality of the HIPF. Supra
Part III.D–E. Accordingly, the Court may not
permanently enjoin federal officials from collecting the
HIPF. The Court DENIES Plaintiffs’ Motion for
Summary Judgment (ECF No. 53) as to Count IX and

107a
GRANTS Defendants’ Motion for Summary Judgment
(ECF No. 62) as to Count IX.
IV. CONCLUSION
For the foregoing reasons, the Court finds that
Plaintiffs’ Motion for Summary Judgment (ECF No. 53)
should be and is hereby GRANTED in part and
DENIED in part, and that Defendants’ Motion for
Summary Judgment (ECF No. 62) should be and is
hereby GRANTED in part and DENIED in part.
Because 42 C.F.R. § 438.6(c)(1)(i)(C) (2002) 56 delegates
legislative power in violation of the United States
Constitution and the APA, the Court declares that it 57 is
set aside as “contrary to constitutional right, power,
privilege, or immunity,” and “in excess of statutory
jurisdiction, authority, or limitations, or short of
statutory right . . . .” 5 U.S.C. § 706(2)(B)–(C).
SO ORDERED on this 5th day of March, 2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

“(i) Actuarially sound capitation rates means capitation
rates that . . . (C) Have been certified, as meeting the requirements of this paragraph (c), by actuaries who meet the qualification standards established by the American Academy of
Actuaries and follow the practice standards established by the
Actuarial Standards Board.” 42 C.F.R. § 438.6(c)(1)(i)(C)
(2002) (emphasis in original).
57
The offending provision is now codified at 42 C.F.R.
§§ 438.2–438.4.
56

108a
A PP ENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
§
STATE OF TEXAS et al., §
§
Plaintiffs
§
v.
§
§
UNITED STATES OF
§
AMERICA et al.,
§
§
Defendants.
§

§
Civil Action
No. 7:15-cv-00151-O

MEMORA NDUM OP INION A N D OR DER
Before the Court are Defendants’ Motion to Dismiss
Plaintiffs’ Amended Complaint and Brief in Support
(ECF Nos. 26–27), filed April 1, 2016; Plaintiff States’
Response to Defendants’ Motion to Dismiss (ECF No.
29), filed April 25, 2016; and Defendants’ Reply Brief in
Support of Defendants’ Motion to Dismiss Plaintiffs’
Amended Complaint (ECF No. 32), filed May 18, 2016.
Having considered the motion, related briefing, and
applicable law, the Court finds that Defendants’ Motion
should be and is hereby GRANTED in part and
DENIED in part.
I. BACKGROUND
This case arises from Defendants’ alleged mandate
that Plaintiffs (alternatively, the “Plaintiff States”)
annually pay to managed care organizations (“MCOs”)

109a
the full multi-million dollar Health Insurance Providers
Fee (“HIPF”) the Patient Protection and Affordable
Care Act (“ACA”) imposes on MCOs. Am. Compl. ¶ 6,
ECF No. 19. The following factual recitation is primarily
taken from Plaintiffs’ Amended Complaint. See
generally Id. Plaintiffs are the States of Texas, Indiana,
Kansas, Louisiana, Nebraska, and Wisconsin. Id. at 1.
Defendants are the United States of America
(hereinafter “the Government”), Sylvia Burwell
(“Burwell”), in her official capacity as Secretary of
Health and Human Services (“HHS”), the United States
Internal Revenue Service (the “IRS”), and John
Koskinen (“Koskinen”), in his official capacity as
Commissioner of Internal Revenue. Id. at 1–2. The Court
provides factual background on each relevant program
or agency action below as set out in Plaintiffs’ Amended
Complaint. See generally id.
A. Medicaid Program
The United States Congress created the Medicaid
program in 1965. See Social Security Amendments Act
of 1965, Pub. L. 89-97, 79 Stat. 286 (1965); Id. ¶ 7. Federal
and state governments jointly fund Medicaid, which
provides healthcare to low-income families, children,
related caretakers of dependent children, pregnant
women, people age 65 and older, and adults and children
with disabilities. Am. Compl. ¶¶ 7, 9, ECF No. 19 (citing
42 U.S.C. §§ 1396–1396w). To participate in Medicaid,
states provide coverage to a federally mandated
category of individuals according to a federally approved
state plan. Am. Compl. ¶ 8, ECF No. 19. All 50 states
participate in the Medicaid program, and all Plaintiff
States have participated in Medicaid since shortly after

110a
its creation. Id. ¶¶ 8–9. States may not limit the number
of eligible people who can enroll. Id. ¶ 9.
The Plaintiff States spend a significant amount of
money providing healthcare through the Medicaid
program. Id. ¶ 10. For instance, Texas provides Medicaid
services to around one in seven of Texas’s total
population, or 3.7 million of 26.4 million Texans, and
Medicaid spending accounts for approximately 26% of
Texas’s total budget in fiscal year 2013 (and 28% of
Texas’s 2015 budget). Id. The remaining Plaintiffs also
serve millions of individuals in their states and spend a
considerable portion of their respective states’ annual
budgets on Medicaid. See Id.
B.

Children’s
(“CHIP”)

Health

Insurance

Program

The United States Congress created CHIP in 1997.
Id. ¶ 11 (citing Balanced Budget Act of 1997, Pub. L. 10533, 111 Stat. 251). Federal and state governments jointly
fund CHIP, which provides healthcare to uninsured
children who do not qualify for Medicaid, but whose
families cannot afford private insurance. Am. Compl.
¶¶ 11–12, ECF No. 19 (citing 42 U.S.C. § 1397aa). CHIP
provides basic primary healthcare and other medically
necessary services, such as dental care, to children, and
certain services to pregnant women. Id. CHIP services
are typically delivered by MCOs selected by the states
through a competitive bidding process. Id. All of the
Plaintiff States participate in CHIP. Id.
Providing healthcare through CHIP is a significant
function of the Plaintiff States’ governments. Id. ¶ 13.
For example, as of June 2015, 333,000 Texas children
were enrolled in CHIP. Id. The remaining Plaintiff
States similarly report having tens or hundreds of

111a
thousands of children and pregnant women who rely on
CHIP services. See Id.
C. Plaintiff States’ Use of MCOs to Participate in
Medicaid and CHIP
Plaintiff States provide a significant portion of
Medicaid and CHIP healthcare services through
managed care arrangements. In a managed care
arrangement, states enter into contracts with MCOs,
whereby the organizations agree to deliver healthcare
services in exchange for a fixed monthly payment, known
as a “capitation payment” or “capitation rate.” Id. ¶ 15.
For example, in Texas, MCOs provided Medicaid
services to around 87% of Texas’s Medicaid population in
fiscal year 2015, and payments to MCOs for Medicaid
services totaled over $16 billion, which constitutes 17%
of Texas’s budget. Id. ¶ 16. The remaining Plaintiff
States also provide Medicaid services to a large portion
of their respective Medicaid populations, with payments
to MCOs totaling a significant amount of each Plaintiff
State’s budget. Id. In addition, MCOs provide the
majority of healthcare services to children in the Plaintiff
States’ CHIP programs. Id. ¶ 17. For instance, in Texas,
MCOs provide all CHIP services, accounting for about
one percent (1%) of Texas’s budget in fiscal year 2015.
Id. The remaining Plaintiff States also utilize MCOs for
the majority of their CHIP services.
D. Health Insurance Providers Fee (“HIPF”)
In 2010, the United States passed the ACA. Id. ¶ 18
(citing Pub. L. 111-148, 124 Stat. 119-1025 (Mar. 23,
2010)). One portion of the ACA imposed the HIPF on all
covered health insurance providers for “United States
health risks,” defined as “the health risk of any individual

112a
who is” a United States citizen, a resident of the United
States, or located in the United States. Am. Compl. ¶ 18,
ECF No. 19 (citing Pub. L. 111-148, Stat. 865–66); Defs.’
Br. Supp. Mot. 4, ECF No. 27 (quoting § 9010(d) of the
ACA). The HIPF is imposed as a lump sum on all covered
health insurance providers collectively; however, the
portion each entity must pay is based on the ratio of the
entity’s net premiums to all net premiums written for
United States health risks. Defs.’ Br. Supp. Mot. 5, ECF
No. 27 (quoting § 9010(b)(1) of the ACA); see also Am.
Compl. ¶ 19, ECF No. 19. Congress enacted the HIPF in
order to generate revenue from the expected windfall
insurers would receive by individuals enrolling in the
ACA. Am. Compl. ¶ 18, ECF No. 19.
The HIPF totaled $8 billion in 2014, and is projected
to increase to a total of $14.3 billion by 2018. Id. ¶ 19. On
December 18, 2015, Congress passed, and the President
signed into law, a temporary, one-year moratorium on
the HIPF for 2017. Id. (citing Consolidated
Appropriations Act, 2016, Pub. L. No. 114-133, 129 Stat.
2242, 3037–38 (2015)). However, after 2017, the HIPF is
scheduled to continue to increase. Am. Compl. ¶ 19, ECF
No. 19.
Plaintiffs allege that the ACA does not provide clear
notice to states that continuing to receive federal funding
for Medicaid and CHIP MCOs is conditioned upon states
reimbursing the full of amount of the HIPF assessed
against the MCOs. Id. ¶ 21. Plaintiffs may avoid the
HIPF, however, by contracting with certain nonprofit
MCOs. Nonprofit MCOs that receive more than 80% of
their gross revenues from government programs serving
low-income, elderly, and disabled populations are
exempt from paying the HIPF. Id. ¶ 22. In addition,

113a
nonprofit MCOs not qualifying for this exclusion can
deduct 50% of their premium revenue from the fee
calculation. Id. Plaintiffs, however, contract with forprofit MCOs. Id. They allege that contracting only with
exempt MCOs is impossible because of: (1) the relative
scarcity of such nonprofit organizations; and (2) that
several currently exempt MCOs do not desire to contract
with Plaintiffs. Id. For example, Texas currently
contracts with all nonprofit Medicaid MCOs in Texas
who desire to contract with Texas. Id. However, the
nonprofit MCOs are not able to serve all of the eligible
population, requiring Texas to contract with for-profit
MCOs, and thus incur substantial liability under the
HIPF. Id.
E. The Role of the American Academy of
Actuaries (the “Academy”) in the ACA
Title 42 U.S.C. § 1396b(m) requires that the
negotiated capitation rates between states and MCOs be
“actuarially sound.” Id. ¶ 25. To be deemed “actuarially
sound” for purposes of Medicaid and CHIP, federal
regulations require an actuary’s certification that, under
the standards established by the Academy, capitation
rates are sufficient to cover the insurance providers’
expected costs and insurance risks for the coming year.
Id. ¶ 26.
The Academy is a private, membership-based
professional organization. Id. ¶ 27. The Academy sets
qualification, practice, and professional standards for
credentialed actuaries. Id. ¶ 28. To set these standards,
the Academy created and works with an independent,
private organization known as the Actuarial Standards
Board (“ASB”). Id. ¶ 29. The ASB establishes and
improves standards of actuarial practice. Id. ¶ 30. These

114a
Actuarial Standards of Practice (“ASOPs”) identify what
the actuary should consider, document, and disclose
when performing an actuarial assignment. Id. In March
2015, the ASB adopted ASOP 49, which sets actuarially
sound capitation rates for MCO agreements. Id. ¶ 31.
ASOP 49 requires capitation rates that recover from
states the full amount MCOs are taxed. Id. ¶ 32. ASOP
49 further requires that, if such taxes are not deductible
as expenses for corporate income tax purposes, as is the
case for the HIPF, the rate must be adjusted to
compensate for additional tax liability. Id. ¶ 33.
Generally, if a capitation rate for a managed care
agreement does not comply with ASOP 49, an actuary
will be unable to certify that the rate is actuarially sound.
Id. ¶ 34. Without such certification, a managed care
agreement will be ineligible for Medicaid and CHIP
funds. Id. ¶ 35. In conjunction with applicable law and
regulations, ASOP 49 requires states to pay MCOs an
amount sufficient to cover the HIPF and any additional
taxes the MCOs incur from those payments. Id. ¶ 36.
Therefore, Plaintiff States allege the ACA requires them
to pay the HIPF to the for-profit MCOs or lose Medicaid
funding for those contracts.
This requirement imposes a significant obligation on
the Plaintiff States. For instance, in August 2015,
Texas’s funded portion of the amount paid to the
Medicaid and CHIP MCOs to cover costs associated with
the HIPF for the 2013 calendar year was approximately
$84,637,710.00. Id. ¶ 37. Additionally, Texas has
appropriated over $241,000,000.00 in state funds to cover
the HIPF for the next biennium. Id. The other Plaintiffs
have similarly apportioned funds to cover the fee paid to
MCOs, which in turn pay the HIPF. See Id.

115a
In the next decade, the HIPF is projected to allow the
federal government to collect between $13 and $15 billion
from the states. Id. ¶ 38. Plaintiffs argue that by
functionally requiring that the Plaintiff States pay MCOs
who in turn pay tax liabilities, the United States has
imposed those taxes on the Plaintiff States. Id. ¶ 39.
F. Role of HHS
The Centers for Medicare & Medicaid Services
(“CMS”), a component of HHS, must approve all of the
states’ proposed capitation rates. Id. ¶ 40. CMS
specifically approves the amount of the HIPF, which the
Plaintiff States must pay to the MCOs. For example,
CMS worked directly with Texas in 2015 to confirm the
precise amount Texas owed as a result of the HIPF. Id.
If capitation rates for any MCO agreement under
Medicaid or CHIP are not actuarially sound, then
payments pursuant to such plans would be legally
ineligible for federal matching funds under Medicaid or
CHIP. Id. ¶ 41 (citing 42 U.S.C. § 1396b(m)(2)(A)(iii)).
By placing in jeopardy a substantial percentage of the
Plaintiff States’ budgets if the Plaintiff States refuse to
help defray the costs of the United States’ chosen policy,
the ACA, Plaintiffs allege that Defendants have left them
no real choice but to acquiesce. Id. ¶ 44.
G. Plaintiffs’ Claims
Plaintiffs allege the following claims: (1) a declaration
under 28 U.S.C. § 2201, the Declaratory Judgment Act
(“DJA”), and 5 U.S.C. § 706 of the Administrative
Procedure Act (“APA”), that the HIPF violates
constitutional standards of clear notice; (2) a declaration
under 5 U.S.C. § 706 that the rule implementing the
HIPF is arbitrary and capricious; (3) a declaration under

116a
5 U.S.C. § 706 that the rule implementing the HIPF was
imposed without observance of necessary procedural
requirements; (4) declaratory judgment under 28 U.S.C.
§ 2201 and 5 U.S.C. § 706 that the HIPF
unconstitutionally coerces a sovereign; (5) declaratory
judgment under 28 U.S.C. § 2201 and 5 U.S.C. § 706 that
the agency action is contrary to constitutional right and
in excess of statutory authority; (6) declaratory
judgment under 28 U.S.C. § 2201 and 5 U.S.C. § 706 that
the HIPF unconstitutionally taxes a sovereign; (7) a
claim for refund against the United States under 26
U.S.C. § 7422 for previously paid HIPFs; (8) declaratory
judgment under 28 U.S.C. § 2201 and 5 U.S.C. § 706 that
the HIPF, as applied to Plaintiff States’ Medicaid
programs, is insufficiently related to the ACA to be a
legitimate exercise of Congress’s spending power; (9)
injunction against federal officials from collecting the
unconstitutional HIPF; and (10) alternatively,
declaratory judgment under 28 U.S.C. §§ 2201–2202 and
5 U.S.C. § 706 that, if § 9010(f) of the ACA bars this claim
for refund, § 9010(f) is unconstitutional as applied to the
Plaintiff States.
II. LEGAL STANDARDS
A. FRCP 12(b)(1) - Subject-Matter Jurisdiction
Rule 12(h)(3) of the Federal Rules of Civil Procedure
provides that “if the court determines at any time that it
lacks subject-matter jurisdiction, the court must dismiss
the action.” Fed. R. Civ. P. 12(h)(3); see Stafford v. Mobil
Oil Corp., 945 F.2d 803, 805 (5th Cir. 1991) (“Failure
adequately to allege the basis for diversity jurisdiction
mandates
dismissal.”).
Federal
subject-matter
jurisdiction is limited; federal courts may entertain only
those cases involving a question of federal law or those

117a
where parties are of diverse citizenship. See 28 U.S.C.
§§ 1331, 1332. Federal courts have original jurisdiction
over claims when the complaint states claims arising
under federal law. Id. § 1331; Ky. Fried Chicken Corp. v.
Diversified Packaging Corp., 549 F.2d 368, 392 (5th Cir.
1977). Diversity jurisdiction requires that: (1) the
amount in controversy must exceed $75,000; and (2) the
citizenship of each plaintiff must be diverse from the
citizenship of each defendant. See 28 U.S.C. § 1332(a);
see Stafford, 945 F.2d at 804. “It is well-established that
the diversity statute requires ‘complete diversity’ of
citizenship: A district court cannot exercise diversity
jurisdiction if one of the plaintiffs shares the same state
citizenship as any one of the defendants.” Corfield v.
Dall. Glen Hills LP, 355 F.3d 853, 857 (5th Cir. 2003).
The party invoking federal jurisdiction has the burden of
establishing it. Id.
“Every party that comes before a federal court must
establish that it has standing to pursue its claims.”
Cibolo Waste, Inc. v. City of San Antonio, 718 F.3d 469,
473 (5th Cir. 2013); see also Barrett Comp. Servs., Inc. v.
PDA, Inc., 884 F.2d 214, 218 (5th Cir. 1989). “The
doctrine of standing asks ‘whether the litigant is entitled
to have the court decide the merits of the dispute or of
particular issues.’” Cibolo Waste, 718 F.3d at 473
(quoting Elk Grove Unified Sch. Dist. v. Newdow, 542
U.S. 1, 11 (2004)).
Standing has both constitutional and prudential
components. See Cibolo Waste, 718 F.3d at 473 (quoting
Elk Grove, 542 U.S. at 11) (explaining that standing
“contain[s] two strands: Article III standing . . . and
prudential standing”). Constitutional standing requires
a plaintiff to establish that she has suffered an injury in

118a
fact traceable to the defendant’s actions that will be
redressed by a favorable ruling. Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560–61 (1992). The injury-in-fact
must be “concrete and particularized” and “actual or
imminent,”
as
opposed
to
“conjectural”
or
“hypothetical.” Lujan, 504 U.S. at 560. “Prudential
standing requirements exist in addition to ‘the
immutable requirements of Article III,’ . . . as an integral
part of ‘judicial self-government.’” ACORN v. Fowler,
178 F.3d 350, 362 (5th Cir.1999); see also Id. “The goal of
this self-governance is to determine whether the plaintiff
‘is a proper party to invoke judicial resolution of the
dispute and the exercise of the court’s remedial power.’”
Id. (quoting Bender v. Williamsport Area Sch. Dist., 475
U.S. 534, 546 n.8 (1986)). The Supreme Court has
observed that prudential standing encompasses “at least
three broad principles,” including “the general
prohibition on a litigant’s raising another person’s legal
rights . . . .” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377, 1386 (2014); Cibolo
Waste, 718 F.3d at 474 (quoting Elk Grove, 542 U.S. at
12); see also Sprint Commc’ns Co., L.P. v. APCC Servs.,
Inc., 554 U.S. 269, 290 (2008) (discussing cases where
third-parties sought “to assert not their own legal rights,
but the legal rights of others”); Vt. Agency of Nat. Res.
v. U.S. ex rel. Stevens, 773 (2000) (noting “the assignee
of a claim has standing to assert the injury in fact
suffered by the assignor”).
B. FRCP 12(b)(6) - Failure to State a Claim
Federal Rule of Civil Procedure 8(a) requires a claim
for relief to contain “a short and plain statement of the
claim showing that the pleader is entitled to relief.” Fed.
R. Civ. P. 8(a)(2). Rule 8 does not require detailed factual

119a
allegations, but “it demands more than an unadorned,
the-defendant-unlawfully-harmed-me
accusation.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)). If a
plaintiff fails to satisfy Rule 8(a), the defendant may file
a motion to dismiss the plaintiff’s claims under Federal
Rule of Civil Procedure 12(b)(6) for “failure to state a
claim upon which relief may be granted.” Fed. R. Civ. P.
12(b)(6).
To defeat a motion to dismiss pursuant to Rule
12(b)(6), a plaintiff must plead “enough facts to state a
claim to relief that is plausible on its face.” Twombly, 550
U.S. at 570. “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Iqbal, 556 U.S. at 663
(citing Twombly, 550 U.S. at 556). “The plausibility
standard is not akin to a ‘probability requirement,’ but it
asks for more than a sheer possibility that a defendant
has acted unlawfully.” Id. (quoting Twombly, 550 U.S. at
556). “Where a complaint pleads facts that are ‘merely
consistent with’ a defendant’s liability, it ‘stops short of
the line between possibility and plausibility of
entitlement to relief.’” Id. (quoting Twombly, 550 U.S. at
557).
In reviewing a Rule 12(b)(6) motion, the Court must
accept all well-pleaded facts in the complaint as true and
view them in the light most favorable to the plaintiff.
Sonnier v. State Farm Mut. Auto. Ins. Co., 509 F.3d 673,
675 (5th Cir. 2007). The Court is not bound to accept legal
conclusions as true, and only a complaint that states a
plausible claim for relief survives a motion to dismiss.
Iqbal, 556 U.S. at 678–79. When there are well-pleaded

120a
factual allegations, the Court assumes their veracity and
then determines whether they plausibly give rise to an
entitlement to relief. Id.
“Generally, a court ruling on a 12(b)(6) motion may
rely on the complaint, its proper attachments, documents
incorporated into the complaint by reference, and
matters of which a court may take judicial notice.”
Randall D. Wolcott, M.D., P.A. v. Sebelius, 635 F.3d 757,
763 (5th Cir. 2011) (citations omitted); see also Tellabs,
Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308, 322
(2007). A court may also consider documents that a
defendant attaches to a motion to dismiss if they are
referred to in the plaintiff’s complaint and are central to
the plaintiff’s claims. Collins v. Morgan Stanley Dean
Witter, 224 F.3d 496, 498–99 (5th Cir. 2000).
“If it appears that a more carefully drafted pleading
might state a claim upon which relief could be granted,
the court should give the claimant an opportunity to
amend his claim rather than dismiss it.” Kennard v.
Indianapolis Life Ins. Co., 420 F. Supp. 2d 601, 608–09
(N.D. Tex. 2006) (Fish, C.J.) (citing Friedlander v.
Nims, 755 F.2d 810, 813 (11th Cir.1985); accord Taylor
v. Dall. Cty. Hosp. Dist., 976 F. Supp. 437, 438 (N.D. Tex.
1996) (Fish, J.). Likewise, “leave to amend a pleading
should be freely given and should be granted unless
there is some justification for refusal.” Kennard, 420 F.
Supp. at 609 (quoting U.S. ex rel Willard v. Humana
Health Plan of Tex., 336 F.3d 375, 386 (5th Cir 2003)).
III. ANALYSIS
Defendants move to dismiss all of Plaintiffs’ claims
under Rules 12(b)(1) and 12(b)(6). Defs.’ Br. Supp. Mot.
7, ECF No. 27. The Court addresses each claim in turn,
beginning its analysis with subject-matter jurisdiction

121a
under Rule 12(b)(1). In addressing Plaintiffs’ subjectmatter jurisdiction, the Court first evaluates Plaintiffs’
Article III standing.
A. Subject-Matter Jurisdiction Under 12(b)(1)
1. Standing
a. Constitutional Standing
Defendants argue that “[a]t the outset, Plaintiffs face
an especially high bar to demonstrate standing in this
case,” as Plaintiffs “challenge a congressional action
whose object is not the States, but for-profit health
insurers.” Defs.’ Br. Supp. Mot. 8, ECF No. 27.
Defendants contend that Plaintiffs’ alleged injury from
the HIPF is not fairly traceable to them, and Plaintiffs
have not suffered an injury from the actuarial-soundness
requirement. Id. at 9–10.
Plaintiffs respond that their “injuries are traceable to
the challenged action, and are not attributable to the
independent action of a third party not before the
Court.” Pls.’ Resp. 1, ECF No. 29. Plaintiffs also argue
that they “have undoubtedly suffered injuries in fact—
invasions of their fiscs—that are concrete and
particularized.” Id.
i. Concrete and Particularized Injury
Constitutional standing requires a plaintiff to
establish that she has suffered or is immediately in
danger of suffering an injury-in-fact traceable to the
defendant’s actions that will be redressed by a favorable
ruling. Lujan, 504 U.S. at 560–61; City of L.A. v. Lyons,
461 U.S. 95, 102 (1983). The injury-in-fact must be
“concrete and particularized” and “actual or imminent,”
as opposed to “conjectural” or “hypothetical.” Lujan, 504
U.S. at 560. “When a litigant is vested with a procedural

122a
right, that litigant has standing if there is some
possibility that the requested relief will prompt the
injury-causing party to reconsider the decision that
allegedly harmed the litigant.” Texas v. United States,
809 F.3d 134, 150–51 (5th Cir. 2015) (quoting
Massachusetts v. EPA, 549 U.S. 497, 518 (2007)). “[T]he
presence of one party with standing is sufficient to
satisfy Article III’s case-or-controversy requirement.”
Texas, 809 F.3d at 151 (quoting Rumsfeld v. Forum for
Acad. & Institutional Rights, Inc., 547 U.S. 47, 52 n.2
(2006)). The party invoking federal jurisdiction bears the
burden of establishing standing. Lujan, 504 U.S. at 560–
61. “Furthermore, because [the Plaintiff States] [are]
bringing this action in [their] capacit[ies] as . . .
sovereign state[s] being pressured to reevaluate state
law or incur substantial costs,” they are “‘entitled to
special solicitude in our standing analysis.’” Texas v.
EEOC, No. 14-10949, 2016 WL 3524242, at *1 (5th Cir.
June 27, 2016) (quoting Massachusetts, 549 U.S. at 520).
In Texas v. United States, the Fifth Circuit held that
Texas had standing where it “challenge[d] DHS’s
affirmative decision to set guidelines for granting lawful
presence to a broad class of illegal aliens.” Texas, 809
F.3d at 152. In evaluating whether Texas asserted a
concrete and particularized injury, the court reasoned
that the statute “would have a major effect on the states’
fiscs, causing millions of dollars of losses in Texas alone,
and at least in Texas, the causal chain is especially direct:
DAPA would enable beneficiaries to apply for driver’s
licenses, and many would do so, resulting in Texas’s
injury.” Id. Therefore, the court conferred standing even
though the relevant statute did not impose a direct duty
on the state.

123a
Here, similarly, the Court finds that Plaintiffs have
sufficiently pleaded that the HIPF results in a major
effect on the Plaintiff States’ fiscs, causing millions of
dollars of losses in Texas alone. See Pls.’ Resp. 1, ECF
No. 29. Specifically, Plaintiffs allege the ACA imposes
the actuarially sound requirement, which requires
compliance with ASOP 49, resulting in their payment of
the HIPF. 1 Therefore, if Plaintiffs allege that they wish
to continue receiving federal Medicaid funding, they
must pay the MCOs the full amount of the HIPF that the
MCOs, in turn, pay to the federal government.
Accordingly, the Court finds that Plaintiffs have pleaded
1
Defendants admit that under ASOP 49, “to be actuarially
sound, MCO rates must account for any taxes and fees for which
MCOs are liable,” but argue it also allows actuaries to “exercise
their professional judgment to deviate from the guidelines.” Defs.’
Br. Supp. Mot. 14, ECF No. 27 (internal citations omitted). In a
corresponding footnote, Defendants state that HHS offered
applicable guidance to actuaries and recently signaled in the
Federal Register that the regulatory scheme may change in the
future. See Id. n. 3. The Court construes Defendants’ Motion to
Dismiss, which only cites to a Federal Register and HHS Guidance
beyond the parties’ pleadings, as a facial attack under Rule 12(b)(1).
See Id. However, the Court notes that at this stage, even if it were
construed as a factual attack, Plaintiffs establish jurisdiction, by a
preponderance of the evidence, by offering at least one sworn
affidavit stating that their payments of the HIPF amount is
required. See infra Part III (holding that Plaintiffs established
Article III standing and subject-matter jurisdiction to all claims
except their claims seeking a tax refund); Pls.’ App. Supp. Resp. Ex.
3 (“Decl. Rachel Butler”), App. 12, ECF No. 29-1 (stating that Texas
“is required to reimburse the MCOs for the HIPF to ensure that the
capitations rates paid to the MCOs are actuarially sound as required
by [CMS]”). To the extent Defendants contend this is not true, they
may submit appropriate evidence on this issue in the next stage of
litigation.

124a
a “concrete and particularized injury” by virtue of their
having already paid, and their continuing obligation to
pay in the future, the full HIPF amounts to MCOs.
ii. Alleged Injury is Fairly Traceable
Defendants argue that the Plaintiff States’ “theory of
injury relies on the States’ choice to engage entities
subject to the fee, and it is hornbook law that a plaintiff
‘cannot manufacture standing merely by inflicting harm
on [itself].’” Defs.’ Br. Supp. Mot. 9, ECF No. 27 (quoting
Clapper v. Amnesty Int’l USA, 133 S.Ct. 1138, 1151
(2013)). Defendants further explain that “[n]o federal law
requires the States to contract with MCOs subject to the
fee,” so “[i]f the States find the HIPF’s effect on MCO
pricing onerous, they can take their business
elsewhere—to fee-for-service providers or qualifying
nonprofit MCOs, neither of which is subject to the fee.”
Defs.’ Mot. 9, ECF No. 27.
Plaintiffs respond that they “do not possess countless
viable ways to avoid paying the HIPF,” and “the options
suggested by Defendants . . . place[] Plaintiff States
somewhere between Scylla and Charybdis.” Pls.’ Resp.
2, ECF No. 29. Plaintiffs argue that on the one hand, “[i]f
Plaintiff States were to cease participation in Medicaid
as a means of avoiding the HIPF, Plaintiff States would
be coercively dispossessed of the policy choice
(Medicaid) they believe to be in the best interest of its
citizens.” Id. at 4. Plaintiffs point out that
“[a]lternatively, there are not enough non-profit MCOs
to ensure adequate access to care for Medicaid clients.”
Id.
In Texas v. United States, the Fifth Circuit noted
that “[a]lthough Texas could avoid financial loss by
requiring applicants to pay the full costs of licenses, it

125a
could not avoid injury altogether,” and “the possibility
that a plaintiff could avoid injury by incurring other costs
does not negate standing.” Texas, 809 F.3d at 156–57. In
contrast, if the plaintiffs “could . . . achieve[] their policy
goal in myriad ways,” their injury would be deemed selfinflicted. Id. at 159 (citing Pennsylvania v. New Jersey,
423 U.S. 942 (1975)). However, here, the Plaintiff States
assert they “have no meaningful choice between
continuing to use [MCOs]—and paying the [HIPF]—or
reverting to the former model of paying providers for
services,” where the latter “is significantly less cost
effective and often results in worse participant
satisfaction than the [MCO] model.” Am. Compl. ¶ 45,
ECF No. 19. Thus, from the face of the Amended
Complaint, it does not appear that Plaintiffs
“manufacture[d] standing” by hand-picking some MCOs
above others, since the necessary number of exempt or
discounted MCOs does not even exist. Texas, 908 F.3d at
159.
In NFIB v. Sebelius, the Supreme Court reasoned
that “[t]he threatened loss of over 10 percent of a State’s
overall budget is economic dragooning that leaves the
States with no real option but to acquiesce in the
Medicaid expansion.” NFIB.v. Sebelius, 132 S. Ct. 2566,
2605 (2012). Here, Plaintiffs allege they are shouldering
tens of millions of dollars, and jeopardizing state
programs constituting well above ten percent (10%) of
the Plaintiffs States’ budgets constitutes similar
economic dragooning. 2 See supra Section I.A.–B. In this
Defendants aver that “Plaintiffs themselves predict that the
HIPF will impact a mere fraction of [one] percent of their budgets.”
Defs.’ Br. Supp.Mot. 23, ECF No. 27. However, the inquiry in NFIB
turned on the “threat of loss” to a state “adher[ing] to [its] chosen
2

126a
case, like in NFIB, the Amended Complaint pleads “the
financial ‘inducement’ Congress has chosen is much
more than relatively mild encouragement. It is a gun to
the head.” Id. at 1604 (internal citations partially
omitted); see also Zelman v. Simmons-Harris, 536 U.S.
639, 707 (2002) (Souter, dissenting) (“The criterion is one
of genuinely free choice on the part of the private
individuals who choose, and a Hobson’s choice is not a
choice, whatever the reason for being Hobsonian.”).
Accordingly, the Court finds that because of Defendants’
requirements, Plaintiffs similarly face a Hobson’s choice,
as Plaintiffs’ Amended Complaint has sufficiently
demonstrated that the alleged injury is fairly traceable
to Defendants.
iii. Redressability
Neither party squarely addresses whether Plaintiffs’
claims would be redressed by a favorable ruling.
However, the Court finds that Plaintiffs easily
demonstrate that their claims would be redressed if this
Court were to provide a favorable ruling. “[T]aking the
[Amended] [C]omplaint’s allegations as true,” Plaintiff
States have “alleged [] a sufficient injury in fact,”
namely, the regulatory scheme that “forces Texas to
course,” rather than the cost of complying with the federal
government’s demands. As an example, the NFIB majority
referenced the Court’s prior holding in South Dakota v. Dole, where
the threatened loss of funding for resisting, not the cost of
compliance, constituted only half of one percent of the state’s
budget. NFIB, 132 S. Ct. at 2604 (quoting 791 F.2d 628, 630 (1986)).
In NFIB, however, the Court pointed out that a State that “opts
out” of the federal government’s demands would lose all of its
Medicaid funding, with such a loss of “over 10 percent of a State’s
overall budget” being “economic dragooning.” NFIB, 132 S. Ct. at
2604–05.

127a
alter its . . . policies or incur significant costs,” and that a
favorable ruling would prevent Plaintiffs from incurring
such cost in the future. See Texas, 2016 WL 3524242, at
*5; see generally Am. Compl., ECF No. 19 (seeking in
part, declaratory and injunctive relief, of which a
favorable ruling would prevent the collection of HIPF
payments in the future). Based on the foregoing, the
Court finds that Plaintiff States have sufficiently alleged
constitutional standing.
b. Prudential Standing
The Court also considers sua sponte whether
Plaintiffs have sufficiently asserted prudential standing.
The Supreme Court has “interpreted § 10(a) of the APA
to impose a prudential standing requirement in addition
to the requirement, imposed by Article III of the
Constitution, that a plaintiff has suffered a sufficient
injury in fact.” Nat’l Credit Union Admin v. First Nat.
Bank & Trust Co., 522 U.S. 479, 488 (1998). “For a
plaintiff to have prudential standing under the APA, ‘the
interest sought to be protected by the complainant [must
be] arguably within the zone of interests to be protected
or regulated by the statute . . . in question.” Id. (citing
Ass’n of Data Processing Serv. Orgs., Inc. v. Camp, 397
U.S. 150, 152 (1970)). The Supreme Court has stated that
the “zone of interests” test “denies a right of review if
the plaintiff’s interests are . . . marginally related to or
inconsistent with the purposes implicit in the statute.”
Clarke v. Secs. Indus. Assn’n, 479 U.S. 388, 399 (1987).
Therefore, the proper inquiry is whether “the interest
sought to be protected by the complainant is arguably
within the zone of interests to be protected . . . by the
statute.” Data Processing, 397 U.S. at 153.

128a
Section 9010 of the ACA provides that the annual
HIPF “fee” or “tax” is on “health insurance providers”
only, per the section’s title, or “covered entities” under
the section’s text. See Pls.’ Resp. 9, ECF No. 29.
However, § 9010(c) also provides that a “covered entity”
can only be an “entity which provides health insurance
for any United States health risk” and expressly includes
“any governmental entity.” Pub. L. 111-138, 134 Stat.
866.
Here, Plaintiffs seek, at a minimum, a declaration as
to the fee or tax they have already paid, and must
continue to pay, under ASOP 49 as enforced through the
HIPF. Therefore, the Court finds “the States are
seeking to protect their own proprietary interests,”
which they allege has been harmed by financial
payments totaling tens of millions of dollars and “will be
directly harmed by the [continuing] implementation” of
the statutory scheme. Texas v. United States, 86 F.
Supp.3d 591, 625 (S.D. Tex. 2015). Plaintiffs’ claims come
within the “zone of interests” to be protected by the
relevant healthcare statutory provision at issue in this
litigation. The Court finds that Plaintiffs, having already
paid to MCOs tens of millions of dollars in order to retain
their Medicaid and CHIP funding, readily demonstrate
that they meet prudential standing requirements.
2.

Subject-Matter Jurisdiction Related to the
HIPF

Defendants argue that “[t]he Court lacks jurisdiction
to grant any relief related to the HIPF.” Defs.’ Mot. 11,
ECF No. 27 (capitalization omitted). More specifically,
Defendants argue that: (1) as to Counts Seven and Ten,
“the Court cannot grant states a refund of the HIPF”;
(2) as to Counts One through Six and Count Nine, the

129a
Court “lacks authority to bar collection of the HIPF”
from MCOs; and (3) as to Counts One through Six,
Plaintiffs’ challenges to the actuarial-soundness
requirements under 42 C.F.R. § 438.6(c)(1)(i)(C) are
time-barred. Id. at 11–13. The Court addresses each of
Defendants’ arguments in turn.
a. Counts Seven and Ten: Whether the
Court Can Grant States a Refund of the
HIPF 3
In Counts Seven and Ten, Defendants argue that
“Plaintiffs lack standing to seek a refund for HIPF fees
already paid by MCOs.” 4 Id. at 11. Defendants admit that
28 U.S.C. § 1346(a)(1) offers a limited waiver of
sovereign immunity for any tax “alleged to have been
erroneously or illegally assessed or collected,” but argue
that “Plaintiffs fit within none of these exceptions.” Id.
Defendants contend that “[t]o the extent that third-party
challenges are permitted beyond what is expressly listed
Elsewhere in this Order, the Court clarifies that it need not
conclusively decide at this time whether the HIPF is a “fee” or a
“tax.” See infra Section III.A.2.b. However, as to this claim, based
on Plaintiffs’ pleadings, their claims seeking a tax refund
necessarily contemplate the HIPF solely as a tax. See, e.g., Pls.’
Resp. 9, ECF No. 29 (citing precedent construing internal-revenue
tax provisions and asserting, “The wrongfully taxed may seek a
refund. And Plaintiff States may seek a refund of the HIPF though
it is initially assessed upon MCOs.”).
4
Count Ten appears to only be a claim for declaratory relief in
the event the Court concludes that Plaintiffs may not receive a tax
refund under § 9010(f) of the ACA. Am. Compl. 26–27, ECF No. 19.
However, Defendants’ briefing as to the present Motion construes
Count Ten, in part, to assert a claim for a refund. See, e.g., Defs.’ Br.
Supp. Mot. 11, ECF No. 27 (“The Court cannot grant states a refund
of the HIPF (Counts VII and X).”) (capitalization omitted). In an
abundance of caution, the Court similarly analyzes Count Ten.
3

130a
in the Code, the Supreme Court has limited such
challenges to persons who paid the tax directly to the
IRS.” Id. at 11–12. Defendants argue that because “the
HIPF is assessed against and paid by certain insurers,
not the States, . . . [the] limited waiver of sovereign
immunity therefore does not extend to Plaintiffs” and
“Plaintiffs have no constitutional right to challenge a tax
they did not pay.” Id. at 12.
Plaintiffs respond that they “may seek a refund of the
HIPF though it is initially assessed upon MCOs,” as
those “wrongfully taxed may seek a refund.” Pls.’ Resp.
9, ECF No. 29 (quoting 28 U.S.C. § 1346(a)(1)). Plaintiffs
cite United States v. Williams for the proposition that
the statute “permit[s] ‘any civil action’ to recover ‘any
internal-revenue tax alleged to have been erroneously or
illegally assessed or collected’ or ‘in any manner
wrongfully collected.’” Id. (quoting United States v.
Williams, 514 U.S. 527, 532 (1995)). Plaintiffs argue that
“[t]he commonsense approach adopted in Williams
supports Plaintiff States here, as they are ultimately
paying the HIPF.” Pls.’ Resp. 10, ECF No. 29 (internal
citation omitted).
In United States v. Williams, the Supreme Court
considered whether a respondent who paid a tax under
protest to remove a lien on her property had standing to
pursue a refund under 28 U.S.C. § 1346(a)(1), even
though the tax she paid was actually assessed against her
ex-spouse. 514 U.S. at 529. Section 1346(a) provides in
relevant part:
The district courts shall have original jurisdiction,
concurrent with the United States Court of Federal
Claims, of:

131a
(1) Any civil action against the United States for
the recovery of any internal revenue tax alleged to
have been erroneously or illegally assessed or
collected, or any penalty claimed to have been
collected without authority or any sum alleged to
have been excessive or in any manner wrongfully
collected under the internal revenue laws.
28 U.S.C. § 1346(a). The Supreme Court noted that the
language of § 1346(a) “does not say that only the person
assessed may sue.” Williams, 514 U.S. at 531. It
reasoned that this broad statutory language “mirrors the
broad common-law remedy the statute displaced: actions
of assumpsit for money had and received, once brought
against the tax collector personally rather than against
the United States.” Id. at 532.
The Supreme Court also examined the meaning of a
“taxpayer” under 26 U.S.C. § 6511, under which only a
“taxpayer” may sue for a refund. 26 U.S.C. § 6511(a)
provides, in relevant part:
(a) Period of limitation on filing claim
Claim for credit or refund of an overpayment of any
tax imposed by this title in respect of which tax the
taxpayer is required to file a return shall be filed by
the taxpayer within 3 years from the time the
return was filed or 2 years from the time the tax
was paid, whichever of such periods expires the
later, or if no return was filed by the taxpayer,
within 2 years from the time the tax was paid.
26 U.S.C. § 6511(a) (emphasis added).
The Williams majority observed that the “provision’s
plain terms provide only a deadline for filing for
administrative relief, not a limit on who may file. To read

132a
the term ‘taxpayer’ as implicitly limiting administrative
relief to the party assessed is inconsistent with other
provisions of the refund scheme, which expressly
contemplate refunds to parties other than the one
assessed.” Williams, 514 U.S. at 534. The Supreme
Court reasoned that § 7701(a)(13), which defines
“taxpayer,” states that “[w]hen used in [the Internal
Revenue Code], where not otherwise distinctly
expressed or manifestly incompatible with the intent
thereof, . . . [t]he term ‘taxpayer’ means any person
subject to any internal revenue tax.’” Id. (emphasis
added). The Supreme Court ultimately held that under
the statutory scheme, the respondent was able to seek a
refund, as she was “the taxpayer” who filed for a return
within the requisite time from which “the tax was paid.”
Id.; see also 26 U.S.C. § 6511(a). Therefore, the Supreme
Court held that “in authorizing the Secretary to award a
credit or refund ‘[i]n the case of any overpayment,’ 26
U.S.C. § 6402(a) describes the recipient not as the
‘taxpayer,’ but as ‘the person who made the
overpayment.’” Id.
Here, to the extent Plaintiffs plead ASOP 49, as
enforced through the actuarially soundness requirement
and the HIPF, is a tax pursuant to the statutory text,
they were neither directly subject to the HIPF, nor
actually paid the relevant tax on behalf of the taxpayer
assessed. Rather, Plaintiffs allege that they paid the full
amount to the taxpayer against whom the tax was
assessed. See, e.g., Am. Compl. ¶ 37, ECF No. 19.
Therefore, the Court finds that Defendants’ Motion is
GRANTED as to the statutory claim for refund in Count
Seven. Defendants’ Motion is GRANTED in part as to
Count Ten, to the extent that the Plaintiffs seek a refund.

133a
Also under Count Ten, in the alternative, Plaintiffs
move the Court to hold that § 9010(f) of the ACA violates
the Tenth Amendment for “enabling the federal
government to impose an unconstitutional tax on the
States while foreclosing the return of such funds.” Am.
Compl. ¶¶ 78–80. The Court will analyze this argument
below. See infra Section III.B.2.
b. Whether the Court Has Authority to
Bar Collection of the HIPF from MCOs
In Counts One through Six and Count Nine, Plaintiffs
seek a declaration under 28 U.S.C. §§ 2201–02 and 5
U.S.C. § 706 that would effectively bar the collection of
the HIPF from MCOs. Plaintiffs assert that the HIPF is
invalid because the procedures developed to implement
the HIPF were improper under the APA. Plaintiffs
argue that “whether the HIPF is a ‘tax’ or ‘fee’ for
purposes of” the DJA, AIA, or APA, “turns upon the
language of Congress.” Pls.’ Resp. 8, ECF No. 29.
Plaintiffs argue that “[h]ere, the wording used by
Congress in the ACA means that remedies under the
DJA and APA apply to Plaintiff States’ claims herein.”
Id. Plaintiffs point out that originally, “Congress
described the HIPF as an annual ‘fee,’” and then “later
stated the HIPF shall be treated as an excise tax.” Id.
(citing Pub. L. 111-148, 124 Stat. 865). However,
Plaintiffs argue that “even if the HIPF were a ‘tax’ for
purposes of other statutes . . . Plaintiff States still have a
remedy because the ‘tax’ is not textually committed to
them.” Id.
Defendants argue that “[t]o the extent that the States
seek to directly restrain the collection of the HIPF from
MCOs, this Court plainly lacks jurisdiction to do so”
under the Anti-Injunction Act (“AIA”) and DJA. Defs.’

134a
Br. Supp. Mot. 13, ECF No. 27. Defendants point out
that “[t]he Supreme Court has concluded that the DJA
and AIA ‘could scarcely be more explicit’ in barring suits
seeking equitable relief restraining the collection of
federal taxes.” Id. (quoting Bob Jones Univ. v. Simon,
416 U.S. 725, 732 n.7 (1974)). Defendants contend that
“[t]he AIA . . . bars suits to restrain collection of the
HIPF, and the jurisdictional limitations for tax refund
suits bar Plaintiffs’ request for a tax refund.” Defs.’
Reply 4, ECF No. 32.
Whether the parties refer to the HIPF as a “fee” or
a “tax,” it is on: (1) “health insurance providers” under
§ 9010 of the ACA; or (2) “covered entities,” which
exclude government entities. Pub. L. 111-148,
§ 9010(c)(1)–(2). More specifically, to the extent the
parties refer to the HIPF as a “fee,” neither the DJA’s
prohibition concerning “federal taxes,” nor the AIA’s
prohibition on parties bringing claims “for the purpose
of restraining the assessment or collection of any tax,”
applies to a “fee.” See 28 U.S.C. §§ 2201, 7421(a).
Conversely, to the extent the parties refer to the HIPF
as a “tax” for purposes of seeking a refund, the tax
exemptions within the DJA and AIA are inapplicable
because the Court has already determined that Plaintiffs
are not taxpayers bringing a suit to restrain the
assessment or collection of a tax on them. See supra
Section III.A.2.a. Thus, the Court need not conclusively
decide whether the HIPF is a “fee” or a “tax” at this
stage in the litigation. To the extent Plaintiffs raise their
claims through pleading the HIPF is either a “tax” or a
“fee,” the Court holds that the Court has subject-matter
jurisdiction and that Plaintiffs have stated a claim. See
supra Part III.A; see infra Part III.B. To the extent

135a
Plaintiffs raise their claims through characterizing the
HIPF solely as a “tax” to seek a refund, the Court has
dismissed those claims as not allowed by the statutory
text. See Id. Defendants’ Motion to Dismiss is DENIED
as to their argument that the Court lacks subject-matter
jurisdiction under the AIA and DJA. The Court will, of
course, continually evaluate its subject-matter
jurisdiction.
B. Whether Plaintiffs’ Amended Complaint
States a Claim Under Rule 12(b)(6)
Defendants argue that in addition to subject-matter
jurisdiction, Plaintiffs’ Amended Complaint fails on the
merits as well and should be dismissed in its entirety.
Defs.’ Br. Supp. Mot. 3–4, ECF No. 27. Specifically,
Defendants appear to challenge whether Plaintiffs have
claims under Counts One through Eight and Count Ten.
See generally id. The Court addresses each of
Defendants’ 12(b)(6) arguments in turn.
1.

Counts One Through Five: Whether
Plaintiffs’ Challenges to the ActuarialSoundness Requirements Under 42
C.F.R. § 438.6 (c)(1)(i)(C) Are TimeBarred

In Counts One through Five, Plaintiffs challenge 42
C.F.R. § 438.6(c)(1)(i)(C) under the DJA and APA.
Defendants argue that “[w]here, as here, no other
statute provides a limitations period, a plaintiff has six
years to bring a civil action against the United States,
and because the regulation went into effect in 2002, the
limitations period therefore lapsed in 2008.” Defs.’ Br.
Supp. Mot. 13–14, ECF No. 27. Defendants argue that
“[t]he fact that the HIPF was enacted in 2010 makes no

136a
difference” because Plaintiffs “have operated under
section 438.6’s actuarial-soundness requirements,
including the requirement that all managed-care
contracts must be certified by an actuary following the
practice standards set forth by the Actuarial Standards
Board” since 2002. Defs.’ Br. Supp. Mot. 14, ECR No. 27.
Plaintiffs respond that ASOP 49, promulgated in
March 2015, “was a first of its kind—a post-ACA,
targeted ASOP regarding capitation rates in managed
care for Medicaid.” Pls.’ Resp. 11, ECF No. 29. Plaintiffs
argue that ASOP 49 uniquely “requires the addition of
the HIPF to the capitation rates assessed to Plaintiff
States. And until ASOP 49 existed, there was no formula,
publication, or notice requiring that the HIPF, in its
entirety, must be added as an ‘adjustment’ to a
contracting state’s capitation rate.” Id.
a. Whether the Enactment of ASOP 49, as
Enforced
Through
the
HIPF,
Constitutes the Accrual of Defendants’
Regulation to Begin the Statute of
Limitations Period
“[T]he United States, as sovereign, is immune from
suit save as it consents to be sued . . . , and the terms of
its consent to be sued in any court define that court’s
jurisdiction to entertain the suit.” United States v.
Mitchell, 445 U.S. 535, 538 (1980) (quoting United States
v. Sherwood, 312 U.S. 584, 586 (1941)). A waiver of
sovereign immunity “cannot be implied but must be
unequivocally expressed.” United States v. King, 395
U.S. 1, 4 (1969). Plaintiffs do not allege that any of the
statutes and regulations they attack directly provide
their own waiver of sovereign immunity. Thus, Plaintiffs’
APA challenge is “governed by the general statute of

137a
limitations provision of 28 U.S.C. § 2401(a), which
provides that every civil action against the United States
is barred unless brought within six years of accrual.”
Dunn-McCampbell Royalty Interest, Inc. v. Nat’l Park
Serv., 112 F.3d 1283, 1286 (5th Cir. 1997).
Here, the parties do not dispute that the ACA, which
includes the HIPF, was passed in 2010, and implements
the ASOP, which was announced by the ASB in 2015. See
Am. Compl. ¶¶ 18, 31, ECF No. 19; see also Defs.’ Br.
Supp. Mot. 4–5, 7, ECF No. 27. In contrast to ASOP 1,
announced in 2002, which includes tax rates that “could”
factor into an actuary’s “sound professional judgment,”
ASOP 49 mandates that “the actuary should include an
adjustment for any taxes, assessments, or fees that the
MCOs are required to pay out of the capitation rates”
and thereby removes such discretion. See Pls.’ Resp. 12,
ECF No. 29; see also Defs.’ Br. Supp. Mot. 14 n. 7, ECF
No. 27 (emphasis added).
In Texas v. United States, the court noted that “[a]s
the District of Columbia Circuit observed, in allowing an
attack on FCC rules three years after their
promulgation” and publication:
As applied to rules and regulations, the statutory
time limit restricting judicial review of [agency]
action is applicable only to cut off review directly
from the order promulgating a rule. It does not
foreclose subsequent examination of a rule where
properly brought before this court for review of
further [agency] action applying it. For unlike
ordinary adjudicatory orders, administrative rules
and regulations are capable of continuing
application . . . .

138a
749 F.2d 1144, 1146 (5th Cir. 1985) (quoting Network
Project v. FCC, 511 F.2d 786, 789 n.1 (D.C. Cir. 1975)). In
Texas, the court noted that the defendants “ha[d] cited
no case indicating that such a restrictive standard
applies to judicial review of an agency rule when later
sought to be applied to a particular situation. Indeed, the
cases suggest the opposite, especially when the
contention is that the rule lacks statutory authorization.”
Texas, 749 F.2d at 1146 (citing Nat’l Res. Def. Council,
666 F.2d at 602; Ill. Cent. Gulf R.R., 720 F.2d 958, 961
(7th Cir. 1983)). The court held that “[w]hen an agency
applies a previously adopted rule in a particular case, the
[limitations period] does not bar later judicial review of
the substantial statutory authority for their enactment
or of their applicability to a particular situation.” Texas,
749 F.2d at 1146 (citing Nat’l Res. Def. Council, 666 F.2d
at 602).
Therefore, here, like in Texas, Plaintiffs properly
seek “judicial review of an agency rule when later sought
to be applied to a particular situations.” Texas, 749 F.2d
at 1146. Plaintiffs allege Defendants have acted, or
applied the ASOP to the HIPF, by requiring the MCO
payments be actuarially sound as defined by the
Academy. See generally Am. Compl., ECF No. 19.
Therefore, preventing judicial review would “effectively
deny” Plaintiffs “an opportunity to question its validity.”
Id. Accordingly, the Court finds that the application of
ASOP 49, beginning in 2015, is sufficiently distinct to
begin the statute of limitations period no earlier than the
HIPF’s promulgation in 2010. Defendants’ Motion to
Dismiss is DENIED as to Plaintiffs’ Counts One through
Five, to the extent Defendants challenge the timeliness
of Plaintiffs’ claims.

139a
2. Plaintiffs’ Constitutional Claims
a. Plaintiff’s Spending Clause Claims
i. Counts Four and Eight: Whether
the
Actuarial-Soundness
Requirement is Coercive
In Counts Four and Eight, Plaintiffs’ claims arise
under Article I, Section 8 of the United States
Constitution, otherwise known as the Spending Clause.
Plaintiffs argue that “[a]s applied to the States, the
HIPF violates the Spending Clause because its nonpayment threatens to withhold Medicaid funds.” Pls.’
Resp. 15, ECF No. 29. More specifically, Plaintiffs
contend that because “Medicaid spending accounts for a
substantial percentage of Plaintiff States’ total budgets,”
and the federal government “may deny funds that
comprise a substantial percentage of Plaintiff States’
budgets if they refuse to pay the HIPF,” the ACA results
in a proverbial “gun to the head.” Id. (quoting NFIB, 132
S. Ct. at 2604).
Defendants argue that “[t]he actuarial-soundness
requirement is precisely the type of restriction on the
use of federal funds that NFIB recognized as valid, as it
offers federal funding for managed-care contracts with
rates that are actuarially sound and withholds funding
for those that are not.” Id. at 17. Defendants contend that
the requirement “in no way coerces Plaintiffs, as the
States themselves recognize the reasonableness of
actuarial standards” in many of their own separate
contracts. Id. Defendants conclude that “[b]ecause the
actuarial-soundness requirement merely reflects
Congress’s judgment about which types of managedcare contracts deserve dollars from the federal fisc—a
judgment virtually identical to Plaintiff States’ own

140a
policies—it falls well within the Spending Clauses’s
strictures.” Id.
The Spending Clause grants Congress the power “to
pay the Debts and provide for the . . . general Welfare of
the United States.” U.S. Const. Art. 1, § 8. The Supreme
Court has “long recognized that Congress may use this
power to grant federal funds to the State, and may
condition such a grant upon the States’ ‘taking certain
actions that Congress could not require them to take.’”
NFIB, 132 S. Ct. at 2601 (quoting Coll. Savings Bank,
527 U.S. at 686). “Such measures ‘encourage a State to
regulate in a particular way, [and] influenc[e] a State’s
policy choices.’” NFIB, 132 S. Ct. at 2601–02 (quoting
New York, 505 U.S. at 166). “The conditions imposed by
Congress ensure that the funds are used by the States to
‘provide for the . . . general Welfare’ in the manner
Congress intended.” NFIB, 132 S. Ct. at 2602.
“At the same time, [the Supreme Court] ha[s]
recognized limits on Congress’s power under the
Spending Clause to secure state compliance with federal
objectives.” Id. For example, the Supreme Court ‘ha[s]
repeatedly characterized . . . Spending Clause legislation
as ‘much in the nature of a contract.’” Barnes v. Gorman,
536 U.S. 181, 186 (2002) (quoting Pennhurst State Sch. &
Hosp. v. Halderman, 451 U.S. 1, 17 (1981)). “The
legitimacy of Congress’s exercise of the spending power
‘thus rests on whether the State voluntarily and
knowingly accepts the terms of the ‘contract.’” NFIB,
132 S. Ct. at 2602 (quoting Pennhurst, 451 U.S. at 17).
“Respecting this limitation is critical to ensuring that
Spending Clause legislation does not undermine the
status of the States as independent sovereigns in our
federal system.” NFIB, 132 S. Ct. at 2602. Such a system

141a
“rests on what might at first seem a counter-intuitive
insight, that ‘freedom is enhanced by the creation of two
governments, not one.’” Bond v. United States, 564 U.S.
211, 220–21 (2011) (quoting Alden v. Maine, 527 U.S. 706,
758 (1999)). Therefore, “the Constitution has never been
understood to confer upon Congress the ability to
require the States to govern according to Congress’
instructions.” New York, 505 U.S. at 162.
The Supreme Court “strike[s] down federal
legislation that commandeers a State’s legislative or
administrative apparatus for federal purposes.” NFIB,
132 S. Ct. at 2602 (citing Printz, 521 U.S. at 933) (striking
down federal legislation compelling the action of state
law actors, reasoning, “[T]he Constitution protects us
from our own best intentions: It divides power among
sovereigns and among branches of government precisely
so that we may resist the temptation to concentrate
power in one location as an expedient solution to the
crisis of the day.”). “Congress may use its spending
power to create incentives for States to act in accordance
with federal policies. But when ‘pressure turns into
compulsion,’ the legislation runs contrary to our system
of federalism.” NFIB, 132 S. Ct. at 2602 (quoting
Steward Mach. Co. v. Davis, 301 U.S. 548, 590 (1937)).
“That is true whether Congress directly commands a
State to regulate or indirectly coerces a State to adopt a
federal regulatory system as its own.” NFIB, 132 S. Ct.
at 2602.
In NFIB v. Sebelius, the Supreme Court examined
the ACA’s expansion of Medicaid, which required states
to either dramatically expand Medicaid coverage to all
individuals under 133% of the poverty line or lose all
federal Medicaid funds. 123 S. Ct. at 2604. The Supreme

142a
Court held that the Medicaid expansion was “in reality a
new program,” not a “mere alteration of existing
Medicaid,” and that the Spending Clause did not allow
Congress to require that states participate as a condition
of participating in the existing Medicaid program. Id. at
2605. As Defendants admit, “[t]he [NFIB] Court found
that the outsized threat of losing all of a state’s federal
Medicaid matching funds and the dramatic change
demanded of the state made the Medicaid expansion
unlike any exercise of the Spending Clause the
[Supreme] Court had addressed before.” Defs.’ Br. Supp.
Mot. 15, ECF No. 27 (citing id. at 2605–06).
Similarly, the Court finds that at this stage in the
litigation, Plaintiffs have sufficiently pleaded that “the
outsized threat of losing all of a state’s federal Medicaid
matching funds and the dramatic change demanded of
the state” sufficiently made the HIPF’s imposition on the
Plaintiff States through the actuarially sound
requirement “a new program” for states. See id.; see also
Am. Compl. 22, 25–26, ECF No. 19. More specifically,
Plaintiffs have sufficiently pleaded that they are
effectively forced to pay the HIPF in order to continue
their participation in Medicaid, as the number of
nonprofit MCOs available to serve its citizens to avoid
the HIPF simply does not exist. See Am. Compl. ¶ 22,
ECF No. 19; see supra Section III.A.1.a.ii (finding that
Plaintiffs had standing due to the “economic dragooning”
of the threatened loss of over 10 percent of each Plaintiff
States’ budget). Therefore, Defendants’ Motion to
Dismiss as to Plaintiffs’ challenge in Counts Four and
Eight that the actuarial-soundness requirement is
coercive is DENIED.

143a
ii. Whether the HIPF is Sufficiently
Related to Medicaid
Defendants argue that the HIPF “does not require
the States to participate in any new program, nor does it
even impose a condition on the receipt of federal
Medicaid funds—a necessary element of a Spending
Clause claim.” Defs.’ Br. Supp. Mot. 16, ECF No. 27.
Defendants further contend that “[n]o federal court, to
Defendants’ knowledge, has ever suggested that the
Spending Clause’s restrictions on Congress’s authority
to condition federal funds extend to Congress’s taxing
power.” Id. at 16. Defendants further assert that “the
States may, depending on the MCOs’ historical profits
from their Medicaid contracts, be able to use their
bargaining power to minimize or eliminate rate
increases.” Id. at 16. Plaintiffs respond that “[b]ecause
the actuarial soundness requirement (and ASOP 49)
condition Plaintiff States’ receipt of federal funds for
Medicaid on their payment of the HIPF, that condition
must relate to Medicaid to be a legitimate exercise of
Congress’s spending power.” Pls.’ Resp. 17, ECF No. 29.
However, argue Plaintiffs, because the purpose “of the
HIPF is to generate revenue for health insurance
subsidies for those that do not qualify for Medicaid,” the
“HIPF is insufficiently related to Medicaid to be a
legitimate exercise of Congress’s spending power.” Id.;
see also Am. Compl. ¶ 18, ECF No. 19 (stating that “the
purpose of the fee was to generate revenue from a
windfall Congress expected insurers to receive by
increasing enrollment” in the ACA).
The Court has already decided it need not
conclusively decide whether the HIPF is a “fee” or a
“tax” at this juncture, as “either way, Plaintiffs have

144a
established that the Court has subject-matter
jurisdiction as to their claims.” See supra Section
III.A.2.b. Therefore, the Court analyzes whether
Plaintiffs have stated a Spending Clause claim.
In Massachusetts v. United States, the Supreme
Court reaffirmed the long-held principle that the
“Government may impose appropriate conditions on the
use of federal property or privileges and may require
that state instrumentalities comply with conditions that
are reasonably related to the federal interest in
particular national projects or programs.” 435 U.S. 444,
461 (1978); see also Dole, 483 U.S. at 207 (“[C]onditions
on federal grants might be illegitimate if they are
unrelated ‘to the federal interest in particular national
programs or programs”) (citing id.). In Dole, the
Supreme Court held that the “condition imposed by
Congress [related to minimum legal drinking ages] is
directly related to one of the main purposes for which
highway funds are expended—safe interstate travel.”
Dole, 483 U.S. at 208.
Here, the Court finds that Plaintiffs have stated a
claim that the HIPF is not “directly related,” let alone
“reasonably related,” to the Medicaid program, as the
purpose of the HIPF is to generate revenue due to
expected enrollment in ACA insurance programs, rather
than to generate revenue related to the federal interest
in advancing Medicaid services. Pls.’ Resp. 17, ECF No.
29; see also Am. Compl. ¶ 18, ECF No. 19. Therefore, at
this preliminary stage, Defendants’ Motion to Dismiss is
DENIED.
iii. Whether the Medicaid Statute
Clearly
Notifies
States
of

145a
Actuarial-Soundness
Requirements
In Count One, Plaintiffs claim the HIPF fails the
“plain statement rule” by giving them insufficient notice
that federal funding for Medicaid is conditioned on the
Plaintiffs’ required HIPF payments to MCOs.
Defendants argue this is untrue because “purchasers of
health insurance can be assumed to know that their
premiums are affected by costs to the insurance
industry.” Defs.’ Mot. 18, ECF No. 27. Defendants also
argue that “Congress never promised the Medicaid
program would remain unchanged; to the contrary, it has
reserved the right to ‘alter, amend, or repeal’ the
Medicaid program.” Id. at 18 (quoting 42 U.S.C. § 1304).
Defendants add that “presumably the Plaintiffs . . .
would not want to enter into contracts with managedcare plans whose rates were not actuarially sound, as
that could endanger the quality of care or access to
services for Medicaid beneficiaries.” Id. at 18–19.
Defendants conclude that “[t]he suggestion that States
could not anticipate changes to the regulatory costs
borne by MCOs—participants in a long highly regulated
industry—is simply disingenuous. Nor can Plaintiffs
claim that they did not know of the HIPF or any of its
potential effects since it was enacted.” Defs.’ Reply 8,
ECF No. 32.
Plaintiffs respond that “[n]either the Medicaid Act
nor the ACA say that the receipt of federal Medicaid
funds for managed care is conditioned on the States
paying the HIPF.” Pls.’ Resp. 18, ECF No. 29. Plaintiffs
add that “[m]ore importantly, the payment of the HIPF
by Plaintiff States was not part of the ACA and, until
ASOP 49 clarified the parameters of actuarial soundness

146a
regarding the HIPF, Plaintiff States did not know that
they would incur the full burden of the HIPF.” Id.
Plaintiffs conclude that “[b]ecause Congress did not
provide clear notice—and in fact excluded ‘governmental
entit[ies]’
from
its
coverage—the
HIPF
is
unconstitutional as applied to Plaintiff States.” Id. at 19.
Under the plain statement rule, “Congress must
express clearly its intent to impose conditions on the
grant of federal funds so that the States can knowingly
decide whether or not to accept those funds.” Pennhurst
State Sch. & Hosp. v. Halderman, 451 U.S. 1, 24 (1981).
“[T]hough Congress’ power to legislate under the
spending power is broad, it does not include surprising
participating States with post-acceptance or ‘retroactive’
conditions.” NFIB, 132 S. Ct. at 2606 (quoting id. at 25).
As the Court previously noted, “‘legislation enacted
pursuant to the spending power is much in the nature of
a contract,’ and therefore, to be bound by ‘federally
imposed conditions,’ recipients of federal funds must
accept them ‘voluntarily and knowingly.’” Arlington
Cent. Sch. Dist. Bd. of Educ. v. Murphy, 548 U.S. 291,
296 (2006) (quoting Pennhurst, 451 U.S. at 17). “The
crucial inquiry . . . is not whether a State would
knowingly undertake that obligation, but whether
Congress spoke so clearly that we can fairly say that the
State could make an informed choice.” Pennhurst, 451
U.S. at 25. “Congress may not simply ‘conscript state
[agencies] into the national bureaucratic army . . . .’”
NFIB, 132 S. Ct. at 2607 (quoting FERC v. Mississippi,
456 U.S. 742, 775 (1982) (O’Connor, J., concurring in
judgment in part and dissenting in part)).
The parties do not dispute that “[n]either the
Medicaid Act nor the ACA say that the receipt of federal

147a
Medicaid funds for managed care is conditioned on the
States paying the HIPF.” Pls.’ Resp. 18, ECF No. 29; see
also Defs.’ Br. Supp. Mot. 18, ECF No. 27. Defendants
point out, though, that Congress has reserved the right,
in the Medicaid Act, to “alter, amend, or repeal” the
Medicaid program. Defs.’ Br. Supp. Mot. 18, ECF No. 27
(quoting 42 U.S.C. § 1304). Plaintiffs respond that “the
HIPF was not part of the Medicaid statute, and the
Medicaid statute was never amended to address the
HIPF.” Pls.’ Resp. 18, ECF No. 29. Plaintiffs argue that
they “‘could hardly anticipate that Congress’s
reservation of the right to alter or amend the Medicaid
program included the power to transform it so
dramatically’ by upsetting the regular workings of
Medicaid, for the better part of 50 years, by conditioning
the receipt of federal Medicaid funds on the States
paying to subsidize federal health insurance programs.”
Id. (quoting NFIB, 132 S. Ct. at 2606).
The Court agrees that at this stage of the litigation,
Plaintiffs have alleged that Congress has not clearly
expressed its intent to condition the grant of federal
Medicaid funds on the states paying the HIPF, such that
States have had an opportunity to “knowingly decide”
whether or not to accept these funds. Pennhurst, 451
U.S. at 24. To the extent actuarial soundness
requirements or the Medicaid Act’s blanket provision
that allowing for at-will alterations has existed for some
time, the HIPF’s pass through requirement materialized
with the ASOP 49, as enforced through the HIPF.
Plaintiffs have alleged this requirement unlawfully
“surpris[ed] participating States with post-acceptance or
‘retroactive’ conditions.” NFIB, 132 S. Ct. at 2606.

148a
Therefore, at this stage, Defendants’ Motion to Dismiss
is DENIED as to Count One.
b. Counts Six and Ten: Whether the HIPF
Violates the Tenth Amendment or
Intergovernmental Tax Immunity
Because it Falls Directly on Private
Parties
In Count Six, Plaintiffs seek a declaratory judgment
under 28 U.S.C. §§ 2201–02 and 5 U.S.C. § 706 that the
HIPF unconstitutionally taxes a sovereign. Am. Compl.
23–24, ECF No. 19. In addition, in their alternative
argument under Count Ten, Plaintiffs argue that § 9010
violates the Tenth Amendment for “enabling the federal
government to impose an unconstitutional tax on the
States while foreclosing the return of such funds.” Id. at
12. The Court considers these claims together, as the
parties have in their respective pleadings. See Defs.’ Br.
Supp. Mot. 19, ECF No. 27; see also Pls.’ Resp. 19, ECF
No. 29.
Defendants argue that “Plaintiffs’ tax-immunity
claim is foreclosed by nearly three-quarters of a century
of Supreme Court precedent rejecting the so-called
theory of tax immunity.” Defs.’ Br. Supp. Mot. 19–20,
ECF No. 27. Defendants explain that “the HIPF—a
nondiscriminatory tax that applies across the board to
‘any entity which provides health insurance,’ ACA
§ 9010(c)(1)—is constitutional even if every cent of it is
passed on to the States.” Id. Defendants conclude that
“Plaintiffs’ intergovernmental tax immunity claim is a
non-starter,” because their “theory of tax immunity
would completely eclipse Congress’s power to tax private
entities because any tax imposed on private parties risks
impacting states’ coffers.” Id.

149a
Plaintiffs argue that “a federal tax which is not
discriminatory as to the subject matter may nevertheless
so affect the State, merely because it is a State that is
being taxed, as to interfere unduly with the State’s
performance of its sovereign functions of government.” 5
New York v. United States, 326 U.S. 572, 594–95 (1946)
(Stone, C.J., concurring). Plaintiffs allege that “a direct
tax on the States is impermissible when it infringes on
State sovereignty,” and “[s]tates have no immunity from
taxation when immunity would ‘accomplish a withdrawal
from the taxing power of the nation a subject of taxation
of a nature which has been traditionally within that
power from the beginning.’” Pls.’ Resp. 20, ECF No. 29
(quoting New York, 326 U.S. at 588). Plaintiffs conclude
that “[t]he imposition of the HIPF on Plaintiff States
has, in turn, required them to tax their citizens (or make
spending cuts to State programs) to pay it, making
Plaintiff States bear part of the blame for the costs of the
federal program. Allowing Defendants to hijack State
treasuries in this manner is no less an affront to State
sovereignty than allowing Defendants to commandeer
State legislative processes, or State executive officials.”
Id. Plaintiffs also argue that “[n]o federal tax remotely
similar to the HIPF has traditionally been imposed on
States’ Medicaid health plans. . . . And the novelty of the
ACA precludes the HIPF from being cogently
analogized to any prior tax.” Id. at 21.
“In McCulloch v. Maryland, the Supreme Court held
that states are prohibited from directly taxing the
Therefore, Plaintiffs appear to concede that the alleged tax is
“nondiscriminatory,” rather than “discriminatory.” Defendants
appear to construe Plaintiffs’ pleadings similarly. See, e.g., Defs.’
Reply 8, ECF No. 32.
5

150a
United States government [sic], its activities, and its
property. Nor may a state impose a tax whose legal
incidence falls upon the United States.” Whitley v.
Griffin, 737 F. Supp. 345, 349 (E.D.N.C. 1990) (citing 17
U.S. 316 (1819) (internal citation omitted)); see also
United States v. Cty. of Fresno, 429 U.S. 452, 459 (1977).
In analyzing this issue, “the court must look beyond the
bare face of the taxing statute and consider all relevant
circumstances.” Whitley, 737 F. Supp. at 350 (citing
United States v. City of Detroit, 355 U.S. 466, 469 (1958)).
In
recent
decades,
“the
doctrine
of
intergovernmental tax immunity started a long path in
decline . . . .” Cotton Petroleum Corp. v. New Mexico, 490
U.S. 163, 174 (1989) (quoting Baker, 485 U.S. 505, 520
(1988)); see also Cal. State Bd. of Equalization v. Sierra
Summit, Inc., 490 U.S. 844, 848 (1989) (quoting the
same). For instance, in Baker, the Supreme Court noted
that its prior holdings “completely foreclosed any claim
that the nondiscriminatory imposition of costs on private
entities that pass them on to State or the Federal
Government unconstitutionally burdens state or federal
functions.” 485 U.S. 505, 521 (1988) (citing Alabama v.
King & Boozer, 314 U.S. 1, 8–9 (1941)). The Supreme
Court stated that such precedent “has consistently
reaffirmed the principle that a nondiscriminatory tax
collected from private parties contracting with another
government is constitutional even though part or all of
the financial burden falls on the other government.” Id.
(citing Washington v. United States, 460 U.S. 536, 540
(1983); United States v. New Mexico, 455 U.S. 720, 734
(1982); Cty. of Fresno, 429 U.S. 452, 460–62 (1977); City
of Detroit, 355 U.S. 466, 469 (1958)).

151a
The Supreme Court has clarified that “[a] tax is
considered to be directly on the Federal Government
only ‘when the levy falls on the United States itself, or on
an agency or instrumentality so closely connected to the
Government that the two cannot realistically be viewed
as separate entities.’” United States v. Delaware, 958
F.2d 555, 569 (3d Cir. 1992) (emphasis added) (quoting
Baker, 485 U.S. at 523). Therefore, “States may not
impose taxes directly on the Federal Government, nor
may they impose taxes the legal incidence of which falls
on the Federal Government.” Memphis Bank & Trust
Co. v. Garner, 459 U.S. 392 (1983) (quoting Cty. of
Fresno, 429 U.S. at 459). In other words, despite the
“decline of the intergovernmental tax immunity
doctrine” in recent decades, the doctrine continues to
apply to taxes, or the legal incidence of taxes, that fall
directly on a government, as such basic “[c]onstitutional
principles do not depend upon the rise or fall of
particular doctrines.” Baker, 485 U.S. at 532 (O’Connor,
J., concurring). Accordingly, courts, including the
Supreme Court, continue to consider whether the
doctrine applies in limited factual circumstances. See,
e.g., Jefferson Cty. v. Acker, 527 U.S. 423, 448–49 (1999)
(Breyer, J., concurring in part and dissenting in part)
(“If Jefferson County’s license fee amounts to a tax
imposed directly upon a federal official’s performance of
his official duties, it runs afoul of the intergovernmental
tax immunity doctrine.”) (collecting cases).
Notably, “the Supreme Court has held that the
economic incidence of a tax does not necessarily
determine the legal incidence of the tax.” Delaware, 958
F.2d at 561 (emphasis added) (citing Washington, 460
U.S. at 540; New Mexico, 455 U.S. at 734). “On the other

152a
hand, the legal incidence does not necessarily fall on the
person or entity that the state holds legally responsible
for paying the tax.” Id. (citing United States v. State Tax
Comm’n of Miss., 421 U.S. at 607; First Agric. Nat’l
Bank v. State Tax Comm’n, 392 U.S. 339, 347 (1968)).
“[B]oth economic incidence and formal liability are
normally relevant in determining legal incidence. Also
relevant as a general matter are the intent of the taxing
authority, and the rights and obligations involved in the
transaction being taxed.” Delaware, 958 F.2d at 561
(citing State Tax Comm’n of Miss., 421 U.S. at 608; First
Agric. Nat’l Bank, 392 U.S. at 347; United States v. City
of Leavenworth, 443 F. Supp. 274, 282 (D. Kan. 1977)).
In First Agricultural National Bank, the Supreme
Court held it was “indisputable that a sales tax which by
its terms must be passed on to the purchaser imposes the
legal incidence of the tax on the purchaser.” 392 U.S. at
347 (citing Fed. Land Bank of St. Paul v. Bismarck
Lumber Co., 314 U.S. 95, 99 (1941)). In State Tax
Commission of Mississippi, the Supreme Court
similarly held that a markup on liquor sales by the State
Tax Commission to military bases in Mississippi was
effectively a sales tax collected by the seller and remitted
to the state, because “where a State requires that its
sales tax be passed on to the purchaser and be collected
by the vendor from him, this establishes as a matter of
law that the legal incidence of the tax falls upon the
purchaser.” 421 U.S. at 608. The Supreme Court
reasoned that this was “plainly the requirement” of the
relevant state regulation, which provided that all
military facilities’ direct orders of alcoholic beverages
from distillers “shall bear the usual wholesale markup in
price,” such that the “price of such alcoholic beverages

153a
shall be paid by such organizations directly to the
distiller.” Id. at 609. The Supreme Court concluded,
therefore, that “[t]he Tax Commission clearly
intended—indeed, the scheme unavoidably requires—
that the out-of-state distillers and suppliers pass on the
markup to the military purchasers.” Id. at 609.
Similarly, in United States of Delaware, the Third
Circuit Court of Appeals considered whether a Delaware
utility tax mandatorily passed on to consumers was
unconstitutional as applied to sales of electricity to the
Dover Air Force Base in Delaware. 958 F.2d at 562.
There, the state Public Service Commission was
statutorily “directed, after consultation with such
distributors and without a public hearing, to adjust the
tariff of such distributor so that the tax is passed through
pro rata to the distributor’s customers and the
distributor’s earnings are neither increased nor
decreased by such tax.” Id. (quoting 30 Del. Code Ann.
§ 5502(c)). The court noted that the state “engage[d] in
creative verbal gymnastics to suggest that the passthrough is somehow optional.” Id. The court reasoned
that the “Delaware legislature intended that consumers
pay the tax,” and therefore the utility tax was
unconstitutional as applied to sales to the federal
government.” Id.
Here, similar to State Tax Commission of
Mississippi and Delaware, the Court finds that Plaintiff
has sufficiently pleaded at this stage that the legal
incidence of the ACA, by enforcing ASOP 49 through the
HIPF and actuarially sound requirement, falls on
Plaintiff States. Defendants correctly emphasized that
the Supreme Court has affirmed that “the principle that
a nondiscriminatory tax collected from private parties

154a
contracting with another government is constitutional
even though part or all of the financial burden falls on
the other government.” See Defs.’ Br. Supp. Mot. 19–20,
ECF No. 27; see also Baker, 485 U.S. at 521 (noting that
the Supreme Court previously “foreclosed any claim that
the nondiscriminatory imposition of costs on private
entities that pass them on to States.”). However, the
issue here is that Plaintiffs have alleged Congress, not
the private MCOs themselves, have mandated that the
Plaintiff States pay the full HIPF to the MCOS, which
then pay the federal government, such that the full
amount of the HIPF is effectively imposed on the
Plaintiff States. State Tax Comm’n of Miss., 421 U.S. at
608. Indeed, Plaintiffs allege CMS worked directly with
Texas in 2015 to confirm the precise amount Texas owed
to the MCOs. See Am. Compl. ¶ 40, ECF No. 19. In other
words, the statutory “scheme” of the HIPF, through the
actuarial soundness requirements, which incorporate the
ASOP, “unavoidably requires” that the States pay the
MCOs the full amount of the HIPF to be paid to the
federal government. Id. at 609.
Also here, as in Delaware, Defendants appear to
“engage[] in creative verbal gymnastics to suggest that
the pass-through is somehow optional” as to the Plaintiff
States. See Delaware, 958 F.2d at 562; see also Defs.’ Br.
Supp. Mot. 16, ECF No. 27 (hypothesizing that “the
States may, depending on the MCOs’ historical profits
from their Medicaid contracts, be able to use their
bargaining power to minimize or eliminate rate
increases” but not HIPF payments). However, based on
Plaintiffs’ pleadings, ASOP 49’s mandate on Plaintiff
States, as required by the actuarially soundness
requirement and the HIPF, plainly “cannot be read . . .

155a
as discretionary,” and this argument seems to concede
states must pay the HIPF but can achieve savings
elsewhere. 6 Delaware, 958 F.2d at 562; see also Pls.’
Resp. 1, ECF No. 29 (“Here, the HIPF passes through
Plaintiff States’ Medicaid [MCOs] to Plaintiff States
because of the requirements of an agency regulation (42
C.F.R. § 438.6) and [ASOP 49] . . . .”). Whether Plaintiffs
could hypothetically contract differently to minimize
rate increases in the future is irrelevant to determining
the constitutionality of the HIPF itself. See Baker, 485
U.S. at 518 (“Congress cannot employ unconstitutional
means to reach a constitutional end.”).
Accordingly, the Court finds that Plaintiffs have
pleaded a violation of the intergovernmental tax
immunity doctrine, and Count Six is accordingly
DENIED. To the extent Plaintiffs similarly plead that
the alleged direct tax imposed through § 9010(f) of the
ACA violates the Tenth Amendment, the Court finds for
the same reasons that § 9010 may not be constitutionally
applied to deny a refund. Accordingly, Plaintiffs’
alternative argument under Count Ten is also DENIED.
c.

Count Five: Whether the ActuarialSoundness Requirement is an
Unconstitutional
Delegation
of
Legislative Power

In Count Five, Plaintiffs seek, in part, a declaratory
judgment under 28 U.S.C. §§ 2201–02 and 5 U.S.C. § 706
The difference between (1) ASOP 1’s statement that
actuarially soundness “could” factor into an actuary’s judgment, and
(2) ASOP 49’s statement that it “should” factor into an actuary’s
judgment and ASOP 49’s impact on the legal incidence, will be
considered in the evidentiary stage of the litigation.
6

156a
that Plaintiff States being forced to pay the HIPF is an
unconstitutional delegation of Congress’s legislative
power to a private entity in contravention of Article 1,
Section 1 of the United States Constitution. Am. Compl.
22–23, ECF No. 19. Defendants contend that “[t]he
Supreme Court’s decision in Currin v. Wallace, 306 U.S.
1 (1939), controls this case.” Defs.’ Br. Supp. Mot. 21,
ECF No. 27. There, “the [Supreme] Court considered a
delegation challenge to the Tobacco Inspection Act,
which permitted the Secretary of Agriculture to act only
subject to certification by two-thirds of tobacco growers
voting at a prescribed referendum.” Id. (internal
citations omitted). Defendants argue that in Currin, “the
Court noted that ‘[t]he Constitution has never been
regarded as denying to the Congress the necessary
resources of flexibility and practicality, which will enable
it to perform its function in laying down policies and
establishing standards.’” Id. Defendants note that
“[f]urthermore, the Supreme Court has applied the
delegation doctrine only where Congress has delegated
authority to interested private parties,” as the doctrine
“is animated by the fear that industry groups might
‘regulate the affairs of an unwilling minority.’” Id.
(quoting Carter v. Carter Coal Co., 298 U.S. 238, 311
(1936)). Defendants note that “[t]he ASB has no financial
interest in the outcome of capitation-rate negotiations.”
Defs.’ Br. Supp. Mot. 21–22, ECF No. 27.
Plaintiffs respond that its “improper delegation claim
is best understood against the backdrop of the
separation of powers.” Pls.’ Resp. 22, ECF No. 29.
Plaintiffs aver that “Congress cannot delegate power to
make the law or change the law,” and “[w]hile not every
historic or future application of 42 C.F.R. § 438.6

157a
contravenes the statutory text, it works here, especially
in light of ASOP 49, to rewrite the statute and impose the
HIPF on a non-‘covered entity’—the States.” Id. Here,
Plaintiffs assert the Academy has rewritten the ACA by
ensuring the Plaintiff States pay the HIPF when
Congress expressly excluded the Plaintiff States from
having to pay it. Pub. L. 111-148, § 9010(c)(1)–(2).
Plaintiffs also argue that “it is significant that the
unconstitutional delegation here is to a private entity,”
because “[f]ederal lawmakers cannot delegate
regulatory authority to a private entity. To do so would
be ‘legislative delegation in its most obnoxious form.’” Id.
(citing Ass’n of Am. R.R.s. v. Dep’t of Transp., 721 F.3d
666, 670 (D.C. Cir. 2013), rev’d on other grounds, 1235 S.
Ct. 1225 (2015)). Plaintiffs also argue that Currin is
“questionable precedent” and moreover, in that case,
“Congress did not delegate to a private entity the
authority to craft or define the regulations.” Id. at 23
(quoting Ass’n of Am. R.R.s, 135 S. Ct. at 1254 (Thomas,
J., concurring)). Plaintiffs conclude that “Congress
delegated to ASB—a single, private, membership-based
organization—the authority to define what is ‘actuarially
sound’ for purposes of Medicaid and craft the standards
for determining whether States’ Medicaid programs
comply with federal law.” Id.
In Association of American Railroads, the railroad
association sued the Department of Transportation,
among other agencies, challenging a statute requiring
the Federal Railroad Administration and federally
chartered Amtrak to jointly develop standards to
evaluate Amtrak’s performance. See generally id. The
Supreme Court held that Amtrak was a governmental
entity rather than an autonomous private entity for

158a
purposes of determining the relevant standards because
Congress mandates certain aspects of its day to day
operations, the Secretary of Transportation holds all of
Amtrak’s preferred stock and most of its common stock,
the political branches exercise “substantial, statutorily
mandated supervision over Amtrak’s priorities and
operations,” and “[a] majority of its Board is appointed
by the President and confirmed by the Senate and is
understood by the Executive to be removable by the
President at will.” Id. at 1231–33. The Supreme Court
summarized that “Amtrak was created by the
Government, is controlled by the government, and
operates for the government’s benefit.” Id. at 1232.
In his concurrence, in which he “entirely agree[d] . . .
that Amtrak is ‘a federal actor or instrumentality’” for
constitutional purposes, Justice Alito noted that “the
formal reason why the Court does not enforce the
nondelegation doctrine with more vigilance is that the
other branches of government have vested powers of
their own that can be used in ways that resemble
lawmaking.” Id. at 1237 (citing Arlington v. FCC, 133 S.
Ct. 1863, 1873 (2013)). Justice Alito noted that “[w]hen it
comes to private entities, however, there is not even a fig
leaf of constitutional justification” because private
entities are vested with neither legislative nor executive
powers. Id. at 1237. “By any measure, handing off
regulatory power to a private entity is ‘legislative
delegation in its most obnoxious form.’” Id. at 1238
(quoting Carter, 298 U.S. at 311).
In their Amended Complaint, Plaintiffs allege that
“[t]o be deemed ‘actuarially sound’ for purposes of
Medicaid or CHIP, federal regulations require an
actuary’s certification that, under the standards

159a
established by the [Academy], capitation rates are
sufficient to cover the insurance providers’ expected
costs and insurance risks for the coming year.” Am.
Compl. ¶ 26, ECF No. 19 (citing 42 C.F.R. § 438.6).
Plaintiffs point out that “[t]he American Academy of
Actuaries is a private, membership-based professional
organization.” Id. ¶ 27. Furthermore, “[t]o set practice
standards for actuaries, the American Academy of
Actuaries has created and works with an independent,
private organization known as the [ASB].” Id. ¶ 29.
Plaintiffs assert that “[i]n March 2015, the ASB adopted
ASOP 49, which “requires capitation rates to recover
from States the amount of all taxes managed care
organizations are required to pay.” Id. ¶ 31. Plaintiffs
allege that “[w]ithout such certification of an actuary, a
managed care organization agreement will not be eligible
for participation in Medicaid and CHIP.” Id. ¶ 35.
Under the principles established in American
Association of Railroads, the Court finds that Plaintiffs
have sufficiently stated a claim that Congress delegated
rulemaking authority to an independent, private
organization, in direct contravention of Article I, Section
1 of the United States Constitution. Defendants’ Motion
is DENIED as to Count Five as to Plaintiffs’
constitutional claim. Plaintiffs also bring a statutory
claim under Count Five, which the Court will address
below. See infra Section III.B.3.a.

160a
3. Plaintiffs’ Statutory Claims
a. Counts Two and Three: Whether HHS’s
Decision to Rely on ASOP 49 was
Subject
to
Notice-and-Comment
Rulemaking and Was Not Arbitrary or
Capricious
In Count Two, Plaintiffs seek declaratory relief
under 5 U.S.C. § 706 that “the delegation by [HHS] . . .
of ultimate decision-making authority to the [ASB] on
whether States must pay their Medicaid and CHIP
[MCOs] the [HIPF] is arbitrary and capricious and not
otherwise in accordance with law.” Am. Compl. ¶ 52,
ECF No. 19. In Count Three, Plaintiffs allege that HHS
“failed to properly engage in notice-and-comment
rulemaking by delegating final authority and discretion
to the [ASB] without observance of procedure required
by law,” with the HIPF imposed upon the States
functioning as a “rule” under the APA. Id. ¶¶ 55, 57.
i. Count Three: Whether HHS’s
Decision to Rely on ASOP 49 Was
Subject to Notice-and-Comment
Rulemaking
In Count Three, Plaintiffs allege that HHS “failed to
properly engage in notice-and-comment rulemaking by
delegating final authority and discretion to the Actuarial
Standards Board without observance of procedure
required by law.” Id. ¶ 57. Defendants point out that
HHS’s decision “to refer to the ASOP, 42 C.F.R.
§ 438(c)(i)(C), did go through notice-and-comment
rulemaking.” Defs.’ Br. Supp. Mot. 23, ECF No. 27.
Defendants argue that “[t]o the extent Plaintiffs are
trying to challenge the ASB’s decision, those are not

161a
‘rules’ that require notice-and-comment procedures
because they are not ‘agency statement[s].’ ” Id. at 23–
24 (quoting 5 U.S.C. § 551(4)).
In Perez v. Mortgage Bankers Association, the
Supreme Court outlined the three-step procedure that 5
U.S.C. § 533 of the APA prescribes for notice and
comment rulemaking. “First, the agency must issue a
‘general notice of proposed rule making,’ ordinarily by
publication in the Federal Register.” Id. at 1203 (quoting
5 U.S.C. § 533(b)). “Second, if ‘notice [is] required,’ the
agency must ‘give interested persons an opportunity to
participate in the rule making through submission on
written data, views, or arguments.’ ” Perez, 135 S. Ct. at
1203 (quoting 5 U.S.C. 5 U.S.C. § 533(c)). At that stage,
“[a]n agency must consider and respond to significant
comments received during the period for public
comment.” Perez, 135 S. Ct. at 1203 (citing Citizens to
Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402, 416
(1971); Thompson v. Clark, 741 F.2d 401, 408 (D.C. Cir.
1984)). “Third, when the agency promulgates the final
rule, it must include in the rule’s test ‘a concise general
statement of [its] basis and purpose.’” Perez, 135 S. Ct.
at 1203 (quoting 5 U.S.C. 5 U.S.C. § 533 (c)).
Here, however, Plaintiffs appear to be challenging
HHS’s continued delegation to the ASB in light of the
ASOP’s impact on the HIPF. “When an agency has given
its regulation a definitive interpretation, and later
significantly revises that interpretation, the agency has
in effect amended its rule, something it may not
accomplish without notice and comment.” Shell Offshore
Inc. v. Babbitt, 238 F.3d 622, 629 (5th Cir. 2001) (quoting
Alaska Prof’l Hunters Ass’n v. FAA, 177 F.3d 1030, 1084
(D.C. Cir. 1999)). In other words, “the APA requires an

162a
agency to provide an opportunity for notice and comment
before substantially altering a well established
regulatory interpretation.” Shell Offshore Inc., 238 F.3d
at 629.
The Court has already found that Plaintiffs have
sufficiently stated that ASOP 49, as enforced through the
actuarial soundness requirement and the HIPF, results
in a substantial alteration of the HIPF’s text. See supra,
e.g., Section III.A.1.a.i; III.B.2.a.i. Therefore, the Court
finds that Plaintiffs sufficiently alleged, at this stage,
that HHS has significantly revised its interpretation of
the HIPF, as it integrates the ASOP 49, without
providing the requisite notice-and-comment period.
Therefore, Defendants’ Motion to Dismiss Count Three
is DENIED.
ii. Counts Two and Five: Whether
Implementation of the HIPF is
Entitled to Chevron Deference,
and Whether HHS’s Decision to
Rely on ASOP 49 Was Arbitrary
and Capricious
In Count Two, Plaintiffs seek declaratory relief
under 5 U.S.C. § 706 that “the delegation by [HHS] . . .
of ultimate decision-making authority to the [ASB] on
whether States must pay their Medicaid and CHIP
[MCOs] the [HIPF] is arbitrary and capricious and not
otherwise in accordance with law.” Am. Compl. ¶ 52,
ECF No. 19. Defendants argue that to the extent
“Plaintiffs also allege that requiring that managed care
rates comply with the ASOP was arbitrary and
capricious,” their claim “fails because Plaintiffs offer no
more than a ‘conclusory statement’ that this decision was

163a
arbitrary and capricious.’” Defs.’ Br. Supp. Mot. 24, ECF
No. 27 (citing Iqbal, 556 U.S. at 678).
Plaintiffs argue that “Defendants’ decision to run the
consequences of the HIPF, an unprecedented multibillion dollar tax, through a pre-ACA rule promulgated
in 2002, instead of addressing it separately, is arbitrary
and capricious.” 7 Pls.’ Resp. 24–25, ECF No. 29.
Plaintiffs further allege that “while Defendants may
prefer to employ a one-size-fits-all ‘actuarial soundness’
rule to all Medicaid plans, that preference cannot
override the multiple legal and constitutional problems
with the result.” Id. at 25. Plaintiffs conclude that “this
is especially so where the operational result of
Defendants’ status quo work, as it does here, to alter the
text of Congress by shifting the full liability for the
HIPF from MCOs to Plaintiff States.” Id. (emphasis
added). Plaintiff States conclude that they should not be
“required to anticipate that a pre-ACA regulation (42
C.F.R. § 438.6), coupled with a post-ACA ASOP, would
effectively shift the HIPF burden to the States—
something different from what Congress expressly
said.” Id. at 18.
The parties dispute whether Chevron applies, and for
purposes of resolving this Motion, the Court assumes its
does. See, e.g., Defs.’ Br. Supp. Mot. 22, ECF No. 27; Pl.’s
Resp. 25, ECF No. 29; see also Chevron U.S.A. v. Nat.
Res. Def. Council, 467 U.S. 837 (1984). To determine
Plaintiffs do not appear to plead in this claim that the HIPF is
conclusively a “tax.” While generally referring to their DJA and
APA claims elsewhere, Plaintiffs state, “That the HIPF should be
treated as an excise tax for administrative purposes doesn’t change
the fact that it is a fee.” Pls.’ Resp. 8, ECF No. 29. As the Court has
already stated, the Court need not decide at this early stage where
the HIPF is a “fee” or a “tax.” See supra Section III.A.2.b.
7

164a
whether agency action was arbitrary or capricious, a
court must consider “whether the decision was based on
a consideration of the relevant factors and whether there
has been a clear error of judgment.” Tex. Comm. on Nat.
Res. v. Wan Winkle, 197 F. Supp. 2d 586, 596 (N.D. Tex.
2002) (Means, J.) (citing Sierra Club v. Dombeck, 161 F.
Supp. 2d 1052, 1064 (D. Ariz. 2001); Marsh v. Or. Nat.
Res. Council, 490 U.S. 360, 378 (1989)). “The burden of
proving that an agency decision was arbitrary or
capricious generally rests with the party seeking to
overturn the agency decision.” Tex. Comm., 197 F. Supp.
2d at 596. ‘”If the decision reached by the agency
‘represents a reasonable accommodation of conflicting
policies that were committed to the agency’s care by
statute, we should not disturb it unless it appears that
the accommodation is not one that Congress would have
sanctioned.’” Id. (quoting Chevron, 467 U.S. at 844;
United States v. Shimer, 367 U.S. 374, 383 (1961)). “In
applying this standard, courts generally look at ‘whether
the decision was based on a consideration of relevant
factors, whether there has been a clear error of
judgment and whether there is a rational basis for the
conclusions approved by the administrative body.’” Tex.
Comm., 197 F. Supp. at 596 (citing Mobil Oil v. Dep’t of
Energy, 610 F.2d 796 (Em. App. 1979).
Here, by asserting that HHS has “alter[ed] the text
of Congress by shifting the full liability for the HIPF
from MCOs to Plaintiff States,” the Court finds that
Plaintiffs have sufficiently alleged at this stage that HHS
has acted arbitrarily or capriciously, such that the
decision to rely on ASOP 49 in enforcing the HIPF may
not be an “accommodation . . . that Congress would have
sanctioned” or a “reasonable” decision by the Secretary

165a
of HHS. Tex. Comm., 197 F. Supp. at 596; Chevron, 467
U.S. at 844. Accordingly, Defendants’ Motion to Dismiss
is DENIED as to Count Two. Because the Court finds
that at this preliminary stage, that if Chevron were to
apply, that Plaintiffs have stated a claim, the Court need
not analyze at this stage whether implementation of the
HIPF is subject to Chevron deference. Therefore, the
Court DEFERS ruling on Count Five as to Plaintiff’s
statutory claim until trial. See Fed. R. Civ. P. 12(i).
IV. CONCLUSION
Based on the foregoing, Defendants’ Motion to
Dismiss Plaintiffs’ Amended Complaint (ECF No. 26) is
GRANTED in part and DENIED in part. In summary,
Defendants’ Motion is: (1) DENIED as to Count One; (2)
DENIED as to Count Two; (3) DENIED as to Count
Three; (4) DENIED as to Count Four; (5) DEFERRED
in part and DENIED in part as to Count Five; (6)
DENIED as to Count Six; (7) GRANTED as to Count
Seven; (8) DENIED as to Count Eight; (9) DENIED as
to Count Nine; and (10) GRANTED in part and
DENIED in part as to Count Ten.
SO ORDERED on this 4th day of August, 2016.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

166a
A PP ENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10545
STATE OF T EXAS; S TATE OF KANSAS; S TATE OF
LOUISIANA; STATE OF I NDIANA; STATE OF W ISCONSIN;
STATE OF NEBRASKA,
Plaintiffs – Appellees/Cross-Appellants,
versus
CHARLES P. R ETTIG , IN HIS OFFICIAL C APACITY AS
COMMISSIONER OF I NTERNAL R EVENUE; UNITED
STATES OF AMERICA; UNITED S TATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES ; UNITED STATES
INTERNAL R EVENUE SERVICE; X AVIER BECERRA,
SECRETARY, U.S. DEPARTMENT OF HEALTH AND
HUMAN S ERVICES ,
Defendants – Appellants/Cross-Appellees.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 7:15-CV-151
ON PETITION FOR REHEARING EN BANC

(Opinion: Revised February 12, 2021, 5 C IR ., 987 F.3D
518)

167a
Before B ARKSDALE , HAYNES , and W ILLETT, Circuit
Judges. 1
PER CURIAM :
The court having been polled at the request of one of
its members, and a majority of the judges who are in
regular active service and not disqualified not having
voted in favor (Fed. R. App. P. 35 and 5th Circ. R. 35),
the petition for rehearing en banc is DENIED.
In the en banc poll, five judges voted in favor of
rehearing (Judges Jones, Smith, Elrod, Ho, and
Duncan), and eleven judges voted against rehearing
(Chief Judge Owen, and Judges Stewart, Dennis,
Southwick, Haynes, Graves, Higginson, Costa, Willett,
Engelhardt, and Wilson).

Judge Oldham did not participate in the consideration of the
rehearing en banc.
1

168a
JAMES C. HO , Circuit Judge, joined by JONES, S MITH,
ELROD, and DUNCAN, Circuit Judges, dissenting from
denial of rehearing en banc:
For those who believe in the text and original
understanding of the Constitution, the panel decision is
troubling for at least two different reasons.
First, the Constitution vests lawmaking power in the
most politically accountable branch of our government—
the Congress of the United States. Yet the panel blesses
the placement of lawmaking power in purely private
hands, wholly unaccountable to the people. That
devalues the right to vote and desecrates the entire
premise of our constitutional democracy—that our laws
are supposed to be written by members of Congress
elected by the American people, not by private interests
pursuing unknown private agendas.
Second, judges swear an oath to uphold the
Constitution, consistent of course with a judicial system
based on precedent. That should mean that we decide
every case faithful to the text and original understanding
of the Constitution, to the maximum extent permitted by
a faithful reading of binding precedent. Dutiful
application of this standard is vital to respecting and
restoring our nation’s founding principles. But rather
than apply this standard, the panel instead extends
precedent unnecessarily, in a strained effort to uphold
the uniquely unlawful delegation challenged here.
The Constitution vests “[a]ll legislative Powers
herein granted” in Congress. U.S. CONST. art. I, § 1. And
it makes clear that “any Bill . . . shall not be a Law”
unless it has complied with the bicameralism and
presentment requirements of Article I. U.S. CONST. art.

169a
I, § 7, cl. 2. These provisions do not permit Congress to
delegate its lawmaking powers elsewhere, any more than
they permit the President to delegate the power to sign
legislation. See, e.g., Gundy v. United States, 139 S. Ct.
2116, 2121 (2019) (plurality opinion by Kagan, J.) (“The
nondelegation doctrine bars Congress from transferring
its legislative power to another branch of Government.”).
See also, e.g., Electronic Presentment and Return of
Bills, 35 Op. O.L.C. 51, 62 (2011) (“[T]he President . . .
could not delegate his constitutional signing
responsibility.”); Whether the President May Sign a Bill
by Directing That His Signature Be Affixed to It, 29 Op.
O.L.C. 97, 124 (2005) (same).
This prohibition on delegation might seem
inconvenient and inefficient to those who wish to
maximize government’s coercive power. But the purpose
of the nondelegation doctrine is not to serve Congress,
but to preserve liberty. See, e.g., Dep’t of Transp. v. Ass’n
of Am. R.Rs., 575 U.S. 43, 61 (2015) (Alito, J., concurring)
(“The principle that Congress cannot delegate away its
vested powers exists to protect liberty.”).
“‘[B]icameralism and presentment make lawmaking
difficult by design.’” Id. (quoting John F. Manning,
Lawmaking Made Easy, 10 GREEN B AG 2D 191, 202
(2007)). This “deliberative process was viewed by the
Framers as a valuable feature, . . . not something to be
lamented and evaded.” Id. Indeed, “the framers went to
great lengths to make lawmaking difficult,” for “[a]n
‘excess of law-making’ was, in their words, one of ‘the
diseases to which our governments are most liable.’”
Gundy, 139 S. Ct. at 2134 (Gorsuch, J., dissenting)
(quoting T HE F EDERALIST NO. 62 (James Madison)).

170a
The processes for new legislation may be “arduous,” “but
to the framers these were bulwarks of liberty.” Id.
The modern administrative state illustrates what
happens when we ignore the Constitution: Congress
“pass[es] problems to the executive branch” and then
engages in “finger-pointing” for any problems that might
result. Id. at 2135. The bureaucracy triumphs—while
democracy suffers.
That’s why our Founders deliberately designed the
legislative power to be exercised “only by elected
representatives in a public process”—so that “the lines
of accountability would be clear” and “[t]he sovereign
people would know, without ambiguity, whom to hold
accountable.” Id. at 2134. In short: When it comes to
lawmaking, the buck stops with Congress.
Admittedly, the nondelegation doctrine has been
more honored in the breach than in the observance.
“[S]ince 1935, the Court has uniformly rejected
nondelegation arguments and has upheld provisions that
authorized agencies to adopt important rules pursuant to
extraordinarily capacious standards.” Id. at 2130–31
(Alito, J., concurring).
So when the panel upheld the unlawful delegation of
legislative power challenged in this case, it no doubt
assumed it could invoke precedents reflecting the
general dormancy and underenforcement of the
nondelegation doctrine, and call it a day.
But fidelity to the Constitution requires much more
than this. Critical features of the delegation challenged
here make it categorically different from—and
unsupportable under—current precedent.
To begin with, this case involves a delegation of
lawmaking power, not to another governmental entity,

171a
but to private bodies wholly unaccountable to the
citizenry. In addition, the delegation was effectuated not
by Congress, but at the whim of an agency—and without
Congressional blessing of any kind. There is no
precedent that permits this kind of “double delegation”
from Congress to public bureaucrats to private parties—
no case cited by the panel or the parties, and no case that
I have independently uncovered.
To the contrary, the Supreme Court has made clear
that delegation to “private persons” is “legislative
delegation in its most obnoxious form.” Carter v. Carter
Coal Co., 298 U.S. 238, 311 (1936) (emphasis added).
“[F]or it is not even delegation to an official or an official
body.” Id. Delegation of legislative power to private
entities is “unknown to our law” and “utterly inconsistent
with the constitutional prerogatives and duties of
Congress.” A.L.A. Schechter Poultry Corp. v. United
States, 295 U.S. 495, 537 (1935).
After all, “[w]hen it comes to [delegating to] private
entities, . . . there is not even a fig leaf of constitutional
justification.” Ass’n of Am. R.Rs., 575 U.S. at 62 (Alito,
J., concurring). “Private entities are not vested with
‘legislative Powers.’ Nor are they vested with the
‘executive Power,’ which belongs to the President.” Id.
(citations omitted). Indeed, “[e]ven the United States
accepts that Congress ‘cannot delegate regulatory
authority to a private entity.’” Id. at 61.
At bottom, the regulation challenged here is uniquely
offensive to the Constitution—and unsupported by
precedent—for three reasons: (1) It subdelegates
substantive lawmaking power, rather than some minor
factual determination or ministerial task; (2) the
subdelegation is authorized by an administrative agency,

172a
rather than by Congress; and (3) the agency is
subdelegating power to a private entity, rather than to
another governmental entity that is at least minimally
accountable to the public in some way.
Not a single one of the precedents cited by the panel
involves this toxic combination of constitutional
abnormalities. Not one of them prevents us from
enforcing the Constitution and the democratically
accountable government for which it stands.
I dissent from the denial of rehearing en banc. The
right to vote means nothing if we abandon our
constitutional commitments and allow the real work of
lawmaking to be exercised by private interests colluding
with agency bureaucrats, rather than by elected officials
accountable to the American voter. 1

See, e.g., PHILIP HAMBURGER, IS ADMINISTRATIVE LAW
UNLAWFUL? 369 (2014) (“[T]he expansion of the electorate has been
accompanied by the growth of administrative law . . . . One of the
extraordinary achievements of American life over the past two
centuries has been to make the theory of consensual government a
reality. Yet when consensual government became a reality, the
administrative state undermined that reality by shifting lawmaking
away from people and their representatives . . . . [W]hether in 1870,
1920, or 1965 . . . each time, after representative government
became more open to the people, legislative power increasingly has
been sequestered to a part of government that is largely closed to
them.”); id. at 374–75 (“[A]lthough [members of the knowledge
class] mostly supported expanded suffrage, they also supported the
removal of legislative power to administrative agencies staffed by
persons who shared their outlook. The development of
administrative power thus . . . must be recognized as a sociological
problem—indeed, a profoundly disturbing shift of power. As soon as
the people secured the power to vote, a new class cordoned off for
themselves a sort of legislative power that they could exercise
without representation.”).
1

173a
I.
The Medicaid program provides financial assistance
to low-income individuals so that they may obtain
medical care. “States have two options for providing care
to Medicaid beneficiaries: a ‘fee-for-service’ model and a
managed-care model.” Texas v. Rettig, 987 F.3d 518, 524
(5th Cir. 2021). “Under the . . . managed-care model, the
state pays a third-party health insurer (‘managed-care
organization’ or ‘MCO’) a monthly premium (the
‘capitation rate’) for each Medicaid beneficiary the MCO
covers, and the MCO provides care to the beneficiary.”
Id.
In order for states to be reimbursed for these
expenditures, MCO capitation rates must be “actuarially
sound.” 42 U.S.C. § 1396b(m)(2)(A)(iii), (xiii). In 2002, the
Department of Health and Human Services (HHS)
promulgated the “Certification Rule” to further
delineate what it means for an MCO capitation rate to be
“actuarially sound”:
(i) Actuarially sound capitation rates means capitation rates that—
(A) Have been developed in accordance
with generally accepted actuarial principles and practices;
(B) Are appropriate for the populations to
be covered, and the services to be furnished under the contract; and
(C) Have been certified, as meeting the requirements of this paragraph (c), by actuaries who meet the qualification standards
established by the American Academy of
Actuaries and follow the practice

174a
standards established by the Actuarial
Standards Board.
42 C.F.R. § 438.6(c)(1)(i)(A)–(C) (2002) (emphases
added). 2
The Actuarial Standards Board is not a governmental
entity accountable to the American people. It is a private
organization that sets practice standards for private
actuaries certified by the private American Academy of
Actuaries (AAA). Yet the Certification Rule empowers
the Board to determine the regulatory standard for
whether a capitation rate is “actuarially sound,” by
allowing the Board to dictate the “practice standards”
that an actuary must follow in so certifying the rate. Id.
And other private entities—AAA-qualified private
actuaries—determine whether a particular capitation
rate meets the Board’s private standards. Id.
One such privately promulgated “practice standard”
is the requirement that capitation rates “certified in
accordance with 42 CFR 438.6(c)” “provide for all
reasonable, appropriate, and attainable costs,”
“includ[ing] . . . government-mandated assessments,
fees, and taxes.” Rettig, 987 F.3d at 525–26. It is the
issuance of this practice standard in 2015 that gives rise
to the instant case. Id. With the issuance of this private
rule, the Plaintiff States suddenly had a new legal
The Certification Rule has since been recodified into multiple
provisions. 42 C.F.R. § 438.4 now states that “[t]o be approved by
[the Centers for Medicare and Medicaid Services], capitation rates
must . . . [b]e certified by an actuary as meeting the applicable
requirements,” while § 438.2 defines “[a]ctuary” as “an individual
who meets the qualification standards established by the American
Academy of Actuaries . . . and follows the practice standards
established by the Actuarial Standards Board.”
2

175a
obligation to account for (and thus pay) a new “Provider
Fee”—a “cost” (specifically, a “government-mandated
. . . tax[]”) incurred by certain MCOs. See id. at 528–29.
In October 2015, the State of Texas filed suit, joined
by Indiana, Kansas, Louisiana, Nebraska, and
Wisconsin, challenging the validity of both the Provider
Fee itself and the Certification Rule that enabled a
private entity to impose the Provider Fee. They sought
various injunctive and declaratory remedies to relieve
them from the burden of paying the Fee. Most relevant
here, Plaintiffs claimed that the Certification Rule
violates the nondelegation doctrine. The district court
agreed. Texas v. United States, 300 F. Supp. 3d 810, 820
(N.D. Tex. 2018).
A panel of this court reversed. First, the panel held
that there is no subdelegation at all because
“[c]ertification by a qualified actuary who applies the
Board’s standards is reasonably connected to ensuring
actuarially sound rates,” and the private parties “have
institutional expertise in actuarial principles and
practices.” Rettig, 987 F.3d at 531. Second, the panel held
that “even assuming arguendo that HHS subdelegated
authority to private entities, such subdelegations were
not unlawful” because HHS (the panel claimed)
“reviewed and accepted” the Board’s standards and
retained “the ultimate authority to approve a state’s
contract,” “superintend[ing]” the approval process “in
every respect.” Id. at 532–33.
II.
As discussed, the Constitution vests legislative power
in Congress and does not permit delegation of that
power—especially not to private parties. Ante, at 1–4.
The panel responds by invoking various precedents. But

176a
at the very most, current precedent allows only Congress
itself to involve private parties in the rulemaking
process. See Currin v. Wallace, 306 U.S. 1, 15–16 (1939)
allowing Congress to condition agency action on private
approval); Sunshine Anthracite Coal Co. v. Adkins, 310
U.S. 381, 388 (1940) (allowing Congress to permit private
parties to propose prices and regulations for agency
approval).
There is good reason to limit these precedents to only
those delegations authorized by Congress itself.
Congress has express constitutional authority to
legislate. U.S. CONST. art. I, § 1. And it is directly
accountable to the American people. Neither is true of
administrative agencies. As our sister circuit once
observed, “when an agency delegates power to outside
parties, lines of accountability may blur, undermining an
important democratic check on government decisionmaking . . . . In short, subdelegation to outside entities
aggravates the risk of policy drift inherent in any
principal-agent relationship.” U.S. Telecom Ass’n v.
FCC, 359 F.3d 554, 565–66 (D.C. Cir. 2004). “Agencies
may play the sorcerer’s apprentice but not the sorcerer
himself.” Alexander v. Sandoval, 532 U.S. 275, 291
(2001).
The Certification Rule plainly violates the private
nondelegation doctrine. First, it delegates to a private
entity the power to determine what constitutes an
“actuarially sound” capitation rate. But Congress gave
HHS no authority to turn this decision over to a private
entity such as the Board. Moreover, there is no agency
review of the Board’s established “practice standards.”
If HHS disagrees with the Board’s standards regarding
capitation rates, its only recourse is to amend or repeal

177a
the rule delegating power to the Board in the first place.
HHS has thus semi-permanently subjugated its
regulatory power to that of the Board.
Second, there is no agency review of capitation rates
unless and until they are approved by the private
actuaries. The rule itself indicates that the Centers for
Medicare and Medicaid Services (CMS) will not review
an MCO contract before these actuaries confirm the
capitation rates’ actuarial soundness. See 42 C.F.R.
§ 438.6(c)(1)(i)(C) (2002) (“Actuarially sound capitation
rates . . . [h]ave been certified . . . by actuaries who . . .
follow the practice standards established by the . . .
Board.”) (emphasis added). And the record confirms that
CMS does not in fact review an MCO contract unless and
until private parties have blessed the capitation rates.
See Declaration of Christopher J. Truffer at 10 (“[T]he
state actuary must certify the rates . . . . Next, a state
sends a contract . . . to the appropriate . . . Office . . . , and
the CMS actuarial review process begins. After ensuring
that the documentation . . . contains the rate
certification, . . . the [office] forwards the contract
package to the Center for Medicaid and CHIP
Services.”) (emphases added)).
So before CMS even begins to exercise its own
judgment and determine whether a rate meets the
standards promulgated by the Board, private actuaries
may apply the Board’s private standards and determine
that a capitation rate is not actuarially sound. In such
cases, the agency’s review process ends before it ever
begins.
Under the Certification Rule, then, HHS neither sets
the regulatory standard nor exercises final authority
over the application of that standard. Private actors

178a
wield “final reviewing authority.” Rettig, 987 F.3d at
532–33. They act as veto-gates that categorically
preclude agency review—whether it’s review of the
“actuarially sound” standard itself, the determination
that a capitation rate complies with that standard, or
both. The Constitution forbids such delegations of
government power to private entities.
III.
The panel offers two arguments for why the
Constitution permits the Certification Rule. Neither is
persuasive.
A.
First, the panel denies that there is any
subdelegation at all. It cites the D.C. Circuit’s decision in
Telecom for the proposition that “an agency does not
improperly subdelegate its authority when it
‘reasonabl[y] condition[s]’ federal approval on an outside
party’s determination of some issue,” because “such
conditions only amount to legitimate requests for input.”
Rettig, 987 F.3d at 531.
But the panel misreads Telecom. For starters, that
case rejected an agency’s unauthorized subdelegation of
legal determinations. 359 F.3d at 567–68. And it had
nothing at all to do with an agency delegating its
substantive rulemaking power.
What’s more, Telecom makes clear that any
“subdelegation[] to outside parties [is] assumed to be
improper absent an affirmative showing of congressional
authorization.” Id. at 565. See also id. at 566 (“A general
delegation of decision-making authority to a federal
administrative agency does not, i the ordinary course of

179a
things, include the power to subdelegate that authority
beyond federal subordinates.”).
In other words, under Telecom, at most only
Congress may involve private parties in agency decisionmaking—an agency does not get to make that decision
itself.
To be sure, the panel notes that, under Telecom,
“specific types of legitimate outside party input into
agency decision-making processes” do not amount to
“subdelegation[s] of decision-making authority”—such
as “establishing a reasonable condition for granting
federal approval.” Id. But Telecom limited this principle
to governmental conditions—determinations by “state,
local, or tribal government[s].” Id. at 567. It endorsed no
such principle with respect to private parties. 3
And it’s clear why. In the cases cited in Telecom, the
“reasonable connection between the outside entity’s
decision and the federal agency’s determination” was
patently obvious and justified—there was simply no
reason for the agency to approve a federal permit if the
state (in the case of United States v. Matherson, 367 F.
Supp. 779 (E.D.N.Y. 1973)) or tribal entity (in the case of
Southern Pacific Transportation Co. v. Watt, 700 F.2d
550 (9th Cir. 1983)) was going to prevent the petitioner
from engaging in the regulated activity anyway. So the
The panel claims that, under Telecom, it does not matter
whether an agency is conditioning its approval on that of a
government entity or a private party. Rettig, 987 F.3d at 531 n.10.
But Telecom equated governmental and private entities only to say
that an unauthorized subdelegation to either is invalid: “[F]ederal
agency officials . . . may not subdelegate to outside entities—private
or sovereign—absent affirmative evidence of authority to do so.”
359 F.3d at 566 (emphasis added). And it is undisputed that
Congress gave HHS no such authority here.
3

180a
agencies weren’t subordinating their authority to outside
entities—they were refusing to waste agency resources
on futile approvals. See Matherson, 367 F. Supp. at 782
(“[I]t is apparent that a vehicular permit from the
National Seashore is of little value without the
corresponding vehicular permit from the appropriate
local municipality . . . . [A]n individual holding only a
National Seashore vehicular permit would be prohibited
from traversing state land and thereby be precluded
from ever reaching the National Seashore by motor
vehicle. The promulgation of [the regulation] has
foreclosed the possibility of such an anomaly ever
existing.”); Southern Pacific, 700 F.2d at 556 (“The
regulation at issue is not an abdication of the Secretary’s
power to administer the 1899 Act but rather an effort by
the Secretary to incorporate into the decision-making
process the wishes of a body with independent authority
over the affected lands.”).
The situation here could not be more different. The
private Board and private actuaries would have no say at
all in the approval of capitation rates or MCO contracts
but for HHS’s decision to hand them its rulemaking and
review powers in the first place.
So the Certification Rule is plainly unconstitutional
under Telecom. “Congress has not delegated to [HHS]
the authority to subdelegate [the actuarial soundness
requirement] to outside parties.” 359 F.3d at 566. And
“[i]n contrast to [Matherson and Southern Pacific],
where an agency with broad permitting authority . . .
adopted an obviously relevant local [government]
concern as an element of its decision process,” HHS has
not only “delegated to another [private] actor almost the
entire determination of whether a specific statutory

181a
requirement . . . has been satisfied,” id. at 567—it has
even granted a private party the power to define the
statutory requirement in the first place. 4
B.
Second, the panel argues that, if there is a
subdelegation here, it’s permissible under Supreme
Court and circuit precedent. But all the panel’s
authorities are inapposite.
The panel first invokes Adkins. Rettig, 987 F.3d at
532. But as noted, in Adkins it was Congress itself, not
the agency, that enlisted the assistance of private parties
in rulemaking. As our sister circuit has noted, “Adkins
. . . affirmed a modest principle: Congress may formalize
the role of private parties in proposing regulations.”
Ass’n of Am. R.Rs. v. U.S. Dep’t of Transp., 721 F.3d 666,
671 (D.C. Cir. 2013), rev’d on other grounds by Ass’n of
Am. RRs., 575 U.S. 43 (emphasis added). See also
Telecom, 359 F.3d at 565 (“[S]ubdelegations to outside

4
The panel also invokes Louisiana Forestry Association v.
Secretary of United States Department of Labor, 745 F.3d 653 (3rd
Cir. 2014). Rettig, 987 F.3d at 531 & n.10. But the statute in that
case specifically granted the Department of Homeland Security
(DHS) the authority to “determine[]” an alien’s status “after
consultation with appropriate agencies of the Government.” La.
Forestry Ass’n, 745 F.3d at 660. So of course DHS’s decision to seek
the “advice” of the Department of Labor in the form of a labor
certification was not an unconstitutional subdelegation. It was one
agency acting pursuant to congressional authorization to enlist the
help of another agency in making a legal determination. There is no
serious way to analogize the scheme in that case to the Certification
Rule. Here, there is no statutory language granting HHS authority
to give the private Board (or anyone else) rulemaking power to craft
the legal standard.

182a
parties are assumed to be improper absent an
affirmative showing of congressional authorization.”).
As explained, it is one thing to bless a Congressional
decision to involve private parties in the rulemaking
process. It is quite another to allow an agency—already
acting pursuant to delegated power—to re-delegate that
power out to a private entity. See, e.g., Gundy, 139 S. Ct.
at 2123 (plurality opinion by Kagan, J.) (“Accompanying
[Article I, section 1’s] assignment of power to Congress
is a bar on its further delegation. Congress, this Court
explained early on, may not transfer to another branch
‘powers which are strictly and exclusively legislative.’”)
(quoting Wayman v. Southard, 23 U.S. 1, 42–43 (1825));
Kisor v. Wilkie, 139 S. Ct. 2400, 2416 (2019) (“Congress
has delegated rulemaking power, and all that typically
goes with it, to the agency alone.”).
Moreover, the private parties in Adkins truly
“function[ed] subordinately to the Commission,” 310
U.S. at 399—serving as merely “an aid” that
“propose[d]” minimum prices and regulations. Id. at 388
(emphasis added). The agency exercised “pervasive
surveillance and authority,” including the power to
“approve[], disapprove[], or modif[y]” the industry
proposals. Id. It was therefore the agency, and “not the
[private actors],” that set the regulations. Id. at 399.
Ultimately, “Adkins . . . affirmed a modest principle:
Congress may formalize the role of private parties in
proposing regulations so long as that role is merely ‘as
an aid’ to a government agency that retains the
discretion to ‘approve[], disapprove[], or modif[y]’ them.”
Ass’n of Am. R.Rs., 721 F.3d at 671 (emphasis added).
Here, by contrast, HHS has delegated to the Board
the power to define actuarial soundness. And that power

183a
is reviewable only in the sense that the agency can
amend or repeal the Certification Rule altogether. So
absent new rulemaking, the Board’s practice standards
and the actuaries’ certifications can prevent a state’s
capitation rate and associated MCO contract from ever
reaching CMS for review. In short, while the instant
scheme arguably allows HHS to “approve[]” private
standards and actuarial certifications, it emphatically
does not leave HHS free to “disapprove[] or modif[y]”
them. Id.
The panel also cites Sierra Club v. Lynn, 502 F.2d 43
(5th Cir. 1974). But Sierra Club did not decide whether
an agency was unconstitutionally re-delegating its
delegated rulemaking powers. Rather, it questioned
whether an agency was “abdicat[ing] its statutory duties
[under the National Environmental Policy Act] by
reflexively rubber stamping a[n impact] statement
prepared by others.” Id. at 59.
At most, then, Sierra Club tells us how much “factfinding” an agency can delegate. See Telecom, 359 F.3d
at 567 (“[T]here is some authority for the view that a
federal agency may use an outside entity, such as a state
agency or a private contractor, to provide the agency
with factual information.”). There, we allowed a private
developer to assist an agency in compiling studies that
were conditions precedent to federal approval. See
Sierra Club at 47, 59. So a private party was assisting
the agency in determining the facts underlying the
agency’s decision to exercise government power. That is
a far cry from allowing private parties to both define and
apply a legal standard, and to do so without
congressional authorization or agency review.

184a
In any event, the panel cites Sierra Club for the
proposition that there is no impermissible subdelegation
where an agency “retains final reviewing authority,” and
“independently perform[s] its reviewing, analytical and
judgmental functions.” Rettig, 987 F.3d at 532. But
again, HHS doesn’t review the Board’s practice
standards, or the capitation rates rejected by private
actuaries. So even if Sierra Club could justify an
unauthorized subdelegation of substantive rulemaking
power, its standard hasn’t been met.
The panel’s reliance on Louisiana Public Service
Commission v. FERC, 761 F.3d 540 (5th Cir. 2014), is
unavailing for the same reason. No matter how many
times the panel claims otherwise, HHS has never
“reviewed and accepted” the Board’s practice standards
or the actuaries’ rejected capitation rates—let alone
“continue[d] to exercise oversight” over those actions.
Id. at 552. It just made a one-time decision to hand the
private parties a blank check.
In the end, then, the only “final reviewing authority”
HHS retains is the ability to issue a new rule.
Incredibly, the panel is fine with this: “[A]ny state
dissatisfied with the Board’s practice standards can
petition HHS for ‘amendment[] or repeal’ of the . . .
Rule’s requirement that the Board’s practice standards
be followed.” Rettig, 987 F.3d at 532 n.13 (quoting 5
U.S.C. § 553(e)). But by that logic, any agency
subdelegation of rulemaking power is permissible. After
all, any agency can always claw back its delegated power
by issuing a new rule. See Fund for Animals v.
Kempthorne, 538 F.3d 124, 133 (2nd Cir. 2008) (“If all it
reserves for itself is ‘the extreme remedy of totally
terminating the [delegation agreement],’ an agency

185a
abdicates its ‘final reviewing authority.’”) (alteration in
original) (citation omitted). But that would render the
nondelegation doctrine a dead letter. We might as well
say that Congress can never violate the nondelegation
doctrine, because the American people can always
petition Congress to pass a new law and claw back its
lawmaking power from an agency. 5
According to the panel, holding the Certification Rule
unconstitutional would also “jeopardize over a thousand regulations
promulgated by federal agencies.” Rettig, 987 F.3d at 532 n.11. But
this collapses the distinction between the completely legitimate
practice of codifying preexisting private standards and the novel,
unconstitutional practice of handing private parties a blank check to
fill (and amend) at their leisure.
As the panel notes, it is a “common and accepted practice” for
agencies to incorporate by reference standards established by
private organizations. See id. at 531–32 (citing Am. Soc’y for Testing
& Materials v. Public.Resource.Org, Inc., 896 F.3d 437, 442 (D.C.
Cir. 2018)). But this just tells us what HHS could have done in this
case—not that what HHS did was okay. In American Society, the
agencies exercised their rulemaking power to approve fixed,
preexisting private standards. The standards were not
automatically updated by the unilateral action of those outside
entities. See, e.g., 896 F.3d at 443 (describing a statute requiring the
Secretary of Energy to decide whether to adopt revisions to
incorporated materials); id. at 447 (“[W]e need not determine what
happens when a regulation or statute is revised to incorporate
newer versions of a particular standard.”) (emphasis added); id. at
450 (explaining that the 2011 National Electrical Code had been
incorporated into a power source regulation, “but not the 2014
edition”). See also Office of Mgmt. & Budget, Exec. Office of the
President, OMB Circular A-119: Federal Participation in the
Development and Use of Voluntary Consensus Standards and in
Conformity Assessment Activities 4 (2016) (requiring agencies “to
ensure[] . . . that regulations incorporating standards by reference
are updated on a timely basis”).
To say that HHS can empower the Board to write whatever
standards it chooses because it “could achieve exactly the same
5

186a
IV.
As judges, we have sworn an oath to uphold the
Constitution. So if we are forced to choose between
upholding the Constitution and extending precedent in
direct conflict with the Constitution, the choice should be
clear: “[O]ur duty [is] to apply the Constitution—not
extend precedent.” NLRB v. Int’l Ass’n of Bridge,
Structural, Ornamental, & Reinforcing Iron Workers,
Local 229, AFL-CIO, 974 F.3d 1106, 1116 (9th Cir. 2020)
(Bumatay, J., dissenting from denial of rehearing en
banc). “[F]idelity to original meaning counsels against
further extension of [] suspect precedents.” Hester v.
United States, 139 S. Ct. 509, 509 (2019) (Alito, J.,
concurring in the denial of certiorari).
The Supreme Court has repeatedly applied this
principle when confronted with the choice between
fidelity to the Constitution and an otherwise logical
extension of its own precedent. See, e.g., Seila Law LLC
v. CFPB, 140 S. Ct. 2183, 2201 (2020) (“The question . . .
is whether to extend those precedents to the ‘new
situation’ before us, namely an independent agency led
by a single Director and vested with significant executive
power. We decline to do so. Such an agency has no basis
in history and no place in our constitutional structure.”)
(citation omitted); id. at 2211 (“A decade ago, we declined
to extend Congress’s authority to limit the President’s
removal power to a new situation, never before
confronted by the Court. We do the same today.”)
(referring to Free Enter. Fund v. Pub. Co. Accounting
result by promulgating regulations . . . adopt[ing] the . . . Board’s
standards,” Rettig, 987 F.3d at 532, is to say that process doesn’t
matter. But when it comes to the Constitution and the separation of
powers, the ends do not justify the means. Ante, at 2.

187a
Oversight Bd., 561 U.S. 477 (2010)); Hernandez v. Mesa,
140 S. Ct. 735, 749 (2020) (“In sum, this case features
multiple factors that counsel hesitation about extending
Bivens, but they can all be condensed to one concern—
respect for the separation of powers.”).
We should do the same. “As inferior court judges, we
are bound by Supreme Court precedent. Yet[] . . . judges
also have a ‘duty to interpret the Constitution in light of
its text, structure, and original understanding.’” Edmo v.
Corizon, Inc., 949 F.3d 489, 506 (9th Cir. 2020) (Bumatay,
J., dissenting from denial of rehearing en banc) (quoting
NLRB v. Noel Canning, 573 U.S. 513, 573 (2014) (Scalia,
J., concurring)). “While we must faithfully follow
[Supreme Court] precedent . . . , ‘[w]e should resolve
questions about the scope of those precedents in light of
and in the direction of the constitutional text and
constitutional history.’” Id. (quoting Free Enter. Fund v.
Public Co. Accounting Oversight Bd., 537 F.3d 667, 698
(D.C. Cir. 2008) (Kavanaugh, J., dissenting), aff’d in
part, rev’d in part and remanded, 561 U.S. 477 (2010)).
See also, e.g., Alvarez v. City of Brownsville, 904 F.3d
382, 401 (5th Cir. 2018) (en banc) (Ho, J., concurring)
(noting that an important purpose of rehearing en banc
is “to better align our precedents with the text and
original understanding of the Constitution” “where the
Supreme Court has not yet ruled”).
***
Our Founders fought a war to defend the principle of
“no taxation without representation.” And that is
precisely the principle Plaintiffs seek to vindicate today.
The federal government forces them to pay nearly half a
billion dollars—not by an act of their elected

188a
representatives in Congress, but by private entities
acting in collusion with unelected public bureaucrats.
The Constitution forbids this result. And no
precedent requires it. I respectfully dissent from the
denial of rehearing en banc.

189a
A PP ENDIX E
Relevant P r ovisions of the United States
Cons titution
Article I, Section 1 provides:
All legislative Powers herein granted shall be
vested in a Congress of the United States, which
shall consist of a Senate and House of Representatives.
Article I, Section 8 provides, in relevant part:
The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the
Debts and provide for the common Defence and
general Welfare of the United States; . . . .
Article I, Section 9 provides, in relevant part:
No Capitation, or other direct, Tax shall be laid,
unless in Proportion to the Census or Enumeration herein before directed to be taken.
Article II, Section 1 provides, in relevant part:
The executive Power shall be vested in a President of the United States of America.
Article III, Section 1 provides, in relevant part:
The judicial Power of the United States, shall be
vested in one supreme Court, and in such inferior
Courts as the Congress may from time to time ordain and establish.
The Fifth Amendment provides, in relevant part:
No person shall . . . be deprived of life, liberty, or
property, without due process of law . . . .

190a
A PP ENDIX F
5 U.S.C. § 702. Right of r eview
A person suffering legal wrong because of agency action,
or adversely affected or aggrieved by agency action
within the meaning of a relevant statute, is entitled to
judicial review thereof. An action in a court of the United
States seeking relief other than money damages and
stating a claim that an agency or an officer or employee
thereof acted or failed to act in an official capacity or
under color of legal authority shall not be dismissed nor
relief therein be denied on the ground that it is against
the United States or that the United States is an
indispensable party. The United States may be named as
a defendant in any such action, and a judgment or decree
may be entered against the United States: Provided,
That any mandatory or injunctive decree shall specify
the Federal officer or officers (by name or by title), and
their successors in office, personally responsible for
compliance. Nothing herein (1) affects other limitations
on judicial review or the power or duty of the court to
dismiss any action or deny relief on any other
appropriate legal or equitable ground; or (2) confers
authority to grant relief if any other statute that grants
consent to suit expressly or impliedly forbids the relief
which is sought.
28 U.S.C. § 1902. Time f or commencing action
agains t United States
(a) Except as provided by chapter 71 of title 41, every
civil action commenced against the United States shall
be barred unless the complaint is filed within six years
after the right of action first accrues. The action of any
person under legal disability or beyond the seas at the

191a
time the claim accrues may be commenced within three
years after the disability ceases.
(b) A tort claim against the United States shall be
forever barred unless it is presented in writing to the
appropriate Federal agency within two years after such
claim accrues or unless action is begun within six months
after the date of mailing, by certified or registered mail,
of notice of final denial of the claim by the agency to
which it was presented.
Health Car e and Education Reconciliation
A ct of 2010, P ub. L . No. 111-152, § 1406, 124
Stat. 1029, 1066
(a) IN GENERAL.—Section 9010 of the Patient
Protection and Affordable Care Act, as amended by
section 10905 of such Act, is amended— . . .
(3) in subsection (c)—
(A) by inserting ‘‘during the calendar year in
which the fee under this section is due’’ in
paragraph (1) after ‘‘risk’’;
(B) in paragraph (2), by striking subparagraphs
(C), (D), and (E) and inserting the following new
subparagraphs:
‘‘(C) any entity—
‘‘(i) which is incorporated as a
nonprofit corporation under a State
law,
‘‘(ii) no part of the net earnings of
which inures to the benefit of any
private shareholder or individual,
no substantial part of the activities
of which is carrying on propaganda,
or
otherwise
attempting,
to
influence legislation (except as

192a
otherwise provided in section 501(h)
of the Internal Revenue Code of
1986), and which does not
participate in, or intervene in
(including the publishing or
distributing of statements), any
political campaign on behalf of (or in
opposition to) any candidate for
public office, and
‘‘(iii) more than 80 percent of the
gross revenues of which is received
from government programs that
target low-income, elderly, or
disabled populations under titles
XVIII, XIX, and XXI of the Social
Security Act, and
‘‘(D) any entity which is described in
section 501(c)(9) of such Code and which is
established by an entity (other than by an
employer or employers) for purposes of
providing health care benefits.’’;
(C) in paragraph (3)(A), by striking
‘‘subparagraph (C)(i)(I), (D)(i)(I), or (E)(i)’’
and inserting ‘‘subparagraph (C) or (D)’’;
and
(D) by adding at the end the following new
paragraph:
‘‘(4) JOINT AND SEVERAL
LIABILITY.—If more than one
person is liable for payment of the
fee under subsection (a) with
respect to a single covered entity by
reason of the application of

193a
paragraph (3), all such persons shall
be jointly and severally liable for
payment of such fee.’’
P atient P r otection and Af f or dable Car e A ct,
P ub. L . No. 111-148, 1224 Stat. 119 (20 10)
§ 2501(c) PRESCRIPTION DRUG REBATES
(c) EXTENSION OF PRESCRIPTION DRUG
DISCOUNTS TO ENROLLEES OF MEDICAID
MANAGED CARE ORGANIZATIONS.—
(1) IN GENERAL.—Section 1903(m)(2)(A) of
such Act (42 U.S.C. 1396b(m)(2)(A)) is
amended— . . .
(C) by adding at the end the following:
“(xiii) such contract provides that
(I) covered outpatient drugs
dispensed to individuals eligible for
medical assistance who are enrolled
with the entity shall be subject to
the same rebate required by the
agreement entered into under
section 1927 as the State is subject
to and that the State shall collect
such rebates from manufacturers,
(II) capitation rates paid to the
entity shall be based on actual cost
experience related to rebates and
subject to the Federal regulations
requiring actuarially sound rates,
and (III) the entity shall report to
the State, on such timely and
periodic basis as specified by the
Secretary in order to include in the
information submitted by the State

194a
to a manufacturer and the
Secretary
under
section
1927(b)(2)(A), information on the
total number of units of each dosage
form and strength and package size
by National Drug Code of each
covered outpatient drug dispensed
to individuals eligible for medical
assistance who are enrolled with the
entity and for which the entity is
responsible for coverage of such
drug under this subsection (other
than covered outpatient drugs that
under subsection (j)(1) of section
1927 are not subject to the
requirements of that section) and
such other data as the Secretary
determines necessary to carry out
this subsection.”.
§ 9010. IMP OSITION OF A NNUA L F EE ON
HEA L TH INSURA NCE P R OVIDE RS
(a) IMPOSITION OF FEE.—
(1) IN GENERAL.—Each covered entity
engaged in the business of providing health
insurance shall pay to the Secretary not later than
the annual payment date of each calendar year
beginning after 2009 a fee in an amount
determined under subsection (b).
(2) ANNUAL PAYMENT DATE.—For purposes
of this section, the term “annual payment date”
means with respect to any calendar year the date
determined by the Secretary, but in no event later
than September 30 of such calendar year.

195a
(b) DETERMINATION OF FEE AMOUNT.—
(1) IN GENERAL.—With respect to each
covered entity, the fee under this section for any
calendar year shall be equal to an amount that
bears the same ratio to $6,700,000,000 as—
(A) the sum of—
(i) the covered entity's net
premiums written with respect to
health insurance for any United
States health risk that are taken
into account during the preceding
calendar year, plus
(ii) 200 percent of the covered
entity's third party administration
agreement fees that are taken into
account during the preceding
calendar year, bears to
(B) the sum of—
(i) the aggregate net premiums
written with respect to such health
insurance of all covered entities that
are taken into account during such
preceding calendar year, plus
(ii) 200 percent of the aggregate
third
party
administration
agreement fees of all covered
entities that are taken into account
during such preceding calendar
year.
(2) AMOUNTS TAKEN INTO ACCOUNT.—
For purposes of paragraph (1)—
(A) NET PREMIUMS WRITTEN.—The
net premiums written with respect to

196a
health insurance for any United States
health risk that are taken into account
during any calendar year with respect to
any covered entity shall be determined in
accordance with the following table:
With respect to a
The percentage of net
covered entity’s net
premiums written that
premiums written
are taken into account
during the calendar
is:
year that are:
Not
more
than 0 percent
$25,000,000
More than $25,000,000 but 50 percent
not more than $50,000,000
More than $50,000,000
100 percent.
(B) THIRD PARTY ADMINISTRATION
AGREEMENT FEES.—The third party
administration agreement fees that are
taken into account during any calendar
year with respect to any covered entity
shall be determined in accordance with the
following table:
With respect to a
The percentage of third
covered entity’s third
party administration
party administration
agreement fees that are
agreement fees during
taken into account is:
the calendar year that
are:
Not more than $5,000,000 0 percent
More than $5,000,000 but 50 percent
not more than $10,000,000
More than $10,000,000
100 percent.

197a
(3)
SECRETARIAL
DETERMINATION.—The
Secretary
shall calculate the amount of each covered
entity's fee for any calendar year under
paragraph (1). In calculating such amount,
the Secretary shall determine such
covered entity's net premiums written with
respect to any United States health risk
and third party administration agreement
fees on the basis of reports submitted by
the covered entity under subsection (g) and
through the use of any other source of
information available to the Secretary.
(c) COVERED ENTITY.—
(1) IN GENERAL.—For purposes of this section,
the term “covered entity” means any entity which
provides health insurance for any United States
health risk.
(2) EXCLUSION.—Such term does not include—
(A) any employer to the extent that such
employer self-insures its employees' health
risks, or
(B) any governmental entity (except to the
extent such an entity provides health
insurance
coverage
through
the
community health insurance option under
section 1323).
(3) CONTROLLED GROUPS.—
(A) IN GENERAL.—For purposes of this
subsection, all persons treated as a single
employer under subsection (a) or (b) of
section 52 of the Internal Revenue Code of
1986 or subsection (m) or (o) of section 414

198a
of such Code shall be treated as a single
covered entity (or employer for purposes
of paragraph (2)).
(B)
INCLUSION
OF
FOREIGN
CORPORATIONS.—For purposes of
subparagraph (A), in applying subsections
(a) and (b) of section 52 of such Code to this
section, section 1563 of such Code shall be
applied without regard to subsection
(b)(2)(C) thereof.
42 U.S.C. § 1396 B. P ayment to States
...
(m) “Medicaid managed care organization” defined;
duties and functions of Secretary; payments to
States; reporting requirements; remedies
...
(2)(A) Except as provided in subparagraphs (B),
(C), and (G), no payment shall be made under this
subchapter to a State with respect to
expenditures incurred by it for payment
(determined under a prepaid capitation basis or
under any other risk basis) for services provided
by any entity (including a health insuring
organization) which is responsible for the
provision (directly or through arrangements with
providers of services) of inpatient hospital
services and any other service described in
paragraph (2), (3), (4), (5), or (7) of section
1396d(a) of this title or for the provision of any
three or more of the services described in such
paragraphs unless— . . .
(iii) such services are provided for the
benefit of individuals eligible for benefits

199a
under this subchapter in accordance with a
contract between the State and the entity
under which prepaid payments to the
entity are made on an actuarially sound
basis and under which the Secretary must
provide prior approval for contracts
providing for expenditures in excess of
$1,000,000 for 1998 and, for a subsequent
year, the amount established under this
clause for the previous year increased by
the percentage increase in the consumer
price index for all urban consumers over
the previous year . . . .

200a
A PP ENDIX G
42 C.F .R. § 438.6 (200 2) Contr act r equir ements .
(c) Payments under risk contracts—
(1) Terminology. As used in this paragraph, the
following terms have the indicated meanings:
(i) Actuarially sound capitation rates
means capitation rates that—
(A) Have been developed in
accordance with generally accepted
actuarial principles and practices;
...
(C) Have been certified, as meeting
the requirements of this paragraph
(c), by actuaries who meet the
qualification standards established
by the American Academy of
Actuaries and follow the practice
standards established by the
Actuarial Standards Board.

201a
A PP ENDIX H
ASB (Logo)
ACTUARIAL S TANDARDS BOARD
Actuarial Standard
of Practice
No. 49
Medicaid Managed Care Capitation
Rate Development and Certification
Developed by the
Medicaid Rate Setting and Certification Task Force
of the Health Committee of the
Actuarial Standards Board
Adopted by the
Actuarial Standards Board
March 2015
Doc. No. 179

202a
T A B L EO FC O N T E N T S
Transmittal Memorandum
iv
Section 1. Purpose, Scope, Cross References, and
Effective Date
1.1 Purpose
1.2 Scope
1.3 Cross References
1.4 Effective Date
Section 2. Definitions
2.1 Actuarially Sound/Actuarial Soundness
2.2 Base Data
2.3 Capitation Rate
2.4 Disproportionate Share Hospital (DSH)
Payments
2.5 Encounter Data
2.6 Enhanced or Additional Benefits
2.7 Federally Qualified Health Centers (FQHC)
2.8 Intergovernmental
TransferTransferTransfer(IGT)
2.9 Managed Care Organization (MCO)
2.10 Medical Education Payments
2.11 Minimum Medical Loss Ratio
2.12 Performance Incentive
2.13 Performance Withhold
2.14 Rating Period
2.15 Risk Adjustment
2.16 Rural Health Clinic (RHC)
2.17 State Plan Services
Section 3. Analysis of Issues and Recommended
Practices
3.1 Overview
3.2 Medicaid Managed Care Capitation Rate
Development Process and Considerations

1
1
1
1
1
1
2
2
2
2
2
2
2
3
3
3
3
3
3
3
3
3
3
3
3
4

203a
3.2.1 Form of the Capitation Rates (Single
Rate or Capitation Rate Ranges)
4
3.2.2 Structure of the Medicaid Managed Care
Capitation Rates
4
3.2.3 Rebasing and Updating of Rates
4
3.2.4 Base Data
5
3.2.5 Covered Services
5
3.2.6 Special Payments
6
3.2.7 Base Data Period Adjustments
6
3.2.8 Other Base Data Adjustments
6
3.2.9 Claim Cost Trends
7
3.2.10 Managed Care Adjustments
7
3.2.11 Non-Claim Based Medical Expenditures 8
3.2.12 Non-Medical Expenses
8
3.2.13 Risk Adjustment
10
3.2.14 Reinsurance, Risk Corridors, and Other
Risk Sharing Arrangements
10
3.3 Qualified Opinion on Actuarial Soundness
11
3.4 Documentation
11
Section 4. Communications and Disclosures
11
4.1 Communications
11
4.2 Disclosures
11
APPENDIXES
Appendix 1—Background and Current Practices
13
Appendix 2—Comments on the Exposure Draft and
Responses
16
March 2015

204a
TO:

Members of Actuarial Organizations
Governed by the Standards of Practice of the
Actuarial Standards Board and Other
Persons Interested in Medicaid Managed
Care Capitation Rates and their Certification

FROM:

Actuarial Standards Board (ASB)

SUBJ:

Actuarial Standard of Practice (ASOP) No. 49

This document contains the final version of ASOP No. 49,
Medicaid Managed Care Capitation Rate Development
and Certification.
Background
This ASOP was developed to establish guidance for actuaries preparing, reviewing, or giving advice on capitation
rates for Medicaid programs, including those certified in
accordance with 42 CFR 438.6(c). Since the federal regulations took effect, actuaries have used various methods
to prepare the capitation rates. This ASOP incorporates
the appropriate aspects of these methods to establish
guidance and considerations in the rate development
process.
Exposure Draft
In December 2013, the ASB approved the exposure draft
with a comment deadline of May 15, 2014. Twenty-six
comment letters were received and considered in making
changes that are reflected in this final ASOP. For a summary of issues contained in these comment letters,
please see appendix 2.
The significant changes made to the final standard in response to the comment letters are as follows:

205a
1. Section 1.2 was edited to clarify situations when
this ASOP applies.
2. Language was added to section 3.1 to require the
actuary to have knowledge of and understand the
requirements of 42 CFR 438.6(c).
3. Section 3.2.2 was modified to add a reference to
ASOP No. 12, Risk Classification, and to clarify
that capitation rates may vary by Medicaid eligibility groups.
4. In section 3.2.12(a)(1) was changed from “should”
to “may.”
The ASB voted in March 2015 to adopt this standard.

206a
Task Force on Medicaid Rate Setting and Certification
Robert M. Damler, Chairperson
Sabrina Gibson
Martin E. Staehlin
Michael E. Nordstrom
Kathleen A. Tottle
David Ogden
Christopher Truffer
Michelle Raleigh
Ross A. Winkelman
F. Kevin Russell
Health Committee of the ASB
Nancy F. Nelson, Chairperson
Robert M. Damler
Darrell Knapp
Annette James
Rick Lassow
Shannon Keller
Donna Novak
Actuarial Standards Board
Patricia E. Matson, Chairperson
Christopher S. Carlson
Barbara L. Snyder
Maryellen J. Coggins
Frank Todisco
Beth E. Fitzgerald
Ross A. Winkelman
Thomas D. Levy
The Actuarial Standards Board (ASB) sets standards
for appropriate actuarial practice in the United States
through the development and promulgation of
Actuarial Standards of Practice (ASOPs).These
ASOPs describe the procedures an actuary should
follow when performing actuarial services and identify
what the actuary should disclose when communicating
the results of those services.

207a
ACTUARIAL STANDARD OF PRACTICE NO. 49
MEDICAID MANAGEDCARE CAPITATION RATE
DEVELOPMENT AND CERTIFICATION
STANDARD OF PRACTICE
Section 1. Purpose, Scope, Cross References, and
Effective Date
1.1

Purpose—This actuarial standard of practice
(ASOP) provides guidance to actuaries when
performing professional services related to
Medicaid (Title XIX) and Children’s Health
Insurance Program (CHIP or Title XXI)
managed care capitation rates, including a
certification on behalf of a state to meet the
requirements of 42 CFR 438.6(c).

1.2

Scope—This standard applies to actuaries
performing professional services related to
Medicaid managed care capitation rates
including, but not limited to, the following:
a. certification on behalf of a state to meet the
requirements of 42 CFR 438.6(c);
b. capitation rate bid or rate acceptance; and
c. department of insurance capitation rate filing.
This standard also applies to actuaries performing professional services related to managed care
capitation rates for CHIP. Throughout this
standard the term “Medicaid” also refers to
CHIP.
If the actuary departs from the guidance set
forth in this standard in order to comply with applicable law (statutes, regulations, and other legally binding authority) or for any other reason

208a
the actuary deems appropriate, the actuary
should refer to section 4.
1.3

Cross References—When this standard refers to
the provisions of other documents, the reference
includes the referenced documents as they may
be amended or restated in the future, and any
successor to them, by whatever name called. If
any amended or restated document differs
materially from the originally referenced
document, the actuary should consider the
guidance in this standard to the extent it is
applicable and appropriate.

1.4

Effective Date—This standard is effective for
actuarial communications issued on or after
August 1, 2015.
Section 2. Definitions

The terms below are defined for use in this actuarial
standard of practice.
2.1

Actuarially
Sound/Actuarial
Soundness—
Medicaid capitation rates are “actuarially
sound” if, for business for which the certification
is being prepared and for the period covered by
the certification, projected capitation rates and
other revenue sources provide for all reasonable,
appropriate, and attainable costs. For purposes of
this definition, other revenue sources include, but
are not limited to, expected reinsurance and
governmental stop-loss cash flows, governmental
risk adjustment cash flows, and investment
income. For purposes of this definition, costs
include, but are not limited to, expected health
benefits, health benefit settlement expenses,

209a
administrative expenses, the cost of capital, and
government-mandated assessments, fees, and
taxes.
2.2

Base Data—The historical data set used by the
actuary to develop the capitation rates. The data
may be from Medicaid fee-for-service data, MCO
data, or from a comparable population data
source.

2.3

Capitation Rate—A monthly fee paid for each
member assigned or each event (for example,
maternity delivery) regardless of the number or
actual cost of services provided under a system of
reimbursement for MCOs. Capitation rates can
vary by member based on demographics, location,
covered services, or other characteristics.
Capitation rates can be structured so that an
MCOs is fully at risk, or so that an MCO shares
the risk with other parties.

2.4

Disproportionate
Share
Hospital
(DSH)
Payments—Additional amounts paid to hospitals
that serve a disproportionally large number of
Medicaid or uninsured patients. These payments
may be subject to a hospital-specific limit. An
annual allotment to each state limits federal
financial participation in these payments. These
payments are subject to requirements set forth in
Section 1923(i) of the Social Security Act.

2.5

Encounter
Data—Information
about
an
interaction between a provider of health care
services and a member that is documented
through the submission of a claim to an MCO, and

210a
shared between the MCO and the state Medicaid
agency.
2.6

Enhanced or Additional Benefits—Benefits
offered by MCOs to their Medicaid members that
are above and beyond the benefits offered by the
state Medicaid plan. Common examples are adult
dental services, non-emergency transportation,
and adult vision services.

2.7

Federally Qualified Health Center (FQHC)—An
organization that (1) receives grants under
Section 330 of the Public Health Service Act; (2)
does not receive a grant under the Section 330 of
the Public Health Service Act, but otherwise
meets all requirements to receive such a grant; or
(3) is an outpatient health clinic associated with
tribal or Urban Indian Health Organizations
(UIHO). The organization must have also applied
for recognition, and been approved as a federally
qualified health center for Medicare and
Medicaid, as described in Sections 1861(aa)(3) and
1905(l)(2) of the Social Security Act. Payments to
these organizations are subject to requirements
set forth in Section 1902(bb) of the Social Security
Act.

2.8

Intergovernmental Transfer (IGT)—A transfer
of public funds between governmental entities
(for example, county government to state
government or state university hospital to state
Medicaid agency).

2.9

Managed Care Organization (MCO)—The entity
contracting with the state Medicaid agency to

211a

2.10

provide health care services for selected subsets
of the Medicaid population.
Medical Education Payments—Payments for
graduate medical education as part of the rate
structure for inpatient hospital payments or as
supplemental payments under 42 CFR 447.272.
These payments may include direct graduate
medical education (GME) or indirect medical
education (IME) costs. These payments may be
included as part of Medicaid managed care
capitation rates or may be made directly to
providers for managed care enrollees.

2.11

Minimum Medical Loss Ratio—A provision that
requires the MCO to use no less than a stated
portion of its earned premium for defined medical
or care management expenditures.

2.12

Performance Incentive—A payment mechanism
under which an MCO may receive funds in
addition to the capitation rates for meeting
targets specified in the contract between the state
and the MCO.
Performance Withhold—An amount included in
the capitation rates that is paid if the MCO
meets certain state requirements that may be
related to quality or operational metrics. The
amount may be withheld or paid up front with the
monthly capitation rate.

2.13

2.14

Rating Period—The time period for which
managed care Medicaid capitation rates are
being developed.

2.15

Risk Adjustment—The process by which relative
risk factors are assigned to individuals or groups

212a
based on expected resource use and by which
those factors are taken into consideration and
applied.
2.16

Rural Health Clinic (RHC)—A clinic that meets
certain requirements for providing primary care
services in specific areas, as outlined in the Public
Health Service Act and defined in Section
1905(l)(1) of the Social Security Act. Medicaid
payment rates to RHCs may be specified in
applicable law.

2.17

State Plan Services—The benefits provided to
Medicaid beneficiaries who are eligible under a
qualifying category of Medicaid assistance in a
state.

Section 3. Analysis of Issues and Recommended
Practices
3.1
Overview—An actuary may be developing,
certifying, or reviewing Medicaid Managed Care
capitation rates on behalf of a state Medicaid
agency or an MCO. When certifying whether
capitation rates meet the requirements of 42
CFR 438.6(c) or reviewing such a certification, the
actuary must-have knowledge and understanding
of those requirements.
Title 42 CFR 438.6(c) requires that capitation
rates paid by the state to the MCOs be certified
as actuarially sound. The soundness opinion
applies to all contracted capitation rates.
However, the actuary is not certifying that the
underlying
assumptions
supporting
the
certification are appropriate for an individual
MCO.

213a
An actuary providing actuarial services for a
contracting MCO may be required to develop and
submit capitation rates to the state Medicaid
agency for a rating period. While the federal
regulation 42 CFR 438.6(c) does not extend to an
MCO actuary, the MCO actuary may be required
under the terms of a proposal or contract to
submit an actuarial opinion for the capitation
rates that may or may not indicate compliance
with 42 CFR 438.6(c).
3.2

Medicaid Managed Care Capitation Rate
Development Process and Considerations—The
actuary should address the following when
developing capitation rates.

3.2.1

Form of the Capitation Rates (Single Rate or
Capitation Rate Ranges)—The capitation rate
certification may apply to a single point estimate
capitation rate or a range of capitation rates. If
a range of capitation rates is prepared, the
contracted rates with an MCO may be at either
end of the range or a point within the range. The
capitation rates may vary by MCO.

3.2.2

Structure of the Medicaid Managed Care
Capitation Rates—Capitation rates are usually
separately developed and paid in individual
capitation rate cells based on characteristics that
cause costs to differ materially. Examples of these
characteristics include age, gender, qualifying
event (for example, maternity delivery),
geographic region, Medicaid eligibility group,
eligibility for Medicare benefits, diagnosis or risk
adjustment factors, and MCO differences. In

214a
determining the rating structure, the actuary
should consider how well the structure aligns
capitation revenue and MCO risk as well as the
complexity of the rating structure. A certification
of the capitation rates under 42 CFR 438.6(c)
applies to each of the individual capitation rate
cells. For further guidance, see ASOP No. 12,
Risk Classification.
3.2.3

Rebasing and Updating of Rates—When
developing capitation rates for subsequent
rating periods, the actuary should either rebase
the rates or update existing rates. Rebasing of
rates generally refers to using base data from a
more recent time period to develop capitation
rates along with updating assumptions used to
develop the rates. Updating of rates involves
adjusting existing rates to reflect the impacts of
any program, benefit, population, trend, or other
changes between the rating period of the existing
rates and the rating period of the updated rates.
The actuary should consider the following in
making the determination whether to rebase
rates or update existing rates: availability of
updated data, likely materiality of rebasing,
changes in the underlying population, quality of
data since the last rebasing, and time elapsed
since the last rebasing.

3.2.4

Base Data—The actuary should use base data
(for example, population, benefits, provider
market dynamics, geography) that is appropriate
for the program for which capitation rates are

215a
being developed. The base data may span more
than one year.
The actuary should use base data sources for
utilization or unit cost that are relevant to the
given Medicaid population and appropriate for
the given use. Program-specific historical
experience from the following sources are
examples of MCO data that may meet these
criteria:
a. financial reports;
b. summary encounter data reports;
c. encounter data with payment information;
d. encounter data without payment information;
e. sub-capitation payment information; and
f. provider settlement payment reports.
If the managed care program is new or if
previously carved-out services are to be included
in the rates, the actuary may need to use
alternative data sources. Such alternative data
sources
typically
include
fee-for-service
experience and experience from other states,
although other sources may be appropriate. That
experience may be available in several forms,
including the following:
1.
2.
3.
4.

financial reports;
summary claims data reports;
raw claims data with payment information; and
state-specific provider settlement payment
reports.

If the covered population is new, the actuary
should identify data sources for similar
populations and make appropriate adjustments.

216a
3.2.5

Covered Services—When developing capitation
rates under 42 CFR 438.6(c), the actuary should
reflect
covered
services
for
Medicaid
beneficiaries, as defined in the contract between
the state and the MCOs, which may include cost
effective services provided in lieu of state plan
services.
When developing capitation rates for other
purposes, the actuary should reflect the cost of all
services, including enhanced or additional
benefits, provided to Medicaid beneficiaries.

3.2.6

Special Payments—Payments in addition to the
Medicaid fees may be made by states directly or
through the MCOs to providers of Medicaid
services. These payments are usually made to
hospitals, but other provider types may also
qualify for such payments. These payments are
sometimes reciprocation for the provider paying a
special tax or assessment fee.
The actuary should identify any special payments
to providers (for example, supplemental
payments or bonuses) and include these payments
in development of the capitation rates in a
manner that reflects the payment policy for these
special payments in the rating period.

3.2.7

Base Data Period Adjustments—The actuary
should consider base data period adjustments of
the following three types:
a.
Retroactive
Period
Adjustments—The
retroactive period adjustments reflect
changes that occurred during the base data

217a

b.

c.

3.2.8

a.

b.

period to standardize the data over the base
data period.
Interim Period Adjustments—The interim
period adjustments reflect changes that
occurred between the base data period and
the rating period.
Prospective Period
Adjustments—The
prospective period adjustments reflect
changes that will occur in the rating period.
Other Base Data Adjustments—The actuary
should
consider
other
base
data
adjustments, which may include the
following:
Missing Data Adjustment—Circumstances
that may cause data to be missing include,
but are not limited to, the following:
1. certain claims are not processed
through the same system as the base
data;
2. Medicaid fee-for-service data may not
include all services or expenses to be
covered by the capitation rate; or
3. Medicaid encounter data may not
reflect services that are subcapitated
and not reported through the
encounter data system.
Incomplete
Data
Adjustment—The
incomplete data adjustment reflects claims
that were in course of settlement, claims that
were incurred but not reported, or amounts
that are due for reinsurance or claim
settlements.

218a
c.

d.

e.

f.

g.

Population Adjustment—The population
adjustment modifies the base data to reflect
differences
between
the
population
underlying the base period and the
population expected to be covered during the
rating period.
Funding
or
Service
Carve-Out
Adjustments—The funding or service carveouts are not the financial responsibility of
the MCO. Funding carveouts may include
graduate medical education payments,
disproportionate
share
hospital
payments, or provider taxes. Service carveouts reflect services that will not be covered
by the capitation rate.
Retroactive
Eligibility
Adjustments—
Medicaid beneficiaries are often provided
retroactive eligibility coverage for a period
prior to submitting an application for
Medicaid
coverage.
The
retroactive
eligibility adjustment reflects the exclusion
of periods of retroactive eligibility, if any,
that are not the responsibility of the MCO.
Program, Benefit, or Policy Adjustments—
The program, benefit, or policy adjustments
reflect differences in benefit or service
delivery requirements between the base
period and the rating period that impact the
financial risk assumed by the MCO.
Data Smoothing Adjustments—The data
smoothing adjustments address anomalies
or distortions in the base data, such as large
claims or limited enrolment.

219a
3.2.9

Claim Cost Trends—The actuary should
include appropriate adjustments for trend
and may consider a number of elements in
establishing trends in utilization, unit costs,
or in total. Medicaid utilization trend rates
may be particularly affected by changes in
demographics and benefit levels, and by
policy or program changes. Medicaid unit
cost trends may be particularly affected by
changes in state-mandated reimbursement
schedules (if applicable), Medicaid fee-forservice fee schedules, and provider
contracting performed by the MCOs. The
trend assumption should not include
adjustments captured elsewhere in the
capitation rate development.

3.2.10

Managed Care Adjustments—The actuary
may apply managed care adjustments based
on the assumption that the program will
move from the level of managed care
underlying the base data to a different level
of managed care during the rating period.
The adjustments may be to utilization, unit
cost, or both, and the impact of the
adjustments may be either an increase or a
decrease to the base data. If managed care
adjustments are included, the changes
reflected in the adjustments should be
attainable in the rating period, in the
actuary’s professional judgment.
The actuary should consider the following
when reviewing the need for and developing
the managed care adjustments:

220a
a.
b.
c.
3.2.11

3.2.12

state contractual and operational
requirements, and relevant laws and
regulations;
current characteristics of the provider
markets; and
the maturity level of the managed
Medicaid program.

Non-Claim Based Medical Expenditures—
The actuary should consider Medicaidspecific payments that are not included in
the base data or that are included in the
base data but for which the historical costs
do not represent future costs. The actuary
should determine whether these amounts
will be an expense to the MCOs, and if so,
how the amounts should be reflected. These
types of payments include, but are not
limited to, the following:
a. disproportionate
share
hospital
payments;
b. federally qualified health centers or
rural health clinics supplemental
settlement payments;
c. medical education payments;
d. intergovernmental transfers; and
e. pharmacy rebates anticipated to be
collected by the MCO.
Non-Medical
Expenses—The
actuary
should include amounts for appropriate
nonmedical expenses in the development of
the capitation rates. The non-medical
expenses may vary by MCO.

221a
a.

2.

b.

Administration—The actuary should
include a provision for administrative
expenses appropriate for the Medicaid
managed care business in the state.
1. Determination of Administrative
Expenses—In
determining
administrative
expenses,
the
actuary may take into account
relevant
characteristics
and
functions of the MCOs and the
Medicaid program, such as the
following:
i. overall size of the MCO across
all lines of business;
ii. age and length of time
participating in Medicaid;
iii. organizational structure; and
iv. demographic mix of enrollees.
Types
of
Administrative
Expenses—Appropriate types of
administrative expenses include,
but are not limited to, the following:
i. marketing;
ii. claims-processing;
iii. medical management costs
including those required to
achieve savings from fee-forservice or prior periods assumed
in the medical cost targets; and
iv. general corporate overhead.
Underwriting
Gain—The
actuary
should include a provision for
underwriting gain, which is typically

222a
expressed as a percentage of the
premium rate, to provide for the cost of
capital and a margin for risk or
contingency. The underwriting gain
provision provides compensation for the
risks assumed by the MCO. These risks
may include insurance, investment,
inflation, and regulatory risks, as well as
risks associated with social, economic,
and legal environments. The actuary
should consider the effect of any risk
sharing arrangements discussed in
section 3.2.14, and performance
withholds and incentives discussed in
section 3.2.15.
The methods used to develop the
underwriting gain provision of the
capitation rate should be appropriate
to the level of capital required and the
type and level of risk borne by the MCO.
The actuary may reflect investment
income in establishing the underwriting
gain component of the capitation rate,
although an explicit adjustment is not
required. Elements of investment
income that the actuary may reflect
include investment income from
insurance operations and investment
income on capital and underlying cash
flow patterns.
An actuary working on behalf of an
MCO may determine that a negative
underwriting gain is appropriate for

223a
that plan’s circumstances. In this case,
the negative underwriting gain should
be
disclosed
in
the
actuarial
communication.

3.2.13

c.

Income Taxes—The actuary should
consider the effect of expected income
taxes on the underwriting gains and
investment income retained by the
MCO.

d.

Taxes, Assessments, and Fees—The
actuary should include an adjustment
for any taxes, assessments, or fees that
the MCOs are required to payout of the
capitation rates. If the tax, assessment,
or fee is not deductible as an expense for
corporate tax purposes, the actuary
should apply an adjustment to reflect
the costs of the tax. Taxes, assessments,
and fees may differ among the MCOs in
the program. The actuary preparing a
certification under 42 CFR 438.6(c)
should consider the need to adjust
capitation rates for each MCO to
reflect each MCO’s expected expenses
for these items.
Risk Adjustment—An actuary working on
behalf of the state should determine whether
to adjust capitation payments to different
MCOs by using a risk adjustment
methodology. Considerations in making this
determination include program enrollment
procedures that may affect differences in

224a
risk across MCOs or among the populations
used to develop the rates and to which the
rates will be applied, data availability and
quality, timing, and other practical
considerations including cost. ASOP No. 45,
The Use of Health Status Based Risk
Adjustment
Methodologies,
provides
further guidance. Risk-adjusted rates that
may be developed from actuarially sound
base rates and application of an appropriate
risk adjustment method are considered
actuarially sound, even if the resulting
rates fall outside of the unadjusted rate
ranges or vary from the single point rates.
The actuary, whether working on behalf of
the state or an MCO, should understand and
consider the potential impact of the risk
adjustment methodology being used, if any,
on the capitation rate.
3.2.14

Reinsurance, Risk Corridors, and Other
Risk Sharing Arrangements—The actuary
should consider the effect of any risk sharing
arrangements between the MCO and the
state Medicaid agency or the federal
government.
The actuary should consider how payments
related to risk sharing arrangements have
been reported in the base period data, how
these payments are to be estimated in the
future, and how these payments will be
reflected in the capitation rates.

3.2.15

Performance Withholds and Incentives—
The actuary should consider how the

225a
existence of the withholds and incentives will
affect the plan costs, including claims and
administration costs. The capitation rates
should reflect the value of the portion of the
withholds for targets that the MCOs can
reasonably achieve.
The capitation rates should not reflect the
value of incentives. The actuary should also
consider any limitations to the amount of
incentive payments or withholds specified in
legislative regulations or guidance.
3.2.16

Minimum Medical Loss Ratios—The
actuary should consider governmental and
contractual minimum medical loss ratio
requirements as well as the sharing of gains
or losses. Such provisions may affect the
underwriting gain provision component of
the capitation rates.

3.2.17

State Initiatives—In setting capitation
rates, the actuary should only include the
impact of state initiatives that are supported
by corresponding cost saving policies
including, but not limited to, program
changes or reimbursement changes.
Inaccurate or Incomplete Information
Identified
after
Opinion
or
Rate
Certification—If the actuary determines
after the opinion or certification was issued
that he or she used inaccurate or incomplete
information, the actuary should notify the
principal if, in the actuary’s professional
judgment, the new information is material to
the actuarial soundness of the rates and is

3.2.18

226a
not inherent in the assumptions already
included in the rates.
3.3

Qualified Opinion on Actuarial Soundness—
The actuary should provide a qualified
opinion if, in the actuary’s judgment, the
rates are not actuarially sound. Further,
the opinion should be qualified if a negative
underwriting gain is determined to be
appropriate
for
a
specific
plan’s
circumstance by an actuary working on
behalf of an MCO.

3.4

Documentation—The
actuary
should
document the methods, assumptions,
procedures, and sources of the data used.
The documentation should be in a form such
that another actuary qualified in the same
field could assess the reasonableness of the
work. The actuary should consider
documentation to address the Centers for
Medicare & Medicaid Services’ regulations
specific to Medicaid managed care
capitation
rate
development
and
certification. For further guidance, see
ASOP No. 23, Data Quality; ASOP No. 25,
Credibility Procedures; and ASOP No. 41,
Actuarial Communications.
Section 4. Communications and Disclosures

4.1

Communications—When issuing actuarial
communications under this standard, the
actuary should refer to ASOP No. 41.

227a
4.2

Disclosures—The actuary should include the
following, as applicable, in an actuarial
communication:
a. as required by 42 CFR 438.6(c), a
statement
that
capitation
rates
provided with a rate certification are
considered
“actuarially
sound,”
according to the following criteria:
1. the capitation rates “have been
developed in accordance with
generally
accepted
actuarial
principles and practices”;
2. the capitation rates “are appropriate
for the populations to be covered, and
the services to be furnished under the
contract”; and
3. the capitation rates “have been
certified,
as
meeting
the
requirements of this paragraph [42
CFR 438.6(c)], by actuaries who meet
the
Qualification
Standards
established
by
the
American
Academy of Actuaries and follow the
practice standards established by the
Actuarial Standards Board.”
b. the definition of “actuarial soundness”;
c. disclosure of any items causing the
opinion to be qualified such as the use of
a negative underwriting gain by an
actuary working on behalf of a Medicaid
MCO;
d. the disclosure in ASOP No. 41, section
4.2, if any material assumption or method

228a
was prescribed by applicable law
(statutes, regulations, and other legally
binding authority);
e. the disclosure in ASOP No. 41, section
4.3., if the actuary states reliance on
other sources and thereby disclaims
responsibility
for
any
material
assumption or method selected by a
party other than the actuary; and
f. the disclosure in ASOP No. 41, section
4.4, if, in the actuary’s professional
judgment, the actuary has otherwise
deviated materially from the guidance of
this ASOP.

229a
A ppendix 1
Backgr ound and Cur r ent Pr actices
Note: This appendix is provided for informational
purposes only and is not part of the standard of practice.
Background
Medicaid is a program that pays for health care services
for certain low-income persons in the United States and
its Territories, as authorized by Title XIX of the Social
Security Act. The federal and state governments
cooperatively administer Medicaid. The Centers for
Medicare & Medicaid Services (CMS) is the agency
charged with administering Medicaid on behalf of the
federal government. The federal government establishes
certain requirements for Medicaid, and the states
administer their own programs. The federal government
and the states share the responsibility for funding
Medicaid.
Medicaid programs were originally fee-for-service
(FFS) programs in which the state paid the providers
directly. In the 1980s, some states began to contract with
managed care organizations (MCOs) to provide health
care services for selected subsets of the Medicaid
population. In some cases, states may need to obtain a
CMS waiver in order to waive certain Medicaid
regulations and contract with MCOs. In many states, the
state or its contractor develops capitation rates that are
offered to the MCOs, rather than the MCOs proposing
rates to the state. Under this arrangement, typically the
MCOs may accept the rates or decline to participate in
the program, though some negotiation may be possible.

230a
Beginning in August 2003, the capitation rates paid by
the state to the MCOs must be certified as actuarially
sound under 42 CFR 438.6(c). The actuary performing
the rate certification process may be an employee of the
state Medicaid agency or contracted as a consulting
actuary. Normally, the certifying actuary will not have
as specific knowledge of each MCO’s operations and
experience as an actuary working on behalf of the MCO.
The soundness certification applies to all contracted
capitation rates. However, the actuary is not certifying
that the capitation rates are appropriate for an individual
MCO.
Since the federal regulations took effect, actuaries have
used various methods to prepare the capitation rates.
This ASOP has been developed to incorporate the
appropriate aspects of these methods to establish
guidance and considerations in the rate development
process.
Current Practices
The current Medicaid capitation rate setting and
certification methodology varies state by state, but
actuaries across the country use many of the
considerations outlined in the ASOP. Actuaries rely on
the August 2005 practice note and traditional health care
actuarial principles in the development of the actuarially
sound capitation rates.
In many states, the capitation rates are developed
independently by the state Medicaid agency and the
certifying actuary. The capitation rates are often offered
to the contracting MCO without negotiation, but the
contracting MCOs and their actuaries may have the

231a
ability to review the capitation rate development and
provide comment. Further, a state Medicaid agency may
negotiate rates with each MCO based on a rate range or
allow a competitive bid. Due to the unique nature of these
contracting arrangements, the certifying actuary has a
greater responsibility in the determination of the
capitation rates (either the point estimates or capitation
rate ranges), since the certifying actuary is not directly
affiliated with the contracted MCO.
Actuaries rely on data and information provided by the
state Medicaid agency, the contracted MCOs, and other
publicly available information. Actuaries may publish a
data book that outlines the baseline data, adjustments to
the baseline data, actuarial assumptions, and the
development of capitation rates. Public meetings may be
held where the capitation rate development process is
presented to the contracted MCOs. Following the public
meetings, the MCOs may provide questions to the state
Medicaid agency and the certifying actuary regarding
the capitation rate development process and
assumptions. The certifying actuary reviews the
comments and adjusts the capitation rates, if
appropriate.
The state Medicaid agency presents the actuarial rate
certification and related documentation to CMS for
review and approval. CMS may submit questions to the
state Medicaid agency and the certifying actuary
regarding the capitation rate development and the
related contract with the MCOs. The certifying actuary
will often provide written responses to CMS.
Additional Resources

232a
The following resources may assist in furthering actuaries’ understanding of the capitation rate development
process.
•

American Academy of Actuaries, Health Council
Practice Note, Actuarial Certification of Rates
for Medicaid Managed Care Programs, August
2005, http://actuary.org/content/actuarial-certification-rates-medicaid-managed-care-programs

•

Centers for Medicare and Medicaid Services,
Medicaid website, http://medicaid.gov/

•

Medicaid and CHIP Payment and Access Commission (MACPAC), http://www.macpac.gov/

•

CMS Medicaid Managed Care Rate Setting
Guidance, 2015 http://www.medicaid.gov/medicaid-chip-program-information/by-topics/deliverysystems/managed-care/downloads/2015-medicaid-manged-care-rate-guidance.pdf

•

Federal Register / Vol. 67, No. 115 / Friday,
June 14, 2002 / Rules and Regulations, page
41097, Sec. 438.6 Contract Requirements (c)
Payments under risk contracts,
http://www.cms.gov/Regulations-andGuidance/Regulations-andPolicies/QuarterlyProviderUpdates/downloads/c
ms2104f.pdf

233a
A ppendix 2
Comments on The Expos ur e Dr af t and
Res pons es
The exposure draft of proposed ASOP, Medicaid
Managed Care Capitation Rate Development and
Certification, was issued in December 2013 with a
comment deadline of May 15, 2014. Twenty-six comment
letters were received, some of which were submitted on
behalf of multiple commentators, such as by firms or
committees. For purposes of this appendix, the term
“commentator” may refer to more than one person
associated with a particular comment letter. The
Medicaid Task Force and the Health Committee of the
Actuarial Standards Board carefully considered all
comments received, and the Health Committee and ASB
reviewed (and modified, where appropriate) the changes
proposed by the Task Force.
Summarized below are the significant issues and
questions contained in the comment letters and the
responses.
The term “reviewers” in appendix 2 includes the Task
Force, Health Committee, and the ASB. Also, unless
otherwise noted, the section numbers and titles used in
appendix 2 refer to those in the exposure draft.
TRANSMITTAL MEMORANDUM QUESTIONS
Question 1: This ASOP has been prepared to apply
both to actuaries developing actuarial statements
of opinion for a Medicaid MCO and to actuaries
developing rate certifications under 42 CFR

234a
438.6(c). Is this appropriate? Or, should the ASOP
be limited to actuaries developing rate
certifications under 42 CFR 438.6(c)?
Comment
Several commentators
indicated support for
both limiting the ASOP to
42 CFR 438.6(c) rate
certifications and for
applying it to all
Medicaid rate setting
actuarial opinions;
however, the majority of
the responses supported
having the ASOP apply to
all Medicaid rate
development statements
of actuarial opinion.
Response

The reviewers believe
that the ASOP provides
appropriate guidance and
covers appropriate
situations involving
Medicaid capitation rate
development, Medicaid
certifications, and
Medicaid statements of
actuarial opinion.
Question 2: As written, this ASOP applies to
Children’s Health Insurance Program (CHIP)
managed care capitation rate development. Is this
appropriate?

235a
Comment

Several commentators
supported having the
ASOP apply to CHIP
capitation rate
development and
certification.
Additionally, comments
were received indicating
that the ASOP should
also apply to the
Medicaid expansion
programs.

Response
The reviewers retained
language indicating
applicability of the ASOP
to CHIP capitation rate
development and
certification. The
reviewers reviewed the
ASOP language to make
sure it applies to the
appropriate healthcare
programs funded under
Title XIX (Medicaid) and
Title XXI (CHIP).
Question 3: Is the definition of “actuarially
sound/actuarial soundness” in section 2.1 clear?
Comment
The comments received
suggested that the
following terms in the
“actuarially
sound/actuarial sound”

236a
definition be separately
defined: “revenue in
aggregate”; marginally or
fully-loaded
administrative expenses;
reinsurance cash flows;
underwriting gain;
investment income; and
taxes.
Response

Comment

The reviewers made no
change to the definition
of “actuarial soundness.”
The reviewers modified
the definition of
“underwriting gain” in
section 3.2.11(b).The
reviewers determined the
other suggested
definitions were not
needed but in some cases
the guidance in the
standard was clarified.
Commentators suggested
that the terms “generally
accepted actuarial
practices” and “certified
by an actuary who meets
the qualification
standard” should be
included in the definition
of “actuarial soundness.”

237a
Response

Comment

Response

The reviewers believe
that the definition of
“actuarial soundness” is
appropriate for this
standard and does not
need to include these
additional terms.
Several commentators
suggested that the word
“attainable” is
insufficiently described.

The reviewers
determined that further
description of the word
“attainable” would be
overly prescriptive and
made no change.
Question 4: Is section 3.2.16, Inaccurate or Incomplete Information Identified after Opinion or Rate
Certification, which discusses the actions required
of the certifying actuary if the underlying data is
identified to be inaccurate or incomplete, clear
and appropriate?
Comment
Commentators suggested
that additional
information should be
provided regarding who
the actuary should notify
if the actuary determines
that the capitation rates
should be changed due to
inaccurate or incomplete

238a
data, to include CMS or
MCOs.
Response

Comment

Response

Comment

The reviewers disagree
and believe that the
requirement to provide
notice to the principal is
sufficient and, therefore,
made no change.
Commentators suggested
providing clear guidelines
on a process for reporting
inaccuracies and
including the new or
corrected information in
the rate development,
and increasing
transparency when this
situation arises and the
rates are corrected.
The reviewers disagree
that the ASOP should
specify such a process
and, therefore, made no
change.
Commentators suggested
providing MCOs with a
process for sending
information to the
actuary about errors in
the data.

239a
Response

Comment

Response

Comment

ASOPs provide guidance
for actuaries, not
organizations. The
reviewers disagree that
the ASOP should specify
such a process and,
therefore, made no
change.
Two commentators were
concerned that the term
“incomplete” would be
misinterpreted to mean
that the actuary would
need to change the rates
due to prospective
assumptions not equaling
actual assumptions.
The reviewers believe
that the ASOP
appropriately
differentiates between
incomplete data and
prospective assumptions
and, therefore, made no
change.
Two commentators did
not understand the
timing around making a
correction given the
words “If prior to
issuance . . . in the
section.

240a
The reviewers revised
Response
this section to address
this comment.
Question 5: Does the ASOP restrict practice inappropriately?
Comment
Most commentators
stated that the ASOP
does not restrict practice
inappropriately. Two
commentators thought it
restricted practice if it
applies to actuaries that
develop rates outside of
42 CFR 438.6(c). One
commentator felt that the
guidelines around
development of the
administrative
components of the rates
were too prescriptive.
Response

The reviewers made
some revisions to the
guidance to address the
comments expressing
concern regarding
inappropriate restriction
of practice.
Question 6: Does this ASOP provide sufficient
guidance for actuaries practicing in these areas?
Comment
Several commentators
indicated that the ASOP

241a
provided sufficient
guidance and some that
indicated the ASOP did
not provide sufficient
guidance. Where
commentators indicated
the ASOP did not provide
sufficient guidance, some
provided general
recommendations while
others provided more
specific
recommendations.
While some
Response
commentators indicated
that the ASOP did not
provide sufficient
guidance, in most cases
they provided specific
comments on where they
believed additional
guidance was necessary.
The reviewers have
addressed those
comments in the relevant
sections.
Question 7: Does this ASOP provide sufficient
guidance to actuaries in identifying and
addressing potential inconsistencies in the
expectations of actuaries working for Medicaid
MCOs and those actuaries working for State
Medicaid Agencies?

242a
Comment

Commentators were
divided in their response
to this question. Several
commentators believed
that the ASOP did
provide sufficient
guidance on this topic.
Several other
commentators believed
that the ASOP should
provide additional
guidance, either
generally or in specific
sections. Several other
commentators believed
that the ASOP did not
provide sufficient
guidance, but that the
ASOP should be limited
to actuaries working for
state Medicaid agencies
and thus did not need to
provide additional
guidance.

Response

The reviewers
determined that the
ASOP should apply to
both actuaries working
for Medicaid MCOs and
actuaries working for
state Medicaid agencies.
The reviewers made

243a

Comment

Response

clarifications and modifications in relevant sections in response to the
comments received.
Several commentators
felt that the ASOP could
go further in addressing
these differences. One
commentator asked if
there could be an
illustration of
circumstances when the
MCO actuary is not
certifying compliance
with 42 CFR 438.6(c) and
is not bound by the
ASOP; and sought
clarification of whether or
not the MCO actuary
needed to comply with
the ASOP when
completing a certification.
Another commentator
suggested further
guidance on issues for
actuaries working for
state Medicaid agencies.
The reviewers note the
MCO actuary would be
required to comply with
the ASOP regardless of
whether or not the

244a
actuary is completing a
certification related to
the 42 CFR 438.6(c). The
reviewers modified the
scope section by adding
examples of situations to
which the ASOP
applies.
SECTION 1. PURPOSE, SCOPE, CROSS
REFERENCES, AND EFFECTIVE DATE
Section 1.1, Purpose
Comment
Several commentators
questioned the
applicability of the ASOP
to various populations
including: the Aged,
Blind and Disabled - SSI
population, ACA
Medicaid expansion
populations, and
Medicare-Medicaid dual
integration populations.
Response

The reviewers reviewed
the ASOP language to
make sure it applies to
the appropriate
healthcare programs
funded under Title XIX
(Medicaid) and Title XXI
(CHIP) and made no
change.
SECTION 2. DEFINITIONS

245a
Section 2.3, Capitation Rate
Comment
One commentator
mentioned the particular
situation in Minnesota
where risk is shared with
providers. The
suggestion was made to
add a phrase to the end of
the definition “or with
providers.”
Response

The reviewers agree and
modified the definition.
Section 2.8, Intergovernmental Transfers (IGTs)
Comment
One commentator
recommended that the
ASOP define medical and
non-medical IGTs and to
consider whether or not
the actuary should be
required to report certain
IGTs separately if they
increase the federal
government or state
share of Medicaid costs.
Response

The reviewers believe
this type of reporting is
beyond the scope of the
standard and made no
change.
Section 2.10, Medical Education Payments

246a
Comment

One commentator
suggested noting that
medical education
payments may be made
directly from the state to
the providers.

Response

The reviewers believe
that the definition
addresses this situation
and made no change.
One commentator
suggested expanding this
section to discuss all
supplemental payments
and not just medical
education payments.

Comment

Response

The reviewers note that
section 3.2.6, Special
Payments, was modified
to include supplemental
payments as one example
of special payments. The
reviewers believe the
revised section
appropriately covers
special payments,
including supplemental
payments.
Section 2.15, Risk Adjustment
Comment
One commentator wanted
the definition of “risk

247a
adjustment” expanded to
include capitation rate
structural elements used
such as maternity
delivery case rate
payments.
Response

The reviewers believe
this is addressed in
section 3.2.2, Structure of
the Medicaid Managed
Care Capitation Rates, as
amended, and made no
change to section 2.15.
Section 2.17, State Plan Services
Comment
Several commentators
requested clarification on
definitions related to
“state plan services,”
“covered services,” and
“in-lieu-of services.”
Response

The reviewers modified
section 3.2.5, Covered
Services, to provide
additional clarity.
SECTION 3. ANALYSIS OF ISSUES AND
RECOMMENDED PRACTICES
Section 3.1, Overview
Comment
Several commentators
recommended that
language be added
stating that the rates

248a
[under 42 CFR 438.6 (c)]
should be appropriate for
each individual MCO,
with one commentator
stating that such
appropriateness should
be achieved using risk
adjustment.
Response

Comment

Response

The reviewers note that
certification of capitation
rates under 42 CFR 438.6
(c) for individual MCOs is
allowed under this
standard but do not
believe it should be
required by the standard.
Therefore, no change was
made.
One commentator
recommended that the
ASOP clarify that the
actuary may, in some
circumstances, be
certifying different rates
by MCO.
The reviewers agree and
believe the standard
makes clear this is
permitted and made no
change.

249a
Comment

One commentator
recommended that the
ASOP explicitly prohibit
actuaries from
considering state
budgetary limitations
when setting rates.

Response

The reviewers have
added additional
guidance related to state
initiatives in section
3.2.17.
Section 3.2.1, Form of the Capitation Rates (Single
Rate or Capitation Rate Ranges)
Comment
Several commentators
recommended that the
ASOP state or reinforce
that the assumptions
used to develop rates at
each end of the rate
range should be
attainable and consider
the interdependence of
various assumptions and
not just represent an
aggregation of the best or
worst case scenarios for
each rating variable.
Response

The reviewers believe
that the definition of
actuarial soundness

250a

Comment

Response

Comment

Response

Comment

addresses this issue and
made no change.
One commentator
recommended that the
rate range width should
be required to be
disclosed.
The reviewers believe
that requiring such a
disclosure is beyond the
scope of this ASOP and
made no change.
One commentator
recommended defining
the midpoint of the rate
range as the best
estimate, and several
commentators
recommended that
further requirements be
added to inform the
principal (state or MCO)
of the effect of the choice
of the rate within the rate
range.
The reviewers believe
such a change would not
be appropriate and made
no change.
One commentator
recommended that the

251a
ASOP clarify that
maternity case rate
payments and other
event based payments
are covered by this
ASOP.
Response

Comment

Response

The reviewers agree and
have updated section
3.2.2, Structure of the
Medicaid Managed Care
Capitation Rates, to also
include event based
payments.
One commentator
recommended
clarifications around
assumptions specific to
geographic areas and
that administrative
expenses may be higher
on the low end of the rate
range than on the high
end of the rate range.

The reviewers believe
that the definition of
actuarial soundness
addresses this issue and
made no change.
Section 3.2.2, Structure of the Medicaid Managed
Care Rates

252a
Comment

Several commentators
recommended that
section 3.2.2 clarify that
event based (i.e., case
rate) payments are also
capitation rates.

Response

The reviewers agree that
adding event based
payments to this section
would be helpful and
updated the language.
One commentator recommended that section 3.2.2
reference ASOP No. 12,
Risk Classification.

Comment

Response
Comment

Response

Comment

The reviewers agree that
such reference would be
helpful and added it.
One commentator recommended that the list of
examples should include
Medicaid eligibility
groups.
The reviewers agree and
added “Medicaid eligibility groups” to the list of
examples.
One commentator
recommended that “MCO
differences” be excluded

253a
from the list of examples
because it implied that
MCOs with inefficient
cost structures would be
rewarded.
Response

Comment

Response

Comment

The reviewers note that
the listing only provides
examples of
characteristics that may
affect the rating
structure. Therefore, no
change was made.
One commentator stated
clarification should be
provided that not all
assumptions need to be
developed at the rate cell
level, including the
standard practice of
administrative loads
being applied uniformly
across rate cells.
The reviewers do not
believe that further
clarification needs to be
provided and made no
change.
Several commentators
believed that the ASOP
would require separate
administrative loads be

254a
developed for each rate
cell and recommended
not requiring this.
Response

Comment

Response

Comment

Response

The reviewers believe
that the ASOP allows the
actuary to use his or her
judgment about whether
or not a single administrative load, margin, or
cost of capital assumption
is appropriate for all rate
cells. Therefore, no
change was made.
One commentator
suggested including a
definition regarding a
“competitive
procurement.”
The reviewers disagree
that this definition needs
to be included in the
ASOP and made no
change.
One commentator
requested the inclusion of
a definition of “covered
services.”
The reviewers believe
section 3.2.5, Covered

255a

Comment

Response

Comment

Response

Services, provided
appropriate guidance and
did not add a definition.
However, some
clarifications were made
to section 3.2.5.
One commentator requested clarification of
the terms “should” or
“should consider.”
The reviewers note these
terms are discussed in
ASOP No. 1, Introductory Actuarial
Standard of Practice, and
made no change.
One commentator stated
that language regarding
non-state plan services is
not appropriate since it is
a regulatory issue and
not an actuarial
requirement.
The reviewers believe
that the ASOP provides
appropriate guidance
regarding the treatment
of enhanced or additional
benefits in the rate
certification process and
made no change.

256a
Comment

One commentator stated
that data quality issues
should be further addressed in the ASOP.

Response

The reviewers believe
this ASOP, in conjunction
with ASOP No. 23, Data
Quality, appropriately
addresses data quality
and made no change.
One commentator stated
the need for the ASOP to
address the impact on
third party vendors or
providers that may be receiving a sub-capitation
payment from the health
plan to the provider.

Comment

Response

The reviewers believe
that financial impacts to
third-party vendors are
outside the scope of this
standard and made no
change.
Section 3.2.3, Rebasing and Updating of Rates
Comment
One commentator
suggested that the
practice of using interim
financial results to
develop an experience
adjustment was

257a
essentially rebasing and
this practice should be
addressed in section
3.2.3.
Response

Comment

Response

Comment

The reviewers believe
that the existing
language appropriately
addresses such
situations, even though it
does not specifically
describe this practice.
Therefore, no change was
made.
One commentator suggested that competitive
procurements were a
form of rebasing and this
should be addressed in
the rebasing section.
The reviewers did not
feel that a discussion of
competitive procurements was warranted in
this section and made no
change.
Several commentators
recommended that the
ASOP require actuaries
to consider the adequacy
of the rates in total or by

258a
rate cell in deciding
whether to rebase.
Response

Comment

Response

Comment

Response

The reviewers note that
rate adequacy is addressed in other areas of
the ASOP and, therefore,
made no change.
One commentator recommended that program
and benefit changes be a
required consideration in
rebasing rates.
The reviewers believe
this is dependent on specific facts and circumstances, and therefore
made no change.
One commentator recommended that capitation
rate development, including the rebasing of rates,
should occur and be distributed to interested
parties well in advance of
the effective date of
rates.
The reviewers believe
this recommendation is
outside the scope of the
ASOP and made no

259a
change.
Section 3.2.5, Covered Services
Comment
One commentator
thought that “in lieu of
services” should be
defined or clarified given
that policy and
regulatory considerations
impact the
appropriateness of
including these services
in the rate development.
Another commentator
thought that the word
“may” should be changed
to “should” in the
sentence “Non-state plan
services may be included
in the capitation rate if
the service is provided in
lieu of a state plan
service.” Another
commentator thought
that this section should
clarify that costs incurred
for the use of innovative,
non-traditional programs
that obviate the need for
or reduce medical costs
and improve patient care
should be included as
covered services.

260a
Response

Comment

Response

Comment

The reviewers note
section 3.2.5 was divided
into two sections in the
final ASOP (section 3.2.5,
Covered Services, and
new section 3.2.6, Special
Payments). The
reviewers believe the
updated sections are
clear and appropriate.
One commentator noted
that the sentence “In
determining covered
services, the actuary
should include state plan
services that form the
basis for the claims
experience used to
develop the rates” was
difficult to read.
The reviewers modified
section 3.2.5 and believe
the guidance on
determining covered
services is clear.
One commentator
indicated that the use of
the word “consistently” in
the sentence “The
actuary should also
identify any special
payments to providers

261a
(for example,
supplemental payments
or bonuses) and make
sure that these payments
are handled consistently
between the base data
and the capitation rates”
should be modified to
reflect that there are
situations where there is
a change in practice
between the base period
and rating period.
Response

Comment

Response

The reviewers agree and
revised this sentence,
which is now included in
new section 3.2.6,
Special Payments.
One commentator noted
that the phrase
“enhanced or additional
services” should be
“enhanced or additional
benefits” to be consistent
with the definitions.
The reviewers agree and
revised the word “services” to “benefits” in this
phrase.

262a
Comment

One commentator noted
that if a definition for
“covered services” is
added to the definitions
there may be no need to
include the words “unless
provided for by a waiver”
at the end of the section.

Response

The reviewers modified
section 3.2.5 and believe
the guidance on determining covered
services is now clear.
One commentator asked
for further clarification of
state plan, non-state plan
and in-lieu-of benefits.

Comment

Response

Comment

Response

The reviewers modified
section 3.2.5 and believe
the guidance regarding
covered services is now
clear.
One commentator asked
that the ASOP include a
definition regarding “critical access hospitals.”
The reviewers disagree
that this definition needs
to be included in the

263a
ASOP and made no
change.
Section 3.2.7, Other Base Data Adjustments
Comment
One commentator
recommended adding two
additional paragraphs
related to “area factor
adjustments” and
“affiliated provider
organizations.”
Response

Comment

The reviewers disagree
that these items should
be included in this
section. The reviewers
believe sections 3.2.2,
Structure of the Medicaid
Managed Care Capitation
Rates; section 3.2.4, Base
Data; and section 3.2.9,
Claim Cost Trends,
adequately address this
issue, and therefore made
no change.
One commentator
thought that this section
should include a section
on a base data
adjustment for potential
increased access in the
managed care program
versus what was available

264a
in a fee-for-service
program.
Response

Comment

Response

Comment

The reviewers disagree
and believe section 3.2.9
adequately addresses this
issue. Therefore, no
change was made.
Two commentators
thought that this section
did not address adjustments needed for missing
or incomplete encounter
data.
The reviewers disagree.
The examples in the section 3.2.7(a) are not all-inclusive. Therefore, no
change was made.
One commentator
proposed expanding
section 3.2.7(a)(1) to read
“certain claims or a
portion of provider
payments are not
processed through the
same system as the base
data;” in order to include
consideration for bulk
retrospective provider
payments such as “pay
for performance”

265a
incentives that may not
be attributable to
particular claims.
Response

Comment

Response

Comment

The reviewers believe
this issue does not warrant a specific example
and made no change.
One commentator
thought that the sentence
“The actuary should
consider other base data
adjustments, which may
include the following:”
should be changed to
“The actuary should
consider other base data
adjustments, which
should include the
following to reflect all
applicable costs incurred
during the base data
period:”
The reviewers believe the
language as written is
clear and made no
change.
One commentator
recommended that
section 3.2.7(f) explicitly
mention changes in
medical practice,

266a
including newly approved
drugs and devices, as a
situation in which base
data and capitation rates
may need to be adjusted.
Response

Comment

The reviewers believe
this issue does not
warrant a specific
example and made no
change.
One commentator
recommended that the
ASOP be revised to
provide that actuaries
should disclose to MCOs
the methodology,
assumptions, and data
that serve as the basis for
adjustments to base year
data. The commentator
also recommended that
language be added to
section 3.2.7 stating that
actuaries should avoid
using Fee for Service
(FFS) data as the basis
for the base data
adjustments if the FFS
data is more than one
year removed from the
rating year.

267a
The reviewers believe
that section 4 of this
ASOP and other
applicable ASOPs
(including ASOP No. 41,
Actuarial
Communications)
provide appropriate
guidance regarding
disclosures. The
reviewers disagree with
adding specific
instructions around what
data may or may not be
used to develop base year
data adjustments. ASOP
No. 23 provides the
actuary with guidance for
data selection. Therefore,
no change was made.
Section 3.2.8, Claim Cost Trends
Comment
One commentator suggested that a list of items
for developing claim cost
trends should be added to
this section.
Response

Response

Comment

The reviewers believe the
level of detail in this section is sufficient and
made no change.
One commentator
thought that the actuary

268a
should be directed in this
section to disclose the
basis of trend estimates
such as the source,
applicability, claims
experience, time periods,
trend surveys, etc.
Response

Comment

The reviewers disagree
and believe that section 4
of this ASOP and other
applicable ASOPs
(including ASOP No. 41)
provide appropriate
guidance regarding
disclosures. Therefore, no
change was made.
One commentator
thought that the wording
“Trends should be
exclusive of other
adjustments” indicated
that a blending of the
utilization component of
trend with the
adjustment in section
3.2.9, Managed Care
Adjustments, was
prohibited; yet they felt
that if historic managed
care data was used to
develop the trends, it
would be an unnecessary

269a
exercise to separate
historical utilization trend
and managed care
savings components.
Response

Comment

Response

Comment

The reviewers revised the
sentence for clarity and
believe no further
guidance is necessary.
Two commentators
recommended that this
section be amended to
add a requirement that
actuaries should reflect
new technological and
pharmaceutical
advancements in the
trend assumptions.
The reviewers believe the
level of detail in this
section is sufficient and
made no change.
One commentator
requested a specific
section on network repricing and stated this
section should specify
that the fee schedule
used to re-price claims be
attainable to the MCOs.

270a
Response

The reviewers believe
that this issue is covered
by the definition of
“actuarial soundness.”
Therefore, no change was
made.
Section 3.2.9, Managed Care Adjustments
Comment
One commentator
thought that the ASOP
should clarify that
managed care savings
should be documented by
category of service and
should clarify that the
level of managed care
adjustments should not
be linking to non‐medical
loads in the rate
development.
Response

Comment

The reviewers disagree
that this wording should
be added and made no
change.
One commentator
suggested that the ASOP
clarify that managed care
impacts must be
considered in aggregate
and not in isolation (for
example, reduction in ER
utilization may be
accompanied by higher

271a
primary care utilization,
possibly with higher per
unit costs in both
settings, as delivery of
care is managed towards
the appropriate setting.).
Response

Comment

Response

The reviewers disagree
that this wording should
be added and made no
change.
Several commentators
felt that the words . . .
adjustments should be
attainable in the rating
period . . . were not
sufficient guidance to
recognize the various
items that can impact the
timing of attaining
managed care savings
and suggested additional
wording be added to the
ASOP that clarifies the
limitations that can cause
managed care
adjustments to be
obtained during the
rating period.
The reviewers believe
this issue is covered by
the definition of actuarial

272a

Comment

Response

Comment

Response

Comment

soundness. “Therefore,
no change was made.
One commentator
thought that the wording
“state contractual and
operational
requirements, and
relevant laws and
regulations” allowed
actuaries to add managed
care adjustments due to
state budget limitations.
The reviewers added a
new section 3.2.17, State
Initiatives, to clarify the
guidance.
One commentator
thought that section
3.2.9(b) should be revised
to “current characteristics and desired changes
in those characteristics of
the. . . . ”
The reviewers believe the
language is clear and,
therefore, made no
change.
Several commentators
recommended that
wording should be added
to this section indicating

273a
that base data
adjustments need to be
done in a transparent and
data-driven manner.
Response

Comment

Response

Comment

The reviewers believe
that transparency and
use of underlying data
are appropriately covered
in this standard as well as
ASOP Nos. 23 and 41
and, therefore, made no
change.
One commentator
recommended adding
language that the actuary
should make sure that
managed care savings are
not double counted with
trend assumptions.
The reviewers note this is
addressed in new section
3.2.9, Claim Cost Trends.
Therefore, no change was
made.
One commentator
thought that this section
did not distinguish
between changes from
base year data that are
likely to be achievable
when a new Medicaid

274a
managed care program is
implemented and
managed care efficiencies
have not previously been
implemented and the
nature and scope of
changes that can be
expected when a program
is well-established and
the baseline data already
reflect the impact of
Medicaid health plan
performance.
Response

The reviewers note this is
addressed in section
3.2.9(c) and made no
change.
Section 3.2.11, Non-Medical Expenses
Comment
One commenter suggested that the ASOP
recommend a correlation
between underwriting
gain and the level of risk
or uncertainty.
Response

Comment

The reviewers agree and
have added clarifying
language to section
3.2.11(b).
One commentator
suggested that medical
management costs should

275a
be considered medical
expenses and not
administrative costs.
Response

Comment

Response

Comment

The reviewers note the
ASOP only lists medical
management as a
possible administrative
expense. Therefore, no
change was made.
One commentator
expressed concern that
the ASOP requires
developing distinct rates
for each MCO based on
administrative
expenditures and profit
or non-profit status.
The reviewers note that
new section 3.2.12, NonMedical Expenses, states
non-medical expenses
may vary by MCO and,
therefore, made no
change.
One commenter
expressed concern over
requiring the
consideration of cost of
capital and stated that it
should be left to the
actuary to consider.

276a
Response

Comment

Response

The reviewers believe the
updated ASOP includes
appropriate consideration
of cost of capital in
section 2.1, Actuarially
Sound/Actuarial
Soundness and new
section 3.2.12 (b),
Underwriting Gain.
One commentator
expressed concern about
establishing different
non-medical expenses by
rate cell.

The reviewers modified
the language to remove
“for each rate cell” to
avoid implying that the
non-medical expenses
were required to vary by
rate cell.
Section 3.2.11(a), Administration
Comment
One commenter
recommended clarifying
what is an appropriate
administrative load for
Medicaid managed care
and what are acceptable
data sources or
information to use.

277a
Response

The reviewers believe
that such clarification is
not appropriate in this
ASOP and therefore
made no change
Section 3.2.11(a)(1), Determination of Administrative Expenses
Comment
One commentator
suggested additional
requirements for the
actuary in determining
the administrative
payments to affiliated
organizations to make
sure they are reasonable
and appropriate.
Response

Comment

Response

The reviewers believe
section 3.2.11 and the
definition of “actuarial
soundness” appropriately
address this concern and
made no change.
One commenter
recommended deleting
section 3.2.11(a)(1) on
administrative expenses
and stated that it would
limit states’ ability to
place limits on
administrative costs.

278a

Comment

Response

Comment

The reviewers modified
the language from
“should” to “may” and
also made other changes
to this section to clarify
guidance.
One commentator
suggested that several of
the considerations for
administrative
expenditures under
3.2.11(a)(1) should not be
required and instead be
made permissible.
The reviewers modified
the language from
“should” to “may” and
also made other changes
to this section to clarify
guidance.
One commentator
suggested that the
complexity of providing
services for certain
populations (such as aged
or disabled enrollees)
should be required as a
consideration of
administrative
expenditures.

279a
Response

The reviewers note that
the list is not meant to be
all inclusive. The
reviewers believe the
ASOP provides
appropriate guidance and
made no change.
Section 3.2.11(a)(2), Types of Administrative
Expenses
Comment
One commentator suggested adding contract
provisions as a type of administrative expenditure.
Response

The reviewers believe the
ASOP provides appropriate guidance and made no
change.
Section 3.2.11(a)(2)(i), Types of Administrative
Expenses
Comment
One commentator
suggested deleting the
phrase regarding
“competitive
environment.”
Response

The reviewers agree and
made the change.
Section 3.2.11(a)(2)(iv), Types of Administrative
Expenses
Comment
One commentator suggested defining “general
corporate overhead.”

280a
Response

The reviewers disagree
and made no change.
Section 3.2.11(b), Underwriting Gain
Comment
Several commentators
recommended “cost of
capital” be defined and
explained how this
related to margins for
risk or underwriting gain.
Response

Comment

Response

Comment

The reviewers believe the
ASOP provides
appropriate guidance and
made no change.
One commentator
recommended that the
actuary must consider
investment income when
determining the
underwriting gain.
The reviewers believe the
use of the word “may” is
appropriate for the ASOP
and made no
change.
One commentator
recommended addressing
the importance of
allowing negative
underwriting gain

281a
margins in rate
development.
Response

Comment

Response
Comment

Response

The reviewers believe the
ASOP adequately
addresses negative
underwriting gain and,
therefore, made no
change.
Several commentators
suggested that the effects
of risk sharing
arrangements,
performance withholds,
and minimum medical
loss ratios should be
addressed in determining
the underwriting gain
assumption.
The reviewers added
language to clarify the
guidance.
One commentator recommended that the margin
for the underwriting gain
should be explicit in the
capitation rate.
The reviewers believe the
ASOP provides appropriate guidance and made no
change.

282a
Comment

One commentator asked
for guidance on how an
appropriate underwriting
gain provision was
determined and for
requirements about
disclosing negative
underwriting gain
provisions.

Response

The reviewers believe it
is beyond the scope of the
ASOP to specify how the
underwriting gain
provision should be
determined or deemed
appropriate. The
reviewers note that
section 4 of the ASOP
provides guidance for
actuarial communications
and disclosures, including
specific mention of
disclosure of negative
underwriting gains.
Therefore, no change was
made.
One commentator recommended that the ASOP
address new Medicaid
managed care populations in regard to the underwriting gain provision.

Comment

283a
Response

Comment

The reviewers disagree
that additional guidance
is needed and made no
change.
One commentator asked
whether payment delays
should also be considered
in the standard.

Response

The reviewers note that
“cash flow patterns” are
addressed in section
3.2.11(b). Therefore, no
change was made.
Section 3.2.11(c), Income Taxes
Comment
One commentator
recommended that
section 3.2.11(c) be
revised so that actuaries
may consider income
taxes, but would not be
required to do so.
Response

Comment

The reviewers believe
this is an appropriate
consideration in setting
Medicaid managed care
capitation rates and made
no change.
One commenter
recommended deleting
section 3.2.11(c) and

284a
making section 3.2.11(d)
permissive at the state's
discretion.
Response

The reviewers disagree
and made no change.
Section 3.2.11(d), Taxes, Assessments, and Fees
Comment
One commentator
expressed concern that
section 3.2.11(d) was too
specific relative to the
rest of the ASOP and that
the actuary would be
required to make several
explicit forecasts that the
actuary may not be able
to do.
Response

The reviewers believe
this section does not
place an unreasonable
requirement on the
actuary and made no
change.
Section 3.2.12, Risk Adjustment
Comment
Several commentators
recommended that the
risk adjustment section
refer to section 3.2.7 or
include discussion of data
quality and
appropriateness for risk
adjustment.

285a
Response

The reviewers believe
that additional guidance
is not necessary since
ASOP No. 23 applies and
is referenced in section
3.4, Documentation, and
ASOP No. 45, The Use of
Health Status Based
Risk Adjustment
Methodologies, is
referenced in section
3.2.12, Risk Adjustment.
Therefore, no change was
made.
Section 3.2.14, Performance Withholds/Incentives
Comment
Several commentators
suggested the actuary
should document any
differences between the
ASOP and CMS
requirements.
Response

Comment

The reviewers note that
section 4 of this ASOP
provides guidance in this
area.
Several commentators
felt the language regarding including withhold
amounts that are reasonably achievable was
overly prescriptive while

286a
others felt the language
did not provide enough
guidance.
Response
Comment

Response

The reviewers believe the
language is appropriate
and made no change.
One commentator
recommended that data
related to the
characteristics of the
covered population be
considered when
actuaries evaluate the
effect that performance
withholds and incentives
could have on plan costs.
The commentator also
stated there should be
clear expectations
communicated to the
MCO up front regarding
targets and improvement
goals before the rate
period begins.
The reviewers did not
believe adding this
consideration or required
communication was
necessary or appropriate.
Therefore, no change was
made.

287a
Section 3.2.15, Minimum Medical Loss Ratios
Comment
One commentator felt a
statement should be
added recognizing that
minimum medical loss
ratio provisions increase
the level of risk borne by
the MCO that the actuary
should consider when
determining the
underwriting gain
provision of the capitation
rates.
Response

The reviewers note this is
adequately addressed in
this section and made no
change.
Section 3.3, Qualified Opinion on Actuarial
Soundness
Comment
A commentator felt that
an entire actuarial
opinion should not be
qualified when a negative
underwriting gain is
utilized.
Response

The reviewers note a
qualified opinion is meant
to highlight special
circumstances with
respect to actuarial
soundness within the rate

288a
certification. Section
3.2.12(b), Underwriting
Gain, requires the
disclosure of a negative
underwriting gain
assumption. The
reviewers changed the
language from “for
example” to “further”.
However, no other
change was made.
Section 3.4, Documentation
Comment
One commentator
requested that the
actuary be required to
test capitation structures
for appropriateness using
emerging experience.
Response

Comment

Response
Comment

The reviewers believe the
ASOP provides
appropriate guidance and
made no change.
The reviewers note the
distribution of the actuary’s work product and
documentation is
governed by ASOP No.
41 and other related
ASOPs. Therefore, no
change was made.
One commentator asked
what CMS regulations

289a
actuaries should consider
in their documentation.
Response

The reviewers believe
that listing all specific
regulations the actuary
should consider is
outside the scope of this
ASOP and made no
change.

